AGENCY FINANCIAL REPORT — Fiscal Year 2013




                                             www.dol.gov
                                                                   Table of Contents
Message from the Secretary of Labor .................................................................................................... 5
Management’s Discussion and Analysis ................................................................................................. 7
     Program Performance Overview ............................................................................................................................ 11
     Financial Performance Overview ............................................................................................................................ 22
     Management Assurances ....................................................................................................................................... 29
Financial Section ..................................................................................................................................32
     Message from the Chief Financial Officer .............................................................................................................. 33
     Independent Auditors’ Report................................................................................................................................ 34
     Annual Financial Statements .................................................................................................................................. 47
         Principal Financial Statements and Notes........................................................................................................ 49
         Required Supplementary Stewardship Information ...................................................................................... 105
         Required Supplementary Information ........................................................................................................... 111
Other Information ............................................................................................................................. 141
     Inspector General’s Top Management Challenges............................................................................................... 143
     Summary of Financial Statement Audit and Management Assurances ............................................................... 154
     Improper Payments Reporting Details ................................................................................................................. 155
     Schedule of Spending ........................................................................................................................................... 183
     Open Government Links ....................................................................................................................................... 184
     Acronyms .............................................................................................................................................................. 185

This report can be found on the Internet at www.dol.gov/dol/aboutdol/.

If you have questions or comments regarding this report, contact:

Office of the Chief Financial Officer
U.S. Department of Labor
200 Constitution Avenue, NW, Room S-4030
Washington, DC 20210
202-693-6800




The photographs in this publication were furnished by numerous individuals. All photographs are proprietary and prior permission from the
photographer is required for any use or reproduction of the photographs. All references to non-governmental companies or organizations,
their services, products or resources in this report are offered for informational purposes and should not be construed as an endorsement by
the Department of Labor of any of the companies or organizations, or their services, products or resources. The Department of Labor does
not endorse, takes no responsibility for, and exercises no control over non-governmental organizations’ Web sites mentioned in this report,
or their views or contents; nor does it vouch for the accuracy of the information contained on other organizations’ Web sites.




                                                                                                                             FY 2013 Agency Financial Report                  3
                           Message from the Secretary of Labor
                                                                                                December 16, 2013
I began my tenure as Secretary of Labor in the midst of the Department’s
celebration of its 100 th Anniversary. For 100 years our department has been
central to fulfilling one of America’s most important and enduring premises:
providing opportunity for everyone willing to work for it. That means the
opportunity for workers to acquire the skills they need to succeed in the
global economy; the opportunity to earn a fair day’s pay for a fair day’s work
in a safe workplace; the opportunity for veterans to thrive in the civilian
economy; the opportunity for people with disabilities to become productive
members of the workforce; and the opportunity to retire with dignity and
peace of mind.

But our goal of expanding opportunity can not be achieved without keeping a
laser focus on ensuring that we use our resources in the most efficient and
strategic way possible.

That is why I am pleased to present the U.S. Department of Labor’s Fiscal Year 2013 Agency Financial Report.
This is our annual publication to Congress and the American public about our operational record and
financial stewardship of public funds. The information in this report explains how we manage our resources,
highlights our major accomplishments and outlines our plans to address the challenges ahead. It is with
tremendous pride that I report that we have once again received a “clean” (unmodified) independent opinion
on our financial statements.

I am also pleased to provide an unqualified statement of assurance regarding the Department’s internal controls, as
required by the Federal Managers Financial Integrity Act (FMFIA) of 1982 and Office of Management and Budget
Circular No. A‐123, Management’s Responsibility for Internal Control. The results of management’s assessment
of internal controls and compliance of financial management systems, pursuant to FMFIA and the Federal
Financial Management Improvement Act of 1996, is included in the Management’s Discussion and Analysis
section of this report. I am confident that the financial data and summary performance results included in this AFR
are complete and reliable in accordance with federal requirements.

In addition to tools like this financial report, we analyze our programs to determine whether we are achieving the
best results for the American public. Each DOL agency has an evaluation agenda intended to determine if our
current activities and strategies are the most likely to lead to improving performance and outcomes or if evidence
suggests that we should alter our activities and strategies. Our extensive work in supporting performance and
outcomes is summarized in the “Program Performance Overview” part of Management Discussion and Analysis.

As the first Secretary of the Department’s second century, I look forward to carrying on the Department’s efforts to
extend the ladder of opportunity to even more working families across our nation.


/S/
THOMAS E. PEREZ
U.S. Secretary of Labor




                                                                                   FY 2013 Agency Financial Report   5
  Management’s Discussion and Analysis
MANAGEMENT’S DISCUSSION & ANALYSIS




                                         www.dol.gov
                                                                                                           (Unaudited)

The Department of Labor's (DOL or the Department) annual Agency Financial Report (AFR) provides fiscal data and
summary performance results that enable the President, Congress, and American people to assess the
Department’s accomplishments for each fiscal year (October 1 through September 30). This report provides an
overview of programs, accomplishments, challenges, and management’s accountability for the resources entrusted
to the Department. The report is prepared in accordance with the requirements of Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements.

DOL History
March 4, 1913, marked a milestone event in the history of the American workforce. On that day, President William
Howard Taft — on his last day in office — signed legislation creating the U.S. Department of Labor and giving
workers a direct seat in the President's Cabinet for the first time. In the words of the Organic Act, the Department's
mission is "To foster, promote and develop the welfare of working people, to improve their working conditions, and
to enhance their opportunities for profitable employment." William B. Wilson was appointed as the first secretary
of the new department. Wilson, born in Scotland in 1862, was a champion of jobs for women and minorities, and
played an important role in our World War I victory by mobilizing an effective workforce for defense production.

In 1933, President Franklin D. Roosevelt appointed Frances Perkins as the first woman ever to head a U.S. Cabinet
agency. Perkins had served as Commissioner of Labor while FDR was governor of New York and developed plans to
alleviate unemployment as the Depression deepened. She served until shortly after FDR’s death in 1945. DOL’s
national office in Washington, D.C. – the Frances Perkins Building – is now named after her.

Secretary Perkins played a major role in the design of many New Deal programs, but her main contribution was the
enactment of Social Security in 1935. Perkins led a campaign to convince the nation that a pension system would
not only be humanitarian, but would help prevent future depressions. The New Deal also led to many of the
mainstays of the American workplace, such as Unemployment Insurance, the eight-hour work day, minimum
workplace safety and health standards, and the first federal minimum wage, then 25 cents per hour.

In the 1960s, DOL’s responsibilities were expanded to address President Lyndon B. Johnson’s "Great Society" and
the "War on Poverty.” One of the most important programs was the Job Corps, which the Labor Department began
administering in 1969, providing training for at-risk youth.

In 1970, the movement for a job safety and health law finally succeeded, and the next year the Department
established the Occupational Safety and Health Administration (OSHA) to enforce rules to protect against hazards in
most of the nation's workplaces. OSHA was joined by a sister agency seven years later – the Mine Safety and Health
Administration (MSHA). The Employee Retirement Income Security Act (ERISA) of 1974 gave DOL a major role in
protecting and improving the nation's private retirement systems. Steps to promote employment and provide
workplace protections for groups such as persons with disabilities, veterans, and migrant workers followed, with
the establishment of the Office of Disability Employment Policy (ODEP), the Veterans’ Employment and Training
Service (VETS), and passage of laws like the Migrant and Seasonal Agricultural Worker Protection Act. President
Clinton signed the Family and Medical Leave Act in 1993, protecting the job security of new parents, caretakers of
injured or ill relatives, workers with personal health problems, and others.

Today, after the economic shock of the 2008 financial crisis and resulting unemployment, the Department of Labor
continues to seek out new ways to meet the challenges of a new era and to inspire the next century of progress for
the American workforce. As we recognize 100 years of achievement, we also seek opportunities for reinvention and
renewal.




                                                                                    FY 2013 Agency Financial Report   9
Management’s Discussion and Analysis
(Unaudited)


Mission Statement and Organizational Structure
DOL’s mission remains as relevant today as at the Department’s founding in 1913:

        “To foster, promote and develop the welfare of the job seekers, wage earners and retirees
        of the United States; improve working conditions; advance opportunities for profitable
        employment; and assure work related benefits and rights.”

The Department accomplishes this mission through component agencies and offices that administer various
statutes and programs. These programs are carried out through a network of regional offices and smaller field,
district, and area offices, as well as through grantees and contractors.




10 United States Department of Labor
                                                                                                           (Unaudited)


                                   Program Performance Overview
The Program Performance Overview presents the Department’s performance goals, objectives and results and
discusses key performance measures and program priorities. This section includes performance on measures
related to spending as reported in the following Financial Section. Outcome data reported under the Government
Performance and Results Act are included in the Annual Performance Report, which will be published in February
2014 with the fiscal year (FY) 2015 Congressional Budget Justification. A third report, the Summary of Performance
and Financial Information for Fiscal Year 2013, will be available on February 15, 2014.

The Department’s current five-year Strategic Plan - http://www.dol.gov/_sec/stratplan/ includes five strategic goals
and 14 outcome goals that support the Secretary’s vision to promote and protect opportunity for all workers and
their employers. These goals are presented in the following table:

STRATEGIC GOAL 1: Prepare workers for good jobs and ensure fair compensation.
1.1. Increase workers’ incomes and narrow wage and income inequality.
1.2. Assure skills and knowledge that prepare workers to succeed in a knowledge-based economy, including high
      growth and emerging industry sectors like “green” jobs.
1.3. Help workers who are in low-wage jobs or out of the labor market find a path into middle-class jobs.
1.4. Help middle-class families remain in the middle class.
1.5. Secure wages and overtime.
1.6. Foster acceptable work conditions and respect for workers’ rights in the global economy to provide workers
      with a fair share of productivity and protect vulnerable people.
STRATEGIC GOAL 2: Ensure workplaces are safe and healthy.
2.1. Secure safe and healthy workplaces, particularly in high-risk industries.
STRATEGIC GOAL 3: Assure fair and high quality work‐life environments.
3.1. Break down barriers to fair and diverse work-places so that every worker’s contribution is respected.
3.2. Provide workplace flexibility for family and personal care-giving.
3.3. Ensure worker voice in the workplace.

STRATEGIC GOAL 4: Secure health benefits and, for those not working, provide income security.
4.1. Facilitate return to work for workers experiencing work-place injuries or illnesses who are able to work.
4.2. Ensure income support when work is impossible or unavailable.
4.3. Improve health benefits and retirement security for all workers.
STRATEGIC GOAL 5: Produce timely and accurate data on the economic conditions of workers and their families.


5.1. Provide sound and impartial information on labor market activity, working conditions and price changes in the
     economy for decision making, including support for the formulation of economic and social policy affecting
     virtually all Americans.

The goal structure incorporates the Department’s commitment to measuring activities that positively impact the
day-to-day lives of working families. The results on the corresponding measures allow the Department to track
progress in implementation of the strategic goals and objectives.

The table below organizes DOL program agencies into five categories that report FY 2013 performance data. The
Department’s mission is also supported by administrative, policy, legal, public affairs, and Congressional liaison
offices.



                                                                                   FY 2013 Agency Financial Report   11
Management’s Discussion and Analysis
(Unaudited)

                                             Employment and Training
                                  Employment and Training Administration (ETA)
                                 Veterans’ Employment and Training Service (VETS)
                                                 Worker Protection
                              Office of Federal Contract Compliance Programs (OFCCP)
                               Occupational Safety and Health Administration (OSHA)
                                           Wage and Hour Division (WHD)
                                  Employee Benefits Security Administration (EBSA)
                                   Mine Safety and Health Administration (MSHA)
                                   Office of Labor‐Management Standards (OLMS)
                                                       Policy
                                                Women’s Bureau (WB)
                                    Office of Disability Employment Policy (ODEP)
                                     Bureau of International Labor Affairs (ILAB)
                                                      Benefits
                                Office of Workers’ Compensation Programs (OWCP)
                    Federal‐State Unemployment Insurance (UI) Program (administered by ETA)
                                                      Statistics
                                           Bureau of Labor Statistics (BLS)

The following section presents a brief description of the programs administered by each agency, the most recent
results for key performance measures, and a brief statement of forward-looking information. The Department
tracks performance through over 400 output and outcome measures. The selected measures below are most
representative of agency activities based on resource allocation and strategic importance.

In achieving these performance results, the Department faced a challenging budgetary environment in FY 2013,
including the impact of sequestration. In FY 2013, the Department had to absorb across the board cuts totaling
$3.2 billion, all within the last half of the fiscal year. The Department's discretionary budget was reduced by $646
million. These cuts affected every agency and activity within DOL.

The Department and its agencies underwent a thorough sequestration planning process to assure the continuation
of high performance in 2013 for priority activities, while reducing performance for lower priority activities.

EMPLOYMENT & TRAINING
Employment and Training Administration (ETA)
ETA provides employment assistance, labor market information and job training through the administration of
programs authorized by the Workforce Investment Act of 1998 (WIA) for adults, youth, dislocated workers and
other targeted populations. ETA administers Job Corps; Trade Adjustment Assistance for Workers (TAA);
Employment Services (ES) authorized under the Wagner‐Peyser Act; Foreign Labor Certification activities; the
Community Service Employment for Older Americans program (CSEOA); and Apprenticeship programs. These
programs support the Department’s Strategic Goal 1, to prepare workers for good jobs and ensure fair
compensation and the associated Outcome Goals.

Percent of Initial Risk Assessments Conducted for New Grants Managed by Regional Offices within 45 Days of Award
– Federal staff conduct risk assessments of grantee work plans and award documents at the onset of a grant to
ensure procedures and performance expectations are clearly outlined and to assess grantees’ ability to carry out all




12   United States Department of Labor
                                                                                                      Program Performance Overview
                                                                                                                       (Unaudited)

tasks. In FY 2012, ETA conducted 98.75% of these assessments within 45 days; in FY 2013, the result was 98.34% –
slightly below the FY 2012 result.

Average petition processing time in days for TAA – The TAA program provides benefits and services to workers who
become unemployed due to the impact of international trade. This measure represents the average number of days
it takes staff to process TAA petitions from initial filing to final determination during the applicable year. ETA
continued to improve timeliness by further reducing the average processing time from 52 days in FY 2012 to 50
days in FY 2013.

                          Measure                          FY2008      FY2009      FY2010     FY2011       FY2012      FY2013
    Percent of Initial Risk Assessments
    Conducted for New Grants Managed by                         ‐‐          ‐‐       ‐‐          ‐‐        98.75%      98.34%
    Regional Offices within 45 Days of Award
    Average Petition Processing Time (in days)                  35          48    140 [r]1     78 [r]       61 [r]        50

By September 30, 2015, in accordance with DOL’s industry‐recognized credentials priority goal, ETA aims to
increase the percentage of training program completers who attain industry‐recognized credentials by 10 percent.

Veterans’ Employment and Training Service (VETS)
The Veterans’ Employment and Training Service provides training and transition programs that increase the ability
of veterans to transition successfully to a civilian workforce. The agency works collaboratively with the Employment
and Training Administration to ensure veterans receive enhanced services at one of the nearly 3,000 American Job
Centers around the country, and undertakes a series of programs specifically designed to meet the needs of
veterans transitioning to the civilian workforce. In addition, VETS protects the employment and reemployment
rights of veterans and other service members under the provisions of the Uniformed Services Employment and
Reemployment Rights Act (USERRA) program so that they can serve in the uniformed services without harm to their
civilian employment; and by ensuring that veterans who seek Federal employment obtain the preferential hiring
consideration to which they are entitled.

VETS tracks two timeliness measures related to its USERRA program. To provide prompt resolution for both
claimants and employers, VETS strives to complete USERRA investigations within 90 days. Upon conclusion of VETS’
investigation, a USERRA claimant has the right to ask VETS to refer his or her case to the Department of Justice (if
the case involves a non‐Federal employer) or to the Office of Special Council (if the case involves a Federal
employer), for consideration of legal representation. The Veterans’ Benefits Improvement Act of 2008 requires
VETS to complete those referrals within 60 days, unless the claimant agrees to an extension of time. The agency
was below target for the Percent of USERRA Referrals Completed within 60 Days in FY 2013. Preparing a USERRA
referral is resource-intensive and the VETS staff responsible for this task also conduct USERRA investigations and
quality reviews. In FY 2014 and beyond, VETS will ensure that USERRA cases are consistently investigated by the
agency’s most experienced and effective investigators.

                        Measure                          FY2008      FY2009      FY2010      FY2011       FY2012      FY2013
    Percent of USERRA Investigations
                                                          78%         86%         84%         87%          89%         89.6%
    Completed within 90 Days
    Percent of USERRA Referrals Completed
                                                           ‐‐         56%         62%         57%          83%         72.8%
    within 60 Days



1
    [r] indicates revised result from the FY 2012 AFR.


                                                                                               FY 2013 Agency Financial Report   13
Management’s Discussion and Analysis
(Unaudited)

By September 30, 2015, in accordance with DOL’s priority to provide intensive services to veterans, VETS aims to
increase the percent of participants who receive intensive services from Disabled Veterans Opportunity Program
specialists to 75 percent.

WORKER PROTECTION
Office of Federal Contract Compliance Programs (OFCCP)
The Office of Federal Contract Compliance Programs ensures that nearly 200,000 contractor facilities and locations
provide equal employment opportunities leading to a fair and diverse workplace. OFCCP administers and enforces
three legal authorities that require equal employment opportunity: Executive Order 11246, as amended; Section
503 of the Rehabilitation Act of 1973, as amended; and the Vietnam Era Veterans’ Readjustment Assistance Act
(VEVRAA) of 1974, as amended. Together, these laws ban discrimination and require Federal contractors and
subcontractors to take affirmative action to ensure that all individuals have an equal opportunity for employment,
without regard to race, color, religion, sex, national origin, disability, or status as a protected veteran. OFCCP
supports the Department’s Strategic Goal 3, assure fair and high quality work‐life environments and the associated
Outcome Goal 3.1, break down barriers to fair and diverse work places so that every worker's contribution is
respected.

OFCCP’s compliance evaluations and investigations play a critical role in measuring Federal contractor compliance
with legal obligations under these authorities. FY 2012 was a year of measure development for OFCCP, in which the
agency collected data on contextual measures to diagnose and learn from quarterly results, and benchmarked
measures for future targets. In FY 2013, OFCCP leveraged what it learned in FY 2012 to increase the number of
compliance evaluations and increase the quality of its evaluations. OFCCP provides technical assistance and
training to contractors to support compliance, delivering more training in FY 2013 than it had at any time during the
previous three years.

                 Measure                    FY2008       FY2009      FY2010      FY2011     FY2012       FY2013
 Compliance Evaluations                      4,333        3,917       4,960       4,014      4,017        4,345

OFCCP is working with the Department’s Chief Evaluation Office to develop outcome-focused measures of the
impact of the agency’s enforcement activities on contractor compliance over time. In FY 2014, OFCCP will develop
effective and strategic relationships with stakeholders to drive positive workplace change for workers. These
stakeholders include community-based organizations, advocacy groups, employee resource groups, job placement
providers, unions, and State and local government and intergovernmental agencies.

Occupational Safety and Health Administration (OSHA)
OSHA is authorized by the Occupational Safety and Health Act of 1970 to assure safe and healthful conditions for
working men and women by setting and enforcing standards and providing training, outreach, education and
technical assistance. OSHA aims to reduce the number of worker illnesses, injuries, and fatalities and contributes to
the broader goal to promote competitiveness of our nation's workers. OSHA supports the Department’s Strategic
Goals 2 and 3, specifically as relates to Outcome Goals 2.1, secure safe and healthy workplaces, particularly in
high‐risk industries and 3.3; ensure worker voice in the workplace. The most recent data for key measures of OSHA’s
activity – the number of safety and health inspections – are presented in the table below.

Safety inspections in general industry encompass a variety of high‐hazard industries, such as the chemical and
refinery industries, oil and gas well drilling, manufacturing, maintenance, arborist and logging work, power
distribution and generation, coal manufacturing, telecommunications, green industries such as the windmill
industry, forging, steel manufacturing, food manufacturing, and grain handling. Workers in these industries are
exposed to a multitude of serious safety hazards.

Health inspections are conducted by industrial hygienists and address hazards such as chemical hazards, biological
hazards (e.g., bloodborne pathogens and tuberculosis), physical hazards (e.g., noise, radiation, and heat and cold

14   United States Department of Labor
                                                                                         Program Performance Overview
                                                                                                          (Unaudited)

stress), and ergonomic hazards (e.g., patient handling, repetitive motion, excessive force, and awkward postures).
Safety and health inspections increased from FY 2008 through FY 2012, but dropped in FY 2013 due to reduced
funding.

                      Measure                         FY2008     FY2009    FY2010     FY2011     FY2012     FY2013
 Total Number of Safety Inspections Conducted         33,074     33,221    34,320 33,331 [r] 33,580 [r] 31,948
 Total Number of Health Inspections Conducted         5,517      5,783     6,649 7,317 [r] 7,381 [r] 7,280

Wage and Hour Division (WHD)
The WHD is responsible for administering and enforcing laws that establish the minimum standards for wages and
working conditions. Collectively, these labor standards cover most private, State, and local government
employment. They protect over 135 million workers in more than 7.3 million establishments throughout the U.S.
and its territories.

WHD investigators, supervisors, analysts, technicians and administrative employees enforce and administer the
minimum wage, overtime and child labor provisions of the Fair Labor Standards Act (FLSA); the prevailing wage
requirements and wage determination provisions of the Davis Bacon and Related Acts (DBRA) and Service Contract
Act (SCA); the wages and working conditions under the Migrant and Seasonal Agricultural Worker Protection Act
(MSPA); and the Employee Polygraph Protection Act (EPPA). WHD also enforces the field sanitation and temporary
labor camp standards in agriculture and certain employment standards and worker protections of the Immigration
and Nationality Act (INA). WHD’s enforcement responsibilities directly contribute to the Department’s Strategic
Goals 1, 2 and 3 and related Outcome Goals 1.1, increase workers’ incomes and narrow wage and income
inequality; 1.5, secure wages and overtime; 2.1, secure safe and healthy workplaces, particularly in high‐risk
industries; 3.2, provide workplace flexibility for family and personal care giving; and 3.3, ensure worker voice in the
workplace.

To be effective in securing compliance, WHD continues to increase the number and percentage of directed
investigations focused on new business models characterized by the use of subcontracting, franchising, temporary
employment, labor suppliers, independent contracting, and a contingent workforce. These business models, where
companies outsource key aspects of their production, often lead to less compliance with wage and hour related
statutes. The first measure below is directed investigations as a percentage of all compliance actions conducted. In
FY 2013, WHD continued moving resources to directed investigations and prioritizing complaints that point to
systemic violations.

The second measure reflects WHD’s commitment to maintaining an increased presence in those industries where
the misclassification of employees as independent contractors is prevalent, such as the janitorial and residential
construction industries.

The investigations WHD planned for FY 2013 included the janitorial and residential construction industries. In FY
2014, WHD will continue to prioritize its presence in those industries where the misclassification of employees as
independent contractors is prevalent.




                                                                                    FY 2013 Agency Financial Report   15
Management’s Discussion and Analysis
(Unaudited)

                        Measure                             FY2008      FY2009       FY2010       FY2011       FY2012        FY2013

 Percent of Directed Investigations*                          36%         35%         27%          29%         40.63%        44.19%
 Percent of Directed Investigations in Industries
 with a High Prevalence of Employees
 Misclassified as Independent Contractors                     13%         10%         17%          21%         19.98%        19.08%


*WHD has revised this measure to exclude conciliations, which are largely a customer service function performed by WHD technicians, not
WHD investigators. Prior year data reflects this change.

Employee Benefits Security Administration (EBSA)
EBSA protects more than 141 million Americans covered by an estimated 684,000 private retirement plans, 2.4
million health plans, and other welfare benefit plans which together hold more than $7.6 trillion in assets. EBSA
protects the most vulnerable populations while ensuring broad compliance with the Employee Retirement Income
Security Act of 1974 (ERISA) and related laws. EBSA enforcement programs target the most egregious and
persistent violators; protect the most vulnerable populations while assuring broad-based compliance; and regular
evaluation of enforcement activities. EBSA provides proactive enforcement, outreach and education programs that
protect the most vulnerable populations while ensuring broad compliance with ERISA and related laws. EBSA
supports the Department’s Strategic Goal 4, to secure health benefits and, for those not working, provide income
security and the specific Outcome Goal 4.3, improve health benefits and retirement security for all workers.

Historical data for two key performance measures, “Number of Criminal Investigations Processed” and “Number of
Civil Investigations Processed” are shown in the table below. EBSA’s investigation program is designed to deter and
correct violations of ERISA. In FY 2013, EBSA focused on national enforcement projects, and began implementing
Major Case Enforcement Initiative. EBSA’s Major Case Enforcement Initiative concentrates enforcement resources
on areas that have the greatest impact on the protection of plan assets and participants' benefits (e.g., professional
fiduciaries and service providers with responsibility for large amounts of plan assets and benefits).

                     Measure                            FY2008        FY2009        FY2010        FY2011       FY2012        FY2013
 Number of Criminal Investigations
                                                          212           287           281           302           318          320
 Processed
 Number of Civil Investigations Processed                3,570         3,669         3,112         3,472        3,566         3,677

In FY 2014, EBSA will focus on expanding the health investigations as a new health insurance marketplace will
become more accessible. EBSA will identify health enforcement issues, and develop the legal framework to address
violations relating to group health plans.

Mine Safety and Health Administration (MSHA)
MSHA protects the safety and health of the nation’s miners under the provisions of the Federal Mine Safety and
Health Act of 1977, as amended by the Mine Improvement and New Emergency Response (MINER) Act of 2006.
MSHA focuses on the prevention of death, disease, and injury from mining and on promoting safe and healthful
workplaces for the Nation’s miners. MSHA supports the Department’s Strategic Goal 2, ensure workplaces are safe
and healthy and Strategic Goal 3, assure fair and high quality work‐life environments, and related Outcome Goals
2.1, secure safe and healthy workplaces, particularly in high‐risk industries and 3.3, ensure worker voice in the
workplace.

MSHA is required to conduct four complete inspections annually at active underground mines and two complete
inspections annually at active surface mines. The table below shows the number of inspections for Coal vs. Metal



16   United States Department of Labor
                                                                                               Program Performance Overview
                                                                                                                (Unaudited)

and Nonmetal mine types. Fluctuations in the number of inspections over time reflect variation in the number of
mines operating during any given time period.

                    Measure                        FY2008         FY2009        FY2010     FY2011      FY2012      FY2013
 Coal mine inspections                             5,385          5,526         5,121       5,139      5,117       4,658
 Metal and Nonmetal mine inspections               18,235         17,168        16,127      16,269     16,620      16,624

By September 30, 2015, MSHA aims to reduce worker fatality rates in mining by five percent per year based on a
rolling five‐year average.

Office of Labor‐Management Standards (OLMS)
OLMS protects the rights of American workers by administering the Labor-Management Reporting and Disclosure
Act (LMRDA) and related laws, which safeguard union democracy and union financial integrity. OLMS supports the
Department’s Strategic Goal 3, assure fair and high quality work‐life environments; and Outcome Goal 3.3, ensure
worker voice in the workplace.

OLMS focuses audit resources by using advanced targeting techniques to identify the unions most likely to be
subject to a violation of the law. The success of audit targeting strategies is measured by “Percent of Audits
Resulting in a Criminal Case (Fallout Rate).”

Timely resolution of union election complaints is a paramount goal of the LMRDA, and OLMS gauges its progress
against this goal through the “Days to Resolve Union Officer Election Complaints” measure. Since 2008, OLMS has
dramatically reduced the average number of elapsed days per case.

OLMS is also making it easier for unions, employers, and consultants to file the financial and activity reports
required under the LMRDA, and it tracks its success in these efforts through the “Percent of LMRDA Required Forms
Filed Electronically” measure. In the future, OLMS will increase transparency using existing outreach tools (e.g.,
seminars, compliance assistance incidental to an audit) to introduce and encourage union leaders and other filers
to use web-based forms.

                                                             FY         FY           FY          FY        FY         FY
                        Measure                             2008       2009         2010        2011      2012       2013

 Percent of Audits Resulting in a Criminal Case (Fallout
                                                             --            --        --        14.9%      13.8%     20.9%
 Rate)
 Number of Days to Resolve Union Officer Election
                                                            92             70        81          79         71        71
 Complaints
 Percent of LMRDA Reports Filed Electronically               --            --        --        21.4%      37.8%     42.4%

POLICY
Women’s Bureau (WB or Bureau)
The mission of the Women’s Bureau is to develop policies and standards and conduct inquiries to safeguard the
interests of working women, advocate for their equality and economic security for themselves and their families,
and promote quality work environments. The Bureau is the only Federal office dedicated to serving and promoting
the interests of women in the workforce. The Bureau supports the Department’s Strategic Goal 1, to prepare
workers for good jobs and ensure fair compensation and Strategic Goal 3, assure fair and high quality work‐life
environments and their associated Outcome Goals.

The Bureau conducts research to identify and formulate practices and policies that support working women and
inform strategic interventions and recommends these practices and policies within DOL and the Federal


                                                                                          FY 2013 Agency Financial Report   17
Management’s Discussion and Analysis
(Unaudited)

government, national organizations and local communities. It identifies trends, data gaps, policy and programmatic
needs, and promising practices.

Office of Disability Employment Policy (ODEP)
ODEP promotes the employment of people with disabilities by developing, validating, and disseminating policies
and effective practices. ODEP provides technical assistance to stakeholders to promote the adoption and
implementation of these policies and practices. Through these activities, ODEP contributes to break down barriers
to fair and diverse workplaces and narrow income inequality. ODEP supports the Department’s Strategic Goal 1,
prepare workers for good jobs and ensure fair compensation and Strategic Goal 3, assure fair and high quality
work‐life environments and associated Outcome Goals, specifically Outcome Goal 3.1, break down barriers to fair
and diverse work places so that every workers’ contribution is respected.

ODEP develops, evaluates and disseminates policy strategies and effective practices to reduce the employment
disparity that exists between people with and without disabilities. ODEP’s key measures are the numbers of “Policy
Outputs,” “Effective Practices” and “Formal Agreements.” Policy outputs are recommendations for significant policy
change or an interpretation of existing policy related to disability employment – which could be legislation,
regulations, policy guidance and executive orders or memoranda. Effective practices are ODEP-developed
strategies, models or theories that lead directly to an identified outcome and have a documented record of success
or validated effectiveness. Formal agreements are collaborations that are formalized through memoranda of
understanding, inter/intra‐agency agreements, public private partnership agreements or alliance agreements.

                  Measure                     FY2008      FY2009     FY2010     FY2011      FY2012       FY2013

 Policy Outputs                                 44          39          35         42         39           54
 Effective Practices                            27          15          23         44         131          192
 Formal Agreements                              36          17          30         29         30           103

In FY 2014, ODEP will focus on four priority areas: countering employer’s low expectations and negative
perceptions of people with disabilities; increasing exposure to role models and access to training, employment and
transition services; expanding access to employment supports and accommodations; and ensuring the availability
and use of disability data and statistics regarding the characteristic of people with disabilities.

Bureau of International Labor Affairs (ILAB)
In a global economy, opportunities for American workers are shaped by the working conditions and opportunities
of workers worldwide. Addressing worker rights and livelihoods overseas has the dual effect of protecting American
and foreign workers. Realizing the Secretary’s vision of promoting and protecting opportunity requires improving
working conditions, raising living standards, protecting workers’ ability to exercise their rights, and addressing the
workplace exploitation of children and other vulnerable populations.

ILAB has three major strategies for achieving its goal: (1) promoting labor standards through an integrated
approach; (2) combatting child labor, forced labor and human trafficking through integrated approaches and
evidence; and (3) improving workers’ rights through targeted labor policy engagement. ILAB supports the
Department’s Strategic Goals 1 and 3, specifically as they relate to Outcome Goals 1.6, foster acceptable work
conditions and respect for workers’ rights in the global economy to provide workers with a fair share of productivity
and protect vulnerable people and 3.3, ensure worker voice in the workplace.

ILAB has adopted an integrated approach that combines efforts to amend laws and strengthen enforcement with
activities to assist worker organizations, improve industrial relations, effectively engage companies, and raise
awareness about worker rights. In FY 2014, ILAB will support current Free Trade Agreements through monitoring
and reporting of conditions and engaging in technical assistance projects.




18   United States Department of Labor
                                                                                       Program Performance Overview
                                                                                                        (Unaudited)

BENEFITS
Office of Workers’ Compensation Programs (OWCP)
OWCP is comprised of four separate programs that provide workers’ compensation benefits supporting the
Department’s Strategic Goal 4, secure health benefits and, for those not working, provide income security, and
Outcome Goals 4.1, facilitate return to work for workers experiencing workplace injuries or illnesses who are able to
work and 4.2, ensure income support when work is impossible or unavailable:

       The Federal Employees' Compensation Act (FECA) Program provides wage-loss compensation, payment for
        medical treatment, return to work assistance, and vocational rehabilitation to civilian employees of the
        Federal Government injured at work and to certain other designated groups. In the event of death, FECA
        provides ongoing monetary compensation to dependents.
       The Longshore and Harbor Workers' Compensation Act (Longshore) Program oversees the provision of
        similar benefits to injured private sector workers engaged in certain maritime and related employment, and
        by extension to contractors working overseas for the U.S. government under the Defense Base Act.
       The Black Lung Benefits Act (Black Lung) Program oversees the provision of monetary compensation and
        medical benefits to coal miners who are totally disabled due to pneumoconiosis arising out of coal mine
        employment, and monetary benefits to their eligible dependent survivors.
       The Energy Employees Occupational Illness Compensation Program Act (Energy) Program provides
        compensation and medical benefits to employees or survivors of employees of the Department of Energy,
        contractors or subcontractors with DOE, who worked on the Nation’s nuclear weapons program and
        became ill due to exposure to radiation or toxic substances.

Key measures for the FECA Program are Lost Production Day rates (LPD), expressed as days of lost production and
wages in the first year following injury per 100 employees in Federal Government agencies, and Return To Work
(RTW) rates, expressed as the share of injured workers returned to work within two years of injury. Together, the
LPD and RTW rates provide valuable measures of the overall incidence and severity of workplace injuries for
Federal employees and the effectiveness of OWCP’s and Federal agencies’ return to work programs.

The Longshore and Harbor Workers’ Compensation Act program focuses on employer performance to ensure that
injury reports and first payment of benefits are timely and that disputed claims are resolved as quickly as possible.
The Percent of First Payment of Compensation for Defense Base Act cases is a key measure that monitors the
improvement of insurance carriers and providers in providing compensation to workers injured on the job. Since FY
2009, the performance of this program has steadily improved and the program expects performance to continue to
improve in FY 2014.

The Black Lung Program aims to reduce the average time it takes to process Black Lung claims, monitored through a
key measure, Average time to render Proposed Decision and Order (PDO) on Black Lung claims. Two provisions
within the Patient Protection and Affordable Care Act (PPACA) of 2010 dramatically increased the workload for the
Black Lung Program in FY 2010. Compared to the pre-PPACA level of 4,354 claims filed in FY 2009, claim numbers
have increased in each subsequent year: 7,044 claims filed in 2010 (a 62% increase over 2009); 6,181 claims filed in
2011 (a 42% increase over 2009); 5,300 claims filed in 2012 (a 22% increase over 2009); and 6,420 claims filed in
2013 (a 47% increase over 2009). These increases in claims filings caused a backlog of the aged case inventory that
has directly impacted results for this performance measure. Average processing time increased from 210 days in FY
2010 to 238 days in FY 2011 and to 262 days in FY 2012. In FY 2013, the average PDO timeliness began to trend
back down to 221 days.

The Energy Employees Occupational Illness Compensation Act program has joint measures with the Department of
Energy (DOE) and the National Institute for Occupational Safety and Health (NIOSH) that focus on shortening the
overall time to make claims decisions and improve program implementation. A priority focus for the program is to
reduce the time required to process cases that are sent to NIOSH for dose reconstruction that require an oral



                                                                                  FY 2013 Agency Financial Report   19
Management’s Discussion and Analysis
(Unaudited)

hearing. The average number of days between filing date and final decision for cases sent to NIOSH when a hearing
was held was 452 days in FY 2013.

                        Measure                             FY2008        FY2009       FY2010        FY2011       FY2012    FY2013

Government-Wide LPD Rate in Non-Postal
                                                                 41.3        35.8          34.6      33.8 [r]    34.8 [r]    34.6
Agencies
Government-Wide Share of Injured Workers
Returned to Work within two years of injury                       --    85.8% [r] 89.7%              91.6%        91.5%      91.9%

Percent of First Payment of Compensation issued
within 30 days for Defense Base Act cases                         --         43%           55%        56%          63%       67%


Average time to render Proposed Decision and
                                                                 205         201           210         238         262        221
Order (PDO) on Black Lung claims (days)

Average number of days between filing date and
final decision for cases sent to NIOSH when a                     --          --            --         619         552        452
hearing is held

In FY 2014, OWCP will continue to chair the Protecting Our Workers and Ensuring Reemployment (POWER) Return
to Work Council, consisting of representatives from the 14 Executive Branch agencies; expand the reemployment
pathways and opportunities for injured workers; increase the number of injured workers placed in jobs when they
cannot be reemployed by their date-of-injury Federal employer; and establish a candidate bank (Labor for America)
of FECA claimants for potential employers in both the public and private sectors.

Federal‐State Unemployment Insurance (UI) Program (administered by ETA)
The Federal-State UI Program, authorized under the Federal Unemployment Tax Act and Title III of the Social
Security Act, provides temporary, partial wage replacement for unemployed workers, providing them with income
support when suitable work is unavailable. To be eligible for benefits, unemployed workers must meet eligibility
requirements established by state laws that conform to federal law, including that they have worked recently, be
involuntarily unemployed, and be able and available for work. One of the key measures for this program is “Percent
of All Intrastate First Payments Made within 21 Days after the Last Day of the First Compensable Week.” The table
below provides historical data, along with unemployment statistics, that illustrate the impact of claims volume on
program performance during the recession that began in FY 2008. The Total Unemployment Rate, calculated by
using Bureau of Labor Statistics data, is the sum of the not seasonally adjusted unemployment level for October
through September divided by the sum of the not seasonally adjusted labor force level for October through
September.

                Measure                       FY2008             FY2009            FY2010         FY2011        FY2012      FY2013
 First Payment Timeliness*                     86.8%             82.9% [r]         82.2%          84.0%         83.7%       81.0%
 Total Unemployment Rate                       5.3%                8.5%            9.7%           9.2%          8.3%        7.6%
                                                            th
*This program operates on a program year, which ends June 30 .

In FY 2014, UI will place a priority on program integrity, especially improper payments, and claimant re-
employment.




20   United States Department of Labor
                                                                                          Program Performance Overview
                                                                                                           (Unaudited)

STATISTICS
Bureau of Labor Statistics (BLS)
In support of the Department’s Strategic Goal 5, to produce timely and accurate data on the economic conditions of
workers and their families, BLS produces accurate, objective, relevant, timely, and accessible statistics reflecting
labor market activity, working conditions, and price changes in the economy. Statistics produced by BLS support the
formulation of economic and social policy affecting virtually all Americans. In FY 2013, BLS reached 100 percent of
the underlying timeliness, accuracy and relevance targets for all of its Principal Federal Economic Indicators (PFEIs).
Results for the Labor Force Statistics and the Prices and Living Conditions PFEIs are indicated in the table below.

BLS uses the American Customer Satisfaction Index (ACSI) to measure customer satisfaction with its website, since
most users access BLS data through bls.gov, which averages more than 8 million user sessions each month. The
ACSI survey prompts users while they are on the website for feedback regarding the extent to which the website
meets their needs. BLS uses these results to improve the website to better serve its stakeholders and as a measure
of mission achievement.

                                   Measure                          FY2009   FY2010      FY2011     FY2012 FY 2013

 Percent of timeliness targets achieved for the Labor Force
 Statistics Principal Federal Economic Indicators (PFEIs)             --      100%        100%       100%      100%

 Percent of accuracy targets achieved for the Labor Force             --
                                                                              100%        100%       100%      100%
 Statistics PFEIs
 Percent of relevance targets achieved for the Labor Force            --
                                                                              100%        100%       100%      100%
 Statistics PFEIs
 Percent of timeliness targets achieved for the Prices and Living     --
                                                                              100%        100%       100%      100%
 Conditions PFEIs
 Percent of accuracy targets achieved for the Prices and Living       --
                                                                              100%        100%       100%      100%
 Conditions PFEIs
 Percent of relevance targets achieved for the Prices and Living      --
                                                                              100%        100%       83%       100%
 Conditions PFEIs
 Customer Satisfaction with BLS Web Site as measured by the
                                                                      75        75          75        77         77
 ACSI Score*
* ACSI Score is calculated on a 100 point scale.




                                                                                     FY 2013 Agency Financial Report   21
(Unaudited)



                                   Financial Performance Overview
Sound financial management is an integral part of the Department's efforts to deliver services and administer
programs. With the Department's emphasis on internal controls, accurate financial information delivery to key
decision makers, and transparent and accountable reporting, the Department's stakeholders can be confident that
resources are used efficiently and effectively.

DOL's internal control program and centralized processes for reporting financial data help to ensure the relevance
and reliability of financial performance data. DOL's comprehensive internal control program has the objective of
providing, on a continuing basis, reasonable assurance that all financial, non-financial, performance, statistical
records, and related reports are reliable. DOL's internal control program helps ensure that appropriate internal
controls are in place for financial performance management and that agencies institute sound, effective internal
control policies and procedures for financial performance measurement and regular evaluation of their processes.
Financial performance is evaluated during comprehensive ongoing financial management reviews and corrective
actions are implemented as required to resolve audit findings and increase efficiency. These business processes
help to ensure that reported financial performance information is relevant and reliable.

In FY 2013 and FY 2012, DOL used managerial cost accounting for costing programs and performance indicator
results in accordance with the Federal Accounting Standards Advisory Board’s (FASAB) Statement of Federal
Financial Accounting Standards (SFFAS) No. 4, Managerial Cost Accounting Standards and Concepts, as amended by
SFFAS No. 30, Inter-Entity Cost Implementation. The statements outline the standards for Federal entities to
provide “reliable and timely information on the full cost of Federal programs, their activities, and outputs.” This
information can be used to allocate resources and evaluate program performance. Managerial cost accounting
directly supports the sections of the AFR that address Net Program Cost in the Statement of Net Cost. Total Net
Cost of DOL activities was $82.9 billion for FY 2013, and $105.7 billion for FY 2012.

Analysis of Financial Statements and Stewardship Information
The principal financial statements summarize the Department's financial position, net cost of operations, and
changes in net position, and provide information on budgetary resources and social insurance.




22   United States Department of Labor
                                                                                       Financial Performance Overview
                                                                                                          (Unaudited)

Figure 1: Summary of Selected Financial Data for FY 2013 and 2012

                             Summary of Selected Financial Data
                                                                            Change
(Dollars in billions)                 2013            2012            Amount       Percent

Financial position
Total assets                      $      53.9     $     43.8      $       10.1        23.1%
  Funds with U.S. Treasury               13.1           12.0               1.1         9.2%
  Investments                            29.7           20.8               8.9        42.8%
Total liabilities                 $      57.5     $     60.3      $       (2.8)       (4.6)%
  Debt                                   35.7           39.0              (3.3)       (8.5)%

Net cost of operations
Net cost of operations            $      82.9     $    105.7      $      (22.8)       (21.6)%
 Income maintenance                      73.9           96.3             (22.4)       (23.3)%
 Employment and training                  6.4            6.7              (0.3)        (4.5)%

Budgetary resources
 Appropriations                   $    102.6      $    136.2      $      (33.6)       (24.7)%
 Borrowing authority                     7.7            12.4              (4.7)       (37.9)%
 Obligations incurred                  118.1           156.3             (38.2)       (24.4)%


Financial Position

The Department's Balance Sheet presents DOL’s financial position through the identification of agency assets,
liabilities, and net position, as shown below. The Department's total assets increased from $43.8 billion at the end
of FY 2012 to $53.9 billion at the end of FY 2013, an increase of 23.1%, primarily due to an increase in investments.
Investments increased primarily due to net inflows in the Unemployment Trust Fund (UTF) in excess of immediate
program needs for benefit payments and administrative costs.

Figure 2: Assets by Type for FY 2013 and 2012




                                                                                  FY 2013 Agency Financial Report   23
Management’s Discussion and Analysis
(Unaudited)

Liabilities decreased from $60.3 billion at the end of FY 2012 to $57.5 billion at the end of FY 2013, a decrease of
(4.6)%. This decrease was primarily due to a decrease in intra-governmental debt [(8.5)%] due to UTF repayments
of borrowings from the General Fund of the Treasury as tax collections by the states exceeded the requirements for
benefit payments.

Figure 3: Liabilities by Type for FY 2013 and 2012




In Figure 3 above, Other also includes accounts payable and accrued leave.

Net Cost of Operations

The Department's net cost of operations for the year ended September 30, 2013, was $82.9 billion, a decrease of
$(22.8) billion [(21.6)%] from FY 2012. This decrease was attributable to the decreases in the major programs
discussed below:

Figure 4: Net Cost of Operations by Program for FY 2013 and 2012




24   United States Department of Labor
                                                                                        Financial Performance Overview
                                                                                                           (Unaudited)

Income Maintenance programs continue to comprise the major portion of departmental costs. These programs
include unemployment benefits paid to covered individuals who are out of work and seeking employment, as well
as payments to individuals who qualify for disability benefits due to injury or illness suffered on the job, and the
costs to administer these programs. Income maintenance net costs were $73.9 billion, a decrease of (23.3)% from
FY 2012. This decrease was primarily due to decreases in unemployment benefits provided under existing
legislation which reduced the length of coverage, and lower levels of unemployment as compared to FY 2012.

Employment and Training programs comprise DOL’s second largest cost. These programs are designed to help
individuals deal with the loss of a job, identify new occupational opportunities, find training to acquire different
skills, start a new job, and make long-term career plans, as well as connect employers to workers with the skills
they need. Employment and training costs were $6.4 billion in FY 2013, a decrease of (4.5)% from FY 2012. This
decrease was due to reductions in amounts appropriated for the 2012 program year for various programs including
the Trade Adjustment Allowance programs.

Budgetary Resources

The Statement of Budgetary Resources reports the budgetary resources available to DOL to effectively carry out the
activities of the Department during FY 2013 and FY 2012, as well as the status of these resources at the end of each
fiscal year. During FY 2013, the Department’s appropriations decreased ($33.6) billion [(24.7)%] primarily due to
decreases in transfers to the UTF for Emergency Unemployment Compensation; also, the Department’s borrowing
authority decreased ($4.7) billion [(37.9)%], which is consistent with the lower balance of intra-governmental debt
at the end FY 2013. The Department had total obligations incurred of $118.1 billion in FY 2013, a decrease of
$(38.2) billion [(24.4)%] from FY 2012. This decrease was primarily due to decreases in total obligations incurred for
income maintenance programs as noted above.

Social Insurance and the Black Lung Disability Benefit Program

FASAB has classified the Black Lung Disability Benefit Program as a social insurance program that is required to
report a Statement of Social Insurance (SOSI) and a Statement of Changes in Social Insurance Amounts (SCSIA) for
the Black Lung Disability Trust Fund (BLDTF).

The SOSI reports for the projection period (which begins on September 30 of the reporting year and ends
September 30, 2040), for all current and future participants, the actuarial present value of future benefits and the
present value of future administrative costs, less the present value of future coal excise tax income. For FY 2009
through FY 2013 as presented in the SOSI, the present value of the future coal excise tax income has been greater
than the sum of the actuarial present value of the future benefits and the present value of future administrative
costs. This amount is also called the open and closed group measure.




                                                                                   FY 2013 Agency Financial Report   25
Management’s Discussion and Analysis
(Unaudited)

Figure 5: Black Lung Disability Benefit Program - Table of Key Measures for FY 2013 and 2012

                            Black Lung Disability Benefit Program – Table of Key Measures
                                                                                                    Change
(Dollars in millions)                                           2013            2012            Amount     Percent

Financial position
   Total assets                                             $       145.8 $        102.5 $           43.3     42.2%
   Less: total liabilities                                       (6,040.0)      (6,080.1)             40.1     0.7%
   Net position (assets net of liabilities)                 $    (5,894.2) $    (5,977.6) $          83.4       1.4%
Costs and changes in net position
  Net cost of operations                                    $      (403.7) $      (441.2) $           37.5      8.5%
  Total financing sources                                            487.1          562.8            (75.7)   (13.5)%
  Net change of cumulative results of operations            $        83.4 $        121.6 $          (38.2)    (31.4)%
Social insurance
  Open and closed group measure,
     beginning of year                                      $     4,658.5   $   4,720.2     $       (61.7)     (1.3)%


     Open and closed group measure,
      end of year                                           $     4,620.3   $   4,658.5     $       (38.2)     (0.8)%

The decrease in the net cost of operations for the year ended September 30, 2013 of $37.5 million [8.5%] from
FY 2012 was mainly due to lower benefit costs. FY 2013 total financing sources decreased $(75.7) million [(13.5)%]
from FY 2012 mainly due to decreases in taxes. The resulting net change of cumulative results of operations for
FY 2013 was $83.4 million, a decrease of $(38.2) million [(31.4)%] from FY 2012.

Total assets increased $43.3 million [42.2%] at the end of FY 2013 primarily due to an increase in the Funds with
U.S. Treasury balance. Liabilities decreased $40.1 million [0.7%] at the end of FY 2013 due to repayments of debt.
The resulting net position (deficit) decreased $83.4 million at the end of FY 2013.

At the end of FY 2013, the open and closed group measure decreased $(38.2) million [(0.8)%] and at the end of FY
2012 decreased $(61.7) million [(1.3)%]. Reasons for the net decreases in the measures for FY 2013 and FY 2012
include changes in the assumptions, such as:

    Decreases in the projected coal excise tax revenues due to revisions based on current year experience and
     decreases in future collections;
    Changes in future benefits costs; and
    Changes in the interest rates used to discount cash flows (described as changes in assumptions about interest
     rates on the SCSIA).

The total of open and closed group measure plus fund assets as of September 30, 2013, of $4,766.1 million
represents a projected net positive cash flow that may be used to liquidate the liabilities of the BLDTF, which were
$6,040.0 million as of September 30, 2013.

Refer to Notes 1-W and 21, and Required Supplementary Information (RSI) for additional information on the SOSI,
including the summary section; SCSIA; the Black Lung Disability Benefit Program; its reported activity and balances;
and projections and sensitivity analysis in constant dollars through 2040.




26    United States Department of Labor
                                                                                                          Financial Performance Overview
                                                                                                                             (Unaudited)

Limitations on the Principal Financial Statements
As required by the Government Management Reform Act of 1994 (31 USC 3515(b)), the principal financial
statements report the Department's financial position and results of operations. While the statements have been
prepared from the Department's books and records in accordance with U.S. Generally Accepted Accounting
Principles (GAAP) for Federal entities and the formats prescribed by OMB, the statements are in addition to the
financial reports used to monitor and control budgetary resources, which are prepared from the same books and
records. The statements should be read with the realization that they are a component of the U.S. Government, a
sovereign entity, and that liabilities reported in the financial statements cannot be liquidated without legislation
providing resources to do so.

Reducing Improper Payments
Improved financial performance through the reduction of improper payments continues to be a key financial
management focus of the Federal government. At DOL, developing strategies and the means to reduce improper
payments is a matter of good stewardship. Accurate payments lower program costs.

In accordance with the Improper Payments Information Act (IPIA), as amended by the Improper Payments
Elimination and Recovery Act (IPERA) of 2010, the Improper Payments Elimination and Recovery Improvement Act
(IPERIA) of 2012, and as implemented by OMB Circular No. A-123, Appendix C, Requirements for Effective
Measurement and Remediation of Improper Payments, the Department reviews its programs and activities annually
to identify programs that might be susceptible to significant improper payments. For programs and activities
deemed risk susceptible, the Department performs testing to estimate the rates and amounts of improper
payments, establishes improper payment reduction targets in accordance with OMB guidance, and develops and
implements corrective actions.

The Department has two programs that are classified to be at risk of significant improper payments in accordance
with OMB criteria or classification – the UI benefit program and WIA grant programs. The table shows the target
and actual improper payments error rates for the programs classified as at-risk.

Table 1: Target and Actual Improper Payments Rates for the Department’s “At‐Risk” Programs

              DOL Program                             2012                       2013                2014           2015           2016

                                              Target        Actual        Target       Actual       Target         Target         Target

      Unemployment Insurance                   9.7%        10.78%1         9.23%       9.32%         (See          (See           (See
              (UI)                                                                                   Note)         Note)          Note)

     Workforce Investment Act                 0.44%         0.22%          0.44%       0.19%        0.44%          0.44%          0.44%
              (WIA)
Note: Integrity rate target for 2013 is based on the alternative methodology explained in Other Information at Section II ‐ UI Statistical
Sampling. The 2014 - 2016 target will be set pending additional guidance and consultation regarding estimation methodology with OMB.
2012 target is based on the combined overpayment and underpayment rates and is not adjusted for overpayment recoveries.

The 2013 target error rate for UI’s improper payments was 9.23%, as compared to the reported error rate of 9.32%
(8.82% net overpayment rate plus 0.50% underpayment rate) for the period July 2012 to June 2013, the most
recent period for which data were available.




1
    Figure revised from FY2012 AFR reporting. Please see Improper Payments Reporting Details part IV of this report for more information.


                                                                                                    FY 2013 Agency Financial Report         27
Management’s Discussion and Analysis
(Unaudited)

With regard to WIA programs, the Department continues to improve accuracy in rate estimation and program
integrity. The rate for 2013 is 0.19%, which is less than half of the target of 0.44%.

The Department has implemented various corrective actions to address the causes and to reduce improper
payments in both of these programs. Like many other Federal agencies, the Department faces challenges in
meeting its improper payment reduction and recovery targets, particularly with programs that are sensitive to
economic fluctuations or natural disasters, such as the UI program. Furthermore, meeting the improper payments
reduction and recovery targets of programs such as UI and WIA are contingent upon the cooperation and support
of State agencies and other outside stakeholders who are intricately involved in the day-to-day administration and
management of these programs’ activities. A variety of complexities related to administration of the UI program
create significant challenges in controlling improper payments as compared to other Federal benefit programs,
including state unemployment insurance laws, under which the program is administered; structural impediments
such as the Federal requirement to pay UI benefits “when due” causing states to proceed with payment when not
all eligibility information has been received and verified; aging information technology (IT) systems; and resource
capacity.

See “Improper Payments Reporting Details” in the Other Information section of this report for additional
information on improper payments.

Financial Management Systems and Strategy
The Department strives to maintain and enhance financial management systems, processes and controls that
ensure financial accountability and transparency, provide financial management information to decision makers
and comply with Federal laws, regulations and policy. The New Core Financial Management System (NCFMS) is the
system of record for the Department.

FY 2013 efforts, in part focused on developing requirements and processes to seamlessly integrate two new major
administrative systems coming on line in FY 2014: Acquisition Management System (AMS) and HR-Connect for
personnel and payroll processing. The NCFMS interfaces will automatically record the financial activity initiated by
these systems.

Additionally, significant work was initiated to develop the groundwork for the re-procurement of the Department’s
financial management system due in FY 2016 as well as a supporting database of all financial transactions to
facilitate the process.

Paperless invoices, introduced in FY 2012, were institutionalized during the year and have become an integral part
of the financial system. Emphasis continued on executive-level reporting with the development of a set of financial
measures included in the Department’s Performance Measurement Plan for all agencies. These metrics are
reviewed quarterly with the Deputy Secretary.

Training continued during FY 2013 based on the results of a Department-wide Financial Management Skills
Assessment for all finance and budget personnel. Overall, efforts to fully utilize the capabilities of NCFMS
continued throughout the year. Business processes continued to be reviewed and modified to enhance the
utilization of the system.




28   United States Department of Labor
                                                                                                        (Unaudited)



                                       Management Assurances
Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
FMFIA requires that agencies establish internal controls and financial systems that provide reasonable assurance
that the integrity of Federal programs and operations is protected. It requires that the head of the agency provide
an annual assurance statement whether the agency has met this requirement.

Appendix A of OMB Circular No. A-123 provides specific requirements for conducting management’s assessment of
internal control over financial reporting, and also requires the agency head to provide an assurance statement on
the effectiveness of internal controls over financial reporting.

Federal Financial Management Improvement Act of 1996 (FFMIA)
FFMIA requires that agencies implement and maintain financial management systems that comply substantially
with the Federal financial management system requirements, applicable Federal accounting standards, and the
United States Government Standard General Ledger at the transaction level. The agency head is to make an annual
determination whether the financial systems substantially comply with FFMIA.




                                                                                FY 2013 Agency Financial Report   29
13 Agency Financial Report   31
                            Message from the Chief Financial Officer
One of the Department of Labor’s (DOL or the Department) top goals is sound financial
management, and in our Centennial year, the Department displayed its high standard of
financial management by once again receiving an unmodified (“clean”) audit opinion on
our financial statements. This is the 17th year DOL has achieved a clean opinion and it
provides independent confirmation that the Department’s financial statements are
presented fairly, transparently, and in conformity with U.S. Generally Accepted Accounting
Principles (GAAP).

For the second year running, the auditors reported that none of the Department’s control
deficiencies were considered to be a material weakness. While we celebrate our successes,
we also realize we have areas in which we can improve. Please see the “Independent
Auditors Report” in the Financial Section of this Report for more information regarding these issues and our efforts
to address them.

DOL faced a serious challenge when the Office of Job Corps (OJC) recognized a funding shortfall and was
temporarily forced to suspend new student enrollment. Jobs Corps concurred with all recommendations made by
the Department’s Office of Inspector General (OIG) report and has worked with my office to establish criteria for
detecting potential financial and program risks, to improve related policies, procedures, and internal controls, and
to routinely reconcile accounting systems data. Through lessons learned, the Department has made changes that
will prevent similar issues in the future.

The Office of the Chief Financial Officer (OCFO) strives to stay ahead of the curve on Federal financial management
and to return greater value on every taxpayer dollar. Throughout fiscal year (FY) 2013 my office has worked with
the Department of the Treasury and the Office of Management and Budget (OMB) to improve the government-
wide, anti-improper payment program known as the Do Not Pay (DNP) program. Our DNP Team has provided
analysis and developed business rules that can be applied government-wide to increase the accuracy of the system
and decrease the government’s rate of improper payments. Through a robust review and clearance process for
conference and travel expenses, we have decreased travel and conference expenses in response to the
Administration’s goal of a 30% decrease.

Accurate, timely financial information holds the Department accountable to its stakeholders and improves the
operational, budget, and policy decision-making processes which are the foundation for the services the
Department delivers to the American public. FY 2012 marked the 12th year the Department’s Agency Financial
Report (AFR) was awarded the Certificate of Excellence in Accountability Reporting by the Association of
Government Accountants, clearly demonstrating the quality of our reporting.

I am proud of the Department’s financial management accomplishments in FY 2013. These achievements meet the
high standards of professionalism demanded by the American people. Our efforts allow DOL to place an emphasis
on maximizing outcomes, while delivering an efficient, effective, and accountable government.


/S/
James L. Taylor
Chief Financial Officer
December 16, 2013




                                                 2013 Agency Financial Report   33 FY 2013 Agency Financial Report   33
                           KPMG LLP
                           Suite 12000
                           1801 K Street, NW
                           Washington, DC 20006



                                         Independent Auditors’ Report


Secretary and Inspector General
U.S. Department of Labor:

Report on the Financial Statements

We have audited the accompanying consolidated financial statements of the U.S. Department of Labor
(DOL), which comprise the consolidated balance sheets as of September 30, 2013 and 2012; the related
consolidated statements of net cost and changes in net position and combined statements of budgetary
resources for the years then ended; the statements of social insurance as of September 30, 2013, 2012,
2011, 2010, and 2009; and the statements of changes in social insurance amounts for the years ended
September 30, 2013 and 2012; and the related notes to the consolidated financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these consolidated financial
statements in accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation of
consolidated financial statements that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these consolidated financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
consolidated financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
consolidated financial statements. The procedures selected depend on the auditors’ judgment, including the
assessment of the risks of material misstatement of the consolidated financial statements, whether due to
fraud or error. In making those risk assessments, the auditors consider internal control relevant to the
entity’s preparation and fair presentation of the consolidated financial statements in order to design audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An audit also
includes evaluating the appropriateness of accounting policies used and the reasonableness of significant
accounting estimates made by management, as well as evaluating the overall presentation of the
consolidated financial statements.

                                          KPMG LLP is a Delaware limited liability partnership,
                                          the U.S. member firm of KPMG International Cooperative
                                          (“KPMG International”), a Swiss entity.




34   United States Department of Labor
                                                                                Independent Auditors’ Report




We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.
Opinion on the Financial Statements

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Labor as of September 30, 2013 and 2012; its net
costs, changes in net position, and budgetary resources for the years then ended; the financial condition of
its social insurance as of September 30, 2013, 2012, 2011, 2010 and 2009; and the changes in its social
insurance amounts for the years ended September 30, 2013 and 2012, in accordance with U.S. generally
accepted accounting principles.

Emphasis of Matter

As discussed in Notes 1-W and 1-Y to the consolidated financial statements, the statements of social
insurance present the actuarial present value of DOL’s future expenditures to be paid to or on behalf of
participants, estimated future income to be received from excise taxes, and estimated future expenditures
for administrative costs during a projection period ending in 2040. In preparing the statements of social
insurance, management considers and selects assumptions and data that it believes provide a reasonable
basis for the assertions in the statements. However, because of the large number of factors that affect the
statements of social insurance and the fact that future events and circumstances cannot be known with
certainty, there will be differences between the estimates in the statements of social insurance and the
actual results, and those differences may be material.

Other Matters

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis, Required Supplementary Information, and Required Supplementary Stewardship
Information sections be presented to supplement the basic consolidated financial statements. Such
information, although not a part of the basic consolidated financial statements, is required by the Federal
Accounting Standards Advisory Board who considers it to be an essential part of financial reporting for
placing the basic consolidated financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the information
for consistency with management’s responses to our inquiries, the basic consolidated financial statements,
and other knowledge we obtained during our audits of the basic consolidated financial statements. We do
not express an opinion or provide any assurance on the information because the limited procedures do not
provide us with sufficient evidence to express an opinion or provide any assurance.

Other Information

Our audits were conducted for the purpose of forming an opinion on the basic consolidated financial
statements as a whole. The information in the Message from the Secretary of Labor, Message from the
Chief Financial Officer, and Other Information section is presented for purposes of additional analysis and
is not a required part of the basic consolidated financial statements. Such information has not been
subjected to the auditing procedures applied in the audit of the basic consolidated financial statements, and
accordingly, we do not express an opinion or provide any assurance on it.


                                                                         FY 2013 Agency Financial Report   35
Financial Section




Other Reporting Required by Government Auditing Standards
Internal Control over Financial Reporting
In planning and performing our audit of the consolidated financial statements, we considered DOL’s
internal control over financial reporting (internal control) to determine the audit procedures that are
appropriate in the circumstances for the purpose of expressing our opinion on the consolidated financial
statements, but not for the purpose of expressing an opinion on the effectiveness of DOL’s internal control.
Accordingly, we do not express an opinion on the effectiveness of DOL’s internal control. We did not test
all internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies and therefore, material weaknesses or significant deficiencies may
exist that were not identified. Given these limitations, during our audit we did not identify any deficiencies
in internal control that we consider to be material weaknesses. However, we did identify certain
deficiencies in internal control, described in Exhibit I that we consider to be significant deficiencies.

Compliance and Other Matters
As part of obtaining reasonable assurance about whether DOL’s consolidated financial statements are free
from material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, contracts, and grant agreements, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 14-02. However, providing an opinion on compliance with
those provisions was not an objective of our audit, and accordingly, we do not express such an opinion.
The results of our tests of compliance disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards or OMB Bulletin No. 14-02.

We also performed tests of its compliance with certain provisions referred to in Section 803(a) of the
Federal Financial Management Improvement Act of 1996 (FFMIA). Providing an opinion on compliance
with FFMIA was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests of FFMIA disclosed no instances in which DOL’s financial management systems did
not substantially comply with the (1) Federal financial management systems requirements, (2) applicable
Federal accounting standards, and (3) the United States Government Standard General Ledger at the
transaction level.

Other Matters. DOL is currently reviewing four incidents regarding potential violations of the Anti-
deficiency Act. As of the date of this report, no final noncompliance determination has been made for these
incidents.




36 United States Department of Labor
                                                                               Independent Auditors’ Report




DOL’s Responses to Findings

DOL’s responses to the findings identified in our audit are described in Exhibit I. DOL’s responses were
not subjected to the auditing procedures applied in the audit of the consolidated financial statements and,
accordingly, we express no opinion on the responses.

Purpose of the Other Reporting Required by Government Auditing Standards

The purpose of the communication described in the Other Reporting Required by Government Auditing
Standards section is solely to describe the scope of our testing of internal control and compliance and the
result of that testing, and not to provide an opinion on the effectiveness of DOL’s internal control or
compliance. Accordingly, this communication is not suitable for any other purpose.




December 16, 2013




                                                                        FY 2013 Agency Financial Report   37
Financial Section

Significant Deficiencies
Exhibit I

1. Lack of Sufficient Security Controls over Key Financial and Support Systems

     In fiscal year (FY) 2013, U.S. Department of Labor (DOL) agencies completed corrective action to address
     certain previously-identified control deficiencies. However, during our FY 2013 testing of significant DOL
     financial and support systems, we identified new security control deficiencies in addition to certain ones that
     were reported in prior years across the four DOL agencies responsible for these systems. We have classified the
     deficiencies identified into the following four categories: account management, system access settings, system
     audit log reviews, and vulnerability management.

     The first two categories summarize the identified deficiencies related to controls that were designed to help
     prevent unauthorized access to information technology (IT) systems. Control deficiencies related to account
     management increase the risk that current employees, separated employees, and/or contractors may obtain
     unauthorized or inappropriate access to financial systems and/or data. Such access could lead to unauthorized
     activities and/or inappropriate disclosures of sensitive data. System access setting control deficiencies may be
     exploited, in either a singular fashion or in combination, by a malicious user, which may affect the
     confidentiality, integrity, and/or availability of DOL systems and data. The specific deficiencies identified in
     these two categories were as follows:

     Account Management

     •   User accounts were not timely removed for separated users, and certain separated users had active system
         accounts;
     •   Incidents were not timely reported;
     •   Periodic user account re-certifications were not appropriately performed; and
     •   Account management controls were not performed, as evidenced by incomplete or missing access requests,
         non-disclosure agreements, modification forms, and termination forms.

     System Access Settings

     •   Inactive accounts were not disabled in a timely manner;
     •   Password settings did not comply with the Office of the Chief Information Officer (OCIO) Computer
         Security Handbook; and
     •   Inadequate system configurations were in place.

     System Audit Logs Reviews

     The system audit logs reviews category represents controls designed to detect unauthorized access to IT systems.
     Although DOL has certain detective controls in place to mitigate the aforementioned account management and
     system access settings risks, we identified that certain audit logs were not generated, reviewed, or reviewed
     timely. The lack of effective and timely system audit log reviews may allow for unauthorized or inappropriate
     activities to go undetected by management for lengthy periods of time.

     Vulnerability Management

     Controls related to vulnerability management are designed to prevent weaknesses in IT systems from being
     exploited. Such controls include proactively monitoring system vulnerabilities, timely patching related security
     issues, and configuring IT systems in compliance with baseline security requirements. During our FY 2013
     vulnerability assessments, we identified the following deficiencies:

     •   Numerous critical and high-risk application and operating system patches were not implemented;
     •   Numerous servers were not compliant with minimum security baselines; and


38   United States Department of Labor
                                                                                        Independent Auditors’ Report

                                                                                               Significant Deficiencies
                                                                                                               Exhibit I

•   Logical access control weaknesses, such as the ability to obtain the host security identifier for the remote host
    without credentials, existed.

In addition, we noted that one agency did not implement any corrective actions in FY 2012 or FY 2013 related to
patch and configuration management weaknesses we identified in FY 2011 for one of its IT systems. The agency
had developed Plans of Action and Milestones to address these weaknesses; however, they were not scheduled
for completion until December 31, 2013.

Vulnerabilities that are not remedied in a timely manner may result in information leaks or system threats. These
vulnerabilities may also disrupt normal system processes, allow inappropriate access, prevent updates from being
implemented, and jeopardize the integrity of financial information. Additionally, vulnerabilities that are not
remedied or mitigated can present an opportunity to circumvent account management, system access settings,
and audit logging controls.

Collectively, the aforementioned IT control deficiencies pose a significant risk to the integrity of DOL’s data,
which could ultimately impact its ability to accurately and timely perform its financial reporting duties. The
specific nature of these deficiencies, their causes, and the systems impacted by them have been communicated
separately to management. These deficiencies, which were noted across all four agencies selected for testing,
were the result of issues in the implementation and monitoring of departmental procedures and controls. DOL
agencies have not invested the necessary level of effort and resources to ensure that certain IT policies and
procedures are operating effectively.

The National Institute of Standards and Technology Special Publication 800-53, Revision 3, Recommended
Security Controls for Federal Information Systems and Organizations, provides federal information systems
standards and guidelines for controls that include, but are not limited to, the controls in which deficiencies were
identified.

To address the deficiencies noted above, the Chief Information Officer should:

a) Coordinate efforts among the DOL agencies to develop procedures and controls to address account
   management, system access settings, system audit log reviews, and vulnerability management control
   deficiencies in financial and support systems;
b) Monitor the agencies’ progress to ensure that procedures and controls are appropriately implemented and
   maintained; and
c) Coordinate with the applicable agencies to ensure that sufficient resources are available to develop,
   implement, and monitor the procedures and controls that address account management, system access
   settings, system audit log reviews, and vulnerability management control deficiencies.

Management’s Response: The Office of the Assistant Secretary for Administration and Management (OASAM)
appreciates the importance of adequately managing Information Technology (IT) security risks within DOL’s
major information systems and is committed to ensuring the Department implements appropriate corrective
actions in a timely fashion. The Chief Information Officer continues to enhance its Enterprise Risk Management
and Continuous Monitoring efforts and completed the following activities in FY 2013:

•   Monitored Agencies progress in mitigating weaknesses found to be contributors to the Department’s
    Significant Weakness via Agency Operating Plans and Departmental Administrative Measures.
•   Implemented Enterprise IT Security Performance Metrics enabling a Departmental view into agency
    compliance progress with respect to achieving vulnerability and configuration management targets, and risk
    management goals.



                                                                                 FY 2013 Agency Financial Report     39
Financial Section

Significant Deficiencies
Exhibit I

          •    Deployed an enterprise IT security tool enabling a Departmental view and automated monitoring
               capability of asset inventories, and vulnerability and configuration management of all Departmental
               systems.

     OASAM accepts the OIG’s recommendations. Moving forward in FY 2014, the OCIO will increase
     communication with DOL Agencies to ensure they give priority attention and sufficient resources to prioritize
     and complete the corrective action required to address the identified account management, vulnerability and
     configuration control deficiencies. The OCIO will monitor agency progress on addressing these deficiencies, as
     well as; assess agency progress on achieving the IT Security Performance Metrics on a quarterly basis via
     Agency dashboards. In FY 2014, the OCIO will also acquire and begin a Department-wide deployment of
     additional Enterprise IT Security tools as a part of the Department’s Continuous Monitoring efforts via the
     Department of Homeland Security sponsored Continuous Diagnostics and Mitigation program. Further, to
     ensure we continue to safeguard DOL’s financial systems, OASAM will evaluate its current policies and
     procedures to seek ways we can improve continuous monitoring processes to strengthen the overall security
     posture of DOL’s information systems.

     Auditors’ Response: We will conduct follow-up procedures in FY 2014 to determine whether corrective actions
     have been developed and implemented.

2. Lack of Sufficient Controls over Grants

     DOL awards numerous formula and discretionary grants to various state and local governments, nonprofit
     organizations, and other organizations. The Employment and Training Administration (ETA) awards and
     monitors the majority of these grants. Recipients of DOL grants are required to report their expenses to DOL on a
     quarterly basis via form ETA 9130, U.S. DOL ETA Financial Report, or a SF-425, Federal Financial Report
     (cost reports). During our FY 2013 audit procedures, we identified new deficiencies in certain controls over
     grants, in addition to certain ones that were reported in prior years, as described below. These deficiencies are
     grouped into two categories Grant Accrual and Grant Monitoring.

     Grant Accrual

     Each year, ETA performs a grant accrual accuracy analysis to determine if the methodology used to calculate the
     previous year’s September 30 grant accrual is reasonable, and to develop cost-to-payment ratios for subsequent
     grant accrual calculations. The accuracy analysis compares the expense amounts accrued at year end to the
     expenses subsequently reported on the grantees’ cost reports. During our FY 2013 testwork over the accuracy
     analysis for the grant accrual as of September 30, 2012, we identified discrepancies between information in the
     executive summary and the accompanying tables of ETA’s initial analysis documentation, which included
     evidence of management review of the analysis. However, the review was not adequate enough to detect those
     discrepancies because sufficiently detailed procedures were not in place to document the review process. If the
     analysis is not properly reviewed, an increased risk exists that errors in the validity of the data and preparation of
     the grant accrual accuracy analysis will not be detected and could potentially affect the reliability of the accrual
     ratios.

     During our control test work performed over the ETA grant accrual as of March 31, 2013, we reviewed the draft
     Standard Operating Procedures for Grant Accrual and Review dated March 2013 and the grant accrual summary
     to determine if the deficiencies previously reported by us were remediated and noted the following continuing
     issues:

     •   The draft standard operating procedures were updated to show ETA’s assessment over the reasonableness of
         management’s expectations for the grant accrual each period. However, ETA did not consider changes in


40    United States Department of Labor
                                                                                          Independent Auditors’ Report

                                                                                                Significant Deficiencies
                                                                                                                Exhibit I

    funding levels or other relevant changes and did not compare historical amounts to actual expenses recorded
    to evaluate if historical accrual amounts were consistently accurate or if ETA’s accrual methodology should
    be changed to account for any material differences.

•   The draft standard operating procedures did not include a requirement to investigate and resolve estimated
    grant accruals outside the range of management’s expectations.

•   Procedures requiring individuals performing supervisory reviews to verify the accuracy of the accrual data
    and calculation had not been developed.

In addition, we noted that at the time of our testing, the standard operating procedures had not been finalized and
more than half of the fiscal year had passed.

ETA management believes that its existing policies and procedures are adequate, as they detail how the accrual
should be prepared and include comparability of its accrual calculation over a period of years. ETA management
notes that, in their opinion, this is a sufficient method to demonstrate reasonableness of the accrual. Therefore,
they have not updated the procedures sufficiently to resolve all prior year recommendations.

The lack of sufficient internal controls over the grant accrual increases the risk that gross costs, other liabilities,
and advances could be misstated.

Office of Management and Budget (OMB) Circular No. A-123, Management’s Responsibility for Internal
Control, states:

    Control activities include policies, procedures and mechanisms in place to help ensure that agency
    objectives are met. Several examples include: proper segregation of duties (separate personnel with
    authority to authorize a transaction, process the transaction, and review the transaction); physical
    controls over assets (limited access to inventories or equipment); proper authorization; and
    appropriate documentation and access to that documentation.

OMB Circular No. A-123, Management’s Responsibility for Internal Control, Appendix A, Section I, states:

    Internal control over financial reporting is a process designed to provide reasonable assurance
    regarding the reliability of financial reporting. Reliability of financial reporting means that
    management can reasonably make the following assertions…All assets and liabilities have been
    properly valued, and where applicable, all costs have been properly allocated (valuation).

In addition, the U.S. Government Accountability Office’s Standards for Internal Control in the Federal
Government (the Standards) states:

    Control activities occur at all levels and functions of the entity. They include a wide range of diverse
    activities such as approvals, authorizations, verifications, reconciliations, performance reviews,
    maintenance of security, and the creation and maintenance of related records which provide evidence
    of execution of these activities as well as appropriate documentation. Control activities may be
    applied in a computerized information system environment or through manual processes.

    Managers also need to compare actual performance to planned or expected results throughout the
    organization and analyze significant differences.




                                                                                  FY 2013 Agency Financial Report     41
Financial Section

Significant Deficiencies
Exhibit I

     Grant Monitoring

     Site Visits

     We selected a sample of 45 site visits from the on-site monitoring reviews planned in FY 2013 as of June 30,
     2013, by each of the six regions to determine if the on-site monitoring reviews were properly performed and
     documented in the Grant Electronic Management System (GEMS). Based on our testwork, we identified issues
     with both the site visit monitoring plans and the site visit monitoring review reports, as follows:

     •   For 3 items, ETA was unable to provide an on-site visit monitoring review report for FY 2013;
     •   For 1 item, the on-site monitoring review was not performed as indicated on the monitoring review plan
         received from the region as of August 2013;
     •   For 12 items, an on-site monitoring review was performed, but the on-site monitoring review report was not
         issued within 45 business days of the last day of the on-site review; the reports were issued ranging from 5 to
         137 days past the due date;
     •   For 2 items, inconsistencies existed between findings in the completed on-site monitoring review report and
         those in GEMS;
     •   For 5 items, the on-site monitoring review report was not included in GEMS; and
     •   For 5 items, the on-site monitoring review report was not uploaded in GEMS until after we notified ETA the
         report was missing during the completion of our testwork.

     ETA did not have cohesive policies and procedures in place to ensure region site visit plans were prepared,
     reviewed, and updated timely throughout the fiscal year. In addition, ETA was unable to provide a current year
     monitoring report for two site visits because of inaccurate completion and review of site visit plans. Although
     ETA procedures specified a timeline requirement for completing and filing on-site monitoring review reports,
     that requirement was not properly monitored. Lastly, ETA did not have policies and procedures in place to
     monitor the completeness of documentation included in GEMS related to on-site monitoring review reports
     issued.

     Failure to monitor site visit plans increases the risk that proper monitoring is not occurring, which increases the
     risk of undetected grantee reporting errors and/or violations. In addition, failure to implement proper monitoring
     controls to ensure compliance with existing policies and procedures increases the risk that policy deviations are
     not detected and corrected. Specifically, failing to ensure on-site monitoring review reports are completed timely
     increases the risk that issues identified with grantees are not resolved timely.

     If proper documentation is not retained and readily accessible in GEMS, possible findings may not be
     communicated in the monitoring review reports and tracked for correction. This could ultimately lead to errors in
     grant expenses not being identified properly by ETA management.

     Without adequate controls in the grant monitoring process, grantees may be misusing grant funds without
     detection by DOL. As a result, grant-related expenses, advances, payables and undelivered orders could be
     misstated.

     The Standards states:

         Internal control and all transactions and other significant events need to be clearly documented, and
         the documentation should be readily available or examination. The documentation should appear in
         management directives, administrative policies, or operating manuals and may be in paper or
         electronic form. All documentation and records should be properly managed and maintained.



42    United States Department of Labor
                                                                                      Independent Auditors’ Report

                                                                                             Significant Deficiencies
                                                                                                             Exhibit I

    For an entity to run and control its operations, it must have relevant, reliable, and timely
    communications relating to internal as well as external events.

    Internal control should generally be designed to assure that ongoing monitoring occurs in the course
    of normal operations. It is performed continually and is ingrained in the agency’s operations. It
    includes regular management and supervisory activities, comparisons, reconciliations, and other
    actions people take in performing their duties.

The ETA Core Monitoring Guide states:

    Subsequent to the review, the results of using the guide in conducting the review are to be entered
    into GEMS at the objective level for each core activity.

The DOL Update to the August 30, 2011, Memo for Federal Project Officer (FPO) Grant Management
Responsibilities Related to the Grants Electronic Management System (GEMS) memorandum states:

    Details of the monitoring event, including all findings, observations, and promising practices will be
    entered into GEMS within 30 working days of issuing the report to the grantee…

    The FPO is required to input all reportable compliance findings, observations, promising practices
    and the grantee’s progress to resolution. The FPO must also input questioned cost amounts under the
    appropriate finding. Details of the monitoring event, including all findings, observations, and
    promising practices will be entered into GEMS within 30 working days of issuing the formal report
    to the grantee. A copy of the formal compliance report will be uploaded to the Case File module
    within 30 working days of issuing the report to the grantee.

The SES Performance Management; Executive Performance; Agreement Appraisal Cycle [October 1 –
September 30] results 2 section (Measure of Outcomes/Targets) state:

     1. Conduct on site monitoring according to plan and issue Monitoring Reports
         a. 80% of all initial written Monitoring Reports issued within 45 days of the exit conference
            date.
         b. Copies are uploaded to GEMS within 30 days of issuance.

Other Monitoring Procedures

As part of our audit procedures over grant controls as of June 30, 2013, we selected a sample of 45 grants from
the population of grant expenses recorded in the New Core Financial Management System (NCFMS) to
determine if Federal Project Officers’ (FPO) desk reviews were properly performed and documented in GEMS.
However, for 1 of the 45 grants selected, the desk review was not completed within the required timeframe, and
for 1 of 45 grants selected, adequate documentation did not exist to support the assigned risk factors. ETA
management communicated to us that workload management issues existed because of staff turnover and
vacancies that created shortages of experienced staff.

We also tested the December 31, 2012, Delinquent Reporting Analysis, and noted that the analysis did not
identify all grantees that were delinquent in filing their cost reports. As noted in FY 2012, the analysis only
identified those grantees that were delinquent and had cash advance balances over a certain threshold because
related procedures were designed in this manner. Based on our testwork as of March 31, 2013, we noted that the
deficiency related to the analysis only identifying those grantees that were delinquent and had a cash advance
balance over a certain threshold was remediated.


                                                                               FY 2013 Agency Financial Report     43
Financial Section

Significant Deficiencies
Exhibit I


     Based on testwork performed as of June 30, 2013 over the Delinquent Reporting Analysis, we noted that all other
     deficiencies previously reported by us (i.e., inadequate procedures related to the timeliness of the quarterly
     notification of delinquent filers and deadlines for follow-up on delinquent filers) were resolved but had been
     present for a majority of the fiscal year. In addition, upon review of the revised policies, we noted a lack of
     specific requirements related to documentation needed by FPOs to evidence their follow-up with delinquent
     grantees; ETA management did not deem such specific requirements necessary.

     Without adequate grantee monitoring controls, grantees may misreport, intentionally or unintentionally, grant
     expenses without the misstatement being detected by ETA, or may fail to report grant expenditure details. In
     addition, the miscoding of grantee risk factors may lead to inappropriate allocation of monitoring resources. As a
     result, grant-related expenses, advances, payables, and undelivered orders could be misstated.

     The DOL Update to the August 30, 2011, Memo for Federal Project Officer (FPO) Grant Management
     Responsibilities Related to the Grants Electronic Management System (GEMS) memorandum states:

         A quarterly desk review is required on all projects in GEMS. Desk reviews must be completed
         following a review of both the progress and cost reports submitted during the reporting timeframe.
         Section iii below identifies the due dates for Desk Review completions….

         Frontline supervisors are responsible for ensuring the FPOs meet these requirements and timeframes.
         Supervisors conduct quarterly reviews of the GEMS exception report and notify FPOs of concerns or
         anomalies regarding completeness or timeliness. Supervisors report their unit’s status to their
         Administrator on a regular basis.

     Chapter 75 of Title 31, United States Code (commonly referred to as the Single Audit Act), states:

         Each Federal agency shall, in accordance with guidance issued by the Director under section 7505,
         with regard to Federal awards provided by the agency – (1) monitor non-Federal entity use of
         Federal awards...

     In addition, the Standards states:

         Control activities occur at all levels and functions of the entity. They include a wide range of diverse
         activities such as approvals, authorizations, verifications, reconciliations, performance reviews,
         maintenance of security, and the creation and maintenance of related records which provide evidence
         of execution of these activities as well as appropriate documentation. Control activities may be
         applied in a computerized information system environment or through manual processes…

         Internal control and all transactions and other significant events need to be clearly documented, and
         the documentation should be readily available for examination. The documentation should appear in
         management directives, administrative policies, or operating manuals and may be in paper or
         electronic form. All documentation and records should be properly managed and maintained.

     To address the issues noted above, the Acting Assistant Secretary for Employment and Training should:

     a) Revise current management review procedures to ensure that all aspects of the grant accrual accuracy
        analysis are properly reviewed and approved to prevent potential errors in the preparation of the analysis;
     b) Update grant accrual review procedures to include assessing and documenting the reasonableness of
        management’s expectations for the grant accrual each period by comparing historical accrual data to actual


44    United States Department of Labor
                                                                                     Independent Auditors’ Report

                                                                                            Significant Deficiencies
                                                                                                            Exhibit I

     recorded grant expenses and taking relevant changes into consideration; estimated grant accruals outside the
     range of management’s expectations should be investigated and resolved;
c)   Require individuals performing supervisory reviews to verify the accuracy of the grant accrual data and
     calculations;
d)   Develop and implement a monitoring procedure to ensure changes to original regional site visit plans are
     appropriate and accurately documented;
e)   Update written policies and procedures to include specific guidance on monitoring the timely completion of
     regional on-site monitoring;
f)   Update written policies and procedures to include specific documentation requirements for GEMS to support
     the conclusions included in the on-site monitoring review reports;
g)   Develop and implement monitoring controls to determine that on-site monitoring review reports are timely
     issued and uploaded into GEMS with the appropriate documentation;
h)   Adhere to existing written policies and procedures for evaluating and documenting grantee risk;
i)   Develop and implement monitoring procedures to review FPOs’ risk factors quarterly on a sample basis;
j)   Develop and implement a staffing contingency plan to address potential future FPO turnover or staff
     shortages; and
k)   Update written policies and procedures to require FPOs to document communication with delinquent
     grantees in a standardized manner;

Management’s Response: ETA does not agree with the auditor’s determination of a significant deficiency in
controls in the area of grants management. While we recognize room for improvement in some areas, ETA
manages its grants in a sound and reliable manner.

Grant Accrual

ETA updated the grant accrual standard operating procedure (SOP) to provide additional clarification of
management’s expectation of the quarterly grant accrual. Additionally, the SOP was updated to provide
procedures for individuals performing supervisory review to verify the reasonableness of the accrual data (e.g.
ensuring only grant activity for the current accrual period) and the result of the calculation (as compared to the
general ledger). ETA considers historical accrual amounts in establishing management’s expectations as well as
considering changes in funding levels when needed (e.g. ARRA funding). While we track the historical accrual
amounts and assess changes in funding levels, we also compare the estimated accrual to actual costs on an
annual basis. Significant differences are analyzed to determine if changes in the grant accrual methodology is
needed. Additional analysis and updates to the procedures will be considered in fiscal year 2014.

Onsite Monitoring

The ETA Regional Offices have a corrective action plan in place to ensure better results. This plan was already
in place at the time of the audit. ETA Regions continue to have a set of policies and procedures in place
including: the Regional Administrator (RA) Performance Standards, that cascade down to managers and staff; a
number of policies and procedures in place for monitoring and the issuance of monitoring reports such as the
Core Monitoring Guide, the monitoring report template, and the Memo for Federal Project Officer Grant
Management Responsibilities related to GEMS.

Other Monitoring Procedures

Since the auditor’s testing period, the Delinquent Reporting Analysis has improved significantly. As previously
recommended, all grantees that were delinquent are included in the analysis regardless of the advance balance.
Additionally, communication between ETA’s Accounting, National and Regional offices has increased. Federal
Project Officers are followed up with closely to make sure they provide comments to the delinquent ETA 9130


                                                                              FY 2013 Agency Financial Report     45
Financial Section

Significant Deficiencies
Exhibit I

     cost reports and take appropriate actions to increase the rate of on-time submissions. The results of this review
     are communicated back to ETA’s accounting office as evidence of follow up with grantees. The results can be
     in whatever form the FPOs deem sufficient. The methods of such communication are a means to an end. The
     end result is that ETA wants to reduce the number of delinquent reports. ETA believes that the results of these
     efforts were evidenced by the decline in the number of delinquent reports from March 31 quarter to June 30
     quarter.

     ETA will review and consider the auditor’s recommendations in all these areas of grants management. ETA
     will develop corrective action plans to address any control deficiencies.

     Auditors’ Response: In accordance with auditing standards generally accepted in the United States of America,
     we considered the grant-related deficiencies identified above in our FY 2013 audit individually and in the
     aggregate. In our professional judgment, the aggregation of these findings results in a significant deficiency.
     Although management stated that they do not concur with our categorization of identified deficiencies as a
     significant deficiency, they plan on taking steps to address the deficiencies identified. We will conduct
     follow-up procedures in FY 2014 to determine whether corrective actions have been developed and
     implemented.




46   United States Department of Labor
         Annual Financial Statements




594747
         Principal Financial Statements and Notes




594949
Financial Section

PRINCIPAL FINANCIAL STATEMENTS

Principal Financial Statements Included in This Report

The principal financial statements included in this report have been prepared in accordance with the requirements
of the Chief Financial Officers Act of 1990 (P.L. 101-576), the Government Management Reform Act of 1994, and
OMB Circular No. A-136, Financial Reporting Requirements. The responsibility for the integrity of the financial
information included in these statements rests with management of the Department. The audit of DOL’s principal
financial statements was performed by KPMG LLP. The auditors’ report accompanies the principal statements.

The Department’s principal financial statements for FY 2013 and 2012 consist of the following:

    The Consolidated Balance Sheet, which presents as of September 30, 2013 and 2012, those resources owned
     or managed by DOL that are available to provide future economic benefits (assets); amounts owed by DOL that
     will require payments from those resources or future resources (liabilities); and residual amounts retained by
     DOL, comprising the difference (net position).

    The Consolidated Statement of Net Cost, which presents the net cost of DOL operations for the years ended
     September 30, 2013 and 2012. DOL’s net cost of operations includes the gross costs incurred by DOL less any
     exchange revenue earned from DOL activities. The classification of gross cost and exchange revenues by major
     program and major program agency is presented in Note 15 to the consolidated financial statements.

    The Consolidated Statement of Changes in Net Position, which presents the change in DOL’s net position
     resulting from the net cost of DOL operations, budgetary financing sources other than exchange revenues, and
     other financing sources for the years ended September 30, 2013 and September 30, 2012.

    The Combined Statement of Budgetary Resources, which presents the budgetary resources available to DOL,
     change in obligated balance, and budget authority and net outlays of budgetary resources for FYs 2013 and
     2012; and the status of these resources as of September 30, 2013 and 2012.

 The Statement of Social Insurance, which presents the net present value of projected cash inflows and cash
     outflows of the Black Lung Disability Trust Fund (BLDTF) as of September 30, 2013, 2012, 2011, 2010, and 2009;
     the net present value of these cash flows is also known as the open and closed group measure. The summary
     section presents the total of open and closed group measure plus fund assets (Funds with U.S. Treasury and
     receivables).

    The Statement of Changes in Social Insurance Amounts, which presents the net change in the open and closed
     group measure of the BLDTF for the years ended September 30, 2013 and 2012, and provides information
     about the change.




50   United States Department of Labor
                                                                                                               Annual Financial Statements

                                                                                                      CONSOLIDATED BALANCE SHEET
                                                                                     As of September 30, 2013 and September 30, 2012
                                                                                                                (Dollars in Thousands)

                                                                                                        2013                  2012

ASSETS

      Intra-governmental
            Funds with U.S. Treasury (Note 1-C and 2)                                          $        13,110,719      $     12,023,183
            Investments (Note 1-D and 3)                                                                29,684,278            20,840,571
            Accounts receivable (Note 1-E and 4)                                                         5,824,506             5,982,460
            Advances (Note 1-G and 6)                                                                        1,928                 3,128
      Total intra-governmental                                                                          48,621,431            38,849,342

      Accounts receivable, net of allowance (Note 1-E and 4)                                             2,090,927             2,258,276
      Property, plant and equipment, net
       of accumulated depreciation (Note 1-F and 5)                                                      1,269,915             1,280,338
      Advances (Note 1-G and 6)                                                                          1,925,678             1,456,500

Total assets                                                                                   $        53,907,951      $     43,844,456



LIABILITIES AND NET POSITION

Liabilities (Note 1-I and 12)
      Intra-governmental
            Accounts payable                                                                   $            28,086      $         33,524
            Debt (Note 1-J and 8)                                                                       35,722,273            38,997,340
            Other liabilities (Note 9)                                                                     312,778               278,638
      Total intra-governmental                                                                          36,063,137            39,309,502

      Accounts payable                                                                                     282,751               308,932
      Accrued benefits (Note 1-K and 10)                                                                 2,517,122             2,289,602
      Future workers' compensation benefits (Note 1-L and 11)                                            1,613,335             1,677,985
      Energy employees occupational illness compensation benefits (Note 1-M)                            16,016,729            15,631,188
      Accrued leave (Note 1-N)                                                                             121,677               121,716
      Other liabilities (Note 9)                                                                           917,682             1,004,299

Total liabilities                                                                                       57,532,433            60,343,224

      Contingencies (Note 13)

Net position (Note 1-R)
     Funds from dedicated collections
           Cumulative results of operations (Note 21)                                                   (5,038,568)          (18,333,071)
     All other funds
           Unexpended appropriations                                                                     9,346,932            10,476,263
           Cumulative results of operations                                                             (7,932,846)            (8,641,960)
           Total net position - all other funds                                                          1,414,086              1,834,303

Total net position                                                                                      (3,624,482)          (16,498,768)

Total liabilities and net position                                                             $        53,907,951      $     43,844,456




                                     The accompanying notes are an integral part of these statements.



                                                                                                   FY 2013 Agency Financial Report      51
Financial Section

CONSOLIDATED STATEMENT OF NET COST
For the Years Ended September 30, 2013 and 2012
(Dollars in Thousands)

                                                                                         2013                 2012

NET COST OF OPERATIONS (Note 1-S and 15)

CROSSCUTTING PROGRAMS

      Income maintenance
         Gross cost                                                               $      77,921,579      $   100,682,210
         Less earned revenue                                                              (4,037,710)          (4,338,716)
           Net program cost                                                              73,883,869           96,343,494
      Employment and training
         Gross cost                                                                        6,432,749           6,695,330
         Less earned revenue                                                                  (12,408)            (10,606)
           Net program cost                                                                6,420,341           6,684,724
      Labor, employment and pension standards
         Gross cost                                                                          839,964             851,197
         Less earned revenue                                                                  (10,357)            (10,059)
           Net program cost                                                                  829,607             841,138
      Worker safety and health
         Gross cost                                                                        1,009,235           1,058,194
         Less earned revenue                                                                   (5,305)             (4,282)
           Net program cost                                                                1,003,930           1,053,912

OTHER PROGRAMS

      Statistics
         Gross cost                                                                          635,763             682,894
         Less earned revenue                                                                  (12,083)            (13,286)
           Net program cost                                                                  623,680             669,608

COSTS NOT ASSIGNED TO PROGRAMS

         Gross cost                                                                          110,672              81,176
         Less earned revenue not attributed to programs                                         (816)            (22,166)
           Net cost not assigned to programs                                                 109,856              59,010

Net cost of operations                                                            $      82,871,283      $   105,651,886




                                The accompanying notes are an integral part of these statements.




52   United States Department of Labor
                                                                                                                                        Annual Financial Statements

                                                                                             CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                                                                     For the Years Ended September 30, 2013 and 2012
                                                                                                                               (Dollars in Thousands)


                                                                            2013 Consolidated                                            2012 Consolidated
                                                          Funds from                                                  Funds from
                                                           Dedicated             All Other                             Dedicated              All Other
                                                          Collections             Funds               Total           Collections              Funds                Total


Cumulative results of operations, beginning           $ (18,333,071)         $    (8,641,960)    $ (26,975,031)      $ (33,466,525)       $    (8,471,933)     $ (41,938,458)

     Budgetary financing sources (Note 1-T)
     Appropriations used                                                -        38,260,332          38,260,332                     -         51,574,836          51,574,836
     Non-exchange revenue (Note 16)
           Employer taxes                                   54,494,335                       -       54,494,335         63,653,314                        -       63,653,314
           Interest                                          1,272,176                       -        1,272,176          1,586,958                   3,996         1,590,954
           Reimbursement of
            unemployment benefits and other                  2,509,745                22,716          2,532,461          3,457,681                  (9,110)        3,448,571
     Total non-exchange revenue                             58,276,256                22,716         58,298,972         68,697,953                  (5,114)       68,692,839

     Transfers without reimbursement (Note 17)              22,153,422           (21,953,782)           199,640         35,770,127            (35,545,276)            224,851

     Other financing sources (Note 1-U)
     Imputed financing from
      costs absorbed by others                                   2,992               109,937             112,929              3,462               121,680             125,142
     Transfers without reimbursement (Note 17)                        -                 4,764               4,764                  -                   966                 966
     Other                                                            -                (1,737)             (1,737)                 -                (3,321)             (3,321)
     Total financing sources                                80,432,670            16,442,230          96,874,900       104,471,542             16,143,771         120,615,313
     Net cost of operations                                (67,138,167)          (15,733,116)        (82,871,283)       (89,338,088)          (16,313,798)       (105,651,886)
     Net change                                             13,294,503               709,114          14,003,617         15,133,454              (170,027)         14,963,427

Cumulative results of operations, end of year               (5,038,568)           (7,932,846)        (12,971,414)       (18,333,071)           (8,641,960)        (26,975,031)


Unexpended appropriations, beginning                                    -        10,476,263          10,476,263                     -           9,210,647           9,210,647

     Budgetary financing sources (Note 1-T)
     Appropriations received (Note 18-F)                                -         43,105,275          43,105,275                    -          62,229,387          62,229,387
     Appropriations used                                                -        (38,260,332)        (38,260,332)                   -         (51,574,836)        (51,574,836)
     Appropriations transferred                                         -               3,202               3,202                   -                (4,505)             (4,505)
     Other adjustments                                                  -          (5,977,476)         (5,977,476)                  -           (9,384,430)         (9,384,430)
     Subtotal                                                           -          (1,129,331)         (1,129,331)                  -            1,265,616           1,265,616

 Unexpended appropriations, end of year                                 -          9,346,932          9,346,932                     -         10,476,263          10,476,263

Net position                                          $     (5,038,568)      $     1,414,086     $    (3,624,482)    $ (18,333,071)       $     1,834,303      $ (16,498,768)




                                                The accompanying notes are an integral part of these statements.




                                                                                                                         FY 2013 Agency Financial Report                    53
Financial Section

COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2013 and 2012
(Dollars in Thousands)

(Note 1-Z and 18)                                                                                           2013                 2012

BUDGETARY RESOURCES
    Unobligated balance brought forward, October 1                                                $          4,391,699      $      3,376,261
    Recoveries of prior year unpaid obligations                                                                461,549               369,860
    Other changes in unobligated balance                                                                      (221,903)             (128,341)
    Unobligated balance from prior year budget authority, net                                                4,631,345             3,617,780

     Appropriations (discretionary and mandatory)                                                          102,609,040          136,219,806
     Borrowing authority (discretionary and mandatory)                                                       7,700,000           12,378,421
     Spending authority from offsetting collections (discretionary and mandatory)                            7,826,120            8,460,059
Total budgetary resources                                                                         $        122,766,505      $   160,676,066

STATUS OF BUDGETARY RESOURCES
     Obligations incurred                                                                         $        118,111,427      $   156,284,367
     Unobligated balance, end of year
       Apportioned                                                                                           3,071,003            1,764,188
       Exempt from apportionment                                                                                54,279               56,721
       Unapportioned                                                                                         1,529,796            2,570,790
        Total unobligated balance, end of year                                                               4,655,078            4,391,699
Total budgetary resources                                                                         $        122,766,505      $   160,676,066

CHANGE IN OBLIGATED BALANCE
    Unpaid Obligations:
    Unpaid obligations, brought forward, October 1                                                $      15,529,168         $     15,787,223
    Obligations incurred                                                                                118,111,427              156,284,367
    Less: outlays (gross)                                                                              (118,186,925)            (156,172,562)
    Less: recoveries of prior year unpaid obligations                                                      (461,549)                (369,860)
    Unpaid obligations, end of year                                                                      14,992,121               15,529,168

     Uncollected Payments:
     Uncollected payments, Federal sources, brought forward, October 1                                       (2,324,892)          (1,968,497)
     Change in uncollected payments, Federal sources                                                            378,835             (356,395)
     Uncollected payments, Federal sources, end of year                                                      (1,946,057)          (2,324,892)

     Obligated balance, start of year                                                             $         13,204,276      $    13,818,726

     Obligated balance, end of year                                                               $         13,046,064      $    13,204,276

BUDGET AUTHORITY AND OUTLAYS, NET
    Budget authority, gross (discretionary and mandatory)                                         $        118,135,160      $   157,058,286
    Less: actual offsetting collections (discretionary and mandatory)                                        (8,204,955)          (8,103,665)
    Less: change in uncollected customer payments from Federal
         sources (discretionary and mandatory)                                                                 378,835             (356,395)
    Budgetary authority, net (discretionary and mandatory)                                        $        110,309,040      $   148,598,226

     Outlays, gross (discretionary and mandatory)                                                 $        118,186,925      $   156,172,562
     Actual offsetting collections (discretionary and mandatory)                                              (8,204,955)          (8,103,665)
     Outlays, net (discretionary and mandatory)                                                            109,981,970          148,068,897
     Distributed offsetting receipts                                                                        (28,189,684)         (43,234,920)
     Agency outlays, net (discretionary and mandatory)                                            $         81,792,286      $   104,833,977




                                        The accompanying notes are an integral part of these statements.



54   United States Department of Labor
                                                                                                                      Annual Financial Statements

                                                                                                        STATEMENT OF SOCIAL INSURANCE
                                                                                       As of September 30, 2013, 2012, 2011, 2010, and 2009
                                                                                                                      (Dollars in Thousands)


                                                                                   For the Projection Period Ending September 30, 2040

                                                                       2013             2012             2011             2010            2009

BLACK LUNG DISABILITY BENEFIT PROGRAM (Note 1-W)

Actuarial present value of future benefit payments
 during the projection period to disabled coal miners
 and dependent survivors                                          $    1,953,763 $       2,181,654 $      1,951,755 $      2,125,231 $    2,170,943

Present value of estimated future administrative costs
 during the projection period                                           920,740           963,995          935,444          881,311         984,996

Actuarial present value of future benefit payments and
 present value of estimated future administrative costs during
 the projection period for current and future participants             2,874,503         3,145,649        2,887,199        3,006,542      3,155,939

Less the present value of estimated future excise tax
 income during the projection period                                   7,494,800         7,804,178        7,607,428        8,457,022      8,876,813

Excess of present value of estimated future excise tax
 income over actuarial present value of future benefit
 payments and present value of estimated future administrative
 costs during the projection period for current and future
 participants (open and closed group measure)                     $    4,620,297 $       4,658,529 $      4,720,229 $      5,450,480 $    5,720,874



Trust fund net position deficit at start
 of projection period (Note 1-W and 21)                           $   (5,894,222) $     (5,977,619) $    (6,099,261) $    (6,238,612) $   (6,320,321)



Summary Section

Open and closed group measure                                     $    4,620,297 $       4,658,529 $      4,720,229 $      5,450,480 $    5,720,874

Add: Funds with U.S. Treasury and receivables from
 benefit overpayments (Note 21)                                         145,794           102,498            63,814           68,028         67,598

Total of open and closed group measure
  plus fund assets (Note 1-W)                                     $    4,766,091 $       4,761,027 $      4,784,043 $      5,518,508 $    5,788,472




                                           The accompanying notes are an integral part of these statements.



                                                                                                           FY 2013 Agency Financial Report         55
Financial Section

STATEMENT OF CHANGES IN SOCIAL INSURANCE AMOUNTS
For the Years Ended September 30, 2013 and 2012
(Dollars in Thousands)



BLACK LUNG DISABILITY BENEFIT PROGRAM (Note 1-W)
Open and Closed Group Measure
                                                                                                         2013             2012
Excess of present value of estimated future excise tax income over actuarial
  present value of future benefit payments and present value of estimated future
  administrative costs during the projection period for current and future participants
  (open and closed group measure), beginning of year                                                $    4,658,529    $   4,720,229

Reasons for changes in the open and closed group measure during the year:

  Changes in the assumptions about beneficiaries, including
   costs, number, type, age and life expectancy                                                            203,710          (81,839)
  Changes in assumptions about coal excise tax revenues                                                   (141,062)       (307,494)
  Changes in assumptions about Federal civilian pay raises for income benefits                              13,254          (22,337)
  Changes in assumptions about medical cost inflation for medical benefits                                   1,004           (1,601)
  Changes in assumptions about administrative costs                                                         33,575          31,516
  Changes in assumptions about interest rates                                                             (148,713)        320,055




Net change in open and closed group measure                                                                (38,232)         (61,700)


Open and closed group measure, end of year                                                         $     4,620,297    $   4,658,529




                                      The accompanying notes are an integral part of these statements.



56   United States Department of Labor
                                                                                           Annual Financial Statements

                                                                     NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                      For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A. Reporting Entity

DOL, a cabinet level agency of the Executive Branch of the United States Government, was established in 1913, to
promote the welfare of the wage earners of the United States. Today the Department’s mission remains the same:
To foster, promote and develop the welfare of the wage earners, job seekers and retirees of the United States;
improve working conditions; advance opportunities for profitable employment; and assure work-related benefits
and rights.

DOL accomplishes this mission through the execution of its congressionally approved budget, operating under four
major budget functions: (i) education, training, employment, and social services; (ii) health (occupational health and
safety); (iii) income security; and (iv) veterans benefits and services (veterans education and training). DOL is
organized into major program agencies, which administer the various statutes and programs for which the
Department is responsible. DOL’s major program agencies and the major programs in which they operate are
shown below.

    1. Major program agencies
         Employment and Training Administration (ETA)
           - Office of Job Corps
         Office of Workers’ Compensation Programs (OWCP)
         Occupational Safety and Health Administration (OSHA)
         Bureau of Labor Statistics (BLS)
         Mine Safety and Health Administration (MSHA)
         Employee Benefits Security Administration (EBSA)
         Veterans’ Employment and Training Service (VETS)
         Wage and Hour Division (WHD)
         Office of Federal Contract Compliance Programs (OFCCP)
         Office of Labor-Management Standards (OLMS)
         Departmental Management
           - Office of the Secretary                        - Office of the Deputy Secretary
           - Office of the Assistant Secretary for          - Office of Inspector General
                Administration and Management               - Office of the Solicitor
           - Office of the Assistant Secretary for Policy   - Office of Public Affairs
           - Office of Congressional and                    - Office of the Chief Financial Officer
                Intergovernmental Affairs                   - Office of Disability Employment Policy
           - Women’s Bureau                                 - Bureau of International Labor Affairs

The Pension Benefit Guaranty Corporation (PBGC), wholly owned by the Federal government and whose Board of
Directors is chaired by Secretary of Labor, has been designated by OMB as a separate reporting entity for financial
statement purposes and has been excluded from these financial statements.




                                                                                   FY 2013 Agency Financial Report   57
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

A. Reporting Entity - Continued

     2. Major programs

            Income maintenance
            Employment and training
            Labor, employment and pension standards
            Worker safety and health
            Statistics

         The table below shows the relationship between the Department’s strategic goals and its major programs.




     3. Fund accounting structure

         DOL’s financial activities are accounted for by Federal account symbol, using individual funds and fund
         accounts within distinct fund types to report to the U.S. Department of the Treasury’s (Treasury) Bureau of
         the Fiscal Service and to OMB. For financial statement purposes, DOL funds are further classified as funds
         from dedicated collections, fiduciary funds, and all other funds, and are discussed below:

         Funds from dedicated collections

         Funds from dedicated collections are financed by specifically identified revenues, which can be
         supplemented by other financing sources, both of which remain available over time. These revenues and
         financing sources are required by statute to be used for designated purposes and must be accounted for
         separately from the Government’s general revenues. DOL’s funds from dedicated collections are disclosed
         in Note 21 and are discussed below:

         Unemployment Trust Fund (UTF) was established under the authority of Section 904 of the Social Security
         Act of 1935, as amended, to receive, hold, invest, and disburse monies collected under the Federal
         Unemployment Tax Act (FUTA), as well as state unemployment taxes collected by the states and
         transferred to the Fund, and unemployment taxes collected by the Railroad Retirement Board and
         transferred to the Fund.


58   United States Department of Labor
                                                                                           Annual Financial Statements

                                                                    NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                     For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

A. Reporting Entity - Continued

   3. Fund accounting structure - continued

       Funds from dedicated collections - continued

       Black Lung Disability Trust Fund was established under Part C of the Black Lung Benefits Act, to provide
       compensation and medical benefits to coal miners who suffer total disability due to pneumoconiosis (Black
       Lung disease), and compensation benefits to their dependent survivors for claims filed subsequent to June
       30, 1973. Claims filed from the origination of the program until June 30, 1973, are paid by the Special
       Benefits for Disabled Coal Miners fund. (See Note 1.A.3 – All other funds.)

       Gifts and Bequests Fund uses miscellaneous funds received by gift or bequest to support various activities
       of the Secretary of Labor.

       Panama Canal Commission Compensation Fund, was established to provide for the accumulation of funds
       provided by the Commission to pay its workers compensation obligations under the Federal Employees’
       Compensation Act (FECA).

       H-1B Funds provide demonstration grants to regional and local entities to provide technical skills training to
       unemployed and incumbent workers. The funds are supported by fees paid by employers applying for
       foreign workers under the H-1B temporary alien labor certification program authorized by the American
       Competitiveness and Workforce Improvement Act of 1998.

       Fiduciary funds

       Fiduciary funds are used to account for DOL’s fiduciary activities, which involve the collection or receipt and
       subsequent disposition of cash or other assets in which non-Federal entities have an ownership interest
       that the Department must uphold. Fiduciary assets are not assets of DOL or the Federal Government, and
       accordingly, are not recognized on the Department’s balance sheet. The fiduciary assets held by DOL and
       the fiduciary activities related to these assets are disclosed in Note 22 to these financial statements. DOL’s
       fiduciary funds are discussed below.

       Wage and Hour and Public Contracts Restitution Fund, a deposit fund established by the Fair Labor
       Standards Amendments of 1949, receives deposits from employers assessed by the Department for unpaid
       minimum wages or unpaid overtime compensation owed to employees as a result of labor law violations,
       and pays these wages directly to the affected employees.

       Longshore and Harbor Workers’ Compensation Act Trust Fund, established under the authority of the
       Longshore and Harbor Workers’ Compensation Act, provides medical benefits, compensation for lost
       wages, and rehabilitation services for job‐related injuries and diseases or death to private sector workers
       engaged in certain maritime and other employment covered by extensions such as the Defense Base Act.
       The Act authorizes the Department to assess insurance carriers on behalf of these beneficiaries.

       District of Columbia Workmen’s Compensation Act Trust Fund, established under the authority of the
       District of Columbia Workmen’s Compensation Act, provides compensation and medical payments to the
       District of Columbia employees for work‐related injuries or death which occurred prior to July 26, 1982.
       The Act authorizes the Department to assess insurance carriers on behalf of these beneficiaries.


                                                                                  FY 2013 Agency Financial Report   59
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

A. Reporting Entity - Continued

     3. Fund accounting structure - continued

         All other funds

         Salaries and Expenses include appropriated funds which are used to carry out the missions and functions of
         the Department, except where specifically provided for from other departmental funds.

         Training and Employment Services provides for a flexible, decentralized system of Federal and local training
         programs and other services for the economically disadvantaged and others, designed to lead to
         permanent gains in employment, through grants to states and Federal programs, authorized by the
         Workforce Investment Act (WIA) and the Job Training Partnership Act.

         Office of Job Corps supports the administration and management of the Job Corps program, which helps at-
         risk youth who need and can benefit from intensive education and training services to become more
         employable, responsible, and productive citizens.

         State Unemployment Insurance and Employment Service Operations (SUIESO) includes grants to states for
         administering the Unemployment Compensation (UC) and Employment Service (ES) programs. UC
         Programs provide administrative grants to state agencies which pay unemployment benefits to eligible
         individuals and collect state unemployment taxes from employers. The ES Program is a nationwide system
         providing no-fee ES to individuals seeking employment and to employers seeking workers. ES funding
         allotments for state activities are determined upon a demographically based funding formula established
         under the Wagner-Peyser Act, as amended.

         Payments to the Unemployment Trust Fund was initiated as a result of amendments to the Emergency
         Unemployment Compensation (EUC) law, which provided general fund financing to the UTF to pay EUC
         benefits and the related administrative costs. This account is currently used to provide general fund
         financing for EUC benefits and administrative costs under the Supplemental Appropriations Act of 2008, as
         extended by the Recovery Act and other authorizing legislation.

         Advances to the Unemployment Trust Fund and Other Funds provides advances to other accounts within
         the UTF to pay UC whenever the balances in these accounts prove insufficient or whenever
         reimbursements to certain accounts, as allowed by law, are to be made. This account also makes advances
         to the Federal Unemployment Benefits and Allowances account to pay the cost of benefits and services
         under the Trade Adjustment Assistance (TAA) for Workers program; and provides loans to the BLDTF to
         make disability payments whenever the fund balance proves insufficient.

         Federal Unemployment Benefits and Allowances provides for payment of benefits, training, job search,
         relocation allowances, and employment and case management services (and state administrative expenses
         for all benefits other than trade readjustment allowances, reemployment adjustment assistance, and
         alternative TAA) as authorized by the Trade Act of 1974.




60   United States Department of Labor
                                                                                         Annual Financial Statements

                                                                   NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                    For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES – Continued

A. Reporting Entity - Continued
   3. Fund accounting structure - continued

       All other funds - continued

       Short-Time Compensation provides grants to states to implement or improve short-term compensation
       programs as authorized by the Middle Class Tax Relief and Job Creation Act. Short-term compensation
       programs allow employers to voluntarily reduce the number of hours worked by employees in lieu of
       layoffs and permits employees to collect a pro rata portion of the UC which would otherwise be payable to
       the employee if the employee was unemployed.

       Community Service Employment for Older Americans (CSEOA) provides part-time work experience in
       community service activities to unemployed, low income persons aged 55 and over.

       Federal Employees’ Compensation Act Special Benefit Fund provides wage replacement benefits and
       payment for medical services to covered Federal civilian employees injured on the job, Federal employees
       and certain other workers who have incurred a work‐related illness or injury, and survivors of employees
       whose death is attributable to a job‐related injury. The Fund also provides for vocational rehabilitation of
       injured employees to facilitate their return to work. Under extensions of FECA, benefits are also paid to
       certain groups related to War Hazards, non-Federal law enforcement officers, Job Corps enrollees, and
       certain Federally-supported volunteers. Section 10(h) of the amended Longshore and Harbor Workers’
       Compensation Act and the District of Columbia Workmen’s Compensation Act authorized payments from
       the Special Benefit fund for 50% of the annual increase in benefits for compensation and certain related
       benefits.

       Energy Employees Occupational Illness Compensation Fund was established to adjudicate, administer, and
       pay claims for benefits under the Energy Employees Occupational Illness Compensation Program Act
       (EEOICPA) of 2000. The Act authorizes compensation payments and the reimbursement of medical
       expenses to employees of the Department of Energy (DOE) or of private companies under contract with
       DOE, who suffer from specified diseases as a result of their work in the nuclear weapons industry. The Act
       also authorizes compensation to the survivors of these employees under certain circumstances. The Act
       was amended by the Ronald Reagan National Defense Authorization Act of 2005 to provide coverage to
       additional claimants.

       Special Benefits for Disabled Coal Miners was established under the Federal Mine Safety and Health Act to
       pay benefits to coal miners disabled from pneumoconiosis and to their widows and certain other
       dependents. Part B of the Act assigned processing of claims filed from the origination of the program until
       June 30, 1973, to Social Security Administration (SSA), after which time DOL began processing new claims as
       part of the BLDTF (known as Part C claims). SSA continued to administer Part B claims until DOL
       permanently assumed responsibility effective October 1, 2003.

       Working Capital Fund (WCF) maintains and operates a program of centralized services in the national office
       and the field. The Fund is paid in advance by the agencies, bureaus, and offices for which centralized
       services are provided at rates which cover the full cost of operations.




                                                                                FY 2013 Agency Financial Report   61
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

A. Reporting Entity - Continued

     3. Fund accounting structure - continued

         All other funds - continued

         General fund receipt accounts hold non-entity receipts and accounts receivable from DOL activities which
         by law cannot be deposited into funds under DOL control. The Treasury automatically transfers all fund
         balances in these receipt accounts to the General Fund of the Treasury at the end of each fiscal year.

         Deposit funds account for monies held by DOL as an agent for others or monies held temporarily by DOL
         until ownership is determined.

     4. Inter-departmental relationships

         DOL and Treasury are jointly responsible for the operations of the UTF and the BLDTF. DOL is responsible
         for the administrative oversight and policy direction of the programs financed by these trust funds.
         Treasury acts as custodian over monies deposited into the funds and also invests amounts in excess of
         disbursing requirements in Treasury securities on behalf of DOL. DOL consolidates the financial results of
         the UTF and the BLDTF into these financial statements.

B. Basis of Accounting and Presentation

These financial statements present the financial position, net cost of operations, changes in net position and
budgetary resources of DOL, and estimated and actuarial projections, and changes therein, for the Department’s
Black Lung social insurance program, in accordance with U.S. GAAP and the form and content requirements of OMB
Circular No. A-136. To ensure that the Department’s financial statements are meaningful, other liabilities as defined
by OMB Circular No. A-136 have been disaggregated on the balance sheet. These include energy employees
occupational illness compensation benefits, accrued leave, and other liabilities. Except as described in the following
paragraphs, the financial statements have been prepared from the books and records of DOL, and include the
accounts of all funds under the control of the DOL reporting entity. All inter-fund balances and transactions have
been eliminated, except in the Statement of Budgetary Resources, which is presented on a combined basis, as
required by OMB Circular No. A-136.

DOL is a party to allocation transfers with other Federal agencies as both a transferring (parent) entity and a
receiving (child) entity. Allocation transfers are delegations by one department of its authority to obligate budget
authority and outlay funds to another agency as prescribed by law. OMB Circular No. A-136 requires the parent to
report all budgetary and proprietary activity in its financial statements. DOL (parent entity) allocates appropriations
to the U.S. Department of Agriculture and the U.S. Department of the Interior (child entities) to provide funds for
youth training programs. Accordingly, all activity for these allocation accounts is included in the DOL financial
statements. DOL (child entity) receives allocated appropriations from the U.S. Department of State to support
international HIV/AIDS relief efforts and the Executive Office of the President of United States to support an
unemployment insurance (UI) financial data access project (parent entities). Accordingly, activity for these
allocation accounts is excluded from the DOL financial statements and reported by the parent agencies.




62   United States Department of Labor
                                                                                          Annual Financial Statements

                                                                    NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                     For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

B. Basis of Accounting and Presentation - Continued

The Department implemented Federal Accounting Standards Advisory Board (FASAB) Statement of Federal
Financial Accounting Standards (SFFAS) No. 43, “Funds from Dedicated Collections: Amending Statement of Federal
Financial Accounting Standards 27, Identifying and Reporting Earmarked Funds,” in FY 2013. For FY 2013, SFFAS No.
43 amended, among other things, the definition, terminology, presentation, and disclosure of Funds from
Dedicated Collections (formerly called Earmarked Funds).
U.S. GAAP encompasses both accrual and budgetary transactions. Under accrual accounting, revenues are
recognized when earned and expenses are recognized when liabilities are incurred. Budgetary accounting facilitates
compliance with legal constraints on, and controls over, the use of Federal funds. These financial statements are
different from the financial reports, also prepared by DOL pursuant to OMB directives, used to monitor DOL’s use of
budgetary resources.

Throughout these financial statements, assets, liabilities, earned revenue, and costs have been classified according
to the type of entity with whom the transactions were made. Intra-governmental assets and liabilities are those
from or to other Federal entities. Intra-governmental earned revenue represents collections or accruals of revenue
from other Federal entities, and intra-governmental costs are payments or accruals to other Federal entities.

C. Funds with U.S. Treasury

DOL’s cash receipts and disbursements are processed by the U.S. Treasury. Funds with U.S. Treasury represent
obligated and unobligated balances available to finance allowable expenditures, and restricted balances, including
amounts related to expired authority and amounts not available for use by DOL. (See Note 2)

D. Investments
Funds from Dedicated Collections
The Federal Government does not set aside assets to pay future benefits or other expenditures associated with
DOL’s funds from dedicated collections. The cash receipts collected from the public for funds from dedicated
collections are deposited in the U.S. Treasury, which uses the cash for general government purposes. Interest
earning Treasury securities are issued to DOL’s funds from dedicated collections as evidence of the receipts. These
Treasury securities are assets to DOL and liabilities to the U.S. Treasury. Because DOL and the U.S. Treasury are
both parts of the Government, these assets and liabilities offset each other from the standpoint of the government
as a whole. For this reason, they do not represent an asset or a liability in the U.S. Government-wide financial
statements. Treasury securities provide DOL with authority to draw upon the U.S. Treasury to make future benefit
payments or other expenditures. When DOL requires redemption of these securities to make expenditures, the
government finances those expenditures out of accumulated cash balances, by raising taxes or other receipts, by
borrowing from the public or repaying less debt, or by curtailing other expenditures, just as the government
finances all other expenditures.

Balances held in the UTF are invested in non-marketable, special issue Treasury securities (certificates of
indebtedness and bonds) available for purchase exclusively by Federal government agencies and trust funds.
Special issues are purchased and redeemed at face value (cost), which is equivalent to their net carrying value on
the Consolidated Balance Sheet. Interest rates and maturity dates vary. The UTF special issue Treasury bonds may
be redeemed, in whole or in part, prior to their maturity date and continue to accrue interest until fully redeemed.




                                                                                 FY 2013 Agency Financial Report   63
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

D. Investments - Continued

Balances held in the Panama Canal Commission Compensation Fund are invested in marketable Treasury securities.
These investments are stated at amortized costs that equal their net carrying value on the Consolidated Balance
Sheet. Discounts and premiums are amortized using the effective interest method. Interest rates and maturity
dates vary. Management expects to hold these marketable securities until maturity; therefore, no provision is
made in the financial statements for unrealized gains or losses. (See Note 3)

All Other Funds

Balances held in the Energy Employees Occupational Illness Compensation Fund are invested in non-marketable
Treasury one-day certificates. (See Note 3)

E. Accounts Receivable, Net of Allowance
Accounts receivable consists of intra-governmental amounts due to DOL, as well as amounts due from the public.
(See Notes 4 and 23)

     1. Intra-governmental accounts receivable

         The Federal Employees Compensation (FEC) account within the UTF provides unemployment compensation
         to eligible Federal employees (UCFE) and ex-service members (UCX). DOL recognizes as accounts receivable
         amounts due from other Federal agencies for unreimbursed UCFE and UCX benefits. DOL’s FECA Special
         Benefit Fund provides workers’ compensation benefits to eligible Federal workers on behalf of other
         Federal agencies. DOL recognizes as accounts receivable amounts due from other Federal agencies to the
         Special Benefit Fund for unreimbursed FECA benefits.

         DOL also has receivables from other Federal agencies for work performed on their behalf under various
         reimbursable agreements.

     2. Accounts receivable due from the public

         DOL recognizes as accounts receivable state unemployment taxes due from covered employers and
         reimbursements of benefits paid on behalf of other employers. Also recognized as accounts receivable are
         benefit overpayments made by DOL to individuals not entitled to receive the benefit.

         DOL recognizes as accounts receivable amounts due from the public for fines and penalties levied against
         employers by OSHA, MSHA, WHD, and EBSA and for amounts due from grantees and contractors for grant
         and contract costs disallowed by ETA.

     3. Allowance for uncollectible accounts

         Accounts receivable due from the public are stated net of an allowance for uncollectible accounts. The
         allowance is estimated based on an aging of account balances, past collection experience, and an analysis
         of outstanding accounts at year-end. Intra-governmental accounts receivable are considered fully
         collectible.




64   United States Department of Labor
                                                                                              Annual Financial Statements

                                                                      NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                       For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

F. Property, Plant and Equipment, Net of Accumulated Depreciation

The majority of DOL’s property, plant and equipment (PP&E) is general purpose PP&E held by Job Corps centers
owned and operated by DOL through a network of contractors. Internal use software is considered general purpose
PP&E.

DOL’s capitalization thresholds for assets with a useful life of 2 years or longer, and the related depreciable life are
displayed in the following table.

                                                                   Capitalization Threshold          Years

Structures, facilities and improvements                                    $500,000                 20 - 50
Furniture and equipment                                                     $50,000                  2 - 36
Internal use software and software in development                          $500,000                  2 - 15
Construction-in-progress                                                   $500,000                    -
Land                                                                       $500,000                    -

PP&E purchases and additions are stated at cost. Normal repairs and maintenance are charged to expense as
incurred. PP&E are depreciated over their estimated useful lives using the straight-line method of depreciation.

Job Corps center construction costs are capitalized as construction-in-progress until completed. Upon completion
they are reclassified as structures and facilities and depreciated over their estimated useful lives. Structures and
facilities also includes DOL’s only asset under capital lease. Leasehold improvements made at Job Corps centers and
DOL facilities leased from the General Services Administration (GSA) are capitalized as construction-in-progress until
completed. Upon completion, they are reclassified as improvements to leased facilities, and amortized over the
remaining life of the lease or the useful life of the improvements, whichever is shorter, using the straight-line
method of amortization. DOL operating leases have one-year terms with multiple option years. The leases are
cancelable by the government upon appropriate notice as specified in the lease agreements. Historically, these
leases have not been canceled and DOL has no intention to cancel these leases in the near term.

Internal use software development costs are capitalized as software in development until the development stage
has been completed and successfully tested. Upon completion and testing, they are reclassified as internal use
software and amortized over their estimated useful lives. (See Note 5)

G. Advances

DOL advances consist primarily of payments made to state employment security agencies (SESA) and to grantees
and contractors to provide for future DOL program expenditures. These advance payments are recorded by DOL as
an asset, which is reduced when actual expenditures or the accrual of estimated expenditures are recorded by DOL.
(See Note 6)

H. Non-entity Assets

Assets held by DOL which are not available to DOL for obligation are considered non-entity assets. DOL holds non-
entity assets for the Railroad Retirement Board and for transfer to the U.S. Treasury. (See Note 7)



                                                                                    FY 2013 Agency Financial Report   65
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

I. Liabilities

Liabilities represent probable amounts to be paid by DOL as a result of past transactions and are recognized when
incurred, regardless of whether there are budgetary resources available to pay them. However, the liquidation of
these liabilities will consume budgetary resources and cannot be made until available resources have been
obligated. For financial reporting purposes, DOL’s liabilities are classified as covered or not covered by budgetary
resources.

Liabilities are classified as covered by budgetary resources if budgetary resources are available to pay them.
Liabilities are also considered covered by budgetary resources if they are to be funded by permanent indefinite
appropriations, which have been enacted and signed into law and are available for use as of the balance sheet date,
provided that the resources may be apportioned by OMB without further action by the Congress and without a
contingency having to be met first. Liabilities are classified as not covered by budgetary resources if budgetary
resources are not available. These classifications differ from budgetary reporting, which categorizes liabilities as
obligated, consuming budgetary resources, or unobligated, not consuming budgetary resources. Unobligated
liabilities include those covered liabilities for which available budgetary resources have not been obligated, as well
as liabilities not covered for which budgetary resources are not available to pay them. (See Note 12)

J. Debt
DOL’s debt consisted of the following:

     1. Black Lung Disability Trust Fund borrowings from U.S. Treasury

          The Energy Improvement and Extension Act of 2008 (P.L. 110-343, section 113), enacted October 3, 2008,
          authorized restructuring of the BLDTF debt by the repayment at market value the fund’s outstanding
          repayable Advances from U.S. Treasury, using the proceeds from borrowings from Treasury’s Bureau of the
          Fiscal Service and a one‐time appropriation. Pursuant to this authority, in FY 2009, the BLDTF borrowed
          from Treasury $6.496 billion which was structured into 32 discounted instruments with sequential annual
          September 30th maturities over the 32-year period 2009 through 2040, bearing interest rates ranging from
          1.412% to 4.556%. Interest on each instrument accrues until its September 30th maturity date or the
          instrument’s prepayment, whichever occurs first. These debt payments are to be made from the excise
          taxes assessed on mined coal. In the event that the BLDTF cannot repay a discounted instrument when it
          matures, or make benefit payments or other authorized expenditures, the Act authorizes the issuance of
          one-year discounted instruments to finance these activities. The BLDTF issued additional debt on
          September 30, 2012 (due September 30, 2013) bearing an interest rate of 0.174%, and on September 30,
          2013 (due September 30, 2014) bearing an interest rate of 0.098%. (See Note 8)




66   United States Department of Labor
                                                                                          Annual Financial Statements

                                                                   NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                    For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

J. Debt - Continued

    2. Unemployment Trust Fund advances from U.S. Treasury

        UTF advances from U.S. Treasury outstanding as of September 30, 2013, and September 30, 2012, represent
        borrowings from the General Fund of the U.S. Treasury pursuant to the authority of section 1203 of the
        Social Security Act (42 USC 1323) and appropriated through five continuing resolutions with P.L. 112-74 (125
        Stat. 1056) and P.L. 112-175, and P.L. 113-6 to pay unemployment benefits, when amounts in the UTF are
        insufficient to fund these benefits. These repayable advances bear interest rates ranging between 2.375%
        and 3.250%, which were computed as the average interest rate, as of the end of the calendar month
        preceding the issuance date of the advance, for all interest bearing obligations of the United States then
        forming the public debt, to the nearest lower one‐eighth of 1%. Interest on the repayable advances is due
        on September 30th of each year or upon the repayment of an advance. Advances are repaid by transfers
        from the UTF to the General Fund of the U.S. Treasury when the Secretary of the Treasury, in consultation
        with the Secretary of Labor, has determined that the balances in the UTF allow repayment. (See Note 8)

K. Accrued Benefits

The financial statements include a liability for unemployment, workers’ compensation, and disability benefits due
and payable from various DOL funds, as discussed below. (See Note 10)

    1. Unemployment benefits payable

        The UTF provides benefits to unemployed workers who meet state and Federal eligibility requirements.
        Regular and extended unemployment benefits are paid from state accounts within the UTF, financed
        primarily by a state unemployment tax on employer payrolls. Fifty percent of the cost of extended
        unemployment benefits is paid from the Extended Unemployment Compensation Account (EUCA) within
        the UTF, financed by a Federal unemployment tax on employer payrolls. The Recovery Act provided for a
        100% Federal funding of Extended Benefits (EB) through December 2009. This 100% Federal funding
        provision has been extended several times, with phase out through December 31, 2013.

        The Recovery Act also provided for Federal Additional Unemployment Compensation (FAUC), a $25 weekly
        supplement entirely funded from Treasury General Fund revenues, payable through December 2009, to
        individuals who were entitled under state law to otherwise receive any type of UC. FAUC benefits were
        extended several times, with phase-out of benefit eligibility by December 2010. Although the vast majority
        of FAUC activity has ceased, states are still reporting residual transactions related to the program on
        monthly reports.

        EUC benefits, also paid from EUCA, were first authorized by the Supplemental Appropriations Act of 2008.
        These benefits were extended by the Recovery Act and other authorizing legislation through January 1,
        2014, and are currently funded entirely from General Fund appropriations.

        Unemployment benefits to unemployed Federal workers are paid from the FEC account within the UTF,
        which is then reimbursed by the responsible Federal agency.




                                                                                 FY 2013 Agency Financial Report   67
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

K. Accrued Benefits - Continued

     1. Unemployment benefits payable - continued

         A liability is recognized for unpaid unemployment benefits applicable to the current period and for benefits
         paid by states that have not been reimbursed by the fund. DOL also recognizes a liability for Federal
         employees’ unpaid unemployment benefits for existing claims filed during the current period, payable in
         the subsequent period, to the extent reimbursable by other Federal entities.

     2. Federal employees disability and 10(h) benefits payable

         The FECA Special Benefit Fund provides income and medical cost protection to covered Federal civilian
         employees injured on the job, employees who have incurred a work-related occupational disease and
         beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. The
         fund is reimbursed by other Federal agencies for the FECA benefit payments made on behalf of their
         workers. The fund assumes the liability for unreimbursed (non-chargeable) FECA benefits. The fund also
         provides 50% of the annual cost-of-living adjustments for pre-1972 compensation cases under the authority
         of Section 10(h) of the Longshore and Harbor Workers’ Compensation Act and the District of Columbia
         Workmen’s Compensation Act. A liability for FECA benefits payable by the Special Benefit Fund to the
         employees of DOL and other Federal agencies and for 10(h) benefits is accrued to the extent of unpaid
         benefits applicable to the current period.

     3. Black lung disability benefits payable

         The BLDTF and Special Benefits for Disabled Coal Miners provide compensation and medical benefits for
         eligible coal miners who are totally disabled due to pneumoconiosis (black lung disease). DOL recognizes a
         liability for disability benefits to the extent of unpaid benefits applicable to the current period.

     4. Energy employees occupational illness compensation benefits payable

         The Energy Employees Occupational Illness Compensation Fund provides benefits to eligible current or
         former employees of the DOE and its contractors suffering from designated illnesses incurred as a result of
         their work with DOE. Benefits are also paid to certain survivors of those employees and contractors, as well
         as to certain beneficiaries of the Radiation Exposure Compensation Act (RECA). DOL recognizes a liability for
         disability benefits to the extent of unpaid benefits applicable to the current period.

L. Future Workers’ Compensation Benefits

The financial statements include an actuarial liability for future workers’ compensation benefits payable by DOL to
its employees, to employees of the Panama Canal Commission and to enrollees of the Job Corps, as well as benefits
not chargeable to other Federal agencies, which must be paid by DOL’s FECA Special Benefit Fund. The liability
includes the expected payments for death, disability, medical, and miscellaneous costs for approved compensation
cases, as well as a component for incurred but not reported claims. The liability is determined using historical
benefit payment patterns related to injury years to predict the future payments.

The actuarial methodology provides for the effects of inflation and adjusts historical payments to current year
constant dollars by applying wage inflation factors (cost of living adjustments or COLA) and medical inflation factors

68   United States Department of Labor
                                                                                             Annual Financial Statements

                                                                       NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                        For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

L. Future Workers’ Compensation Benefits - Continued

(consumer price index-medical or CPIM) to the calculation of projected benefits. The COLAs and CPIMs used in the
projections for FY 2013 and FY 2012 were as follows:

                                       COLA                     CPIM
                     FY         2013          2012       2013          2012

                    2013        N/A           2.83%      N/A           3.65%
                    2014        1.67 %        2.03%      3.46 %        3.66%
                    2015        1.80 %        1.93%      3.82 %        3.72%
                    2016        2.20 %        2.00%      3.83 %        3.73%
                    2017        2.20 %        2.03%      3.82 %        3.80%
                    2018+       2.20 %        2.03%      3.82 %        3.80%

In FY 2013, DOL refined the approach for selecting the interest rate assumptions and enhanced matching between
the timing of cash flows and interest rates. For FY 2013, projected annual payments were discounted to present
value based on OMB’s interest rate assumptions which were interpolated to reflect the average duration for income
payments of 14.7 years and medical payments of 9.6 years. For FY 2012, projected annual payments were
discounted to present value based on OMB’s interest rate assumptions for ten-year Treasury notes. For FY 2013,
interest rate assumptions were 2.727% in year one and 3.127% in year two and thereafter for income payments and
2.334% in year one and 2.869% in year two for medical payments. For FY 2012, interest rate assumptions were
2.293% in year one and 3.138% in year two and thereafter for both income payments and medical payments.

M. Energy Employees Occupational Illness Compensation Benefits

The Energy Employees Occupational Illness Compensation Fund, established under the authority of the EEOICPA,
provides benefits to eligible current or former employees of DOE and its contractors, or to certain survivors of those
employees and contractors, as well as benefits to certain beneficiaries of RECA. DOL is responsible for adjudicating
and administering claims filed under the EEOICPA. Effective July 31, 2001, compensation of $150,000 and payment
of medical expenses from the date a claim is filed are available to covered individuals suffering from designated
illnesses incurred as a result of their work with DOE. Prior to October 2004, compensation of $50,000 and payment
of medical expenses from the date a claim is filed are available to individuals eligible for compensation under RECA.
As a result of the October 2004 changes, subsequent RECA cases are paid the full $150,000 under EEOICPA.

The Ronald Reagan National Defense Authorization Act of 2005 amended EEOICPA to include Subtitle E – Contractor
Employee Compensation. The amended program grants workers’ compensation benefits to covered employees and
their families for illness and death arising from exposure to toxic substances at a DOE facility. The amendment also
makes it possible for uranium workers as defined under Section 5 of RECA to receive compensation under Part E for
illnesses due to toxic substance exposure at a uranium mine or mill covered under that Act.

In FY 2013, DOL refined the approach for selecting the interest rate assumptions and enhanced matching between
the timing of cash flows and interest rates. For FY 2013, projected payments were discounted to present value based
on OMB’s interest rate assumptions which were interpolated to reflect the average duration for compensation
payments of 9.2 years and medical payments of 17.3 years.




                                                                                    FY 2013 Agency Financial Report   69
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

M. Energy Employees Occupational Illness Compensation Benefits - Continued
DOL has recognized a $16.0 billion and $15.6 billion actuarial liability for estimated future benefits payable by DOL
as of September 30, 2013 and 2012, respectively, to eligible individuals under the EEOICPA. As of September 30,
2013, the undiscounted liability is $23.0 billion discounted to a present value liability of $16.0 billion based on an
interest rate of 2.826% for compensation payments and 3.245% for medical payments projected over a 58-year
period. As of September 30, 2012, the undiscounted liability was $22.5 billion discounted to a present value liability
of $15.6 billion based on an interest rate of 3.138% for both compensation payments and medical payments
projected over a 58-year period. The estimated liability includes the expected compensation and estimated
medical payments for approved compensation cases and cases filed pending approval, as well as claims incurred but
not yet filed. The actuarial projection methodology provided an estimate of the ultimate number of reported cases
as a result of estimating future reported claims from the historical patterns of reported claims and subsequent claim
approval rates. Medical payments were derived by estimating an average benefit award per living employee
claimant.

N. Accrued Leave
A liability for annual and compensatory leave is accrued as leave is earned and paid when leave is taken. The
balance of leave earned but not taken will be paid from future funding sources. Sick leave and other types of non-
vested leave are expensed as taken.

O. Employee Health and Life Insurance Benefits
DOL employees are eligible to participate in the contributory Federal Employees Health Benefit Program (FEHBP)
and the Federal Employees Group Life Insurance Program (FEGLIP). DOL matches the employee contributions to
each program to pay for current benefits. During FY 2013, DOL’s contributions to the FEHBP and FEGLIP were
$110.1 million and $2.4 million, respectively. During FY 2012, DOL’s contributions to the FEHBP and FEGLIP were
$105.7 million and $2.4 million, respectively. These contributions are recognized as current operating expenses.

P. Other Retirement Benefits
DOL employees eligible to participate in the FEHBP and the FEGLIP may continue to participate in these programs
after their retirement. DOL recognizes a current operating expense for the future cost of these other retirement
benefits (ORB) at the time the employee’s services are rendered. This ORB expense must be financed by the U.S.
Office of Personnel Management (OPM). Using cost factors supplied by OPM, DOL recorded ORB imputed costs and
imputed financing sources of $70.3 million in FY 2013 and $79.9 million in FY 2012.

Q. Employee Pension Benefits
DOL employees participate in either the Civil Service Retirement System (CSRS) or the Federal Employees
Retirement System (FERS). For employees participating in CSRS, 7.0% of their gross earnings is withheld and
transferred to the Civil Service Retirement and Disability Fund. DOL contributes an additional 7.0% of the employee
gross earnings to the Civil Service Retirement and Disability Fund. P.L. 112-96, Section 5001, the “Middle Class Tax
Relief and Job Creation Act of 2012,” changed the employee and employer contributions for new employees
participating in FERS. For those employees designated by OPM as FERS Revised Annuity Employees (RAEs, i.e., new
employees who, in general, were hired on or after January 1, 2013), DOL withholds 3.1% of gross earnings and
makes a 9.6% employer contribution; for FERS employees hired on December 31, 2012, and before, DOL withholds
0.8% of gross earnings and makes an 11.9% employer contribution. This total is transferred to the Federal
Employees’ Retirement Fund. The CSRS and FERS retirement funds are administered by OPM. DOL contributions to

70   United States Department of Labor
                                                                                          Annual Financial Statements

                                                                    NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                     For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

Q. Employee Pension Benefits - Continued

the CSRS and FERS are recognized as current operating expenses. FERS participants are also covered under the
Federal Insurance Contribution Act (FICA) and are subject to withholdings. DOL makes matching FICA contributions,
recognized as current operating expenses. DOL’s matching contributions were $115.5 million in FY 2013 and $111.5
million in FY 2012.

The Thrift Savings Plan (TSP) is a defined contribution retirement savings and investment plan for employees
covered by either CSRS or FERS. CSRS participants may contribute up to $17,500 of their gross pay to the TSP during
calendar year 2013 ($17,000 in calendar year 2012), but there is no departmental matching contribution. FERS
participants may contribute up to $17,500 of their gross pay to the TSP during calendar year 2013 ($17,000 in
calendar year 2012). CSRS and FERS participants aged 50 years or older may also contribute an additional $5,500
each calendar year in “catch-up” contributions during calendar years 2013 and 2012, but there is no departmental
matching on “catch-up” contributions. For employees covered under FERS, DOL contributes 1% of the employees’
gross pay to the TSP. DOL also matches employees’ contributions dollar-for-dollar on the first 3% of pay contributed
each pay period and 50 cents on the dollar for the next 2% of pay contributed. DOL contributions to the TSP are
recognized as current operating expenses. Employee and employer contributions to the TSP are transferred to the
Federal Retirement Thrift Investment Board. (See Note 14)

DOL recognizes the full cost of providing future CSRS and FERS pension benefits to covered employees at the time
the employees’ services are rendered. The pension expense recognized in the financial statements equals the
service cost for covered DOL employees, less amounts contributed by these employees. Service cost represents the
actuarial present value of benefits attributed to services rendered by covered employees during the accounting
period.

The measurement of service cost requires the use of actuarial cost methods to determine the percentage of the
employees’ basic compensation sufficient to fund their projected pension benefit. These percentages (cost factors)
are provided by OPM, and applied by DOL to the basic annual compensation of covered employees to arrive at the
amount of total pension expense to be recognized in DOL’s financial statements.

The excess of total pension expense over the amount contributed by the Department and by DOL’s employees
represents the amount of pension expense which must be financed directly by OPM. DOL recognized an imputed
cost and an imputed financing source equal to the excess amount. DOL does not recognize in its financial
statements FERS or CSRS assets, accumulated plan benefits or unfunded liabilities, if any, applicable to its
employees. (See Note 14)




                                                                                 FY 2013 Agency Financial Report   71
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

R. Net Position

DOL’s net position consists of the following:

     1. Unexpended appropriations

         Unexpended appropriations include the unobligated balances and undelivered orders of DOL’s appropriated
         funds. Unobligated balances associated with appropriations that expire at the end of the fiscal year remain
         available for obligation adjustments, but not new obligations, until those appropriations are cancelled, five
         years after the appropriations expire. Unexpired multi-year and no-year appropriations remain available to
         DOL for obligation in future periods.

     2. Cumulative results of operations

         Cumulative results of operations include the accumulated historical difference between expenses
         consuming budgetary resources and financing sources providing budgetary resources in DOL’s trust,
         revolving, and special funds; liabilities not consuming budgetary resources net of assets not providing
         budgetary resources; and DOL’s net investment in capitalized assets.

S. Net Cost of Operations

     1. Operating costs

         Full operating costs are comprised of all direct costs consumed by programs and those indirect costs which
         can be reasonably assigned or allocated to programs. Full costs are reduced by exchange (earned) revenues
         to arrive at net program cost. The full and net operating costs of DOL’s major programs are presented in the
         Consolidated Statement of Net Cost, and are also reported by major program agency and major program in
         Note 15.

     2. Earned revenue

         Earned revenues arise from exchange transactions which occur through the provision of goods and services
         for a price, and are deducted from the full cost of DOL’s major programs to arrive at net program cost.
         Earned revenues are recognized by DOL to the extent reimbursements are payable from other Federal
         agencies and from the public, as a result of costs incurred or services performed on their behalf. Major
         sources of DOL’s earned revenue include reimbursements to the FECA Special Benefit Fund from Federal
         agencies for the costs of disability compensation and medical care provided to or accrued on behalf of their
         employees and reimbursements to the UTF from Federal agencies for the cost of unemployment benefits
         provided to or accrued on behalf of their former employees. (See Note 15)

T. Budgetary Financing Sources

Budgetary financing sources other than earned revenues provide funding for the Department’s net cost of
operations and are reported on the Consolidated Statement of Changes in Net Position. These financing sources
include appropriations received, less appropriations transferred and not available, non-exchange revenue, and



72   United States Department of Labor
                                                                                         Annual Financial Statements

                                                                   NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                    For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

T. Budgetary Financing Sources - Continued

transfers without reimbursement, as discussed below:

    1. Appropriations received, appropriations used, appropriations transferred, and adjustments

       DOL receives financing sources through congressional appropriations to support its operations. A financing
       source is recognized for these appropriated funds received, less appropriations transferred, or adjusted due
       to rescission, cancellation, sequestration, or return of permanent indefinite authority. Appropriations are
       considered used as a financing source when goods and services are received or benefits are provided.

   2. Non-exchange revenue

       Non-exchange revenues arise primarily from the Federal government’s power to demand payments from
       the public. Non-exchange revenues are recognized by DOL on the Consolidated Statement of Changes in
       Net Position and are discussed below. (See Note 16)

       Employer taxes

       Employer tax revenues are recognized on a modified cash basis, to the extent of cash transferred by the
       collecting entity to DOL, plus the change in inter-entity balances between the collecting entity and DOL.
       Inter-entity balances represent revenue received by the collecting entity, net amounts due to the collecting
       entity and adjustments made to previous transactions by the collecting entity which have not been
       transferred to DOL.

       Federal and state unemployment taxes represent non-exchange revenues collected from employers based
       on wages paid to employees in covered employment. Federal unemployment taxes are collected by the
       Internal Revenue Service and transferred to designated accounts within the UTF. State unemployment taxes
       are collected by each state and deposited in separate state accounts within the UTF. Among other things,
       Federal unemployment taxes are used to pay the Federal share of extended unemployment benefits and to
       provide for Federal and state administrative expenses related to the operation of the UI program,
       employment services including veterans’ ES, and foreign labor certifications (FLC). Additional Federal
       collections from states with advances from the fund that have been outstanding for more than two years
       are used to reduce states’ outstanding advance balances. State unemployment taxes are restricted in their
       use to the payment of unemployment benefits.

       Interest

       The UTF, the Panama Canal Commission Compensation Fund, and the Energy Employees Occupational
       Illness Compensation Fund receive interest on fund investments. The UTF receives interest from states that
       had accounts with loans payable to the Federal Unemployment Account (FUA) at the end of the prior fiscal
       year. Interest is also earned on Federal funds in the possession of non-Federal entities. Interest is
       recognized as non-exchange revenue when earned.

       Reimbursement of unemployment benefits

       The UTF receives reimbursements from state and local government entities and non-profit organizations for
       the cost of unemployment benefits provided to or accrued on behalf of their employees. These
       reimbursements are recognized as non-exchange revenue when earned.


                                                                                FY 2013 Agency Financial Report   73
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

T. Budgetary Financing Sources - Continued

     3. Transfers without reimbursement

         Transfers recognized as budgetary financing sources by DOL include transfers from the Department of
         Homeland Security H-1B Nonimmigrant Petitioner Account to H-1B Funds in ETA and WHD. There are also
         transfers between DOL entities, primarily for the administration of the UI program and of appropriations for
         extended unemployment benefits. (See Note 17)

U. Other Financing Sources

Other financing sources include items that do not represent budgetary resources.

     1. Imputed financing from costs absorbed by others

         A financing source is imputed by DOL to provide for pension and other retirement benefit expenses
         recognized by DOL but financed by OPM. (See Notes 1-P, 1-Q, and 14)

     2. Transfers without reimbursement

         Transfers recognized as other financing sources by DOL include the transfers of property from the GSA. (See
         Note 17)

V. Custodial Activity
DOL collects and transfers to the General Fund of the U.S. Treasury custodial non-exchange revenues for penalties
levied against employers by OSHA, MSHA, WHD, and EBSA for regulatory violations; and for FECA administrative
costs assessed against government corporations in excess of amounts reserved to finance capital improvements in
the FECA Special Benefit Fund; and for ETA collections and administrative changes and restitution payments. These
collections are not available to the agencies for obligation or expenditure. Penalties and other assessments are
recognized as custodial revenues when collected or subject to collection. (See Note 20)

W. Significant Assumptions Used in the Statement of Social Insurance and Statement of Changes in
   Social Insurance Amounts

     1. Program Background

         The Black Lung Disability Benefit Program provides for compensation, medical, and survivor benefits for
         eligible coal miners who are totally disabled due to pneumoconiosis (black lung disease) arising out of their
         coal mine employment and the BLDTF provides benefit payments when no responsible mine operator can
         be assigned the liability. The OWCP administers the program.

         The Federal Coal Mine Health and Safety Act sets Black Lung benefits at 37.5% of the base salary of a
         Federal employee at level GS-2, Step 1. Black lung disability benefit payments are funded by excise taxes
         from coal mine operators based on the sale of coal, as are the fund’s administrative costs. These taxes are
         collected by the Internal Revenue Service and transferred to the BLDTF, which was established under the
         authority of the Black Lung Benefits Revenue Act, and administered by the U.S. Department of the Treasury.


74   United States Department of Labor
                                                                                           Annual Financial Statements

                                                                    NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                     For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

W. Significant Assumptions Used in the Statement of Social Insurance and Statement of Changes in
   Social Insurance Amounts - Continued

   1. Program Background - continued

      P.L. 110-343, Division B-Energy Improvement and Extension Act of 2008, enacted on October 3, 2008,
      among other things, restructured the BLDTF debt by refinancing the outstanding high interest rate
      repayable advances with low interest rate discounted debt instruments similar in form to zero-coupon
      bonds, plus a one-time appropriation. This Act also allowed that any subsequent debt issued by the BLDTF
      may be used to make benefit payments, other authorized expenditures, or to repay debt and interest from
      the initial refinancing. (See Notes 1-J and 8)

   2. Significant Assumptions

      The significant assumptions used in the projections for the Statement of Social Insurance (SOSI) are the coal
      excise tax revenue estimates, the tax rate structure, the number of beneficiaries, life expectancy, Federal
      civilian pay raises, and medical cost inflation. These assumptions affect the amounts reported on the SOSI
      summary section and the Statement of Changes in Social Insurance Amounts (SCSIA).

      Treasury’s Office of Tax Analysis provides estimates of future receipts of the black lung excise tax. Its
      estimates are based on projections of future coal production and sale prices prepared by the Energy
      Information Agency of the U.S. Department of Energy. Treasury’s Office of Tax Analysis provides the first
      eleven years of tax receipt estimates. The remaining years are estimated using a growth rate based on both
      historical tax receipts and the Treasury’s estimated tax receipts. The coal excise tax rates of $1.10 per ton of
      underground-mined coal and $0.55 per ton of surface-mined coal sold, with a cap of 4.4% of sales price,
      continue until the earlier of December 31, 2018 or the first December 31 in which there exists no (1)
      balance of repayable debt described in section 9501 of the Internal Revenue Code and (2) unpaid interest
      on the debt. At that time, the tax rates revert to $0.50 per ton of underground-mined coal and $0.25 per
      ton of surface-mined coal sold, with a limit of 2.0% of sales price.

      The beneficiary population data is updated from information supplied by the program. The beneficiary
      population is a nearly closed universe in which attrition by death exceeds new entrants by a ratio of more
      than ten to one. Projections for new participants are included in the overall projections and are considered
      immaterial. Therefore, the difference between the open group measure and the closed group measure due
      to new participants is immaterial and the same measure is presented for both the open group and the
      closed group.

      SSA life tables are used to project the life expectancies of the beneficiary population. OMB supplies
      assumptions for future monthly benefit rate increases based on increases in the Federal pay scale and future
      medical cost inflation based on increases in the CPIM, which are used to calculate future benefit costs.
      During the current projection period, the future benefit rate (annualized for the fiscal year) increases 2.78%
      in 2014, 3.47% in 2015, and 3.4% in each year thereafter and medical cost increases 3.7% in 2014 and 3.8%
      in each year thereafter. Estimates for administrative costs for the first 11 years of the projection are supplied
      by DOL’s Budget Office, based on current year enacted amounts, while later years are based on the number
      of projected beneficiaries.




                                                                                   FY 2013 Agency Financial Report   75
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

W. Significant Assumptions Used in the Statement of Social Insurance and Statement of Changes in
   Social Insurance Amounts - Continued

     2. Significant Assumptions - continued

         The projection period ends September 30, 2040, because the primary purpose of the BLDTF, which was
         established in 1978, is to compensate the victims of coal mine dust exposures which occurred prior to 1970.
         By the end of FY 2040, not only the disabled miners and their widows in that class, but also virtually all of
         their eligible dependent disabled adult children will be deceased.

         In FY 2013, DOL refined the approach for selecting the interest rate assumptions and enhanced matching
         between the timing of cash flows and interest rates. For FY 2013, projected annual payments were
         discounted to present value based on OMB’s interest rate assumptions which were interpolated to reflect
         the average duration of payments between 21.3 and 25.4 years for income payments, medical payments,
         administrative expenses, and coal excise tax collections. The interest rates used to discount current year
         projections are between 2.79% and 2.95% for income payments, medical payments, administrative
         expenses, and coal excise tax collections. For FYs 2009 through 2012, the projections were discounted using
         an interest rate published by Treasury as of the start of the projection period for Treasury loans to
         government agencies for loans with a duration that approximated the projection period. The valuation date
         for the FY 2013 and FY 2012 information presented in the SOSI, including the summary section, and in the
         SCSIA is September 30, 2013, and 2012, respectively.

         The accumulated deficit of all past disbursements over past cash receipts, including interest on investments,
         is ($5.9) billion, the amount of the trust fund net position deficit at the start of the projection period,
         September 30, 2013. The excess of the present value of estimated future excise tax income over the
         actuarial present value of future benefit payments and present value of estimated future administrative
         costs during the projection period for current and future participants (open and closed group measure) is
         calculated by adding the outflows of:

             (a) actuarial present value of future benefit payments during the projection period to disabled coal
                 miners and dependent survivors and
             (b) present value of estimated future administrative costs during the projection period;

         and then subtracting the inflows of:

             (c) the present value of estimated future excise tax income during the projection period.

         As a result of changes in the assumptions described above, in FY 2013 the open and closed group measure
         decreased by ($38.2) million primarily due to projected lower coal excise tax revenues and the change in the
         interest rates used to discount the cash flows from 2.75% in FY 2012 to between 2.79% and 2.95% in FY
         2013 for income payments, medical payments, administrative expenses, and coal excise tax collections,
         offset in part due to lower beneficiary costs. In FY 2012, the open and closed group measure decreased by
         ($61.7) million primarily due to projected lower coal excise tax revenues and higher beneficiary costs, offset
         in part due to the change in the interest rate used to discount the cash flows from 3.375% in FY 2011 to
         2.75% in FY 2012.




76   United States Department of Labor
                                                                                          Annual Financial Statements

                                                                   NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                    For the Years Ended September 30, 2013 and 2012

NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES - Continued

X. Tax Exempt Status

As an agency of the Federal government, the Department is exempt from all taxes imposed by any governing body
whether it is a Federal, state, commonwealth, local, or foreign government.

Y. Application of Critical Accounting Estimates

The financial statements are based on the selection of accounting policies and the application of significant
accounting estimates, some of which require management to make significant assumptions.

Estimates and assumptions affect the reported amounts of assets and liabilities and the reported amounts of
revenues and expenses during the reporting period. Actual results could differ from those estimates.

Estimates and assumptions also affect the amounts reported on the SOSI and the SCSIA. Further, the estimates are
based on current conditions that may change in the future. Actual results could differ materially from the estimated
amounts. The financial statements include information to assist in understanding the effect of changes in
assumptions to the related information.

Z. Reclassifications

The FY 2012 financial statements were reclassified to conform to the FY 2013 financial statement presentation
requirements and include changes in the presentation of the Combined Statement of Budgetary Resources in
accordance with the requirements of OMB Circular No. A-136. The reclassifications had no effect on budgetary
resources as previously reported.




                                                                                 FY 2013 Agency Financial Report   77
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 2 - FUNDS WITH U.S. TREASURY

Funds with U.S. Treasury as of September 30, 2013, consisted of the following:

(Dollars in thousands)                           Revolving funds        Trust funds             Special funds         General funds         Other                Total


  Unobligated Balance Available              $            11,187 $                    163   $          370,975    $        2,743,221    $                -   $    3,125,546
  Unobligated Balance Unavailable                         10,500                     -                  39,094             1,480,120                     -        1,529,714
  Obligated Balance Not Yet Disbursed                     89,636              253,240                  260,221             7,570,932                     -        8,174,029
  Non-Budgetary Fund Balance with Treasury                      -             276,804                         -                   66                     -          276,870
Total Entity Assets                                      111,323              530,207                  670,290            11,794,339                     -       13,106,159
  Non-entity Assets                                             -                 822                         -                     -               3,738             4,560
Fund Balance with Treasury                   $           111,323    $         531,029       $          670,290    $       11,794,339    $           3,738    $   13,110,719


Funds with U.S. Treasury as of September 30, 2012, consisted of the following:

(Dollars in thousands)                           Revolving funds        Trust funds             Special funds         General funds         Other                Total

  Unobligated Balance Available              $             1,350    $                  80 $            212,151    $        1,606,952 $                   -   $    1,820,533
  Unobligated Balance Unavailable                         15,670                         -              89,208             2,465,834                     -        2,570,712
  Obligated Balance Not Yet Disbursed                     95,582              (260,156)                303,149             7,495,730                     -        7,634,305
  Non-Budgetary Fund Balance with Treasury                      -                     -                       -                     -                    -                 -
Total Entity Assets                                      112,602              (260,076)                604,508            11,568,516                     -       12,025,550
  Non-entity Assets                                             -                (5,722)                      -                     -               3,355             (2,367)
Fund Balance with Treasury                   $           112,602    $         (265,798) $              604,508    $       11,568,516    $           3,355    $   12,023,183


Obligated and unobligated balances differ from the amounts reported on the Statement of Budgetary Resources
because budgetary balances are supported by amounts other than Fund Balance with Treasury, such as
investments. Non-Budgetary Fund Balance with Treasury consists of amounts included in Fund Balance with
Treasury but excluded from the Department’s budgetary resources, such as temporarily sequestered UTF budgetary
authority.

The negative fund balance reported as of September 30, 2012, relates to the UTF and is the result of the timing of
processing the investments and redemptions of UTF. The investments and redemptions relating to the last business
day of the month are not processed until the first day of the next month. This results in a negative cash position for
the preceding business day when the disbursements are greater than the receipts to the fund.

Annual and multi-year budget authority expires at the end of its period of availability. During the first through the
fifth expired years, the unobligated balance is unavailable and may be used to adjust obligations and disbursements
that were recorded before the budgetary authority expired or to meet a legitimate or bona fide need arising in the
fiscal year for which the appropriation was made. The unobligated balance for no-year budget authority may be
used to incur obligations indefinitely for the purpose specified by the appropriation act. No-year budget authority
unobligated balances, except those specifically exempt, are subject to the annual apportionment and allotment
process.

Unobligated Balance Available as of September 30, 2013 and 2012, includes $991.7 million and $1.0 billion,
respectively, of funds apportioned for use in the subsequent year.




78     United States Department of Labor
                                                                                                                   Annual Financial Statements

                                                                                       NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                                        For the Years Ended September 30, 2013 and 2012

NOTE 3 - INVESTMENTS

Investments as of September 30, 2013, consisted of the following:

                                                  Face              Premium                  Interest               Net             Market
(Dollars in thousands)                            Value            (Discount)               Receivable             Value            Value

Unemployment Trust Fund
  Non-marketable
  Special issue U.S. Treasury Bonds
  2.625% maturing June 30, 2014               $    5,198,978   $                   -    $          34,118      $    5,233,096   $     5,198,978
  2.375% maturing June 30, 2015                    4,000,000                       -               23,750           4,023,750         4,000,000
  2.375% maturing June 30, 2016                    3,751,987                       -               22,277           3,774,264         3,751,987
  Special issue Certificate of Indebtedness
  2.375% maturing June 30, 2014                   16,527,070                       -               49,327          16,576,397        16,527,070

                                                  29,478,035                       -              129,472          29,607,507        29,478,035

Panama Canal Commission
 Compensation Fund
  Marketable
  U.S. Treasury Notes
  4.250% maturing November 15, 2013                   51,509                    264                      821           52,594            51,509

Energy Employees Occupational Illness
 Compensation Fund
  Non-marketable
  One day certificate
  0.030% maturing October 1, 2013                     24,177                       -                       -           24,177            24,177

                                              $   29,553,721   $                264     $         130,293      $   29,684,278   $    29,553,721



Entity investments                            $   29,367,286   $                264     $         129,474      $   29,497,024   $    29,367,286
Non-entity investments                        $      186,435   $                   -    $             819      $      187,254   $       186,435

                                              $   29,553,721   $                264     $         130,293      $   29,684,278   $    29,553,721




                                                                                                          FY 2013 Agency Financial Report    79
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 3 - INVESTMENTS - Continued

Investments as of September 30, 2012, consisted of the following:

                                                    Face              Premium                  Interest               Net             Market
 (Dollars in thousands)                             Value            (Discount)               Receivable             Value            Value

 Unemployment Trust Fund
   Non-marketable
   Special issue U.S. Treasury Bonds
   2.625% maturing June 30, 2013                $    3,235,073   $                   -    $          21,230      $    3,256,303   $     3,235,073
   2.625% maturing June 30, 2014                     5,198,978                       -               34,118           5,233,096         5,198,978
   Special issue Certificates of Indebtedness
   2.625% maturing June 30, 2013                    10,376,666                       -               53,798          10,430,464        10,376,666
   2.500% maturing June 30, 2013                     1,861,861                       -                  829           1,862,690         1,861,861

                                                    20,672,578                       -              109,975          20,782,553        20,672,578

 Panama Canal Commission
  Compensation Fund
   Marketable
   U.S. Treasury Notes
   4.000% maturing November 15, 2012                    51,886                    245                      778           52,909            51,886
   3.625% maturing May 15, 2013                          5,041                      (1)                     69            5,109             5,041
                                                        56,927                    244                      847           58,018            56,927



                                                $   20,729,505   $                244     $         110,822      $   20,840,571   $    20,729,505



 Entity investments                             $   20,553,677   $                244     $         109,887      $   20,663,808   $    20,553,677
 Non-entity investments                                175,828                       -                  935             176,763           175,828

                                                $   20,729,505   $                244     $         110,822      $   20,840,571   $    20,729,505




80    United States Department of Labor
                                                                                           Annual Financial Statements

                                                                   NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                    For the Years Ended September 30, 2013 and 2012

NOTE 4 - ACCOUNTS RECEIVABLE, NET OF ALLOWANCE

Accounts receivable as of September 30, 2013, consisted of the following:

                                                                    Gross                                      Net
(Dollars in thousands)                                            Receivables         Allowance             Receivables

Entity intra-governmental assets
  Due for UCFE and UCX benefits                               $         519,690   $                -    $         519,690
  Due for workers' compensation benefits                              5,298,168                    -            5,298,168
  Other                                                                   6,648                    -                6,648
                                                                      5,824,506                    -            5,824,506

Entity assets
  State unemployment taxes                                            1,403,161            (939,261)              463,900
  Due from reimbursable employers                                       861,286              (75,979)             785,307
  Benefit overpayments                                                4,480,925          (3,765,155)              715,770
  Other                                                                  10,395                     -              10,395
                                                                      6,755,767          (4,780,395)            1,975,372

Non-entity assets
  Fines and penalties                                                   141,499             (25,944)              115,555

                                                                      6,897,266          (4,806,339)            2,090,927

                                                              $      12,721,772   $      (4,806,339)    $       7,915,433



Accounts receivable as of September 30, 2012, consisted of the following:

                                                                    Gross                                      Net
(Dollars in thousands)                                            Receivables         Allowance             Receivables

Entity intra-governmental assets
  Due for UCFE and UCX benefits                               $         578,111   $                -    $         578,111
  Due for workers' compensation benefits                              5,387,349                    -            5,387,349
  Other                                                                  17,000                    -               17,000
                                                                      5,982,460                    -            5,982,460

Entity assets
  State unemployment taxes                                            1,454,900            (917,141)              537,759
  Due from reimbursable employers                                     1,063,942            (115,773)              948,169
  Benefit overpayments                                                4,732,359          (4,051,100)              681,259
  Other                                                                   9,505                    -                9,505
                                                                      7,260,706          (5,084,014)            2,176,692

Non-entity assets
  Fines and penalties                                                   138,040             (56,456)               81,584

                                                                      7,398,746          (5,140,470)            2,258,276

                                                              $      13,381,206   $      (5,140,470)    $       8,240,736




                                                                                  FY 2013 Agency Financial Report         81
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 5 - PROPERTY, PLANT AND EQUIPMENT, NET OF ACCUMULATED DEPRECIATION

Property, plant and equipment as of September 30, 2013, consisted of the following:

                                                                                       2013
                                                                                    Accumulated
                                                                                    Depreciation/           Net Book
(Dollars in thousands)                                            Cost              Amortization             Value

Structures, facilities and improvements
  Structures and facilities                                 $       1,411,415   $          (593,862)    $        817,553
  Improvements to leased facilities                                   399,543              (279,676)             119,867
                                                                    1,810,958              (873,538)             937,420
Furniture and equipment
  Equipment held by contractors                                      146,887               (139,173)               7,714
  Furniture and equipment                                             40,230                 (31,233)              8,997
                                                                     187,117               (170,406)              16,711

Internal use software and software in development                    237,589                (99,272)             138,317
Construction-in-progress                                              77,925                       -              77,925
Land                                                                  99,542                       -              99,542

                                                            $       2,413,131   $        (1,143,216)    $      1,269,915




Property, plant and equipment as of September 30, 2012, consisted of the following:

                                                                                       2012
                                                                                    Accumulated
                                                                                    Depreciation/           Net Book
(Dollars in thousands)                                            Cost              Amortization             Value

Structures, facilities and improvements
  Structures and facilities                                 $       1,350,272   $          (551,979)    $        798,293
  Improvements to leased facilities                                   419,066              (274,063)             145,003
                                                                    1,769,338              (826,042)             943,296
Furniture and equipment
  Equipment held by contractors                                      149,976               (144,359)               5,617
  Furniture and equipment                                             44,314                 (34,060)             10,254
                                                                     194,290               (178,419)              15,871

Internal use software and software in development                    225,915                (80,521)             145,394
Construction-in-progress                                              81,676                       -              81,676
Land                                                                  94,101                       -              94,101

                                                            $       2,365,320   $        (1,084,982)    $      1,280,338




82   United States Department of Labor
                                                                                                                 Annual Financial Statements

                                                                                     NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                                      For the Years Ended September 30, 2013 and 2012

NOTE 6 - ADVANCES
Advances as of September 30, 2013 and 2012, consisted of the following:
(Dollars in thousands)                                                                                 2013                       2012

Intra-governmental
   Advances                                                                                 $                 1,928      $                3,128

Advances to states for UI benefit payments                                                               1,916,300                   1,447,417
Other                                                                                                        9,378                       9,083
                                                                                                         1,925,678                   1,456,500
                                                                                            $            1,927,606       $           1,459,628


NOTE 7 - NON-ENTITY ASSETS

Non-entity assets as of September 30, 2013 and 2012, consisted of the following:
(Dollars in thousands)                                                                                 2013                       2012

Intra-governmental
   Funds with U.S. Treasury                                                                 $               4,560        $              (2,367)
   Investments                                                                                            187,254                     176,763
                                                                                                          191,814                     174,396
Accounts receivable, net of allowance                                                                     115,555                      81,584
Total non-entity assets                                                                                   307,369                     255,980
Total entity assets                                                                                    53,600,582                  43,588,476
                                                                                            $          53,907,951        $         43,844,456


NOTE 8 - DEBT
Debt during FY 2013 consisted of the following:

                                              Balance at                                                                           Balance at
                                            September 30,        Additional          Repayment of                                September 30,
(Dollars in thousands)                          2012             Borrowing               Debt                 Interest               2013

Intra-governmental debt to Treasury
     Black Lung Disability Trust Fund
       Borrowing from U.S. Treasury     $        6,065,585   $         401,000   $         (610,403)    $          170,457   $        6,026,639
     Unemployment Trust Fund
       Advances from U.S. Treasury              32,931,755           7,700,000          (10,985,509)                49,388           29,695,634

                                        $       38,997,340   $       8,101,000   $      (11,595,912)    $          219,845   $       35,722,273


Debt during FY 2012 consisted of the following:

                                              Balance at                                                                           Balance at
                                            September 30,        Additional          Repayment of                                September 30,
                                                2011             Borrowing               Debt                 Interest               2012
(Dollars in thousands)

Intra-governmental debt to Treasury
     Black Lung Disability Trust Fund
       Borrowing from U.S. Treasury     $        6,163,075   $         214,000   $         (502,035)    $          190,545   $        6,065,585
     Unemployment Trust Fund
       Advances from U.S. Treasury              42,772,829         12,164,421           (22,005,495)                     -           32,931,755

                                        $       48,935,904   $     12,378,421    $      (22,507,530)    $          190,545   $       38,997,340




                                                                                                       FY 2013 Agency Financial Report           83
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 8 - DEBT - Continued
For the year ended September 30, 2013, interest expense for the BLDTF was $226.6 million, of which $170.5 million
was capitalized interest and $56.1 million was paid. For the year ended September 30, 2012, interest expense was
$227.8 million, of which $190.5 million was capitalized and $37.3 million was paid.

For the year ended September 30, 2013, interest expense for the UTF was $968.4 million, of which $919.0 million
was paid. For the year ended September 30, 2012, all interest expense of $1.2 billion was paid.

NOTE 9 - OTHER LIABILITIES

Other liabilities as of September 30, 2013 and 2012, consisted of the following:
(Dollars in thousands)                                                          2013                    2012

Intra-governmental
   Non-entity receivables due to U.S. Treasury                             $        115,044      $             81,584
   Accrued payroll and other liabilties                                             197,734                   197,054
Total intra-governmental                                                            312,778                   278,638

Grant accruals                                                                      778,731                    797,967
Capital lease liability                                                              41,811                     43,166
Environmental and disposal liability                                                 31,501                     31,930
Accrued payroll and other liabilities                                                65,639                    131,236
Total other liabilities with the Public                                             917,682                  1,004,299

                                                                           $       1,230,460     $           1,282,937

The amounts above are current liabilities, except for the capital lease and environmental and disposal liabilities.


NOTE 10 - ACCRUED BENEFITS
Accrued benefits as of September 30, 2013 and 2012, consisted of the following:
(Dollars in thousands)                                                                      2013               2012

     State regular and extended unemployment benefits payable                           $   1,017,609    $       681,314
     Federal extended unemployment benefits payable                                           242,907            261,067
     Federal emergency unemployment benefits payable                                          808,505            814,397
     Federal employees' unemployment benefits payable                                         259,137            286,630
     Federal additional unemployment benefits payable                                          26,364             32,891
     Total unemployment benefits payable                                                    2,354,522          2,076,299
     Black lung disability benefits payable                                                    24,562             27,465
     Federal employees' disability and 10(h) benefits payable                                 115,125            160,542
     Energy employees occupational illness compensation benefits payable                       22,913             25,296

                                                                                        $   2,517,122    $     2,289,602




84     United States Department of Labor
                                                                                                         Annual Financial Statements

                                                                               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                                For the Years Ended September 30, 2013 and 2012

NOTE 11 - FUTURE WORKERS' COMPENSATION BENEFITS

DOL’s liability for future workers’ compensation benefits as of September 30, 2013 and 2012, consisted of the
following:

(Dollars in thousands)                                                                 2013                   2012


  Projected gross liability of the Federal government
   for future FECA benefits                                                      $     36,787,794        $    34,260,124
  Less liabilities attributed to other agencies:
         U.S. Postal Service                                                           (15,824,912)           (14,404,031)
         Department of the Navy                                                          (2,492,678)            (2,427,697)
         Department of Homeland Security                                                 (2,507,229)            (2,229,503)
         Department of Veterans Affairs                                                  (2,220,399)            (2,014,108)
         Department of the Army                                                          (1,927,282)            (1,882,561)
         Department of Justice                                                           (1,632,706)            (1,474,279)
         Department of the Air Force                                                     (1,441,960)            (1,383,963)
         Department of Transportation                                                    (1,047,454)            (1,017,770)
         Department of Agriculture                                                         (986,318)              (944,353)
         Department of Defense, Other                                                      (888,494)              (847,082)
         Department of the Interior                                                        (846,634)              (802,555)
         Department of the Treasury                                                        (618,603)              (576,308)
         Tennessee Valley Authority                                                        (460,475)              (456,908)
         Social Security Administration                                                    (368,218)              (350,329)
         Department of Health and Human Services                                           (292,875)              (273,372)
         Department of Commerce                                                            (242,691)              (227,990)
         General Services Administration                                                   (138,657)              (132,802)
         Department of Energy                                                              (101,333)                (93,350)
         Department of State                                                                 (88,426)               (78,941)
         Department of Housing and Urban Development                                         (76,903)               (75,577)
         National Aeronautics and Space Administration                                       (50,822)               (50,389)
         Environmental Protection Agency                                                     (51,818)               (46,905)
         Small Business Administration                                                       (33,703)               (31,591)
         Agency for International Development                                                (26,047)               (23,582)
         Office of Personnel Management                                                      (24,750)               (23,291)
         Department of Education                                                             (17,575)               (16,641)
         Nuclear Regulatory Commission                                                         (7,023)                (7,224)
         National Science Foundation                                                           (1,425)                (1,366)
         Other                                                                             (757,049)              (687,671)
                                                                                       (35,174,459)           (32,582,139)


                                                                                 $       1,613,335       $      1,677,985


  Projected liability of the Department of Labor for future FECA benefits
        FECA benefits not chargeable to other Federal agencies payable by
          DOL's Federal Employees' Compensation Act Special Benefit Fund         $       1,323,300       $      1,398,153
        FECA benefits due to eligible workers of DOL and Job Corps enrollees               243,612                231,995
        FECA benefits due to eligible workers of the Panama Canal Commission                46,423                 47,837


                                                                                 $       1,613,335       $      1,677,985




                                                                                              FY 2013 Agency Financial Report    85
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 12 - LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

Liabilities not covered by budgetary resources as of September 30, 2013 and 2012, consisted of the following:

(Dollars in thousands)                                                       2013                        2012

Intra-governmental
   Debt                                                                $     35,722,273          $       38,997,340

Future workers' compensation benefits                                           546,873                     984,053
Accrued annual leave                                                            116,030                     116,063
Other liabilities                                                                60,943                      67,085
                                                                                723,846                   1,167,201
Total liabilities not covered by budgetary resources                         36,446,119                  40,164,541
Total liabilities covered by budgetary resources                             21,086,314                  20,178,683
                                                                       $     57,532,433          $       60,343,224

NOTE 13 - CONTINGENCIES

The Department is involved in various lawsuits incidental to its operations. In the opinion of management, the
ultimate resolution of pending litigation will not have a material effect on the Department’s financial position.


NOTE 14 - PENSION EXPENSE

Pension expense in FY 2013 consisted of the following:
                                                                                                            Total
                                                             Employer            Costs Imputed             Pension
(Dollars in thousands)                                     Contributions            by OPM                 Expense

Civil Service Retirement System                        $           12,780    $           28,582      $           41,362
Federal Employees' Retirement System                              149,548                14,027                 163,575
Thrift Savings Plan                                                54,514                      -                 54,514

                                                       $          216,842    $           42,609      $          259,451


Pension expense in FY 2012 consisted of the following:
                                                                                                            Total
                                                             Employer            Costs Imputed             Pension
(Dollars in thousands)                                     Contributions            by OPM                 Expense

Civil Service Retirement System                        $            14,925   $            32,504     $           47,429
Federal Employees' Retirement System                               143,552                12,754                156,306
Thrift Savings Plan                                                 52,208                      -                52,208

                                                       $           210,685   $            45,258     $          255,943




86   United States Department of Labor
                                                                                     Annual Financial Statements

                                                               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                For the Years Ended September 30, 2013 and 2012

NOTE 15 - PROGRAM COST

Note 15 A and B present detailed cost and revenue information by major program and major program agency
(responsibility segment) in support of the summary information presented in the Consolidated Statement of Net
Cost for FY 2013 and FY 2012, respectively. Note 15 C presents a further breakdown of this cost and revenue
information for DOL’s two largest program agencies, ETA, and the OWCP. (See Note 1-A.1)




                                                                            FY 2013 Agency Financial Report   87
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 15 - PROGRAM COST - Continued

A. Consolidating Statement of Net Cost by Major Program Agency

Net cost by major program agency for the year ended September 30, 2013, consisted of the following:

                                                       Employment          Office of Workers'             Office           Occupational
                                                       and Training         Compensation                   of            Safety and Health
(Dollars in thousands)                                Administration           Programs                 Job Corps         Administration

CROSSCUTTING PROGRAMS
 Income maintenance
   Intra-governmental                             $          1,078,164     $         302,834        $               -    $               -
   With the public                                         71,443,513              5,086,617                        -                 274
 Gross cost                                                72,521,677              5,389,451                        -                 274
   Intra-governmental earned revenue                        (1,131,451)           (2,905,979)                       -                    -
   Public earned revenue                                              -                   (18)                      -                    -
 Less earned revenue                                        (1,131,451)           (2,905,997)                       -                    -
      Net program cost                                     71,390,226              2,483,454                        -                 274
 Employment and training
   Intra-governmental                                           50,753                          -             12,467                         -
   With the public                                          4,595,597                           -          1,512,470                         -
 Gross cost                                                 4,646,350                           -          1,524,937                         -
   Intra-governmental earned revenue                           (12,246)                         -                 (25)                       -
   Public earned revenue                                              -                         -                    -                       -
 Less earned revenue                                           (12,246)                         -                 (25)                       -
      Net program cost                                      4,634,104                           -          1,524,912                         -
 Labor, employment and pension
  standards
   Intra-governmental                                                  -                        -                   -                        -
   With the public                                                     -                        -                   -                        -
 Gross cost                                                            -                        -                   -                        -
   Intra-governmental earned revenue                                   -                        -                   -                        -
   Public earned revenue                                               -                        -                   -                        -
 Less earned revenue                                                   -                        -                   -                        -
      Net program cost                                                 -                        -                   -                        -
 Worker safety and health
   Intra-governmental                                                  -                        -                   -             115,231
   With the public                                                     -                        -                   -             476,410
 Gross cost                                                            -                        -                   -             591,641
   Intra-governmental earned revenue                                   -                        -                   -                 (401)
   Public earned revenue                                               -                        -                   -               (1,829)
 Less earned revenue                                                   -                        -                   -               (2,230)
      Net program cost                                                 -                        -                   -             589,411

OTHER PROGRAMS
 Statistics
  Intra-governmental                                                   -                        -                   -                        -
  With the public                                                      -                        -                   -                        -
 Gross cost                                                            -                        -                   -                        -
  Intra-governmental earned revenue                                    -                        -                   -                        -
  Public earned revenue                                                -                        -                   -                        -
 Less earned revenue                                                   -                        -                   -                        -
     Net program cost                                                  -                        -                   -                        -

COSTS NOT ASSIGNED TO PROGRAMS
 Gross cost                                                            -                        -                   -                        -
 Less earned revenue not attributed to programs                        -                        -                   -                        -
     Net cost not assigned to programs                                 -                        -                   -                        -

 Net cost of operations                           $        76,024,330      $       2,483,454        $      1,524,912     $        589,685




88   United States Department of Labor
                                                                                                                     Annual Financial Statements

                                                                                            NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                                             For the Years Ended September 30, 2013 and 2012




    Bureau of               Mine Safety         Employee Benefits         Veterans'             Wage and               Other
      Labor                 and Health              Security             Employment               Hour               Program
    Statistics             Administration        Administration          and Training            Division            Agencies              Total




$                 -    $                    -   $             490    $                33    $                -   $               -     $     1,381,521
                  -                         -               1,947                   130                      -              7,577          76,540,058
                  -                         -               2,437                   163                      -              7,577          77,921,579
                  -                         -                (245)                   (17)                    -                   -          (4,037,692)
                  -                         -                    -                      -                    -                   -                  (18)
                  -                         -                (245)                   (17)                    -                   -          (4,037,710)
                  -                         -               2,192                   146                      -              7,577          73,883,869

                  -                         -                   -                15,440                 2,041                 174               80,875
                  -                         -                   -               238,219                   475               5,113           6,351,874
                  -                         -                   -               253,659                 2,516               5,287           6,432,749
                  -                         -                   -                    (55)                    -                 (82)            (12,408)
                  -                         -                   -                       -                    -                    -                   -
                  -                         -                   -                    (55)                    -                 (82)            (12,408)
                  -                         -                   -               253,604                 2,516               5,205           6,420,341


                  -                     98                55,140                    471               85,415               61,653             202,777
                  -                    153               163,621                  7,349              218,958              247,106             637,187
                  -                    251               218,761                  7,820              304,373              308,759             839,964
                  -                       -                (6,144)                   (11)                    -              (1,542)              (7,697)
                  -                       -                      -                      -              (2,660)                    -              (2,660)
                  -                       -                (6,144)                   (11)              (2,660)              (1,542)            (10,357)
                  -                    251               212,617                  7,809              301,713              307,217             829,607

                  -                124,196                      -                       -                    -                   -            239,427
                  -                285,143                      -                       -                    -              8,255             769,808
                  -                409,339                      -                       -                    -              8,255           1,009,235
                  -                    (334)                    -                       -                    -                   -                (735)
                  -                  (2,741)                    -                       -                    -                   -              (4,570)
                  -                  (3,075)                    -                       -                    -                   -              (5,305)
                  -                406,264                      -                       -                    -              8,255           1,003,930




          213,821                           -                   -                       -                    -                     -          213,821
          421,779                           -                   -                       -                    -                  163           421,942
          635,600                           -                   -                       -                    -                  163           635,763
           (12,056)                         -                   -                       -                    -                     -           (12,056)
                (27)                        -                   -                       -                    -                     -                (27)
           (12,083)                         -                   -                       -                    -                     -           (12,083)
          623,517                           -                   -                       -                    -                  163           623,680


                  -                         -                   -                       -                    -            110,672             110,672
                  -                         -                   -                       -                    -               (816)               (816)
                  -                         -                   -                       -                    -            109,856             109,856

$         623,517      $           406,515      $        214,809     $          261,559     $        304,229     $        438,273      $   82,871,283




                                                                                                            FY 2013 Agency Financial Report        89
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 15 - PROGRAM COST - Continued
B. Consolidating Statement of Net Cost by Major Program Agency

Net cost by major program agency for the year ended September 30, 2012, consisted of the following:

                                                       Employment          Office of Workers'          Office          Occupational
                                                       and Training         Compensation                of           Safety and Health
(Dollars in thousands)                                Administration           Programs              Job Corps        Administration

CROSSCUTTING PROGRAMS
 Income maintenance
  Intra-governmental                              $          1,364,953     $         325,022     $               -   $             -
  With the public                                          93,636,205              5,324,918                     -                182
 Gross cost                                                95,001,158              5,649,940                     -                182
  Intra-governmental earned revenue                         (1,319,939)           (3,018,284)                    -                 -
  Public earned revenue                                             -                     (22)                   -                 -
 Less earned revenue                                        (1,319,939)           (3,018,306)                    -                 -
     Net program cost                                      93,681,219              2,631,634                     -                182
 Employment and training
  Intra-governmental                                            37,027                    -                33,428                   -
  With the public                                           4,644,930                     -             1,735,523                   -
 Gross cost                                                 4,681,957                     -             1,768,951                   -
  Intra-governmental earned revenue                            (10,323)                   -                    -                    -
  Public earned revenue                                             (28)                  -                    -                    -
 Less earned revenue                                           (10,351)                   -                    -                    -
     Net program cost                                       4,671,606                     -             1,768,951                   -
 Labor, employment and pension
  standards
  Intra-governmental                                                -                     -                      -                  -
  With the public                                                   -                     -                      -                  -
 Gross cost                                                         -                     -                      -                  -
  Intra-governmental earned revenue                                 -                     -                      -                  -
  Public earned revenue                                             -                     -                      -                  -
 Less earned revenue                                                -                     -                      -                  -
     Net program cost                                               -                     -                      -                  -
 Worker safety and health
  Intra-governmental                                                -                     -                      -            126,394
  With the public                                                   -                     -                      -            517,626
 Gross cost                                                         -                     -                      -            644,020
  Intra-governmental earned revenue                                 -                     -                      -              (1,363)
  Public earned revenue                                             -                     -                      -              (1,225)
 Less earned revenue                                                -                     -                      -              (2,588)
     Net program cost                                               -                     -                      -            641,432

OTHER PROGRAMS
 Statistics
  Intra-governmental                                                -                     -                      -                  -
  With the public                                                   -                     -                      -                  -
 Gross cost                                                         -                     -                      -                  -
  Intra-governmental earned revenue                                 -                     -                      -                  -
  Public earned revenue                                             -                     -                      -                  -
 Less earned revenue                                                -                     -                      -                  -
     Net program cost                                               -                     -                      -                  -

COSTS NOT ASSIGNED TO PROGRAMS
 Gross cost                                                         -                     -                      -                  -
 Less earned revenue not attributed to programs                     -                     -                      -                  -
    Net cost not assigned to programs                               -                     -                      -                  -

Net cost of operations                            $        98,352,825      $       2,631,634     $      1,768,951    $        641,614




90   United States Department of Labor
                                                                                                                      Annual Financial Statements

                                                                                          NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                                           For the Years Ended September 30, 2013 and 2012




    Bureau of              Mine Safety        Employee Benefits         Veterans'             Wage and                  Other
      Labor                and Health             Security             Employment               Hour                  Program
    Statistics            Administration       Administration          and Training            Division               Agencies               Total




$                -    $                -      $          7,464     $                  -   $               -       $               -      $      1,697,439
                 -                     -                22,601                        -                   -                      865          98,984,771
                 -                     -                30,065                        -                   -                      865         100,682,210
                 -                     -                  (471)                       -                   -                       -            (4,338,694)
                 -                     -                    -                         -                   -                       -                    (22)
                 -                     -                  (471)                       -                   -                       -            (4,338,716)
                 -                     -                29,594                        -                   -                      865          96,343,494

                 -                     -                    -                  10,637                     521                    123               81,736
                 -                     -                    -                 232,251                     393                    497           6,613,594
                 -                     -                    -                 242,888                     914                    620           6,695,330
                 -                     -                    -                    (201)                     -                      (54)            (10,578)
                 -                     -                    -                      -                       -                       -                   (28)
                 -                     -                    -                    (201)                     -                      (54)            (10,606)
                 -                     -                    -                 242,687                     914                    566           6,684,724


                 -                     -                49,142                  1,016               92,161                  67,618               209,937
                 -                     -               137,011                 37,856              275,465                 190,928               641,260
                 -                     -               186,153                 38,872              367,626                 258,546               851,197
                 -                     -                 (6,193)                   (22)                (632)                  (424)                 (7,271)
                 -                     -                     -                      -                (2,788)                    -                   (2,788)
                 -                     -                 (6,193)                   (22)              (3,420)                  (424)               (10,059)
                 -                     -               179,960                 38,850              364,206                 258,122               841,138

                 -                123,645                   -                         -                   -                       -              250,039
                 -                290,398                   -                         -                   -                      131             808,155
                 -                414,043                   -                         -                   -                      131           1,058,194
                 -                    (417)                 -                         -                   -                       -                (1,780)
                 -                  (1,277)                 -                         -                   -                       -                (2,502)
                 -                  (1,694)                 -                         -                   -                       -                (4,282)
                 -                412,349                   -                         -                   -                      131           1,053,912




          221,565                      -                    -                         -                   -                       -              221,565
          461,002                      -                    -                         -                   -                      327             461,329
          682,567                      -                    -                         -                   -                      327             682,894
           (13,286)                    -                    -                         -                   -                       -               (13,286)
                -                      -                    -                         -                   -                       -                    -
           (13,286)                    -                    -                         -                   -                       -               (13,286)
          669,281                      -                    -                         -                   -                      327             669,608


                 -                     -                    -                         -                   -                 81,176                 81,176
                 -                     -                    -                         -                   -                (22,166)               (22,166)
                 -                     -                    -                         -                   -                 59,010                 59,010

$         669,281     $           412,349     $        209,554     $          281,537     $        365,120        $        319,021       $   105,651,886




                                                                                                              FY 2013 Agency Financial Report        91
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 15 - PROGRAM COST - Continued

C. Statement of Net Cost - Employment and Training Administration and Office of Workers’
Compensation Programs

Net cost for the year ended September 30, 2013, consisted of the following:

                                                                           Employment          Office of Workers'
                                                                           and Training         Compensation
(Dollars in thousands)                                                    Administration           Programs

CROSSCUTTING PROGRAMS
 Income maintenance
  Benefits                                                           $         65,542,488      $          4,784,610
  Grants                                                                         4,648,186                         -
  Interest                                                                         969,191                  226,980
  Administrative and other                                                       1,361,812                  377,861
 Gross cost                                                                    72,521,677                 5,389,451
  Less earned revenue                                                           (1,131,451)              (2,905,997)
     Net program cost                                                          71,390,226                 2,483,454
 Employment and training
  Grants                                                                        4,411,803                           -
  Interest                                                                               1                          -
  Administrative and other                                                        234,546                           -
 Gross cost                                                                     4,646,350                           -
  Less earned revenue                                                              (12,246)                         -
     Net program cost                                                           4,634,104                           -

Net cost of operations                                               $         76,024,330      $         2,483,454


Net cost for the year ended September 30, 2012, consisted of the following:

                                                                            Employment             Office of Workers'
                                                                            and Training            Compensation
 (Dollars in thousands)                                                    Administration              Programs

 CROSSCUTTING PROGRAMS
  Income maintenance
   Benefits                                                           $         87,343,914     $           5,061,376
   Grants                                                                         4,695,049                         -
   Interest                                                                       1,249,025                  227,761
   Administrative and other                                                       1,713,170                  360,803
  Gross cost                                                                    95,001,158                 5,649,940
   Less earned revenue                                                           (1,319,939)              (3,018,306)
      Net program cost                                                          93,681,219                 2,631,634
  Employment and training
   Grants                                                                        4,533,033                              -
   Interest                                                                               6                             -
   Administrative and other                                                        148,918                              -
  Gross cost                                                                     4,681,957                              -
   Less earned revenue                                                              (10,351)                            -
      Net program cost                                                           4,671,606                              -

 Net cost of operations                                               $         98,352,825     $           2,631,634


92   United States Department of Labor
                                                                                                         Annual Financial Statements

                                                                               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                                For the Years Ended September 30, 2013 and 2012

NOTE 16 - NON-EXCHANGE REVENUE

Non-exchange revenues reported on the Consolidated Statement of Changes in Net Position in FY 2013 and FY 2012
consisted of the following:

(Dollars in thousands)                                                                            2013                  2012

Employer taxes
  Unemployment Trust Fund
    State unemployment taxes                                                              $       46,205,383       $     55,974,102
    Federal unemployment taxes                                                                     7,747,614              7,058,220
                                                                                                  53,952,997             63,032,322
  Black Lung Disability Trust Fund excise taxes                                                      541,338                620,992
                                                                                                  54,494,335             63,653,314

Interest
   Unemployment Trust Fund                                                                         1,270,780              1,586,401
   Other                                                                                               1,396                  4,553
                                                                                                   1,272,176              1,590,954

Reimbursement of unemployment benefits and other                                                   2,532,461              3,448,571

                                                                                          $       58,298,972       $     68,692,839


NOTE 17 - TRANSFERS WITHOUT REIMBURSEMENT

Transfers from (to) other Federal agencies in FY 2013 and FY 2012 consisted of the following:


(Dollars in thousands)                                                                             2013                  2012

Budgetary financing sources
  From H-1B Nonimmigrant Petitioner Account, Department of Homeland Security                  $          199,640   $        224,851

Other financing sources
  From General Services Administration                                                                     4,764                966

                                                                                              $          204,404   $        225,817



The balance of $200.0 million and $224.9 million in budgetary financing sources for FY 2013 and FY 2012 reflect the
elimination of intra-DOL transfers of $22.2 billion and $35.8 billion, respectively.




                                                                                              FY 2013 Agency Financial Report    93
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 18 - STATUS OF BUDGETARY RESOURCES

A. Apportionment Categories of Obligations Incurred

Obligations incurred reported on the Combined Statement of Budgetary Resources in FY 2013 and FY 2012 consisted
of the following:

(Dollars in thousands)                                                        2013                 2012

Direct obligations
  Category A                                                            $       4,446,633    $       4,737,614
  Category B                                                                   37,017,563           51,645,520
  Exempt from apportionment                                                    73,913,459           96,500,468

Total direct obligations                                                      115,377,655         152,883,602

Reimbursable obligations
  Category A                                                                      334,110              261,825
  Category B                                                                    2,399,662            3,138,940

Total reimbursable obligations                                                  2,733,772            3,400,765

                                                                        $     118,111,427    $    156,284,367


B. Permanent Indefinite Appropriations

DOL’s permanent indefinite appropriations include trust funds, the FAUC Fund, the Panama Canal Commission
Compensation Fund, the Energy Employees Occupational Illness Compensation Fund, ETA and WHD H-1B funds,
ETA’s Advances and Payments to the UTF, Short Time Compensation, and portions of SUIESO and Federal
Unemployment Benefits and Allowances. These funds are described in Note 1-A.3. As of September 30, 2013 and
2012, the Department returned unobligated, indefinite authority to Treasury in the amount of $8.4 and $10.0
billion, respectively.

C. Legal Arrangements Affecting Use of Unobligated Balances

UTF receipts are reported as budget authority in the Combined Statement of Budgetary Resources. The portion of
UTF receipts collected in the current year in excess of amounts needed to pay benefits and other valid obligations
are temporarily not available pursuant to public law. Therefore, these excess receipts are not classified as budgetary
resources in the Combined Statement of Budgetary Resources. Conversely, when obligations exceed receipts in the
current year, amounts are drawn from the temporarily unavailable collections to meet these obligations.
Cumulative excess receipts are not included in unobligated balances in the status of budgetary resources included in
that statement. All excess receipts are reported as assets of the UTF and are included in the Consolidated Balance
Sheet. They will become available for obligation as needed in the future.

The cumulative amounts of excess UTF receipts are denoted as unavailable collections in the Budget of the United
States Government. The cumulative amount of these excess receipts as of September 30, 2013 and 2012,
reclassified from unobligated balances to UTF unavailable collections is presented on the following page.




94   United States Department of Labor
                                                                                                         Annual Financial Statements

                                                                            NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                             For the Years Ended September 30, 2013 and 2012

NOTE 18 - STATUS OF BUDGETARY RESOURCES - Continued

C. Legal Arrangements Affecting Use of Unobligated Balances - Continued

(Dollars in millions)                                                                                  2013                       2012

Unemployment Trust Fund unavailable collections, beginning                                    $              14,908       $              9,736

  Budget authority from current year appropriations                                                       74,237                      88,111
  Budget authority from current year borrowing authority                                                   7,700                      12,164
  Less obligations                                                                            $          (72,467)                    (95,103)

Excess (deficiency) of budget authority over obligations                                                      9,470                      5,172

Unemployment Trust Fund unavailable collections, ending                                       $              24,378       $           14,908




D. Explanation of Differences between the Combined Statement of Budgetary Resources and the Budget
    of the United States Government

The Budget of the United States Government with actual amounts for the year ended September 30, 2013, has not
been published as of the issue date of these financial statements. This document will be available in February 2014
at http://www.dol.gov/dol/aboutdol/.

A reconciliation of budgetary resources, obligations incurred, distributed offsetting receipts, and net outlays, as
presented in the Combined Statement of Budgetary Resources (SBR), to amounts included in the Budget of the
United States Government for the year ended September 30, 2012, is shown below.

                                                                                                         Distributed
                                                                    Budgetary      Obligations               Offsetting
(Dollars in millions)                                           Resources              Incurred              Receipts             Net Outlays


Combined Statement of Budgetary Resources                       $     160,676      $       156,284       $       43,235       $       104,834

  Pension Benefit Guaranty Corporation reported separately             21,442                5,860                      -                  (368)
  Distributed offsetting receipts                                              -                   -                    -                43,235
  Fiduciary funds (included in the budget but not in the SBR)              194                 136                      -                   135
  Expired accounts                                                      (1,528)               (105)                     -                      -
  Other                                                                     (37)                (36)                  35                     22

Budget of the United States Government                          $     180,747      $       162,139       $       43,270       $       147,858


E. Undelivered Orders

Undelivered orders as of September 30, 2013 and 2012, were as follows:

(Dollars in thousands)                                                                            2013                        2012

Undelivered orders                                                                     $          11,590,796          $       11,390,942



                                                                                               FY 2013 Agency Financial Report              95
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 18 - STATUS OF BUDGETARY RESOURCES - Continued

F. Appropriations Received

Appropriations from the Consolidated Statement of Changes in Net Position and the Combined Statement of
Budgetary Resources are reconciled below.

(Dollars in millions)                                                             FY 2013              FY 2012

Appropriations Received, Consolidated Statement of Changes in Net Position   $          43,105     $        62,229

Receipts recognized as revenue in current or prior years
  Unemployment Trust Fund                                                               76,029             104,944
  Black Lung Disability Trust Fund                                                         501                 598
  Other funds from dedicated collections                                                   198                 223

Repayment of debt from appropriated receipts
  Unemployment Trust Fund                                                              (10,986)             (22,005)
  Black Lung Disability Trust Fund                                                        (209)                (502)

Return of permanent indefinite authority                                                 (5,241)             (9,247)
Reduction for sequestration, across the board reductions, and other                        (788)                 (20)
                                                                                        59,504              73,991


Appropriations, Combined Statement of Budgetary Resources                    $         102,609     $       136,220


G. Borrowing Authority

As of September 30, 2013 and 2012, P.L. 113-6 (127 Stat. 412 dated March 26, 2013) and P.L. 112-74 (125 Stat.
1056 dated December 23, 2011), respectively, granted borrowing authority for repayable advances and other debt
in the amount of “such sums as may be necessary” to (1) the UTF for advances as authorized by sections 905(d) and
1203 of the Social Security Act and (2) the BLDTF for advances as authorized by section 9501(c)(1) of the Internal
Revenue Code. Although section 9501 of the Internal Revenue Code and P.L. 112-74 use the terminology
"advance," the Treasury has interpreted this to mean any debt owed by the BLDTF to the Bureau of the Fiscal
Service.

Borrowing authority for the BLDTF was $401 and $214 million for FY 2013 and FY 2012, respectively. The borrowing
authority was applied to repay debt of $401 and $214 million for FY 2013 and FY 2012, respectively.

Borrowing authority for the UTF was $7.7 and $12.2 billion for FY 2013 and FY 2012, respectively. The borrowing
authority was used to allow states to borrow, as necessary, from the Federal government to pay unemployment
benefits.




96   United States Department of Labor
                                                                                                       Annual Financial Statements

                                                                               NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                                For the Years Ended September 30, 2013 and 2012

NOTE 19 - RECONCILIATION OF BUDGETARY RESOURCES OBLIGATED TO NET COST OF OPERATIONS

(Dollars in thousands)                                                                     FY 2013                 FY 2012

Resources used to finance activities
  Budgetary resources obligated
     Obligations incurred                                                            $       118,111,427      $        156,284,367
     Recoveries of prior year obligations                                                        (461,549)                 (369,860)
     Less spending authority from offsetting collections                                       (7,826,120)               (8,460,059)
     Obligations, net of offsetting collections and recoveries                               109,823,758               147,454,448
  Other resources
     Imputed financing from costs absorbed by others                                             112,929                    125,142
     Transfers, net                                                                                4,764                        966
     Exchange revenue not in budget                                                             (985,901)                (1,346,690)
Total resources used to finance activities                                                   108,955,550               146,233,866

Resources used to finance items not part of the net cost of operations
  Change in budgetary resources obligated for goods, services and
   benefits ordered but not yet received or provided                                             (160,936)                (237,196)
  Resources that finance the acquisition of assets                                                 (66,477)               (141,648)
  Transfers that do not affect the net cost of operations                                     (26,393,701)             (40,693,007)
Total resources used to finance items not part of the net cost of operations                  (26,621,114)             (41,071,851)

Total resources used to finance the net cost of operations                                    82,334,436               105,162,015

Components of the net cost of operations that will not require or generate
 resources in the current period
  Components requiring or generating resources in other periods
     Increase (decrease) in annual leave liability                                                    (39)                     5,057
     Increase in benefits liabilities                                                            299,882                     431,371
     Increase in capitalized interest and other                                                  196,245                      67,513
  Total                                                                                          496,088                     503,941
  Components not requiring or generating resources
     Depreciation and amortization                                                                 73,501                    76,507
     Revaluation of assets and liabilities                                                      1,062,620                1,461,338
     Benefit overpayments                                                                      (1,095,362)              (1,551,915)
  Total                                                                                            40,759                   (14,070)
Total components of the net cost of operations that will not
 require or generate resources in the current period                                             536,847                     489,871

Net cost of operations                                                               $        82,871,283      $        105,651,886




                                                                                            FY 2013 Agency Financial Report      97
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 20 - CUSTODIAL REVENUE

Custodial revenues in FY 2013 consisted of the following:
                                                                   Net Cash                 Increase
                                                                  Collections            (Decrease) in
                                                                and Transfers to          Amounts to
                                                                 U.S. Treasury            be Collected              Total
(Dollars in thousands)                                           General Fund           and Transferred           Revenues

Civil monetary penalties
   Occupational Safety and Health Administration            $            111,066    $            12,490       $       123,556
   Mine Safety and Health Administration                                  99,907                  7,792               107,699
   Employee Benefits Security Administration                              32,607                    488                33,095
   Wage and Hour Division                                                 33,523                  6,018                39,541
                                                                         277,103                 26,788               303,891
Other custodial activity
  Employment and Training Administration
   and other agencies                                                      4,427                          -              4,427

                                                            $            281,530    $            26,788       $       308,318



Custodial revenues in FY 2012 consisted of the following:

                                                                   Net Cash                 Increase
                                                                  Collections            (Decrease) in
                                                                and Transfers to          Amounts to
                                                                 U.S. Treasury            be Collected              Total
(Dollars in thousands)                                           General Fund           and Transferred           Revenues

Civil monetary penalties
   Occupational Safety and Health Administration            $            128,446    $               2,951     $        131,397
   Mine Safety and Health Administration                                 133,434                    4,364              137,798
   Employee Benefits Security Administration                              20,459                   (1,569)              18,890
   Wage and Hour Division                                                  9,838                    3,357               13,195
                                                                         292,177                    9,103              301,280
Other custodial activity
  Employment and Training Administration
   and other agencies                                                       1,208                     (32)               1,176

                                                            $            293,385    $              9,071      $        302,456




98   United States Department of Labor
                                                                                                Annual Financial Statements

                                                                      NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                       For the Years Ended September 30, 2013 and 2012

NOTE 21 – FUNDS FROM DEDICATED COLLECTIONS

DOL is responsible for the operation of certain funds from dedicated collections. Other funds from dedicated
collections include Gifts and Bequests, Panama Canal Commission Compensation Fund, and H-1B Funds. The
financial position of the funds from dedicated collections as of September 30, 2013, is shown below.

                                                                          Black Lung
(Dollars in thousands)                              Unemployment           Disability           Other                Total

Assets

  Intra-governmental
     Funds with U.S. Treasury                   $          402,065    $         128,793     $      670,634       $    1,201,492
     Investments                                        29,607,507                     -            52,594           29,660,101
     Accounts receivable
        Due from other Federal agencies
         for UCX and UCFE benefits                         519,690                     -                  -             519,690
        Other                                                     -                    -               489                  489
  Total intra-governmental                              30,529,262              128,793            723,717           31,381,772

  Accounts receivable, net
    State unemployment tax                                 463,900                      -                   -           463,900
    Due from reimbursable employers                        785,307                      -                   -           785,307
    Benefit overpayments                                   670,993                17,001                    -           687,994
    Other                                                         -                     -                  1                  1
  Advances                                               1,892,383                      -                   -         1,892,383
  Other                                                           -                     -                684                684

Total assets                                    $       34,341,845    $         145,794     $      724,402       $   35,212,041



Liabilities
   Intra-governmental
      Accounts payable to DOL agencies          $        1,921,834    $                -    $               1    $    1,921,835
      Debt                                              29,695,634            6,026,639                      -       35,722,273
      Amounts held for the Railroad
        Retirement Board                                   188,076                     -                     -          188,076
      Other                                                       -                   1                 6,506             6,507
   Total intra-governmental                             31,805,544            6,026,640                 6,507        37,838,691

  Accounts payable                                                -                   6              3,025                3,031
  Future workers' compensation benefits                           -                    -            46,423               46,423
  Accrued benefits                                       2,328,158               13,370                   -           2,341,528
  Other liabilities                                               -                    -            20,936               20,936
Total liabilities                                       34,133,702            6,040,016             76,891           40,250,609

Net position
  Cumulative results of operations                         208,143            (5,894,222)          647,511            (5,038,568)

Total liabilities and net position              $       34,341,845    $         145,794     $      724,402       $   35,212,041




                                                                                        FY 2013 Agency Financial Report        99
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 21 - FUNDS FROM DEDICATED COLLECTIONS - Continued

The net results of operations of the funds from dedicated collections for the year ended September 30, 2013, are
shown below.

                                                                                 Black Lung
(Dollars in thousands)                                    Unemployment            Disability            Other                Total

 Cost, net of earned revenues
   Benefits                                           $      (65,484,089)    $         (174,122)    $              -     $   (65,658,211)
   Grants                                                                -                      -           (85,296)               (85,296)
   Interest                                                      (969,191)             (226,980)                   -           (1,196,171)
   Administrative and other                                    (1,219,700)                (2,594)           (70,782)           (1,293,076)
                                                             (67,672,980)              (403,696)          (156,078)          (68,232,754)
   Earned revenue                                               1,094,587                       -                  -            1,094,587
     Net cost of operations                                  (66,578,393)              (403,696)          (156,078)          (67,138,167)

 Net financing sources
   Taxes                                                      53,952,997               541,338                       -       54,494,335
   Interest                                                    1,270,780                 1,224                    172         1,272,176
   Reimbursement of unemployment benefits and other            2,509,649                      -                    96         2,509,745
   Imputed financing                                                    -                     -                 2,992             2,992
   Transfers-in
      Department of Homeland Security                                   -                      -           208,619              208,619
      DOL entities                                            26,395,361                       -                  -          26,395,361
   Transfers-out
      DOL entities                                             (4,384,449)              (55,469)                   -          (4,439,918)
      Other financing sources                                            -                     -            (10,640)              (10,640)
                                                              79,744,338               487,093             201,239           80,432,670
   Change in net position                                     13,165,945                 83,397              45,161          13,294,503

 Net position, beginning of period                           (12,957,802)            (5,977,619)           602,350           (18,333,071)

 Net position, end of period                          $          208,143     $       (5,894,222)    $      647,511       $    (5,038,568)




100    United States Department of Labor
                                                                                                       Annual Financial Statements

                                                                          NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                           For the Years Ended September 30, 2013 and 2012

NOTE 21 - FUNDS FROM DEDICATED COLLECTIONS - Continued

The financial position of the funds from dedicated collections as of September 30, 2012, is shown below.

                                                                           Black Lung
(Dollars in thousands)                              Unemployment            Disability               Other               Total

Assets

  Intra-governmental
     Funds with U.S. Treasury                   $         (354,700)   $            88,805      $        608,221      $      342,326
     Investments                                        20,782,553                     -                 58,018          20,840,571
     Accounts receivable
        Due from other Federal agencies
         for UCX and UCFE benefits                         578,111                     -                     -              578,111
        Other                                                   -                      -                    908                 908
  Total intra-governmental                              21,005,964                 88,805               667,147          21,761,916

  Accounts receivable, net
    State unemployment tax                                 537,759                     -                       -            537,759
    Due from reimbursable employers                        948,169                     -                       -            948,169
    Benefit overpayments                                   646,232                 13,693                      -            659,925
    Other                                                         -                    -                         4                4
  Advances                                               1,339,191                     -                       -          1,339,191
  Other                                                         -                      -                      930               930

Total assets                                    $       24,477,315    $          102,498       $        668,081      $   25,247,894



Liabilities
   Intra-governmental
      Accounts payable to DOL agencies          $        2,288,912    $               -        $              116    $    2,289,028
      Debt                                              32,931,755             6,065,585                       -         38,997,340
      Amounts held for the Railroad
        Retirement Board                                   171,042                       -                      -           171,042
      Other                                                     -                      1                     7,263            7,264
   Total intra-governmental                             35,391,709             6,065,586                     7,379       41,464,674

  Accounts payable                                              -                       4                   313                 317
  Future workers' compensation benefits                         -                     -                  47,837              47,837
  Accrued benefits                                       2,043,408                14,527                     -            2,057,935
  Other Liabilities                                             -                     -                  10,202              10,202
Total liabilities                                       37,435,117             6,080,117                 65,731          43,580,965

Net position
  Cumulative results of operations                     (12,957,802)            (5,977,619)              602,350          (18,333,071)

Total liabilities and net position              $       24,477,315    $          102,498       $        668,081      $   25,247,894




                                                                                             FY 2013 Agency Financial Report     101
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

NOTE 21 – FUNDS FROM DEDICATED COLLECTIONS - Continued

The net results of operations of the funds from dedicated collections for the year ended September 30, 2012, are
shown below.

                                                                       Black Lung
(Dollars in thousands)                          Unemployment            Disability            Other               Total

 Cost, net of earned revenues
   Benefits                                 $      (87,271,399)    $         (207,971)    $              -    $   (87,479,370)
   Grants                                                    -                      -             (31,339)              (31,339)
   Interest                                          (1,249,022)             (227,743)                 -            (1,476,765)
   Administrative and other                          (1,572,126)                (5,507)           (70,578)          (1,648,211)
                                                   (90,092,547)              (441,221)          (101,917)         (90,635,685)
   Earned revenue                                     1,297,568                     29                 -             1,297,597
     Net cost of operations                        (88,794,979)              (441,192)          (101,917)         (89,338,088)

 Net financing sources
   Taxes                                            63,032,322               620,992                     -         63,653,314
   Interest                                          1,586,401                   291                    266         1,586,958
   Reimbursement of unemployment benefits            3,457,681                    -                      -          3,457,681
   Imputed financing                                        -                     -                   3,462             3,462
   Transfers-in
      Department of Homeland Security                       -                      -             222,731              222,731
      DOL entities                                  40,695,126                 14,643                 -            40,709,769
   Transfers-out
      DOL entities                                   (5,089,281)              (73,092)                -             (5,162,373)
      Other financing sources                                -                     -                  -                     -
                                                   103,682,249               562,834             226,459          104,471,542
   Change in net position                           14,887,270               121,642             124,542           15,133,454

 Net position, beginning of period                 (27,845,072)            (6,099,261)           477,808          (33,466,525)

 Net position, end of period                $      (12,957,802)    $       (5,977,619)    $      602,350      $   (18,333,071)




102   United States Department of Labor
                                                                                                                     Annual Financial Statements

                                                                                       NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
                                                                                        For the Years Ended September 30, 2013 and 2012

NOTE 22 - FIDUCIARY ACTIVITY
The Department has one deposit fund and two trust funds that fall under the definition of fiduciary activity
promulgated by SFFAS No. 31, "Accounting for Fiduciary Activities.” The schedule of fiduciary activity and net
assets for these funds for the year ended and as of September 30, 2013, is shown below.
                                                                                     Longshore                   District of
                                                       Wage and Hour                and Harbor                   Columbia
                                                        and Public                    Workers'                  Workmen's
                                                         Contracts                 Compensation                Compensation              Total
                                                        Restitution                   Act Trust                  Act Trust             Fiduciary
(Dollars in thousands)                                     Fund                         Fund                       Fund                  Funds

Fiduciary activity
  Assessments                                      $              83,704       $             126,235       $           12,209      $         222,148
  Investment earnings                                                   -                          20                         1                    21
  Administrative and other expenses                                     -                          10                       (15)                    (5)
  Transfer of funds to Treasury                                  (15,629)                      (2,116)                         -              (17,745)
  Disbursements to beneficiaries                                 (37,585)                   (121,432)                   (8,455)             (167,472)
     Increase (decrease) in fiduciary net assets                  30,490                        2,717                    3,740                 36,947

Fiduciary net assets, beginning of year                         119,294                       19,972                    1,106               140,372

Fiduciary net assets, end of year                  $            149,784        $              22,689       $            4,846      $        177,319



  Cash                                             $            144,106        $                 343       $                 1     $        144,450
  Investments                                                          -                      57,161                     7,915               65,076
  Other assets                                                    5,678                        4,088                       554               10,320
     Less: liabilities                                                 -                     (38,903)                   (3,624)             (42,527)

Total fiduciary net assets                         $            149,784        $              22,689       $            4,846      $        177,319



The schedule of fiduciary activity and net assets for the fiduciary funds for the year ended and as of September 30,
2012, is shown below.
                                                                                         Longshore               District of
                                                           Wage and Hour                and Harbor               Columbia
                                                            and Public                    Workers'              Workmen's
                                                             Contracts                 Compensation            Compensation              Total
                                                            Restitution                   Act Trust              Act Trust             Fiduciary
(Dollars in thousands)                                         Fund                         Fund                   Fund                  Funds

Fiduciary activity
  Assessments                                          $            58,013         $          124,874      $              7,934    $         190,821
  Investment earnings                                                    -                           19                        1                    20
  Administrative and other expenses                                      -                          (46)                     -                     (46)
  Transfer of funds to Treasury                                      (5,271)                    (2,120)                      -                 (7,391)
  Disbursements to beneficiaries                                   (35,055)                  (124,268)                   (8,798)            (168,121)
     Increase (decrease) in fiduciary net assets                    17,687                      (1,541)                    (863)              15,283

Fiduciary net assets, beginning of year                           101,607                      21,513                    1,969               125,089

Fiduciary net assets, end of year                      $          119,294          $           19,972      $             1,106     $         140,372

  Cash                                                 $          138,736          $                9      $                  1    $         138,746
  Investments                                                          -                       55,656                     2,914               58,570
  Other assets                                                         -                        2,558                       286                2,844
     Less: liabilities                                            (19,442)                    (38,251)                   (2,095)             (59,788)

Total fiduciary net assets                             $          119,294          $           19,972      $             1,106     $         140,372




                                                                                                       FY 2013 Agency Financial Report             103
Financial Section

NOTES TO CONSOLIDATED FINANCIAL STATEMENTS
For the Years Ended September 30, 2013 and 2012

Note 22 - FIDUCIARY ACTIVITY - Continued

Unqualified opinions were expressed on separate financial statements, presented in accordance with U.S. GAAP,
issued for the Longshore and Harbor Workers’ Compensation Act Trust Fund and the District of Columbia
Workmen’s Compensation Act Trust Fund for FY 2012 and are available on DOL’s website at www.oig.dol.gov.


NOTE 23 - MATERIAL CONCENTRATION OF RISK

The Division of FEC within OWCP administers the payment of workers' compensation benefits to federal and postal
workers for employment-related injuries and occupational diseases. Federal agencies and the U.S. Postal Service
(USPS) reimburse the FECA Special Benefit Fund for payments made on behalf of its workers. In Note 11, Future
Workers’ Compensation Benefits, the USPS liability as of September 30, 2013, of $15.8 billion represents the largest
portion of the total projected gross liability of the Federal government for future FECA benefits attributed to other
agencies of $35.2 billion as of September 30, 2013.

In October 2013 and 2012, USPS timely reimbursed the FECA Special Benefit Fund for costs incurred on its behalf
during the 12 months ended June 30, 2013 and 2012, respectively. In the USPS annual report for the year ended
September 30, 2013, USPS disclosed in the notes to its audited financial statements its severe lack of liquidity.

The USPS’s portion of the FECA actuarial liability as of September 30, 2013, together with the USPS’s poor financial
condition, represent a material concentration of risk for the Department.


NOTE 24 - SUBSEQUENT EVENTS

The financial statements, notes, and required supplementary information (RSI) do not reflect the effects of the
subsequent event described below.

Unemployment Insurance

Subsequent to September 30, 2013, the FUA of the UTF borrowed, as Advances from U.S. Treasury, $200 million at
an interest rate of 2.375%.




104   United States Department of Labor
Required Supplementary Stewardship Information
                  (Unaudited)
Financial Section

REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
(Unaudited)

STEWARDSHIP INVESTMENTS IN HUMAN CAPITAL

Stewardship investments are made by DOL on behalf of the nation, providing long‐term benefits that cannot be
measured in traditional financial reports. These investments are made for the general public, and are intended to
maintain or increase national economic productive capacity. DOL’s stewardship investments are in human capital,
reported as employment and training expenses in DOL’s net cost of operations. Within DOL, ETA, including the OJC,
and the VETS administer training programs that invest in human capital.

Employment and Training Administration, Including the Office of Job Corps
ETA, including the OJC, incurred total net costs of $77.5 billion in FY 2013. The majority of these costs consisted of
unemployment benefits, which totaled $65.5 billion in FY 2013, a decrease of $21.8 billion (25.0%) over the
previous fiscal year. Also included in ETA’s total net costs were investments in human capital of $4.7 billion, which
provided services to over 9.2 million participants in FY 2013. These investments were made through job training
programs authorized by WIA, Title V of the Older Americans Act, as amended, the Trade Act of 1974, as amended,
the Health Care and Education Reconciliation Act of 2010, the National Apprenticeship Act of 1937, the American
Recovery and Reinvestment Act of 2009 (ARRA) and other legislation.

Within ETA the OJC also invests in human capital through WIA’s Job Corps training program. OJC’s investment in
human capital in FY 2013 was $1.5 billion, providing services to 79.6 thousand participants in primarily residential
settings at 125 Job Corps centers. The ETA and OJC job training programs authorized by WIA are discussed below.

Adult, Dislocated Worker, Youth and Job Corps Programs
Authorized by the Workforce Investment Act (WIA) of 1998

           Adult employment and training programs – ETA awards grants to states to design and operate training
            and employment assistance programs for disadvantaged adults, including public assistance recipients. ETA’s
            FY 2013 investment in human capital through WIA adult programs was $883 million.
           Dislocated worker employment and training programs – ETA awards grants to states to provide
            reemployment services and retraining assistance to individuals dislocated from their employment. ETA’s
            FY2013 investment in human capital through WIA dislocated worker programs was $1.329 billion.
           Youth programs – ETA awards grants to states to support a wide range of program activities and services
            to prepare low‐income youth for academic and employment success, including summer jobs, by linking
            academic and occupational learning with youth development activities. ETA’s FY 2013 investment in human
            capital through WIA youth programs was $942 million.
           Job Corps program – ETA’s OJC awards contracts to support a system of primarily residential centers
            offering basic academic education, career technical training, work experience and other support, to
            economically disadvantaged youth. Large and small corporations and non‐profit organizations manage and
            operate 97 Job Corps centers under these contractual arrangements. The remaining 28 centers are
            operated through interagency agreements between DOL and the U.S. Department of Agriculture. In
            addition, 24 operators are contracted to provide outreach and admissions and career transition services.
            OJC’s FY 2013 investment in human capital through the Job Corps program was $1.525 billion.
           Reintegration of Ex‐Offenders programs – ETA supports programs to help individuals exiting prison make
            a successful transition to community life and long‐term employment through the provision of mentoring
            and job training programs to promote the successful return of adult and juvenile ex‐offenders into
            mainstream society. ETA’s FY 2013 investment in human capital through ex‐offender programs was $96
            million.


106       United States Department of Labor
                                                                                          Annual Financial Statements

                                                            REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
                                                                                                  (Unaudited)

       National programs – ETA’s National programs provide evaluation resources and program support for WIA
        activities; including nationally administered programs providing employment and training services to
        segments of the population that have special disadvantages in the labor market, including grants to
        federally recognized Indian tribes and other Native American governments or non‐profit organizations, and
        to Migrant and Seasonal Farmworker service organizations ETA’s FY 2013 human capital investment in WIA
        National Programs was $170 million.

Community Service Employment for Older Americans Program

ETA also invests in human capital through the CSEOA program, authorized under Title V of the Older Americans Act,
as amended in 2006. Known as the Senior Community Service Employment Program (SCSEP), the SCSEP is a
federally sponsored community service employment and training program that provides part‐time training through
on‐the‐job work experience in community service activities for unemployed, low‐income individuals ages 55 and
older, so that they can prepare to enter or re‐enter the workforce. ETA’s FY 2013 investment in human capital
through the CSEOA’s SCSEP was $445 million.

Trade Adjustment Assistance for Workers Program

The TAA for Workers program was authorized by the Trade Act of 1974, as amended and reauthorized with
expanded eligibility to service sector workers by the Trade and Globalization Adjustment Assistance Act of 2009.
This expanded eligibility was extended through December 31, 2013, by the Trade Adjustment Assistance Extension
Act of 2011. The TAA for Workers program provides cash benefits; job search and relocation allowances;
employment services; and training to eligible workers displaced by international trade. Only TAA training costs are
considered investments in human capital these costs were $257 million for FY 2013.

Trade Adjustment Assistance Community College and Career Training (TAACCCT) Grant Fund

Implemented in cooperation with the Department of Education, the TAACCCT program provides grants to eligible
institutions of higher learning to improve education and employment outcomes for students. Authorized by the
Trade Act of 1974 and Health Care and Education Reconciliation Act of 2010, the program enables educational
institutions to prepare students to succeed in growing occupations by acquiring the skills necessary for high‐wage,
in‐demand jobs. ETA’s FY 2013 human capital investment in the TAACCCT Grant Fund was $266 million.

National Apprenticeship Program

The National Apprenticeship Act of 1937 established the foundation for development of the nation’s skilled
workforce through apprenticeship programs, which combine on‐the‐job learning with related technical instruction
to teach workers the theoretical aspects of skilled occupations. Funding provides oversight for a national system of
skilled and technical occupational training, which promotes apprentices, registers apprenticeship programs,
certifies apprenticeship standards, and safeguards the welfare of apprentices. ETA’s FY 2013 investment in
apprenticeship programs was $28 million.

Program Costs and Outputs

The cost of ETA and OJC investments in human capital and the participants served are shown in the chart below, for
the five year period FY 2009 through FY 2013.




                                                                                FY 2013 Agency Financial Report   107
Financial Section

REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
(Unaudited)

                                               ETA and OJC Investments in Human Capital
                                    Program Costs (in Millions) and Participants Served (1) (in Thousands)
                                            For The Five Year Period FY 2009 through FY 2013


                                       2013                       2012                        2011                      2010                       2009
                                            Part.                      Part.                      Part.                       Part.                      Part.
Program                        Costs       Served         Costs       Served          Costs      Served         Costs        Served        Costs        Served
            WIA
Adult                           $883       6,761.5          $861      6,979.1          $960      7,025.2            $899     6,695.3         $878       4,921.8
Dislocated Worker
(2)
                                1,329      1,340.4         1,524      1,358.4          2,039     1,570.6         2,539       1,250.4        1,440         842.1
Youth                             942        224.0           944        239.6          1,124       245.0         1,431         316.3        1,125         438.9
                (5)
Job Corps                       1,525          79.6        1,770          97.5         1,717          99.4       1,663         102.4        1,640         101.3
Ex‐Offenders                       96          22.2           76          49.1            67          39.0          70          36.1           58           9.8
National Programs
(3)
                                  170          60.0          180          38.7            150         38.9          134           61.3          206            35.0
            CSEOA
SCSEP                             445          66.9          492          76.9            707        105.9          740        103.6            543            89.0
TAA for Workers
Training                          257         105.1          431         144.7            506        193.1          540        232.7            286       105.0
TAACCCT                           266          18.1
Apprenticeship                     28         366.0            29        410.0             32        432.2           28        485.4             25       301.6
          (4)
    Other                         212         109.3            95        357.7            135        104.9          139         95.8            120        N/A


            TOTAL             $6,153       9,153.1       $6,402       9,751.7         $7,437     9,854.2       $8,183        9,379.3       $6,321       6,844.5
      (1)    Participant numbers are from grantee reports submitted for the Program Year ending on June 30 of the corresponding fiscal year. In general,
             participants served increased in FY 2009 - FY 2011 as a result of greater demand for services due to the economic downturn and the increased
             availability of services and resources under ARRA.
      (2)    Dislocated Worker programs include Community Based Job Training Grants, National Emergency Grants and High Growth and Emerging
             Industry training.
      (3)    National Programs include the Native American and Migrant and Seasonal Farmworker programs.
      (4)    Other includes training programs for highly skilled occupations funded through H1‐B fees, green jobs initiatives and costs for lapsed programs.
             (High Growth and Emerging industry grants were reclassified from Dislocated Workers to Other in FY 2013.)
      (5)    Job Corps participants served in the FY2013 and prior years report switches from reporting only the number of new enrollees to the number of
             participants served.

The table below compares the revised method to the prior method for reporting participants served:

                Method/Reporting Year                                          2013           2012           2011          2010          2009
                New students enrolled (reporting method used in
                prior FYs reports)                                               40,800         55,029         56,204       59,839        60,896
                Students Served (reporting method used in the FY
                2013 report)                                                     79,595         97,474         99,431      102,411       101,256

Program Outcomes

Outcomes for training programs comprising ETA’s investment in human capital will be presented in the
Department’s Annual Performance Report for FY 2013, available on the DOL website at
www.dol.gov/_sec/media/reports/ in February 2014.


108         United States Department of Labor
                                                                                              Annual Financial Statements

                                                               REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
                                                                                                     (Unaudited)

Veterans’ Employment and Training Service

VETS administers programs that address the employment, training, and job security needs of Americans who have
served in uniform. VETS prepares transitioning service members and military spouses for civilian employment and
provides employment and training services to eligible veterans. VETS also protects service members and veterans
by ensuring employers respect their rights to employment and reemployment; and ensures that federal employers
give preferential hiring to veterans.


Program Activities

Jobs for Veterans State Grants (JVSG)

The Jobs for Veterans Act (JVA) of 2002, which allocates resources to the States through the JVSG program (38
U.S.C. 4102A(b)(5)), supports the majority of VETS activities through these major VETS programs:

       Disabled Veterans’ Outreach Program (DVOP) Specialists – The DVOP Specialists (as required by 38 U.S.C.
        4103A), provide intensive services to meet the employment needs of veterans, including counseling,
        assessment, lifelong learning skills and referral to training, particularly to veterans with disabilities or those
        who recently separated from the military.

       Local Veterans’ Employment Representatives (LVER) Staff – The LVER staff (as required by 38 U.S.C. 4104)
        conducts employer outreach on behalf of veterans, allowing States to develop marketing strategies and
        outreach activities that promote the hiring of veterans. The staff also provides individualized job
        development services for veterans, especially veterans determined to be job‐ready after receipt of
        intensive services from a DVOP specialist.

Transition Assistance Program (TAP)

The TAP (established by 10 U.S.C. 1144) operates as a partnership between the Departments of Labor, Defense,
Homeland Security, and Veterans Affairs. The program provides separating service members and their spouses or
individuals retiring from military service with career counseling and training. TAP workshops are provided
throughout the United States and overseas.

Federal Management (VETS)

Federal management activities provide programs and policies to meet the employment and training needs of
veterans. The majority of resources are devoted to Uniformed Services Employment and Reemployment Rights Act
(USERRA) of 1994, codified at 38 U.S.C. Chapter 43, and Veterans’ Preference Rights (5 U.S.C. 2108, 3309)
compliance and outreach. Activities are discussed below:

       Uniformed Services Employment and Reemployment Rights Act and Veterans’ Preference Rights –
        USERRA protects civilian job rights and benefits for veterans, members of the National Guard and Reserves.
        Veterans Preference for Federal Employment is codified in 5 U.S.C. 2108 and 3309. VETS promotes a
        productive relationship between employer and employee by educating both on the employment rights of
        the individual veterans.

Homeless Veterans and Veterans’ Workforce Investment Programs

       Homeless Veterans Reintegration Program (HVRP) – The HVRP, codified at 38 U.S.C. 2021, provides
        employment assistance to homeless veterans through competitive grants to states or other entities in both



                                                                                    FY 2013 Agency Financial Report   109
Financial Section

REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
(Unaudited)

                 urban and rural areas to operate employment programs to reach out to homeless veterans and help them
                 become employed.

               Veterans’ Workforce Investment Program (VWIP) – The VWIP, (29 U.S.C. 2913), provides competitive
                grants for training and retraining of veterans to create highly skilled employment opportunities for targeted
                veterans.

Program Costs and Outputs

The full cost of VETS programs is included in the Consolidated Statement of Net Cost. The costs of VETS investments
in human capital, and the participants served by this investment, are presented below, by major program.



                                                            VETS Investments in Human Capital
                                                   Program Costs and Participants Served (in Thousands)
                                                    For the Fiscal Years Ended FY 2009 through FY 2013

                                  2013                         2012                    2011                       2010                       2009
                                         Part.
                                                             (2)       Part.                   Part.                      Part.                      Part.
  Program                  Cost          Serve        Cost                      Cost                       Cost                       Cost
                                                                      Served                  Served                     Served                     Served
                                           d
         (1)
 JVSG                    $162,999          450.6     $210,671          508.8   $171,497        631.6     $191,802         709.0     $174,981         707.4
       (3)
 TAP                       13,176           187        13,093          153.0      7,089        143.1         7,928        129.0         7,233        124.7
                (5)(6)
 USERRA                    11,381          47.5        12,361           74.7      9,874         79.9        11,043        101.6        10,075        107.9
 HVRP                      40,691          17.4        35,562           19.8     28,385         17.0        31,746         14.4        28,962         13.7
          (4)
 VWIP                       2,157            1.9        9,855            4.3      7,863          3.9         8,794          3.3         8,023          3.6
 TOTAL                   $230,404         704.4      $281,542          760.6   $224,708        875.5     $251,313         957.3     $229,274         957.3
   (1)         This category was previously broken into its constituent components of DVOPs and LVERs. However, to ensure consistency of each funding mechanism
               representing a single row, DVOPs and LVERs have been consolidated into a single row entitled JVSG
   (2)         FY12 and prior cost allocated based on historical program cost.
   (3)         Department of Defense participant estimates.
   (4)         Public Law 113-6, Consolidated and Further Continuing Appropriations Act, 2013, did not provide funding for the Veterans’ Workforce
               Investment Program.
   (5)         USERRA Participants (USERRA Outreach Measure) reflects the number of people VETS connects with each year (service members, spouses, and
               employers) to inform them of their rights and responsibilities under the law.
   (6)         Assumes 30% of USERRA authorized staff workload is dedicated to USERRA outreach efforts.



Program Outcomes

Outcomes for the programs comprising VETS’ investment in human capital will be presented in the Department’s
Annual Performance Report for FY 2013, available in February 2014 on the DOL website at:
www.dol.gov/_sec/media/reports/.




110          United States Department of Labor
Required Supplementary Information
            (Unaudited)
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)

DEFERRED MAINTENANCE AND REPAIRS

DOL reports as general purpose plant, property and equipment, Structures, facilities and improvements, on which
maintenance and repair activities may be deferred (deferred maintenance or DM). Over 99.3% of these buildings
and other structures (based on net book value) are owned by ETA-OJC, and located at one hundred twenty-five (125)
Job Corps centers throughout the United States. The remaining 0.7% is owned by MSHA. Periodic maintenance is
performed to keep these properties in acceptable condition, as determined by DOL management. Maintenance
requirements are stratified into critical and non-critical projects. Critical maintenance involves health and life safety
deficiencies and certain environmental and building code compliance deficiencies. To the extent possible, critical
maintenance projects are funded shortly after they are identified. Non-critical maintenance projects are performed
each year to the extent that funding constraints allow. Critical and non-critical maintenance projects that cannot be
funded when scheduled are deferred to a future period.

Condition Assessment Surveys

Condition assessment surveys are conducted every three years at each property to determine the current condition
of buildings and structures (constructed assets) and the estimated maintenance cost to correct deficiencies. Surveys
conducted during years one and two of this three year cycle are updated to reflect maintenance and repairs
performed, and rolled up with current assessments to provide a condition assessment for the entire DOL portfolio of
constructed assets. Condition assessment surveys are based on methods and standards consistently applied,
including descriptions of the facility condition; standardized condition codes, classifications and categories;
estimated costs of maintenance and repair actions and recommended maintenance schedules.

Asset Condition

Condition assessment surveys are used to estimate the current plant replacement value and deferred maintenance
repair backlog for each constructed asset. Plant replacement value and repair backlog are used to calculate a
Facilities Condition Index (FCI) for each building and structure. The chart below ranks each asset within one of five
categories of asset condition, based on the assets FCI score, for the previous five year period.

                                         Job Corps Center and MSHA Constructed Assets
                                       Ranking of Individual Asset Condition By FCI Score(1)
                                                     Fiscal Years 2009 – 2013

                                 2013                  2012                   2011                 2010                  2009
    Asset          FCI      No. of    Asset      No. of       Asset     No. of     Asset      No. of     Asset     No. of     Asset
  Condition       Score     Assets     %         Assets        %        Assets      %         Assets      %        Assets      %
                   90 -
      Excellent   100%      3,593       88.4        3,454       86.8     3,338       86.2      3,273       86.4     3,037       84.6
                   80 -
       Good        89%        234        5.8          303        7.6       301        7.8        282        7.4         290      8.1
                   70 -
        Fair       79%        117        2.9           93        2.3       100        2.6         90        2.4         95       2.6
                   60 -
    Poor           69%         34        0.8           57       1.4         52        1.3         57       1.5         71       2.0
  Very Poor       < 60%        88        2.1           74       1.9         83        2.1         88       2.3         96       2.7
 TOTAL                      4,066        100        3,981       100      3,874        100      3,790       100      3,589       100
(1)
       FCI = 1 – (Repair Backlog / Plant Replacement Value). An FCI closer to 100 % indicates better asset condition.




112       United States Department of Labor
                                                                                            Annual Financial Statements

                                                                              REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                        (Unaudited)

Portfolio Condition and Deferred Maintenance and Repair Cost Estimates

The FCI assessments by building and structure are consolidated to calculate an FCI score for the entire portfolio of
constructed assets, which is used to evaluate the overall asset condition of the Job Corps and MSHA portfolios. Job
Corps and MSHA have set the goal of achieving and maintaining an FCI of 90% or greater (the standard used by the
National Association of College and University Business Offices) for its portfolio of constructed assets as a level of
acceptable condition for the periods reported. In 2013, the portfolio’s aggregate FCI score for 4,066 constructed
assets was 94.0%, and deferred maintenance and repair costs to return the portfolio to an acceptable condition
were estimated at $96.5 million, as shown in the table below. The final graph juxtaposes deferred maintenance cost
estimates with the FCI trend line for the five year period ending in 2013.

                                  Job Corps Center and MSHA Constructed Assets
                    Portfolio Condition and Deferred Maintenance and Repair Cost Estimates
                                             Fiscal Years 2009 - 2013
            Constructed Assets - FY        Number of       Portfolio Condition  Deferred Maintenance
                                          Constructed     Based on Aggregate   Costs to Return Assets To
                                             Assets             FCI Score        Acceptable Condition
       Buildings and structures - 2013            4,066   Excellent - 94.0%                         $96,507,601
       Buildings and structures - 2012            3,981   Excellent - 94.2%                        $104,599,502
       Buildings and structures - 2011            3,874   Excellent - 93.7%                         $96,136,092
       Buildings and structures - 2010            3,790   Excellent - 93.4%                         $89,827,363
       Buildings and structures - 2009            3,589   Excellent - 91.7%                         $83,861,828




                                                                                  FY 2013 Agency Financial Report   113
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)

SOCIAL INSURANCE PROGRAMS

FASAB has classified certain government income transfer programs as social insurance programs. Recognizing that
these programs have complex characteristics that do not fit traditional accounting models, the FASAB has
developed accounting standards for social insurance programs which require the presentation of supplementary
information to facilitate the assessment of the program’s long-term sustainability.

DOL operates two programs classified under Federal accounting standards as social insurance programs, the UI
Program and the Black Lung Disability Benefits Program. Presented below is the supplementary information for the
two programs.

Unemployment Insurance Program

The UI Program was created in 1935 to provide income assistance to unemployed workers who lose their jobs
generally through no fault of their own and are unemployed due to a lack of suitable work. The program protects
workers during temporary periods of unemployment through the provision of UC benefits. These benefits replace
part of the unemployed worker’s lost wages and, in so doing, stabilize the economy during recessionary periods by
increasing the unemployed worker’s purchasing power. The UI program operates counter cyclically, with benefits
exceeding tax collections during recessionary periods and UI tax revenues exceeding benefit payments during
periods of recovery.

Program Administration and Funding

The UI program is administered through a unique system of Federal-state partnerships, established in Federal law
but executed through conforming state laws by state officials. The Federal government provides broad policy
guidance and program direction through the oversight of DOL, while program details are established through
individual state UI statutes, administered through state UI agencies.

Federal and State Unemployment Taxes

The UI program is financed through the collection of Federal and state unemployment taxes levied on subject
employers and deposited in the UTF and Federal appropriations. The UTF was established to account for the
receipt, investment, and disbursement of unemployment taxes. Federal unemployment taxes are used to pay for
the administrative costs of the UI program, including grants to each state to cover the costs of state UI operations
and the Federal share of extended UI benefits. Federal unemployment taxes are also used to fund an account
within the UTF, to make advances to state UI accounts that are unable to make benefit payments because the state
UI account balance has been exhausted. State UI taxes are used exclusively for the payment of regular UI benefits,
as well as the state’s share of EB.

         Federal Unemployment Taxes

         Under the provisions of the FUTA, a Federal tax is levied on covered employers, at a current rate of 6.0% of
         the first $7,000 in annual wages paid to each employee. This Federal tax rate is reduced by a credit of up to
         5.4%, granted to employers paying state UI taxes under conforming state UI statutes. Accordingly, in
         conforming states, employers pay an effective Federal tax of 0.6% (0.8% prior to July 1, 2011); employers in
         states with advances from the fund may pay a higher effective Federal tax rate because the Federal tax rate
         credit of 5.4% may be decreased in increments of 0.3% if a state has had an outstanding advance for more
         than two years. Additional Federal unemployment taxes collected as a result of the reduced Federal tax


114   United States Department of Labor
                                                                                           Annual Financial Statements

                                                                            REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                      (Unaudited)

        rate credit are used to pay down the state’s outstanding advance balance. Federal unemployment taxes
        are collected by the Internal Revenue Service.

        State Unemployment Taxes

        In addition to the Federal tax, individual states finance their UI programs through state tax contributions
        from subject employers based on the wages of covered employees. (Three states also collect contributions
        from employees.) Within Federal confines, state tax rates are assigned in accordance with an employer’s
        experience with unemployment. Actual tax rates vary greatly among the states and among individual
        employers within a state. At a minimum, these rates must be applied to the Federal tax base of $7,000;
        however, states may adopt a higher wage base than the minimum established by FUTA. State UI agencies
        are responsible for the collection of state unemployment taxes.

Unemployment Trust Fund

Federal and state UI taxes are deposited into designated accounts within the UTF. The UTF was established under
the authority of Title IX, Section 904 of the Social Security Act of 1935, as amended, to receive, hold, invest, loan,
and disburse Federal and state UI taxes. The U.S. Department of the Treasury acts as custodian over monies
deposited into the UTF, investing amounts in excess of disbursing requirements in Treasury securities. The UTF is
comprised of the following accounts:

        Federal Accounts

        The Employment Security Administration Account (ESAA) was established pursuant to Section 901 of the
        Act. Tax receipts collected under the FUTA are appropriated to the ESAA and used to pay the costs of
        Federal and state administration of the UI program and veterans’ ES and 97% of the costs of the state ES;
        and, amounts collected due to FUTA credit reductions are transferred to the FUA and are used to pay down
        balances of state advances that have been outstanding for more than two years. Excess balances in ESAA,
        as defined under the Act, are transferred to other Federal accounts within the Fund, as described below.

        The Federal Unemployment Account was established pursuant to Section 904 of the Act. FUA is funded by
        any excesses from the ESAA as determined in accordance with Section 902 of the Act. Title XII, Section
        1201 of the Act authorizes the FUA to loan Federal monies to state accounts that are unable to make
        benefit payments because the state UI account balance has been exhausted. Title XII loans must be repaid
        with interest. The ARRA of 2009 waived interest on advances to state accounts for the period February 17,
        2009, through December 31, 2010. The FUA may borrow from the ESAA or EUCA, without interest, or may
        also receive repayable advances, with interest, from the general fund of the U.S. Treasury, when the FUA
        has a balance insufficient to make advances to the states.

        The Extended Unemployment Compensation Account was established pursuant to Section 905 of the Act.
        EUCA provides for the payment of extended unemployment benefits authorized under the Federal-State
        Extended Unemployment Compensation Act of 1970, as amended. Under the EB program, extended
        unemployment benefits are paid to individuals who have exhausted their regular unemployment benefits.
        These EB are financed one-half by State unemployment taxes and one-half by FUTA taxes from the EUCA.
        The EUCA is funded by a percentage of the FUTA tax transferred from the ESAA in accordance with Section
        905(b)(1) and (2) of the Act. The EUCA may borrow from the ESAA or the FUA, without interest, or may
        also receive repayable advances from the General Fund of the U.S. Treasury when the EUCA has a balance
        insufficient to pay the Federal share of EB. During periods of sustained high unemployment, the EUCA may


                                                                                 FY 2013 Agency Financial Report   115
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)

         also receive payments and non-repayable advances from the General Fund of the Treasury to finance EUC
         benefits. Emergency unemployment benefits require Congressional authorization.

         The Federal Employees Compensation (FEC) Account was established pursuant to Section 909 of the Act.
         The FEC account provides funds to States for unemployment compensation benefits paid to eligible former
         Federal civilian personnel and ex-service members. Generally, benefits paid are reimbursed to the Federal
         Employees Compensation Account by the various Federal agencies. Any additional resources necessary to
         assure that the account can make the required payments to States, due to the timing of the benefit
         payments and subsequent reimbursements, will be provided by non-repayable advances from the General
         Fund of the U.S. Treasury.

         State Accounts

         Separate state accounts were established for each state and territory depositing monies into the Fund, in
         accordance with Section 904 of the Act. State unemployment taxes are deposited into these individual
         accounts and may be used only to pay state unemployment benefits. States may receive repayable
         advances from the FUA when their balances in the Fund are insufficient to pay benefits.

         Railroad Retirement Accounts

         The Railroad UI Account and Railroad UI Administrative Account were established under Section 904 of the
         Act to provide for a separate UI program for railroad employees. This separate UI program is administered
         by the Railroad Retirement Board, an agency independent of DOL. DOL is not responsible for the
         administrative oversight or solvency of the railroad UI system. Receipts from taxes on railroad payrolls are
         deposited in the Railroad UI Account and the Railroad UI Administrative Account to meet benefit payment
         and related administrative expenses.

UI Program Benefits

The UI program provides regular and extended benefit payments to eligible unemployed workers. Regular UI
program benefits are established under state law, payable for a period not to exceed a maximum duration. In
1970, Federal law began to require states to extend this maximum period of benefit duration by 50% during periods
of high unemployment. These extended benefit payments are paid equally from Federal and state accounts.

         Regular UI Benefits

         The UI program is a cooperative Federal and state program with the federal government providing
         oversight. Eligibility requirements, as well as benefit amounts and benefit duration are determined under
         state law. Under state laws, worker eligibility for benefits depends on experience in covered employment
         during a past base period, which attempts to measure the workers’ recent attachment to the labor force.
         Three factors are common to state eligibility requirements: (1) a minimum duration of recent employment
         and earnings during a base period prior to unemployment, (2) unemployment not the fault of the
         unemployed, and (3) availability of the unemployed for work.

         Benefit payment amounts under all state laws vary with the worker’s base period wage history. Generally,
         states compute the amount of weekly UI benefits as a percentage of an individual’s average weekly base
         period earnings, within certain minimum and maximum limits. Most states set the duration of UI benefits
         by the amount of earnings an individual has received during the base period. Currently, almost all states


116   United States Department of Labor
                                                                                           Annual Financial Statements

                                                                           REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                     (Unaudited)

        have established the maximum duration for regular UI benefits at 26 weeks. Regular UI benefits are paid by
        the state UI agencies from monies drawn down from the state account within the UTF.

        Extended UI Benefits

        The Federal/State Extended Unemployment Compensation Act of 1970 provides for the extension of the
        duration of UI benefits during periods of high unemployment. When the insured unemployment level
        within a state, or in some cases total unemployment, reaches certain specified levels, the state must
        extend benefit duration by 50%, up to a combined maximum of 39 weeks; certain states voluntarily
        extended the benefit duration up to a combined maximum of 46 weeks. Fifty percent of the cost of
        extended unemployment benefits is paid from the EUCA within the UTF, and 50% by the state, from the
        state’s UTF account. The ARRA of 2009 began temporary 100% Federal funding of EB. Subsequent
        legislation, most recently P.L. 112-240, the American Taxpayer Relief Act of 2012, authorized continuing
        100% Federal funding of extended unemployment benefits to December 31, 2013.

        Emergency UI Benefits

        During prolonged periods of high unemployment, Congress may authorize the payment of emergency
        unemployment benefits to supplement extended UI benefit payments. Emergency benefits began in July
        2008, authorized under the Supplemental Appropriations Act, 2008. This emergency program was
        temporarily extended and additionally funded by the Recovery Act and has been subsequently modified
        several times, most recently by P.L. 112-240, the American Taxpayer Relief Act of 2012, which extended the
        emergency unemployment insurance program to January 1, 2014.

        Federal UI Benefits

        Unemployment benefits to unemployed Federal civilian personnel and ex-service members are paid from
        the Federal Employees Compensation Account within the UTF. These benefit costs are reimbursed by the
        responsible Federal agency and are not considered to be social insurance benefits. Federal UC benefits are
        not included in this discussion of social insurance programs.

Program Finances and Sustainability

As of September 30, 2013, total assets within the UTF exceeded total liabilities by $208.1 million. At the present
time there is a small surplus; any future surplus of tax revenues and earnings on these revenues over benefit
payment expenses is available to finance benefit payments in future periods when tax revenues may be
insufficient. Treasury invests any accumulated surplus in Federal securities. The net value of these securities,
including interest receivable, as of September 30, 2013 was $29.6 billion. This interest is distributed to eligible
state and Federal accounts within the UTF. Interest income from these investments during FY 2013 was $1.3
billion. Federal and state UI tax and reimbursable revenues of $56.5 billion and regular, extended and emergency
benefit payment expense of $65.5 billion were recognized for the year ended September 30, 2013.

As discussed in Note 1-K.1 to the consolidated financial statements, DOL recognized a liability for regular, extended
and emergency unemployment benefits to the extent of unpaid benefits applicable to the current period and for
benefits paid by states that have not been reimbursed by the UTF. Accrued unemployment benefits payable as of
September 30, 2013 were $2.4 billion.

During FY 2013, both the FUA and EUCA borrowed from the General Fund of the U.S. Treasury in the form of
repayable advances and also repaid certain prior year (PY) advances. FUA had an outstanding repayable advances
balance of $10.0 billion, bearing interest between 2.375% and 2.75% as of September 30, 2013. EUCA had an


                                                                                 FY 2013 Agency Financial Report   117
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)

outstanding repayable advances balance of $19.6 billion bearing interest between 2.375% and 3.25% as of
September 30, 2013.

Subsequent Events

This RSI does not reflect the effects of the subsequent events described below.

Subsequent to September 30, 2013, the FUA of the UTF borrowed, as Advances from U.S. Treasury, $200 million at
an interest rate of 2.375%.

Effect of Projected Cash Inflows and Outflows on the Accumulated Net Assets of the UTF, in Constant Dollars

The ability of the UI program to meet a participant’s future benefit payment needs depends on the availability of
accumulated taxes and earnings within the UTF. The Department measures the effect of projected benefit
payments on the accumulated net assets of the UTF, under an open group scenario, which includes current and
future participants in the UI program. Future estimated cash inflows and outflows of the UTF are tracked by the
Department for budgetary purposes. These projections allow the Department to monitor the sensitivity of the UI
program to differing economic conditions, and to predict the program’s sustainability under varying economic
assumptions.

The significant assumptions used in the projections include total unemployment rates, civilian labor force levels,
percent of unemployed receiving benefits, total wages, distribution of benefit payments by state, state tax rate
structures, state taxable wage bases, interest rates on UTF investments, and the Consumer Price Index-Urban
(CPI-U) for goods and services. The use of CPI-U factors allows the projections to be presented in constant dollars
with FY 2013 as the base year. The valuation date for the projections is September 30, 2013. Cash projections
depend on the assumptions used and actual experience may differ from the projections.

Presented on the following pages is the effect of projected economic conditions on the net assets of the UTF, in
constant dollars, excluding the Federal Employees Compensation Account.




118   United States Department of Labor
                                                                                          Annual Financial Statements

                                                                           REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                     (Unaudited)

Expected Economic Conditions

Charts I and II graphically depict the effect of expected economic conditions on the UTF, in constant dollars, over
the next ten years.

       Projected Cash Inflows and Outflows, in Constant Dollars, Under Expected Economic Conditions

       Chart I depicts projected cash inflows and outflows of the UTF, in constant dollars, over the next ten years
       under expected economic conditions. Both cash inflows and cash inflows excluding interest earnings are
       displayed. Current estimates by the Department are based on an expected unemployment rate of 7.1%
       during FY 2014, decreasing steadily to 5.4% in FY 2018 and thereafter. Total cash inflows exceed total cash
       outflows in FY 2014 and through the end of the projected period. The net inflow decreases from $14.6
       billion in FY 2014 to $12.8 billion in FY 2015, and ranges between $10.5 billion and $1.7 billion thereafter.
       The net inflow is sustained by the excess of Federal tax collections over Federal expenditures.

       Chart I




       Effect of Expected Cash Flows on UTF Assets in Constant Dollars

       Chart II demonstrates the effect of these expected cash inflows and outflows on the net assets of the UTF,
       in constant dollars, over the ten-year period ending September 30, 2023. Yearly projected total cash
       inflows, including interest earnings, and cash outflows, including interest payments, are depicted as well as
       the net effect of this cash flow on UTF assets.

       Total cash inflows exceed total cash outflows in FY 2014 and all other years in the projected period. The
       excess of total cash inflows over total cash outflows is highest in FY 2014. Starting at a $109.0 million fund

                                                                                FY 2013 Agency Financial Report   119
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)

         balance deficit at the beginning of FY 2014, net UTF assets increase by about $67.5 billion over the next ten
         years to a $67.4 billion fund net assets balance by the end of FY 2023. The fund has a small fund balance
         deficit at the beginning of FY 2014, but ends FY 2014 with a $14.4 billion fund net assets balance.

         Chart II




Sensitivity Analyses in Constant Dollars

Charts III (Sensitivity Analysis I) and IV (Sensitivity Analysis II) demonstrate the effect on accumulated UTF assets of
projected total cash inflows and cash outflows of the UTF, in constant dollars, over the ten-year period ending
September 30, 2023, in two sensitivity analyses. Each sensitivity analysis uses an open group, which includes
current and future participants in the UI program. Sensitivity Analysis I assumes lower rates of unemployment and
Sensitivity Analysis II assumes higher rates of unemployment compared to the expected economic conditions as
shown in Charts I and II. Table I below summarizes the unemployment rates for expected conditions, Sensitivity
Analysis I, and Sensitivity Analysis II.




120   United States Department of Labor
                                                                                                Annual Financial Statements

                                                                                  REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                            (Unaudited)

Table I

            Total Unemployment Rate for the Ten-Year Period Ending September 30, 2023
Conditions        2014   2015  2016      2017    2018    2019    2020    2021    2022                2023
Expected          7.10% 6.57% 6.15% 5.70% 5.40% 5.40% 5.40% 5.40% 5.40%                              5.40%
Sensitivity
 Analysis I       6.91% 6.08% 5.60% 5.45% 5.40% 5.40% 5.40% 5.40% 5.40%                              5.40%
Sensitivity
 Analysis II      9.11% 10.12% 7.82% 7.26% 7.05% 6.43% 5.61% 5.40% 5.40%                             5.40%

Effect on UTF Assets, in Constant Dollars, in Sensitivity Analysis I

In this sensitivity analysis, which utilizes a lower unemployment rate of 6.91% beginning in FY 2014, net cash
inflows peak in FY 2014 and continue to be positive through 2023. Starting at a $109.0 million fund balance deficit
at the beginning of FY 2014, net UTF assets increase by $68.0 billion over the next ten years to a $67.9 billion fund
net assets balance by the end of FY 2023.

          Chart III




          Effect on UTF Assets, in Constant Dollars, in Sensitivity Analysis II

          In this sensitivity analysis, net cash outflows including interest earnings and expenses are projected in
          FY 2014 and FY 2015. Net cash inflows are reestablished in FY 2016 and peak in FY 2018 with a drop in the
          unemployment rate to 7.05% and then lower rates for FYs 2019 through 2023. The net assets increase
          $36.6 billion from a $109.0 million fund balance deficit at the beginning of FY 2014 to a $36.5 billion net

                                                                                      FY 2013 Agency Financial Report   121
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)

         assets fund balance in FY 2023. At the end of the projection period of sensitivity analysis II, net assets are
         $30.9 billion less than under expected economic conditions.

         Chart IV




         The example of expected economic conditions and two sensitivity analyses, in constant dollars,
         demonstrate the counter cyclical nature of the UI program, which experiences net cash outflows during
         periods of recession to be replenished through net cash inflows during periods of recovery. In the three
         scenarios, state accounts without sufficient reserve balances to absorb negative cash flows are forced to
         obtain advances from the FUA and to meet benefit payment requirements. Advances to states also deplete
         the FUA, which borrows from the ESAA and the EUCA until they are depleted. The FUA then requires
         advances from the General Fund of the U.S. Treasury to provide borrowings to states. (See following
         discussion of solvency measures for state UI programs.)




122   United States Department of Labor
                                                                                                                               U.S. DEPARTMENT OF LABOR
                                                                                                          SUPPLEMENTARY SOCIAL INSURANCE INFORMATION IN CONSTANT DOLLARS
                                                                                                                          CASH INFLOW AND OUTFLOW OF THE
                                                                                                   UNEMPLOYMENT TRUST FUND EXCLUDING THE FEDERAL EMPLOYEES COMPENSATION ACCOUNT
                                                                                                                 FOR THE TEN-YEAR PERIOD ENDING SEPTEMBER 30, 2023
                                                                                                                          (1) EXPECTED ECONOMIC CONDITIONS




                                      (Dollars in millions)                               2014             2015             2016             2017            2018            2019            2020              2021            2022            2023


                                      Balance, start of year                          $       (109) $        14,446     $     27,243     $     37,700    $     44,826    $     51,362    $     56,625      $     58,357    $     63,632    $     65,601

                                      Cash inflow
                                         State unemployment taxes                           49,661           46,965           44,001           41,219          39,824          38,879          38,112            38,811          38,922          39,166
                                         Federal unemployment taxes                          8,499            8,389            8,469            7,256           7,406           7,685           5,385             8,617           5,723           5,883
                                         General revenue appropriation                       4,803                 -                -                -               -               -               -                 -               -               -
                                         Interest on loans                                     415              255              145              100              68              36              33                28              12              29
                                         Deposits by the Railroad Retirement Board              39               85              144              145             106              80              97               126             126             102

                                              Total cash inflow excluding interest          63,417           55,694           52,759           48,720          47,404          46,680          43,627            47,582          44,783          45,180

                                          Interest on Federal securities                         777              893              971          1,112           1,298           1,545           1,765             2,039           2,221           2,350

                                              Total cash inflow                             64,194           56,587           53,730           49,832          48,702          48,225          45,392            49,621          47,004          47,530

                                      Cash outflow
                                         State unemployment benefits                        44,695           39,175           38,805           38,299          37,805          38,664          39,407            40,100          40,798          41,454
                                         State administrative costs                          4,021            3,918            3,923            3,924           3,928           3,930           3,931             3,932           3,941           3,950
                                         Federal administrative costs                          189              189              188              188             188             187             186               186             186             186
                                         Interest on tax refunds                                 1                1                1                1               1               1               1                 2               1               1
                                         Interest on advances                                  619              394              245              184             135              71              26                17                -              8




                                                                                                                                                                                                                                                           REQUIRED SUPPLEMENTARY INFORMATION
                                         Railroad Retirement Board withdrawals                 114              113              111              110             109             109             109               109             109             109

                                              Total cash outflow                            49,639           43,790           43,273           42,706          42,166          42,962          43,660            44,346          45,035          45,708
FY 2013 Agency Financial Report 123




                                              Excess of total cash inflow excluding
                                               interest over total cash outflow             13,778           11,904            9,486            6,014           5,238           3,718               (33)          3,236            (252)           (528)
                                              Excess of total cash inflow over
                                               total cash outflow                           14,555           12,797           10,457            7,126           6,536           5,263           1,732             5,275           1,969           1,822




                                                                                                                                                                                                                                                                                                   Annual Financial Statements
                                      Balance, end of year                            $     14,446     $     27,243     $     37,700     $     44,826    $     51,362    $     56,625    $     58,357      $     63,632    $     65,601    $     67,423




                                              Total unemployment rate                       7.10%            6.57%            6.15%            5.70%           5.40%           5.40%           5.40%             5.40%           5.40%           5.40%




                                                                                                                                                                                                                                                                                     (Unaudited)
                                                                                                                                                                               FY 2011
124 United States Department of Labor




                                                                                                                                                                                                                                                              (Unaudited)
                                                                                                                                                                                                                                                              REQUIRED SUPPLEMENTARY INFORMATION

                                                                                                                                                                                                                                                                                                   Financial Section
                                                                                                                                       U.S. DEPARTMENT OF LABOR
                                                                                                                 SUPPLEMENTARY SOCIAL INSURANCE INFORMATION IN CONSTANT DOLLARS
                                                                                                                                  CASH INFLOW AND OUTFLOW OF THE
                                                                                                          UNEMPLOYMENT TRUST FUND EXCLUDING THE FEDERAL EMPLOYEES COMPENSATION ACCOUNT
                                                                                                                         FOR THE TEN-YEAR PERIOD ENDING SEPTEMBER 30, 2023
                                                                                                                        (2) SENSITIVITY ANALYSIS I LOWER UNEMPLOYMENT RATE




                                        (Dollars in millions)                                2014              2015            2016           2017           2018           2019           2020             2021            2022               2023


                                        Balance, start of year                           $          (109) $       15,931   $     30,500   $     41,670   $     49,120   $     55,098   $     59,672     $     61,743    $     63,823       $     65,624

                                        Cash inflow
                                            State unemployment taxes                           49,624             46,789         43,307         40,087         38,984         38,042         38,511           38,834          38,951             39,393
                                            Federal unemployment taxes                          8,513              8,430          7,713          7,286          7,424          7,697          5,392            5,567           5,733              6,194
                                            General revenue appropriation                       4,784                  -              -              -              -              -              -                -               -                  -
                                            Interest on loans                                     408                240            125             77             39             20             19               32              65                103
                                            Deposits by the Railroad Retirement Board              39                 85            144            145            106             80             97              126             126                102

                                                 Total cash inflow excluding interest          63,368             55,544         51,289         47,595         46,553         45,839         44,019           44,559          44,875             45,792

                                            Interest on Federal securities                          780            1,094          1,020          1,155          1,345          1,583          1,787            2,015           2,228              2,437

                                                 Total cash inflow                             64,148             56,638         52,309         48,750         47,898         47,422         45,806           46,574          47,103             48,229

                                        Cash outflow
                                            State unemployment benefits                        43,187             37,504         36,729         36,951         37,616         38,584         39,503           40,261          41,058             41,723
                                            State administrative costs                          3,998              3,887          3,884          3,893          3,916          3,923          3,927            3,929           3,940              3,950
                                            Federal administrative costs                          189                189            188            188            188            187            186              186             186                186
                                            Interest on tax refunds                                 1                  1              1              1              1              1              1                1               1                  1
                                            Interest on advances                                  619                375            226            157             90             44              9                8               8                  8
                                            Railroad Retirement Board withdrawals                 114                113            111            110            109            109            109              109             109                109

                                                 Total cash outflow                            48,108             42,069         41,139         41,300         41,920         42,848         43,735           44,494          45,302             45,977
                                                 Excess of total cash inflow excluding
                                                  interest over total cash outflow             15,260             13,475         10,150          6,295          4,633          2,991              284              65              (427)              (185)
                                                 Excess of total cash inflow over
                                                  total cash outflow                           16,040             14,569         11,170          7,450          5,978          4,574          2,071            2,080           1,801              2,252

                                        Balance, end of year                             $     15,931      $      30,500   $     41,670   $     49,120   $     55,098   $     59,672   $     61,743     $     63,823    $     65,624       $     67,876



                                                 Total unemployment rate                        6.91%             6.08%           5.60%          5.45%          5.40%          5.40%          5.40%            5.40%           5.40%              5.40%
                                                                                                                                 U.S. DEPARTMENT OF LABOR
                                                                                                           SUPPLEMENTARY SOCIAL INSURANCE INFORMATION IN CONSTANT DOLLARS
                                                                                                                             CASH INFLOW AND OUTFLOW OF THE
                                                                                                    UNEMPLOYMENT TRUST FUND EXCLUDING THE FEDERAL EMPLOYEES COMPENSATION ACCOUNT
                                                                                                                   FOR THE TEN-YEAR PERIOD ENDING SEPTEMBER 30, 2023
                                                                                                                  (3) SENSITIVITY ANALYSIS II HIGHER UNEMPLOYMENT RATE




                                  (Dollars in millions)                                2014              2015           2016           2017           2018           2019             2020           2021           2022           2023


                                  Balance, start of year                           $          (109) $      (11,096) $     (28,237) $     (23,704) $     (12,999) $      (1,783) $        8,111   $     18,926   $     28,968   $     35,056

                                  Cash inflow
                                      State unemployment taxes                           50,229             51,539        53,392         53,340         51,773         48,398           45,709         42,868         40,536         39,686
                                      Federal unemployment taxes                          8,524              9,216         9,986         10,600         10,285          9,307            9,112          9,699          8,325          4,974
                                      General revenue appropriation                       5,007                 55            20              -              -              -                -              -              -              -
                                      Interest on loans                                     532                663           593            462            355            277              204            123             43             35
                                      Deposits by the Railroad Retirement Board              39                 85           144            145            106             80               97            126            126            102

                                           Total cash inflow excluding interest          64,331             61,558        64,135         64,547         62,519         58,062           55,122         52,816         49,030         44,797

                                      Interest on Federal securities                          623               520            422            511            682            976          1,266          1,618          1,904          2,007

                                           Total cash inflow                             64,954             62,078        64,557         65,058         63,201         59,038           56,388         54,434         50,934         46,804

                                  Cash outflow
                                      State unemployment benefits                        70,469             73,581        54,659         49,184         46,925         44,246           40,822         39,767         40,293         40,871
                                      State administrative costs                          4,421              4,508         4,236          4,114          4,085          4,035            3,970          3,938          3,941          3,950
                                      Federal administrative costs                          189                189           188            188            188            187              186            186            186            186




                                                                                                                                                                                                                                                  REQUIRED SUPPLEMENTARY INFORMATION
                                      Interest on tax refunds                                 1                  1             1              1              1              1                2              2              2              1




                                                                                                                                                                                                                                                   REQUIRED
                                      Interest on advances                                  747                827           829            756            677            566              484            390            315            268
                                      Railroad Retirement Board withdrawals                 114                113           111            110            109            109              109            109            109            109
137
FY 2013 Agency Financial Report




                                           Total cash outflow                            75,941             79,219        60,024         54,353         51,985         49,144           45,573         44,392         44,846         45,385




                                                                                                                                                                                                                                                            SUPPLEMENTARY
                                           Excess of total cash inflow excluding
                                            interest over total cash outflow             (11,610)          (17,661)        4,111         10,194         10,534          8,918            9,549          8,424          4,184              (588)




                                                                                                                                                                                                                                                                                           Annual Financial Statements
                                           Excess of total cash inflow over




                                                                                                                                                                                                                                                                                            Annual Financial Statements
                                            total cash outflow                           (10,987)          (17,141)        4,533         10,705         11,216          9,894           10,815         10,042          6,088          1,419

                                  Balance, end of year                             $     (11,096) $        (28,237) $     (23,704) $     (12,999) $      (1,783) $      8,111     $     18,926   $     28,968   $     35,056   $     36,475




                                                                                                                                                                                                                                                                          INFORMATION
                                                                                                                                                                                                                                                                            (Unaudited)
                                           Total unemployment rate                        9.11%            10.12%          7.82%          7.26%          7.05%          6.43%            5.61%          5.40%          5.40%          5.40%




                                                                                                                                                                                                                                                                             (Unaudited)
                 125
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)

States with Minimally Solvent UTF Account Balances

Each state’s accumulated UTF net assets or reserve balance should provide a defined level of benefit payments over
a defined period. To be minimally solvent, a state’s reserve balance should provide for one year’s projected benefit
payment needs based on the highest levels of benefit payments experienced by the state over the last twenty years.
A ratio of 1.00 or greater indicates that the state UTF account balance is minimally solvent. States below this level
are vulnerable to exhausting their funds in a recession. States exhausting their reserve balance must borrow funds
from FUA to make benefit payments. During FY 2009, the balances in the FUA were depleted and the FUA
borrowed from the General Fund of the U.S. Treasury and continued to do so through FY 2013, although in FY 2012
and FY 2013 the FUA repaid some borrowings.

Chart V presents the state by state results of this analysis at September 30, 2013 in descending order by ratio. As
the chart below illustrates, 37 state UTF accounts were below the minimal solvency ratio of 1.00 at September 30,
2013.

Chart V

        Minimally Solvent                                Not Minimally Solvent
         State          Ratio                      State     Ratio        State          Ratio
Wyoming                   2.01            Maryland             0.97 Pennsylvania          0.00
Oklahoma                  1.95            Puerto Rico          0.87 Texas                 0.00
Nebraska                  1.76            Tennessee            0.83 New Jersey            0.00
Mississippi               1.70            Hawaii               0.73 Georgia               0.00
Utah                      1.35            Minnesota            0.69 Delaware              0.00
Maine                     1.33            Vermont              0.51 Wisconsin             0.00
Alaska                    1.28            Alabama              0.47 Missouri              0.00
Oregon                    1.27            West Virginia        0.42 Connecticut           0.00
District of Columbia      1.21            Florida              0.32 Rhode Island          0.00
Iowa                      1.21            Massachusetts        0.30 South Carolina        0.00
Louisiana                 1.20            Virginia             0.26 Nevada                0.00
Washington                1.15            Kansas               0.20 New York              0.00
New Hampshire             1.13            New Mexico           0.19 Ohio                  0.00
North Dakota              1.10            Arizona              0.08 Kentucky              0.00
South Dakota              1.09            Arkansas             0.00 North Carolina        0.00
Montana                   1.05            Colorado             0.00 California            0.00
                                          Idaho                0.00 Indiana               0.00
                                          Illinois             0.00 Virgin Islands        0.00
                                          Michigan             0.00




126   United States Department of Labor
                                                                                            Annual Financial Statements

                                                                            REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                      (Unaudited)

Black Lung Disability Benefit Program

The Black Lung Disability Benefit Program provides for compensation, medical, and survivor benefits for eligible
coal miners who are totally disabled due to pneumoconiosis (black lung disease) arising out of their coal mine
employment and the BLDTF provides benefit payments when no responsible mine operator can be assigned the
liability. Other information about the BLDTF and social insurance reporting is also presented in Note 1-W of the
financial statements.

Program Administration and Funding

The Federal Coal Mine Health and Safety Act sets Black Lung benefits at 37.5% of the base salary of a Federal
employee at level GS-2, Step 1. Black lung disability benefit payments are funded by excise taxes from coal mine
operators based on the sale of coal, as are the program’s administrative costs. These taxes are collected by the
Internal Revenue Service and transferred to the BLDTF, which was established under the authority of the Black Lung
Benefits Revenue Act, and administered by the U.S. Department of the Treasury.

P.L. 110-343, Division B-Energy Improvement and Extension Act of 2008, enacted on October 3, 2008, in section
113, (1) allowed for the temporary increase in coal excise tax rates to continue an additional five years beyond the
statutory limit and (2) restructured the BLDTF debt by refinancing the outstanding repayable advances (which had
higher interest rates) with discounted debt instruments similar in form to zero-coupon bonds (which had lower
interest rates), plus a one-time appropriation. This Act also allowed that any subsequent debt issued by the BLDTF
may be used to make benefit payments, other authorized expenditures, or to repay debt and interest from the
initial refinancing. All debt issued by the BLDTF was effected as borrowing from the Treasury's Bureau of Public
Debt. (See Notes 1-J and 8)

Program Finances and Sustainability

At September 30, 2013, total liabilities of the BLDTF exceeded assets by nearly $5.9 billion. This net position
represents the accumulated shortfall of excise taxes necessary to meet benefit payments, administrative costs, and
interest expense incurred prior to and subsequent to the debt refinancing pursuant to P.L. 110-343. Prior to
enactment of P.L. 110-343, this shortfall was funded by repayable advances to the BLDTF, which were repayable
with interest. Pursuant to P.L. 110-343, any shortfall will be financed with debt instruments similar in form to zero-
coupon bonds, with a maturity date of one year and bear interest at the Treasury 1-year rate. Outstanding debt at
September 30, 2013 was $6.0 billion, bearing interest rates ranging from 0.098% to 4.556%. Excise tax revenues of
$541.3 million, benefit payment expense of $174.1 million, and interest expense of $227.0 million were recognized
for the year ended September 30, 2013. The interest expense is accrued and capitalized to the principal of the
debt until the debt reaches its face value at the time of maturity. On September 30, 2013, the BLDTF issued debt in
the amount of $401.0 million, bearing interest at 0.098% and maturing on September 30, 2014. At September 30,
2013, there were 28 debt instruments with staggered maturities of September 30 for years 2014 through 2040,
with a total carrying value of nearly $6.0 billion and a total face value at maturity of $9.8 billion. Of these 28 debt
instruments, 27 are from the October 2008 refinancing and one debt instrument was issued on September 30,
2013.




                                                   FY 2011                        FY 2013 Agency Financial Report   127
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)

Projected Cash Inflows and Outflows, in Constant Dollars

The beneficiary population is a nearly closed universe in which attrition by death exceeds new entrants by a ratio of
more than ten to one. Projections for new participants are included in the overall projections and are considered
immaterial. Therefore, the difference between the open group measure and the closed group measure due to new
participants is immaterial and the same measure is presented for both the open group and the closed group.

The significant assumptions used in the projections, in constant dollars, are coal excise tax revenue estimates, the
tax rate structure, the number of beneficiaries, life expectancy, Federal civilian pay raises, medical cost inflation, the
interest rate on new debt issued by the BLDTF, and the CPI-U for goods and services . The use of CPI-U factors
allows the projections to be presented in constant dollars with FY 2013 as the base year. The valuation date for the
projections is September 30, 2013. Cash projections depend on the assumptions used and actual experience may
differ from the projections. These projections are sensitive to changes in the excise tax rate and changes in interest
rates on debt issued by the BLDTF.

These projections, in constant dollars, made over the 27-year period ending September 30, 2040, indicate that cash
inflows from excise taxes will exceed cash outflows for benefit payments and administrative expenses for each
period projected. Cumulative net cash inflows are projected to reach $5.1 billion by FY 2040. However, when
payments from the BLDTF’s maturing debt are applied against this surplus cash inflow, the BLDTF’s cash flow turns
negative in all periods included in the projections. Net cash outflows after payments on maturing debt are
projected to reach $3.8 billion by the end of FY 2040, resulting in a projected deficit of $6.0 billion at September 30,
2040. Amount totals in tables may differ slightly due to rounding. (See Chart I and Table I)

The net present value of future projected benefit payments and other cash inflow and outflow activities together
with the fund’s deficit positions as of September 30, 2013, 2012, 2011, 2010, and 2009 are presented in the SOSI.




128   United States Department of Labor
                                                                                             Annual Financial Statements

                                                                             REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                       (Unaudited)

Chart I




Projected Cash Inflows and Outflows with Sensitivity Analysis, in Constant Dollars

For the projected cash inflows and outflows with sensitivity analysis, in constant dollars, the significant assumptions
for Federal civilian pay raises were modified to freeze raises during 2014 and 2015 (which in turn froze income
benefits) and the administrative costs were reduced by 7.5% for FYs 2014 through 2023; however, the other
significant assumptions were left unchanged. The Federal Coal Mine Health and Safety Act sets Black Lung benefits
at 37.5% of the base salary of a Federal employee at level GS-2. The significant assumptions for Federal civilian pay
raises were modified to reflect that no Federal employee statutory pay adjustment would take effect through
December 31, 2015. As a result, because the Federal employee base salary would remain unchanged through
2015, the rates for Black Lung benefits would likewise remain unchanged through 2015. Even after statutory pay
adjustments return in 2016, they would be applied to lower amounts of benefits and this would decrease the
benefit amounts through FY 2040. The administrative costs were reduced to reflect the effects of reduced budgets
overall due to the sequestration which occurred during FY 2013. Cash projections depend on the assumptions used
and actual experience may differ from the projections. These projections are sensitive to changes in the excise tax
rate and changes in interest rates on debt issued by the BLDTF.

These projections with sensitivity analysis, in constant dollars, made over the 27-year period ending September 30,
2040, indicate that cash inflows from excise taxes would exceed cash outflows for benefit payments and
administrative expenses for each period projected. Cumulative net cash inflows would be projected to reach $5.3
billion by the year 2040. However, when payments from the BLDTF’s maturing debt are applied against this surplus
cash inflow, the BLDTF’s cash flow would turn negative in all periods included in the projections. Net cash outflows
after payments on maturing debt would be projected to reach $3.5 billion by the end of the year 2040, and would
result in a projected deficit of $5.6 billion at September 30, 2040. (See Chart II and Table II) Amount totals in tables
may differ slightly due to rounding.




                                                   FY 2011                         FY 2013 Agency Financial Report   129
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)


Chart II




Open and Closed Group Measure with Sensitivity Analysis

For the open and closed group measure with sensitivity analysis, we modified the significant assumptions as
described above (see Projected Cash Inflows with Sensitivity Analysis, in Constant Dollars) for Federal civilian pay
raises and administrative costs, but the other significant assumptions were left unchanged.

In FY 2013, DOL refined the approach for selecting the interest rate assumptions and enhanced matching between
the timing of cash flows and interest rates used in the open and closed group measure with sensitivity analysis. For
FY 2013, projected annual payments were discounted to present value based on OMB’s interest rate assumptions
which were interpolated to reflect the average duration of payments between 21.3 and 25.4 years for income
payments, medical payments, administrative expenses, and coal excise tax collections. The interest rates used to
discount the projections are between 2.79% and 2.95% for income payments, medical payments, administrative
expenses, and coal excise tax collections. In FYs 2011 and 2012, the projections were discounted using an interest
rate published by Treasury as of the start of the projection period for Treasury loans to government agencies for
loans with a duration that approximated the projection period.

As a result of changing the significant assumptions for Federal civilian pay raises and administrative costs as
described above, for FY 2013 the actuarial present value of future benefit payments during the projection period to
disabled coal miners and dependent survivors would decrease ($103,188) from $1,953,763 as reported on the SOSI
to $1,850,575; the present value of estimated future administrative costs during the projection period would
decrease ($69,057) from $920,740 as reported on the SOSI to $851,683; the actuarial present value of future
benefit payments and present value of estimated future administrative costs during the projection period for
current and future participants would decrease ($172,245) from $2,874,503 as reported on the SOSI to $2,702,258;


130   United States Department of Labor
                                                                                           Annual Financial Statements

                                                                            REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                      (Unaudited)

the excess of present value of estimated future excise tax income over actuarial present value of future benefit
payments and present value of estimated future administrative costs during the projection period for current and
future participants (open and closed group measure) would increase $172,245 from $4,620,297 as reported on the
SOSI to $4,792,542. The trust fund net position deficit at the start of the projection period would remain
unchanged.

Cash projections depend on the assumptions used and actual experience may differ from the projections. These
projections are sensitive to changes in the excise tax rate and changes in interest rates on debt issued by the BLDTF.




                                                  FY 2011                        FY 2013 Agency Financial Report   131
132 United States Department of Labor t




                                                                                                                                                                                                                       (Unaudited)
                                                                                                                                                                                                                       REQUIRED SUPPLEMENTARY INFORMATION

                                                                                                                                                                                                                                                            Financial Section
                                                               Table I
                                                                                                                     U.S. DEPARTMENT OF LABOR

                                                                                                       SUPPLEMENTARY SOCIAL INSURANCE INFORMATION

                                                                                    CASH INFLOW AND OUTFLOW OF THE BLACK LUNG DISABILITY TRUST FUND IN CONSTANT DOLLARS

                                                                                                     FOR THE 27-YEAR PERIOD ENDING SEPTEMBER 30, 2040




                                          (Dollars in thousands)                                        2014              2015            2016            2017            2018         2019 - 2040        Total



                                          Balance, start of year                                    $ (5,894,222)      $ (5,619,550)   $ (5,351,096)   $ (5,130,160)   $ (4,933,985)   $ (4,750,935)   $ (5,894,222)

                                          Cash inflow

                                              Excise taxes                                              577,021            576,238         538,824         531,072         539,994       5,450,839       8,213,988



                                                    Total cash inflow                                   577,021            576,238         538,824         531,072         539,994       5,450,839       8,213,988



                                          Cash outflow

                                              Disabled coal miners benefits                             169,703            156,866         145,432         134,831         124,914       1,354,569       2,086,315

                                              Administrative costs                                        58,077             56,836         55,654          54,473          53,350         714,477         992,867

                                                    Cash outflows before repayment of

                                                     debt and interest                                  227,780            213,702         201,086         189,304         178,264       2,069,046       3,079,181

                                                    Cash inflow over cash outflow

                                                     before repayment of debt and interest              349,241            362,536         337,738         341,768         361,730       3,381,793       5,134,807



                                              Maturity of obligations refinanced October 2008           464,811            473,890         487,493         498,362         506,265       4,718,714       7,149,535

                                              Interest on annual borrowings                                    386               923         2,542           9,693          20,944       1,757,096       1,791,583

                                                    Total cash outflow                                  692,977            688,514         691,120         697,359         705,473       8,544,856      12,020,299



                                                    Total cash outflow over total cash inflow           (115,956)          (112,276)      (152,296)       (166,287)       (165,479)      (3,094,017)    (3,806,311)

                                              Reduction of debt refinanced October 2008                 390,627            380,730         373,233         362,462         348,529       1,899,790       3,755,371



                                          Balance, end of year                                      $ (5,619,550)      $ (5,351,096)   $ (5,130,160)   $ (4,933,985)   $ (4,750,935)   $ (5,945,162)   $ (5,945,162)
                                                     Table II
                                                                                                               U.S. DEPARTMENT OF LABOR

                                                                                        SUPPLEMENTARY SOCIAL INSURANCE INFORMATION SENSITIVITY ANALYSIS

                                                                            CASH INFLOW AND OUTFLOW OF THE BLACK LUNG DISABILITY TRUST FUND IN CONSTANT DOLLARS

                                                                                               FOR THE 27-YEAR PERIOD ENDING SEPTEMBER 30, 2040




                                  (Dollars in thousands)                                          2014              2015            2016            2017            2018         2019 - 2040        Total



                                  Balance, start of year                                      $ (5,894,222)      $ (5,611,193)   $ (5,330,265)   $ (5,096,512)   $ (4,887,894)   $ (4,692,425)   $ (5,894,222)

                                  Cash inflow

                                      Excise taxes                                                 577,021           576,238         538,824         531,072         539,994       5,450,839       8,213,988



                                            Total cash inflow                                      577,021           576,238         538,824         531,072         539,994       5,450,839       8,213,988



                                  Cash outflow

                                      Disabled coal miners benefits                                165,701           148,672         136,889         126,953         117,640       1,279,884       1,975,739

                                      Administrative costs                                          53,721             52,573         51,480          50,387          49,349         660,888         918,399

                                            Cash outflows before repayment of

                                             debt and interest                                     219,422           201,246         188,369         177,340         166,989       1,940,772       2,894,139




                                                                                                                                                                                                                      REQUIRED SUPPLEMENTARY INFORMATION
                                            Cash inflow over cash outflow

                                             before repayment of debt and interest                 357,599           374,992         350,455         353,732         373,005       3,510,067       5,319,849
FY 2013 Agency Financial Report




                                      Maturity of obligations refinanced October 2008              464,811           473,890         487,493         498,362         506,265       4,718,714       7,149,535

                                      Interest on annual borrowings                                      386               905         2,443           9,214          19,800       1,613,440       1,646,186




                                                                                                                                                                                                                                                              Annual Financial Statements
                                            Total cash outflow                                     684,619           676,040         678,304         684,916         693,054       8,272,926      11,689,860



                                            Total cash outflow over total cash inflow             (107,598)           (99,802)      (139,480)       (153,844)       (153,060)      (2,822,087)    (3,475,872)

                                      Reduction of debt refinanced October 2008                    390,627           380,730         373,233         362,462         348,529       1,899,790       3,755,371




                                                                                                                                                                                                                                                (Unaudited)
                                  Balance, end of year                                        $ (5,611,193)      $ (5,330,265)   $ (5,096,512)   $ (4,887,894)   $ (4,692,425)   $ (5,614,723)   $ (5,614,723)
133 t




                                                                                                                                                                                                                 11
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)

STATEMENT OF BUDGETARY RESOURCES

The principal Combined Statement of Budgetary Resources combines the availability, status, and outlay of DOL’s
budgetary resources during FY 2013 and FY 2012. Presented on the following pages is the disaggregation of this
combined information for each of the Department’s major budget agencies.




134   United States Department of Labor
                                                   Annual Financial Statements

                                     REQUIRED SUPPLEMENTARY INFORMATION
                                                               (Unaudited)




This page left blank intentionally




                                         FY 2013 Agency Financial Report   135
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)

                                         COMBINING STATEMENT OF BUDGETARY RESOURCES
                                              For the Year Ended September 30, 2013

                                                                                         Employment and         Office of Workers'           Office
                                                                                            Training              Compensation                 of
                                                                                          Administration             Programs              Job Corps


  BUDGETARY RESOURCES
     Unobligated balance brought forward, October 1                                  $         1,989,635    $              817,406     $ 1,322,891
     Recoveries of prior year unpaid obligations                                                 381,166                      7,085         19,291
     Other changes in unobligated balance                                                       (187,523)                    (1,737)         (7,069)
     Unobligated balance from prior year budget authority, net                                 2,183,278                   822,754       1,335,113

      Appropriations (discretionary and mandatory)                                           96,223,426                  2,272,746       1,634,317
      Borrowing authority (discretionary and mandatory)                                       7,700,000                         -               -
      Spending authority from offsetting collections (discretionary and mandatory)            4,165,101                  3,059,918             950
  Total budgetary resources                                                          $      110,271,805     $            6,155,418     $ 2,970,380

  STATUS OF BUDGETARY RESOURCES
      Obligations incurred                                                           $      108,256,608     $            4,946,175     $ 1,743,270
      Unobligated balance, end of year
        Apportioned                                                                             674,871                  1,097,292       1,191,512
        Exempt from apportionment                                                                    -                      54,279              -
        Unapportioned                                                                         1,340,326                     57,672          35,598
         Total unobligated balance, end of year                                               2,015,197                  1,209,243       1,227,110
  Total budgetary resources                                                          $      110,271,805     $            6,155,418     $ 2,970,380

  CHANGE IN OBLIGATED BALANCE
     Unpaid Obligations:
     Unpaid obligations, brought forward, October 1                                  $       13,864,842     $              314,213     $      447,333
     Obligations incurred                                                                   108,256,608                  4,946,175          1,743,270
     Less: Outlays (gross)                                                                 (108,379,297)                (5,025,459)        (1,589,150)
     Less: recoveries of prior year unpaid obligations                                         (381,166)                     (7,085)           (19,291)
     Unpaid obligations, end of year                                                         13,360,987                    227,844            582,162

      Uncollected Payments:
      Uncollected payments, Federal sources, brought forward, October 1                       (2,292,212)                   (19,166)               -
      Change in uncollected payments, Federal sources                                            356,599                     18,176                -
      Uncollected payments, Federal sources, end of year                                      (1,935,613)                      (990)               -

      Obligated balance, start of year                                               $       11,572,630     $              295,047     $     447,333

      Obligated balance, end of year                                                 $       11,425,374     $              226,854     $     582,162



  BUDGET AUTHORITY AND OUTLAYS, NET
     Budget authority, gross (discretionary and mandatory)                           $      108,088,527     $            5,332,664     $ 1,635,267
     Less: actual offsetting collections (discretionary and mandatory)                        (4,521,700)               (3,078,094)           (950)
     Less: change in uncollected customer payments from Federal
         sources (discretionary and mandatory)                                                  356,599                     18,176              -
     Budgetary authority, net (discretionary and mandatory)                          $      103,923,426     $            2,272,746     $ 1,634,317

      Outlays, gross (discretionary and mandatory)                                   $      108,379,297     $            5,025,459     $ 1,589,150
      Actual offsetting collections (discretionary and mandatory)                             (4,521,700)               (3,078,094)           (950)
      Outlays, net (discretionary and mandatory)                                            103,857,597                  1,947,365       1,588,200

      Distributed offsetting receipts                                                        (28,171,829)                    (1,371)            -
      Agency outlays, net (discretionary and mandatory)                              $        75,685,768    $            1,945,994     $ 1,588,200




136    United States Department of Labor
                                                                                                                           Annual Financial Statements

                                                                                                        REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                                                  (Unaudited)




     Occupational                                                    Employee             Veterans'
      Safety and           Bureau of         Mine Safety              Benefits           Employment         Wage            Other
        Health               Labor           and Health               Security           and Training     and Hour         Program
    Administration         Statistics       Administration         Administration          Service         Division        Agencies              TOTAL



$           17,486     $     37,631     $            3,813     $            5,016    $         5,001     $ 62,741      $     130,079      $      4,391,699
              8,759            5,427                 3,058                  4,166              6,149         4,597            21,851               461,549
             (5,833)          (1,552)                 (890)                  (764)            (1,755)      (12,499)            (2,281)            (221,903)
            20,412           41,506                  5,981                  8,418              9,395        54,839           149,649             4,631,345

           537,496       513,551                  353,702                173,573             36,188        256,354            607,687       102,609,040
                -             -                        -                      -                  -              -                  -          7,700,000
             2,269        79,949                    1,639                  5,969            214,438          3,455            292,432         7,826,120
$          560,177     $ 635,006        $         361,322      $         187,960     $      260,021      $ 314,648     $    1,049,768     $ 122,766,505



$          540,135     $ 628,228        $         358,167      $         182,363     $      253,064      $ 261,531     $     941,886      $ 118,111,427

             1,061         1,000                      440                      42               512         38,957             65,316         3,071,003
                -             -                        -                      -                  -              -                  -             54,279
            18,981         5,778                    2,715                  5,555              6,445         14,160             42,566         1,529,796
            20,042         6,778                    3,155                  5,597              6,957         53,117            107,882         4,655,078
$          560,177     $ 635,006        $         361,322      $         187,960     $      260,021      $ 314,648     $    1,049,768     $ 122,766,505




$          105,508     $     92,723     $           49,018     $          60,312     $      102,609      $ 55,996      $      436,614     $     15,529,168
           540,135          628,228                358,167               182,363            253,064        261,531            941,886          118,111,427
          (557,722)        (616,260)              (363,943)             (183,849)          (259,224)      (286,052)          (925,969)        (118,186,925)
             (8,759)          (5,427)                (3,058)               (4,166)            (6,149)        (4,597)           (21,851)           (461,549)
            79,162           99,264                 40,184                54,660             90,300         26,878            430,680           14,992,121


             (2,993)          (1,296)                   -                      -                  -              -             (9,225)          (2,324,892)
                 14            1,034                    -                      -                  -              -              3,012              378,835
             (2,979)            (262)                   -                      -                  -              -             (6,213)          (1,946,057)

$          102,515     $     91,427     $           49,018     $           60,312    $      102,609      $ 55,996      $     427,389      $    13,204,276

$           76,183     $     99,002     $           40,184     $           54,660    $        90,300     $ 26,878      $     424,467      $    13,046,064




$          539,765     $ 593,500        $         355,341      $         179,542     $      250,626      $ 259,809     $      900,119     $ 118,135,160
             (2,283)      (80,983)                  (1,639)                (5,969)         (214,438)         (3,455)         (295,444)        (8,204,955)

                14         1,034                       -                      -                   -             -              3,012            378,835
$          537,496     $ 513,551        $         353,702      $         173,573     $        36,188     $ 256,354     $     607,687      $ 110,309,040

$          557,722     $ 616,260        $         363,943      $         183,849     $      259,224      $ 286,052     $      925,969     $ 118,186,925
             (2,283)      (80,983)                  (1,639)                (5,969)         (214,438)         (3,455)         (295,444)        (8,204,955)
           555,439       535,277                  362,304                177,880             44,786        282,597            630,525       109,981,970

                -             -                        -                      -                   -             -             (16,484)         (28,189,684)
$          555,439     $ 535,277        $         362,304      $         177,880     $        44,786     $ 282,597     $     614,041      $     81,792,286




                                                                                                              FY 2013 Agency Financial Report            137
Financial Section

REQUIRED SUPPLEMENTARY INFORMATION
(Unaudited)

                                          COMBINING STATEMENT OF BUDGETARY RESOURCES
                                               For the Year Ended September 30, 2012

                                                                                       Employment and           Office of Workers'         Office
                                                                                          Training                Compensation               of
                                                                                        Administration               Programs            Job Corps


BUDGETARY RESOURCES
   Unobligated balance brought forward, October 1                                  $          1,922,143     $            572,416     $     641,913
   Recoveries of prior year unpaid obligations                                                  211,051                     5,952           90,982
   Other changes in unobligated balance                                                          (80,596)                  (2,055)           (7,295)
   Unobligated balance from prior year budget authority, net                                  2,052,598                  576,313           725,600

    Appropriations (discretionary and mandatory)                                           129,163,572                 2,033,171       2,405,732
    Borrowing authority (discretionary and mandatory)                                       12,164,421                   214,000              -
    Spending authority from offsetting collections (discretionary and mandatory)             4,841,048                 3,020,880               37
Total budgetary resources                                                          $       148,221,639      $          5,844,364     $ 3,131,369

STATUS OF BUDGETARY RESOURCES
    Obligations incurred                                                           $       146,232,004      $          5,026,958     $ 1,808,478
    Unobligated balance, end of year
      Apportioned                                                                              659,456                   716,840         296,525
      Exempt from apportionment                                                                     -                     56,721              -
      Unapportioned                                                                          1,330,179                    43,845       1,026,366
       Total unobligated balance, end of year                                                1,989,635                   817,406       1,322,891
Total budgetary resources                                                          $       148,221,639      $          5,844,364     $ 3,131,369

CHANGE IN OBLIGATED BALANCE
   Unpaid Obligations:
   Unpaid obligations, brought forward, October 1                                  $        14,184,446      $            214,319     $      520,104
   Obligations incurred                                                                    146,232,004                 5,026,958          1,808,478
   Less: Outlays (gross)                                                                  (146,340,557)               (4,921,112)        (1,790,267)
   Less: recoveries of prior year unpaid obligations                                          (211,051)                    (5,952)           (90,982)
   Unpaid obligations, end of year                                                          13,864,842                   314,213            447,333

      Uncollected Payments:
      Uncollected payments, Federal sources, brought forward, October 1                      (2,021,992)                   67,465                -
      Change in uncollected payments, Federal sources                                          (270,220)                  (86,631)               -
      Uncollected payments, Federal sources, end of year                                     (2,292,212)                  (19,166)               -

      Obligated balance, start of year                                             $        12,162,454      $            281,784     $     520,104

      Obligated balance, end of year                                               $        11,572,630      $            295,047     $     447,333



BUDGET AUTHORITY AND OUTLAYS, NET
   Budget authority, gross (discretionary and mandatory)                           $       146,169,041      $          5,268,051     $ 2,405,769
   Less: actual offsetting collections (discretionary and mandatory)                         (4,586,704)              (2,934,249)             (37)
   Less: change in uncollected customer payments from Federal
       sources (discretionary and mandatory)                                                  (270,220)                   (86,631)            -
   Budgetary authority, net (discretionary and mandatory)                          $       141,312,117      $          2,247,171     $ 2,405,732

      Outlays, gross (discretionary and mandatory)                                 $       146,340,557      $          4,921,112     $ 1,790,267
      Actual offsetting collections (discretionary and mandatory)                            (4,586,704)              (2,934,249)             (37)
      Outlays, net (discretionary and mandatory)                                           141,753,853                 1,986,863       1,790,230

      Distributed offsetting receipts                                                       (43,211,817)                    (533)             -
      Agency outlays, net (discretionary and mandatory)                            $         98,542,036     $          1,986,330     $ 1,790,230




138      United States Department of Labor
                                                                                                                         Annual Financial Statements

                                                                                                       REQUIRED SUPPLEMENTARY INFORMATION
                                                                                                                                 (Unaudited)




     Occupational                                                   Employee           Veterans'
      Safety and          Bureau of         Mine Safety              Benefits         Employment              Wage               Other
        Health              Labor           and Health               Security         and Training          and Hour            Program
    Administration        Statistics       Administration         Administration        Service              Division           Agencies            TOTAL



$             18,121     $ 37,253      $             4,834    $            16,787     $      7,020         $ 70,534         $      85,240     $      3,376,261
              11,272         7,798                   5,022                   6,284           1,858             4,897               24,744              369,860
               (6,334)      (1,830)                 (1,132)                 (9,986)         (2,576)          (12,153)               (4,384)           (128,341)
              23,059       43,221                    8,724                 13,085            6,302            63,278              105,600            3,617,780

            564,788        541,895                372,523                183,153         52,779              272,436            629,757         136,219,806
                 -              -                      -                      -              -                    -                  -           12,378,421
              1,875         76,349                  1,407                  5,331        210,964                2,405            299,763           8,460,059
$           589,722      $ 661,465     $          382,654     $          201,569      $ 270,045            $ 338,119        $ 1,035,120       $ 160,676,066



$           572,236      $ 623,834     $          378,841     $          196,553      $ 265,044            $ 275,378        $     905,041     $ 156,284,367

                129          1,510                    751                      30         1,235                6,419             81,293           1,764,188
                 -              -                      -                      -              -                    -                  -               56,721
             17,357         36,121                  3,062                  4,986          3,766               56,322             48,786           2,570,790
             17,486         37,631                  3,813                  5,016          5,001               62,741            130,079           4,391,699
$           589,722      $ 661,465     $          382,654     $          201,569      $ 270,045            $ 338,119        $ 1,035,120       $ 160,676,066




$           102,235      $ 85,680      $           46,847     $           42,947      $     89,194         $ 60,468         $     440,983     $     15,787,223
            572,236        623,834                378,841                196,553           265,044           275,378              905,041          156,284,367
           (557,691)      (608,993)              (371,648)              (172,904)         (249,771)         (274,953)            (884,666)        (156,172,562)
             (11,272)        (7,798)                (5,022)                (6,284)           (1,858)           (4,897)             (24,744)           (369,860)
            105,508         92,723                 49,018                 60,312           102,609            55,996              436,614           15,529,168


               (2,499)         (711)                    -                      -              (883)                -                (9,877)         (1,968,497)
                 (494)         (585)                    -                      -               883                 -                   652            (356,395)
               (2,993)       (1,296)                    -                      -                -                  -                (9,225)         (2,324,892)

$             99,736     $ 84,969      $            46,847    $            42,947     $     88,311         $ 60,468         $     431,106     $    13,818,726

$           102,515      $ 91,427      $            49,018    $            60,312     $ 102,609            $ 55,996         $     427,389     $    13,204,276




$           566,663      $ 618,244     $          373,930     $          188,484      $ 263,743            $ 274,841        $     929,520     $ 157,058,286
              (1,381)       (75,763)                (1,407)                (6,247)      (211,847)              (3,005)           (283,025)        (8,103,665)

               (494)          (585)                    -                      -                883                -                   652          (356,395)
$           564,788      $ 541,896     $          372,523     $          182,237      $     52,779         $ 271,836        $     647,147     $ 148,598,226

$           557,691      $ 608,993     $          371,648     $          172,904      $ 249,771            $ 274,953        $     884,666     $ 156,172,562
              (1,381)       (75,763)                (1,407)                (6,247)      (211,847)              (3,005)           (283,025)        (8,103,665)
            556,310        533,230                370,241                166,657          37,924             271,948              601,641       148,068,897

                 -              -                      -                      -                 -                 -                (22,570)      (43,234,920)
$           556,310      $ 533,230     $          370,241     $          166,657      $     37,924         $ 271,948        $     579,071     $ 104,833,977




                                                                                                           FY 2013 Agency Financial Report            139
                                                            (Unaudited)



Inspector General’s Top Management Challenges




                                    FY 2013 Agency Financial Report 143
Other Information
(Unaudited)

               2013 Top Management Challenges Facing the Department of Labor

For 2013, the OIG considers the following as the most serious management and performance challenges facing the
Department:

•        Protecting the Safety and Health of Workers
•        Protecting the Safety and Health of Miners
•        Improving Performance Accountability of Workforce Investment Act Grants
•        Ensuring the Effectiveness of the Job Corps Program
•        Reducing Improper Payments
•        Ensuring the Security of Employee Benefit Plan Assets
•        Securing and Protecting Information Management Systems
•        Ensuring the Effectiveness of Veterans’ Employment and Training Service Programs

For each challenge, the OIG presents the challenge, the OIG’s assessment of the Department’s progress in
addressing the challenge, and what remains to be done. These top management challenges are intended to identify
and help resolve serious weaknesses in areas that involve substantial resources and provide critical services to the
public.

CHALLENGE: Protecting the Safety and Health of Workers
OVERVIEW
The Occupational Safety and Health Administration (OSHA) was established by the Occupational Safety and Health
Act of 1970. OSHA’s mission is to assure, so far as possible, that every working man and woman has safe and
healthy working conditions. OSHA ensures the safety and health of more than 130 million workers at over 8 million
establishments by setting and enforcing workplace safety and health standards; providing training, outreach, and
education; and encouraging continuous improvement in workplace safety and health. Combined with its state
partners OSHA has approximately 2,200 inspectors – which translates to about one inspector for every 59,000
workers.

CHALLENGE FOR THE DEPARTMENT
U.S. workplace fatalities have fallen steadily since OSHA was established in 1970. Most recently, for instance, from
2011 to 2012, the fatal injury rate fell from 3.5 to 3.2 deaths per 100,000 full-time equivalent workers. However,
with more than eight million entities under its oversight, OSHA is challenged in assuring that employers abate
workplace safety and health hazards. To that end, since it can only reach a fraction of the entities it regulates, OSHA
must target its compliance activities to those areas where it can have the greatest impact. OSHA also faces
challenges in measuring the impact of its policies and programs, and those of the 21 states authorized by OSHA to
operate their own safety and health programs, on reported declines in workplace injuries, illnesses, and deaths.

Recent OIG audits have found that the highest risk industries and worksites were not always targeted and
inspected; and OSHA lacked outcomes‐based performance metrics to measure and demonstrate the causal effect
of its own Federal programs on the safety and health of workers nationwide. Without such metrics, OSHA cannot
determine the effectiveness of either Federally‐operated or state‐run worker safety and health programs, and, as
such, cannot ensure that its limited resources are being used efficiently and with the greatest possible impact on
worker safety and health.




144   United States Department of Labor
                                                                                           Top Management Challenges
                                                                                                        (Unaudited)

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
OSHA established a workgroup in FY 2012 with state representatives and developed effectiveness measures for
state-operated safety and health programs. OSHA formally revised the State Activity Mandated Measures in FY
2013 and introduced 10 new measures, one of which is intended to help OSHA determine the effectiveness of State
Plan inspection targeting. OSHA has also implemented a number of industry-specific National and Local Emphasis
programs targeting areas such as Chemical Process Safety, Grain Facilities, and Nursing Homes, among others.

Moreover, OSHA is working on establishing regular processes for evaluating the success of its enforcement
strategies. In this regard, the Department initiated a multi‐year study of OSHA’s Site Specific Targeting (SST)
program to assess the impact of the program interventions on future employer compliance. The study is scheduled
to be completed by September 2014.

OSHA is also currently working to develop program evaluation systems to ensure that its programs are being run
effectively and efficiently. Specifically, OSHA has committed resources to determine the effectiveness of some of its
more complex and resource-intensive investigations, such as fatality and catastrophe investigations by
implementing an inspection weighting system. Additionally, OSHA has begun the rulemaking process to improve
the tracking of occupational injuries and illnesses by expanding OSHA’s legal authority to collect and make available
injury and illness information.

OSHA still needs to ensure it includes the highest risk worksites in SST program targeting, and prioritize and
complete inspections of the highest risk worksites. OSHA also needs to move forward with its plans to test and
evaluate the inspection weighting system intended to improve OSHA’s ability to target its resources.

CHALLENGE: Protecting the Safety and Health of Miners
OVERVIEW
The Federal Mine Safety and Health Act of 1977, as amended, charges the Mine Safety and Health Administration
(MSHA) with protecting the health and safety of more than 387,000 miners who work at over 14,000 mines
nationwide.

CHALLENGE FOR THE DEPARTMENT
MSHA continues to be challenged in effectively managing its resources to meet statutory mine inspection
requirements while successfully administering other enforcement responsibilities designed to help ensure miners
are afforded all protections so they can safely return home at the end of each work day. While MSHA has made
progress in this area, it must continue its efforts to instill a culture of mine safety and prevention of accidents to
protect the rights of miners to report workplace safety and health concerns. Our recent audit of MSHA’s actions in
response to two review reports that reviewed MSHA’s actions preceding the deadly explosion at the Upper Big
Branch Mine found MSHA had made significant progress in implementing the reports’ recommendations, but needs
to build a process into its internal review framework to rank and prioritize recommendations, and to continue to
work on those recommendations that did not have anticipated completion dates to ensure they are being diligently
pursued.

MSHA also remains challenged in maintaining a cadre of experienced, diverse and properly trained enforcement
staff to meet its statutory enforcement obligations. This challenge will soon be exacerbated by retirements, with 39
percent of MSHA’s health and safety personnel eligible to retire by 2017. This is a particularly pressing issue given
that it takes nearly two years to train new mine inspectors. Moreover, with seventy-eight percent of MSHA’s top
leadership becoming eligible for retirement by 2017, MSHA is challenged to develop future leaders in order to avoid
leadership gaps in future years.




                                                                                  FY 2013 Agency Financial Report 145
Other Information
(Unaudited)

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
Fatality and injury rates were at an all-time low in FY 2011 and FY 2012 and this trend has continued in FY 2013.
Other notable achievements included historic low levels of respirable dust – which results in black lung – at
underground coal mines and an 18 percent drop in violations. However, mining remains an inherently dangerous
industry with too many injuries and fatalities. To reduce those numbers, MSHA took a number of actions in FY 2013,
including: making significant progress implementing recommendations from reviews conducted following the
Upper Big Branch mine accident; improving its process for reviewing, approving and overseeing coal mine roof
control plans; publishing an updated Accountability Program Handbook that addresses OIG recommendations
made as a result of recent reviews; promulgating the final Coal Mine Examination Rule which requires underground
coal mine operators to find and fix conditions consistent with the “Rules to Live By” standards. MSHA also
published it final Pattern of Violations rule that implemented several of the OIG’s recommendations. Other actions
taken by MSHA include diversified education efforts and increased outreach to both miners and representatives of
miners on rights provided by the Mine Act.

MSHA should continue to closely monitor its efforts to implement the recommendations made by the Upper Big
Branch internal review. For the 100 recommendations resulting from the internal review, MSHA reports it has
completed corrective actions for 68; 32 are still in process. MSHA has also taken several actions to address the 4
recommendations made by an Independent Assessment Panel and needs to complete other actions it has outlined.
For coal mine roof control plans, MSHA needs to finalize its new Coal Mine Roof Control Plan Approval Procedures
Handbook, which it anticipates will be completed by December 31, 2013. MSHA also needs to continue to follow
up on all of its revised policy guidance to ensure the policy is being implemented as intended and is achieving the
desired results.

With respect to succession planning, MSHA continues to identify and hire mine inspector candidates within
authorized personnel levels. MSHA has also developed a draft succession plan and is engaged in succession
planning activities. MSHA needs to continue its efforts to finalize a succession plan that will help MSHA maintain
strong leadership and diversity into its workforce into the future, while staying focused on its primary mission to
protect the safety and health of miners.

CHALLENGE: Improving Performance Accountability of Workforce Investment Act Grants
OVERVIEW
In Fiscal Year 2013, the Department’s Employment and Training Administration (ETA) was appropriated $2.6 billion
for grants to States for Workforce Investment Act (WIA) Adult, Dislocated Worker, and Youth programs. The WIA
Adult formula program provides employment and training services through formula grants to states and territories.
ETA also awards grants to states to provide reemployment services and retraining assistance to individuals
dislocated from their employment. Youth programs are funded through grant awards that support program
activities and services to prepare low‐income youth for academic and employment success, including summer jobs.
In addition to the grants to States and territories for WIA Adult, Dislocated Worker and Youth, ETA also administers
competitive grants to service providers to design and operate programs for disadvantaged, often unemployed
persons.

CHALLENGE FOR THE DEPARTMENT
The Department is challenged in ensuring that the WIA grant programs are successful in training and placing
workers in suitable employment to reduce chronic unemployment, underemployment, and reliance on social
payments by the population it serves. Our audit work over several decades, primarily as it relates to discretionary
grants, has documented the difficulties encountered by the Department in obtaining quality employment and
training providers; ensuring that performance expectations are clear to grantees and sub-grantees; obtaining
accurate and reliable data by which to measure and assess the success of grantees and states in meeting the
program’s goals; providing active oversight of the grant making and grant execution process; disseminating proven


146   United States Department of Labor
                                                                                           Top Management Challenges
                                                                                                        (Unaudited)

strategies and programs for replication; and, most critically, ensuring that training provided by grantees leads to
placement in training‐related jobs paying a living wage.

For example, a 2011 OIG audit of the WIA Adult and Dislocated Worker program found that 37 percent of program
participants either did not obtain employment or their employment was unrelated to the training that they
received. OIG projected that the amount of funds paid for this training outcome totaled approximately $124
million. Similarly, our October 2012 audit of the $500 million Recovery Act Green Jobs program designed to train
those most affected by the recession for jobs in “green” industries found that almost half of the training provided
consisted of 1-5 days of instruction, that 92 percent of “credentials” received for participating in the training were
merely certificates of completion, and that there were significant disparities in the participant job retention goals
proposed by grantees and approved by ETA. Most recently, our December 2012 audit of discretionary grant
closeouts found that grantees often failed to meet one or more of the goals in their grant agreement, yet ETA
certified their performance as acceptable. A finding common in many of our audits has been the significant problem
in obtaining accurate, reliable, and detailed performance data from grantees, which makes it more difficult for the
Department to measure program success.

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
ETA recently awarded 26 Workforce Innovation Fund grants with the goal of evaluating strategies for delivering
services more efficiently, achieving better outcomes, and facilitating cooperation across programs and funding
streams. ETA has indicated that it will capture promising practices and lessons learned and share them with the
broader workforce system. In addition to this type of program evaluation, ETA should continue to closely monitor
WIA grants and address the disconnections between the training provided and the realities of the job market. To
that end, ETA should consider using Labor Market Information tools and provide technical assistance to grantees.
ETA also needs to develop criteria for determining acceptable performance in its grant programs and implement a
process that captures grantee performance results for use in future grant-making decisions.

ETA expects to receive the first evaluation report (on implementation) from the WIA Gold Standard Evaluation
during the Fall of 2013, the first impact report in 2015 and the final report in 2016. Through this evaluation, ETA
intends to measure the net impact of specific interventions, such as the incremental effects of the intensive and
training services provided to adults and dislocated workers. The multi-year WIA Gold Standard is funded on an
annual basis and is contingent on the availability of appropriated funding. In response to our audit of the Green
Jobs program, ETA has taken a number of corrective actions, such as creating a Performance Reporting Workgroup
that will identify recommendations for specific steps that ETA can take to clarify grantee data collection and
reporting expectations, and developing and releasing its Enhanced Desk Monitoring Review tool.

ETA and the Department have identified the reauthorization of WIA as a legislative priority and have specified
several goals that the Department believes should be a focus of the reauthorization process. Among those goals is
improving accountability by updating the performance measures used by WIA programs. The OIG considers these
initiatives to be of importance. In particular, we recommend that ETA give maximum priority to developing
processes to ensure grant agreements delineate clear, concise and measurable objectives that can be used to
measure the success of grant performance, and that those programs or strategies that are successful are
disseminated to the workforce investment system for replication.

CHALLENGE: Ensuring the Effectiveness of the Job Corps Program
OVERVIEW
The Employment and Training Administration’s (ETA) Job Corps program provides residential and nonresidential
education, training, and support services to approximately 60,000 disadvantaged, at-risk youths, ages 16-24, at 125
Job Corps centers nationwide. The goal of this $1.6 billion program is to offer an intensive intervention to this
targeted population as a means to help them turn their lives around and prevent a life-time of unemployment,
underemployment, dependence on social programs, or criminal behavior.

                                                                                  FY 2013 Agency Financial Report 147
Other Information
(Unaudited)

CHALLENGE FOR THE DEPARTMENT
The Department is challenged in providing a safe, residential and nonresidential education and training program
which results in outcomes that truly assist at-risk, disadvantaged youth in turning their lives around including:
placement in training-related employment, attainment of education and industry-recognized credentials, entrance
into advanced vocational/apprenticeship training, entrance into higher education, or enlistment in the military. Our
audits have consistently documented the Department’s difficulty in ensuring the quality of residential life, a critical
component of the Job Corps intensive intervention experience. Specifically, our audits have disclosed safety and
health hazards and physical maintenance needs at various centers as well as, in some instances, a lack of
enforcement of disciplinary policies.

Our audits have also demonstrated the challenge faced by the Department in obtaining and documenting desired
program outcomes. ETA oversight of its centers did not adequately ensure academic and career technical training
programs met performance goals and maximized student achievements. Specifically, under-performing programs
were not identified for increased oversight and center assessments and performance improvement plans were not
used effectively to improve performance. Additionally, most centers are operated by contractors through
performance‐based contracts with incentive fees and bonuses which are tied directly to contractor performance.
Absent strict oversight, there is a risk that contractors will overstate performance results and maintain disruptive
students on site. We have also documented problems with ETA’s reporting of job training matches.

Most recently, budgeting missteps and poor financial planning, management, and oversight forced Job Corps to
reprogram $26.2 million in June 2012 to cover its Program Year 2011 (July 1, 2011 – June 30, 2012) operating costs
and impose a 3-month enrollment freeze in early 2013 to avoid a projected $61.5 million budget overrun for
Program Year 2012 (July 1, 2012 – June 30, 2013). Our audit of Job Corps’ funds and expenditures found the
Department did not have a sound budget or spending plan for the Job Corps program or have a process in place to
accurately project spending needs. If not adequately addressed, these financial management control weaknesses
could result in further budget overruns and possibly future moratoriums on student enrollments. In addition, we
have documented significant problems with centers being unable to ensure that major procurements are properly
competed to ensure best value to the program and the taxpayers.

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
Job Corps is continuing its efforts to improve the quality of program services and achieve better outcomes for the
students it serves. These efforts include implementing a standards-based system of teaching and learning,
identifying and replicating the practices of high-performing centers as well as closing some chronically low-
performing centers. Job Corps also plans to increase its oversight of under-performing training programs by
improving its monitoring, and by using performance improvement plans, center assessments, and other oversight
activities more effectively.

To improve its reported performance data, Job Corps has updated its Job Training Match Crosswalk to align with
the revised DOL O*NET-Standard Occupational Classification database, which characterizes all jobs in the U.S. labor
market.

To avoid the financial difficulties it experienced in PY 2011 and PY 2012, the Department has refined Job Corps’
processes for planning, requirements determination, budgeting, procurement and evaluation in order to enhance
internal controls. This effort is intended to establish a more defined process for all aspects of financial and
contractual activity well in advance of the start of a program year and allow for more rapid response to Job Corps
budget changes. A key aspect will be the formalization of significantly enhanced communications among offices
and leadership within ETA and the Department. Specifically, the Department established a new Office of Financial
Administration within ETA and implemented a new management oversight process that includes the Office of the
Chief Financial Officer, the Office of the Assistant Secretary for Administration and Management, and the Office of
the Solicitor. The Department also adopted a new budgeting approach to adjust the number of students enrolled
with the funding available in Job Corps’ appropriation. Additional training has been provided to staff members who


148   United States Department of Labor
                                                                                        Top Management Challenges
                                                                                                     (Unaudited)

monitor Job Corps’ contracts to improve their skills and enable them to provide better oversight. While these
changes should help the agency to actively oversee the program and its expenses, Job Corps will need to be vigilant
in its oversight to promptly identify and address potential problems.

ETA’s Office of Contracts Management (OCM) recently inspected the contracting purchasing systems for many Job
Corps center operators. In instances where there was an inadequate purchasing program, the cognizant
Contracting Officer withdrew the approved purchasing plans. These center operators must now have each
purchase (subcontract) approved by the responsible Contracting Officer.

OIG continues to recommend that Job Corps provide rigorous oversight of contractors at all centers to: ensure they
provide a safe environment that is conducive to learning; improve the transparency and reliability of performance
metrics and outcomes; and ensure that center operators and other service providers comply with applicable
procurement requirements.

CHALLENGE: Reducing Improper Payments
OVERVIEW
The Unemployment Insurance (UI), the Workforce Investment Act (WIA) and the Federal Employees Compensation
Act (FECA) programs are at risk of making significant improper payments. For example, for FY 2013, the Department
reported improper payments totaling approximately $7.68 billion for the UI program alone. Outlays for the UI
program decreased in FY 2013 to an estimated $66.7 billion, compared with $90.19 billion in FY 2012. This decrease
reflects the decline in the number of new claims, the drop in Federally-funded emergency and additional benefits,
and the efforts of DOL and the state workforce agencies to reduce improper payments. The 2013 UI improper
payment rate is 9.32 percent for the reporting period July 2012 to June 2013, which is below the 10 percent target
established by the Improper Payments Elimination and Recovery Act of 2010 but slightly above the 9.23 percent
target rate identified by the Office of Management and Budget (OMB). However, in 2013 the Department, in
conjunction with OMB, made a change in the way it computes the improper payment rate by subtracting
overpayments recovered from total estimated overpayments. The true UI improper payment rate without netting
out subsequent recoveries actually increased from 10.78 percent for the 2012 reporting period to 11.50 percent in
2013.

The leading cause of UI overpayments is claimants who have returned to work and continue to claim UI benefits,
and OIG investigations continue to uncover fraud committed by individual UI recipients who do not report or
underreport earnings, as well as fraud related to fictitious employer schemes.

CHALLENGE FOR THE DEPARTMENT
The Department’s ability to identify and reduce the rate of improper payments in the UI, FECA and WIA programs
continues to be a challenge for the Department. Notably, OMB has designated the Unemployment Insurance (UI)
and Workforce Investment Act (WIA) programs as being particularly at risk for improper payments. Our audits have
found that the Department lacked effective controls to ensure states are properly measuring improper payments
and identifying and recovering overpayments for both the UI state and Federal programs.

The Department also remains challenged in identifying the full extent of improper payments in the FECA and WIA
programs. As highlighted in past OIG audits, the estimation method used for the FECA program does not appear to
provide a reasonable estimate of improper payments. Without this information, the Department cannot implement
the appropriate corrective actions that will reasonably assure taxpayers’ funds are adequately safeguarded. In
addition, DOL OIG investigations continue to identify significant amounts of FECA compensation and medical fraud,
which has often surpassed the Department’s improper payments estimates. For the WIA program, data are not
readily available to allow the Department to directly sample grant payments and develop a statistically valid
estimate of improper payments.



                                                                                FY 2013 Agency Financial Report 149
Other Information
(Unaudited)

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
The Department continues to work with states to implement a number of strategies to improve the prevention,
detection and recovery of UI improper payments. Among numerous other initiatives, the Department has launched
a website that clearly identifies each state’s estimated UI improper payment rate and payments over a 3-year
period, as well as each state’s progress in implementing the identified improper payment strategies. The
Department has also undertaken the “Improper Payment High Priority States” initiative to reduce the UI improper
payment rate in those states with unacceptably high levels over a prolonged period. In addition, the Department
established a UI Integrity Center of Excellence to develop, implement, and promote innovative program integrity
strategies to reduce improper payments, including the prevention and detection of fraud, in the UI program.
However, the Department needs to employ cost benefit and return on investment analyses to evaluate the impact
of those improper payment reduction strategies. The Department can further improve oversight of the states’
detection and prevention of UI overpayments by increasing the frequency of on-site reviews at State Workforce
Agencies. In addition, the Department needs to continue pursuing legislation to allow States to use a percentage of
recovered UI overpayments to detect and deter benefit overpayments.

With respect to improper payments in the FECA program, the Department developed a methodology for estimating
the FECA improper payment rate and plans to implement it for FY 2014. In the WIA program, the Department has
attempted to identify the full extent of improper payments by including estimates from other sources, but it should
continue to consider other sampling methods in order to provide a more complete estimate of improper payments.
Further, the Department needs to provide full disclosure in the Agency Financial Report regarding the limitations of
the data used to estimate WIA overpayments.

CHALLENGE: Ensuring the Security of Employee Benefit Plan Assets
OVERVIEW
The mission of the Department’s Employee Benefits Security Administration (EBSA) is to protect the security of
retirement, health, and other private-sector employer-sponsored benefit plans for America’s workers, retirees, and
their families. EBSA is responsible for administering and enforcing the fiduciary, reporting, and disclosure provisions
of Title I of the Employee Retirement Income Security Act (ERISA). The agency is charged with protecting about 141
million workers, retirees and their families who are covered by nearly 684,000 private retirement plans, 2.4 million
health plans, and similar numbers of other welfare benefit plans which together hold estimated assets of $7.6
trillion.

CHALLENGES FOR THE DEPARTMENT
EBSA’s limited authority and resources present challenges in achieving its mission of administering and enforcing
ERISA requirements protecting approximately 141 million participants and beneficiaries. An important part of
EBSA's mission is to deter and correct violations of ERISA through a strong enforcement program to ensure workers
receive promised benefits. Given the number of plans that the agency oversees relative to the number of
investigators, EBSA has to focus its available resources on investigations that it believes will most likely result in the
deterrence, detection, and correction of ERISA violations. In order to do so, EBSA must determine which of its
enforcement initiatives are the most effective. EBSA has begun trying to quantify its results by using programs such
as the Sample Investigation Program (SIP), which attempts to measure the effectiveness of enforcement initiatives.

Among EBSA’s challenges over the past couple of decades has been the fact that billions in pension assets held in
otherwise regulated entities, such as banks, escape audit scrutiny. Because ERISA authorizes these institutions to
obtain so-called “limited scope audits,” presumably because they are being audited by other entities for other
purposes, the independent public accountants that conduct their audits express “no opinion” on the financial
statements of the assets they hold on behalf of plans. These concerns were renewed and heightened by recent
audit findings that as much as $3.3 trillion in pension assets received these types of limited scope audits, providing
no assurances to participants as to the financial health of their plans. EBSA is further challenged by the many


150   United States Department of Labor
                                                                                         Top Management Challenges
                                                                                                      (Unaudited)

changes that have taken place in the employee benefit plan community since ERISA was enacted in 1974, such as
the shift from defined benefit retirement plans to defined contribution retirement plans, as well as the large
increase in the types and complexity of investment products available to pension plans. For example, our
September 2013 audit of EBSA’s oversight of employee benefit plans that hold alternative investments totaling
almost $3 trillion found that EBSA needs to do more to ensure plan Administrator properly identify and value hard-
to-value investments.

EBSA is also responsible for oversight of health coverage provided by employers through the administration and
enforcement of Title I of ERISA. EBSA oversees approximately 2.4 million employer-sponsored health plans covering
approximately 150 million participants and beneficiaries. EBSA, in conjunction with the Department of Treasury and
the Department of Health and Human Services, has worked to implement the Patient Protection and Affordable
Care Act (PPACA). Beginning in FY 2014, key provisions of PPACA will come into effect, and EBSA will be challenged
to ensure plan sponsors and their benefit plans comply with the new law.

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
As an initial step in developing performance metrics to measure the effectiveness of its enforcement program, EBSA
implemented a broad Sample Investigation Program (SIP) in FY 2011. Now in its third year, the SIP is designed to
measure overall compliance with ERISA and the impact of ERISA investigations on compliance rates. In addition,
data collected by the SIP will be used to evaluate the effectiveness of EBSA’s enforcement targeting strategies, as
well as the impact of investigations on plan compliance. EBSA processed 273 SIP cases in 2013, and will implement
a baseline compliance measure for 2014.

EBSA should continue to work to obtain legislative changes to repeal the limited scope audit exception, obtain
additional authority over plan auditors to address deficient benefit plan audits, and ensure that auditors with poor
records do not continue to perform substandard plan audits. In the interim, EBSA should use existing authority to
clarify and strengthen limited scope audit regulations and evaluate the ERISA Council’s recommendations on the
issue. Finally, to mitigate potential challenges that may affect implementation and compliance with PPACA
requirements, EBSA will need to take further action in its rulemaking, enforcement, reporting on benefits typically
covered by employers, and Multiple Employer Welfare Arrangements (MEWA) regulations. These actions would
help improve transparency to the public; provide additional compliance assistance to employers, plans and
insurers; and help strengthen enforcement over MEWAs.

CHALLENGE: Securing and Protecting Information Management Systems
OVERVIEW
The Department’s Information Technology (IT) systems contain sensitive information that is central to its mission
and to the effective administration of its programs. DOL systems are used to analyze and house the nation’s leading
economic indicators, such as the unemployment rate and the Consumer Price Index. They also maintain critical data
related to enforcement actions, worker safety, health, pension, and welfare benefits, job training services, and
other worker benefits.

CHALLENGE FOR THE DEPARTMENT
Safeguarding data and information systems is a continuing challenge for all Federal agencies, including DOL. Recent
OIG audits have identified deficiencies in configuration management, account management, vulnerability
management, as well as security and access controls weaknesses in key departmental financial and support
systems. These deficiencies can pose an increased risk to the security of data and information maintained in DOL
systems.

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
The Department has made progress in establishing risk mitigation as a priority via its Risk Management program.
The Office of the Chief Information Officer (OCIO) established Priority Security Performance Metrics and began

                                                                                 FY 2013 Agency Financial Report 151
Other Information
(Unaudited)

measuring agency progress on achieving these metrics resulting in the remediation and closure of 93% of prior year
findings.

The Department has also begun an IT modernization program. As part of DOL’s IT modernization, users will
eventually access their network accounts by logging on to their desktops and/or laptop computers using their PIV
card. The IT Modernization program also includes consolidating the Department’s nine IT infrastructures in an effort
to create a more unified and scalable IT service organization. In addition, DOL has acquired an enterprise IT system
monitoring tool to assist in configuration management, vulnerability assessment, and accounting for the inventory
of electronic devices connecting to each IT system.

To improve upon identity management and security issues, DOL needs to continue to reduce its IT footprint by
completing its data center consolidation efforts and reducing the number of external connections. Furthermore,
while the migration of email to the cloud was delayed and is now scheduled for implementation later this year, the
Department must take steps to ensure that DOL systems and data will be secure in the cloud computing
environment prior to implementation. To enhance security, reduce identity fraud, and protect personal privacy,
DOL also needs to ensure its PIV card workstation logon process is fully implemented throughout the Department.
Most importantly, a greater presence in IT system security is needed at the Executive Level; continuing current Risk
Management and Continuous Monitoring Program processes will assist in that effort as Executives become integral
to the discussion and understanding of their IT security risks and control weaknesses, including setting mitigation
priorities.

CHALLENGE: Ensuring the Effectiveness of Veterans’ Employment and Training Service
Programs
OVERVIEW
The Veterans’ Employment and Training Service (VETS) provides assistance to veterans and transitioning service
members by protecting their employment and reemployment rights through investigation and resolution of claims
from protected individuals. VETS also assists veterans in obtaining and maintaining civilian employment through its
Jobs for Veterans State Grants (JVSG) Program. JVSG supports two principal staff positions in the Workforce
System: Disabled Veterans Outreach Program (DVOP) specialists and Local Veterans Employment Representatives
(LVERs). DVOP specialists provide intensive services to meet the employment needs of disabled and other eligible
veterans, with an emphasis on serving those who are economically or educationally disadvantaged, including
homeless veterans. LVERs conduct outreach to employers and engage in advocacy efforts to increase employment
opportunities for veterans. Another VETS’ program, the Transition Assistance Program (TAP), provides a three day
employment workshop to separating service members and their spouses at military installations worldwide.

CHALLENGE FOR THE DEPARTMENT
VETS estimates that the U.S. military discharges about 270,000 service members annually. VETS is refocusing its
efforts to ensure veterans who have significant barriers to employment are served by the DVOP program, while all
other veterans will be served on a priority basis in DOL’s Wagner-Peyser and Workforce Investment Act programs.
These programs will be challenged to meet the employment needs of this expected influx of veterans. For VETS
specifically, the Department projects that approximately 90 percent of future JVSG participants will require
intensive services, such as career planning and counseling, skill assessment, referral to training and support
services, and post-transition follow-up, to overcome significant barriers to employment.

VETS continues to be challenged to meet this increased demand for intensive services; our prior audit work has
found that JVSG staff needed to do a better job of accurately assessing veterans’ needs and documenting intensive
service activities.




152   United States Department of Labor
                                                                                        Top Management Challenges
                                                                                                     (Unaudited)

We have also found that VETS did not use measurable performance goals and outcomes to evaluate program
effectiveness and lacked adequate contracting oversight for TAP workshop services. These deficiencies undermined
VETS’s ability to ensure that it was providing a high-quality program which helped veterans successfully transition
from military to civilian employment.

DEPARTMENT’S PROGRESS AND WHAT REMAINS TO BE DONE
In a joint effort with the Department’s Employment and Training Administration, VETS has launched the Veteran
Gold Card program. The Veteran Gold Card provides post-9/11 veterans with extra support as they transition out of
the military. Once a veteran has downloaded the Veteran Gold Card, he or she can access six months of
personalized case management, assessments and counseling at the roughly 3,000 American Job Centers located
across the country.

Over the past year, VETS has started working with State Workforce Agencies to convert LVERs to DVOPs in response
to the increased demand for intensive services. VETS has also directed states to provide more oversight of DVOP
services to ensure that veterans with significant barriers to employment are getting the assistance they need. In
addition, VETS has requested an increase of 500 DVOPs in FY 2014. When combined with the conversions of LVERs
to DVOPs already underway, VETS believes this will significantly increase the workforce focused directly on
providing intensive services for those veterans with significant barriers to employment and should have a positive
impact on employment outcomes for this population. VETS stated that it is developing clarifying guidance for
distribution to State Workforce Agencies about the JVSG program, as well as a training program that will address
JVSG expectations. The training is expected to be available in February 2014. VETS needs to closely monitor the
program to ensure states can demonstrate that the DVOP program is operating as intended. VETS must also
evaluate the effectiveness of the DVOP program and use evaluation results to modify and improve it.

VETS also completed a major effort to redesign the TAP employment workshop curriculum in January 2013. Unlike
previous years, TAP is now mandatory for all separating service members and all workshops worldwide are being
led by professional facilitators. The new workshop is designed to provide relevant, up-to-date content with a focus
on experiential learning, best practices in career transition, and emphasis on networking and communicating the
veteran's value to the hiring manager. VETS has developed and implemented outcome measures for FY 2014 to
assess the effectiveness of the TAP workshops, and stated it is working with the Department of Defense and the
Department of Veteran Affairs to explore new data sharing possibilities and ways to monitor veteran employment
outcomes.

CHANGES FROM LAST YEAR:
Changes from the FY 2012 Top Management Challenges report include the deletion of the challenges pertaining to
Foreign Labor Certification programs and procurement integrity. Although we still consider these challenges to be
significant issues for the Department, we believe they no longer pose the greatest threat to the Department in
meeting its mission to workers, retirees, beneficiaries and taxpayers. We will continue to conduct audit and
investigative work and report the Department’s challenges in these program areas in our “Significant Concerns”
section of the OIG’s Semiannual Report to the Congress.




                                                                                FY 2013 Agency Financial Report 153
(Unaudited)


        Summary of Financial Statement Audit and Management Assurances
The following tables provide a summary of the Department’s FY 2013 financial statement audit and its management
assurances.

 Summary of Financial Statement Audit
 Audit Opinion                                                                                    Unmodified
 Restatement                                                                                           No
 Material Weaknesses                                                        Beginning     New   Resolved    Consolidated   Ending
                                                                             Balance                                       Balance
 Total Material Weaknesses                                                      0                                             0


 Summary of Management Assurances
 Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
 Statement of Assurance                                                                   Unmodified
 Material Weaknesses                                       Beginning New       Resolved     Consolidated    Reassessed     Ending
                                                            Balance                                                        Balance
 Total Material Weaknesses                                     0                                                              0
 Effectiveness of Internal Control over Operations (FMFIA § 2)
 Statement of Assurance                                                                   Unmodified
 Material Weaknesses                                       Beginning New       Resolved     Consolidated    Reassessed     Ending
                                                            Balance                                                        Balance
 Total Material Weaknesses                                     0                                                              0
 Conformance with financial management system requirements (FMFIA § 4)
 Statement of Assurance                                          Systems conform to financial management system requirements
 Non-Conformances                                          Beginning New       Resolved     Consolidated    Reassessed     Ending
                                                            Balance                                                        Balance
 Total Non-Conformances                                        0                                                              0
 Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                           Agency                              Auditor
 1. System Requirements                                            No noncompliance noted              No noncompliance noted
 2. Accounting Standards                                           No noncompliance noted              No noncompliance noted
 3. USSGL at Transaction Level                                     No noncompliance noted              No noncompliance noted




154   United States Department of Labor
                                                                                                        (Unaudited)



                             Improper Payments Reporting Details
In accordance with the Improper Payments Information Act (IPIA) of 2002, as amended by the Improper Payments
Elimination and Recovery Act (IPERA) of 2010 and the Improper Payments Elimination and Recovery Improvement
Act of 2012 (IPERIA) and implemented by OMB Circular No. A‐123, Appendix C, Requirements for Effective
Measurement and Remediation of Improper Payments, the Department reviews its programs and activities annually
to identify those that may be susceptible to significant improper payments. For programs and activities deemed “at
risk,” the Department performs testing to estimate rates and amounts of improper payments, establishes improper
payment reduction targets in accordance with OMB guidance, and develops and implements corrective actions to
reduce and recover improper payments. Additionally, the Department conducts payment recapture audits for each
program and activity that expends $1 million or more annually if conducting such an audit is cost effective.

DOL Review of Programs and Activities

Similar to prior years, the Department’s FY 2013 review of major programs and activities includes the following
tasks:

      Reviewing the prior three years’ results of IPIA risk assessments and detailed tests.
      Reviewing DOL Office of Inspector General (OIG) and GAO audit reports issued for DOL programs to identify
       control weaknesses or other issues that could potentially impact improper payments.
      Reviewing results of the Department’s OMB Circular A‐123 internal control assessment to identify control
       weaknesses that could potentially impact improper payments for DOL programs.
      Reviewing DOL programs’ FY 2010 through FY 2012 funding levels for significant changes that may impact
       improper payments.

The review identified one program, the Unemployment Insurance (UI) benefit program, to be at risk of significant
improper payments according to OMB criteria (i.e., programs with annual improper payments exceeding both $10
million and 2.5% of annual program payments, or $100 million).

The cluster of Workforce Investment Act (WIA) grant programs was classified as at‐risk in OMB’s former Circular No.
A‐11, Section 57, in 2001 due to its annual level of expenditures; however, the Department’s annual risk
assessments have not supported the high‐risk designation.

The FECA benefit program was also classified as at‐risk in OMB’s former Circular No. A‐11, Section 57 in 2001. The
Department’s past risk assessments have not supported the high‐risk designation for the FECA program.

During FY 2013, the Department performed detailed testing for the UI and WIA programs to estimate the level of
improper payments and their major causes. DOL has taken corrective actions to address the causes and reduce
improper payments in these programs and has established improper payment reduction targets in accordance with
OMB guidance.




                                                                                FY 2013 Agency Financial Report 155
Other Information
(Unaudited)

Table 1 shows the FY 2012 – FY 2016 targets and projected rates for Department’s “At‐Risk” programs.

Table 1: Target and Actual Improper Payments Rates for the Department’s “At‐Risk” Programs

                 DOL Program                                2012                    2013               2014         2015         2016

                                                    Target       Actual     Target       Actual       Target       Target       Target

       Unemployment Insurance (UI)                   9.7%       10.78%       9.23%       9.32%        (See         (See          (See
                                                                                                      Note)        Note)         Note)

      Workforce Investment Act (WIA)                0.44%        0.22%       0.44%       0.19%        0.44%        0.44%        0.44%

Note: Integrity rate target for FY 2013 is based on the alternative methodology explained in this document at Section II ‐ UI Statistical
Sampling. The FY 2014 - FY 2016 targets will be set pending additional guidance and consultation regarding estimation methodology with
OMB. FY 2012 target and results are based on the combined overpayment and underpayment rates and are not adjusted for overpayment
recoveries.

Unemployment Insurance (UI)

The FY 2013 target error rate for UI’s improper payments was 9.23%, as compared to the estimated error rate of
9.32% (8.82% net overpayment rate plus 0.50% underpayment rate) for the period July 2012 to June 2013, the most
recent period for which data were available. The net overpayment rate is computed by subtracting overpayments
recovered from total estimated overpayments, plus total estimated underpayments, divided by total projected
budget outlays for FY 2013.

Workforce Investment Act Programs (WIA)

With regard to WIA programs, the Department continues to improve accuracy in rate estimation and program
integrity. The rate for FY 2013 is 0.19%, which is less than half of the target of 0.44%.

                                               Unemployment Insurance Program

Overview

The single largest program at DOL is the UI program, which represented approximately $67 billion in outlays in FY
2013. Because the improper payments for UI are above $750 million and are estimated to be over 10%, the UI
program is classified as a “high‐priority” program, the only program with this designation within the DOL.

Enhancing Federal and state efforts to reduce improper payments in the UI program is a top priority at DOL.
Additionally, the UI program is continuing to emphasize the recovery of overpayments by performing payment
recapture activities and providing states with tools to aid their recovery efforts.

I. UI Risk Assessment
The outlays for the State UI, Unemployment Compensation for Federal Employees (UCFE), Unemployment
Compensation for Ex‐Service Members (UCX), Extended Benefits (EB), and Emergency Unemployment
Compensation 2008 (EUC08) programs decreased in FY 2013 to an estimated $66.79 billion, compared with $90.19
billion in FY 2012, reflecting the following:

           Improved labor market conditions;
           A significant drop in EUC08 program payments, which decreased from $39.58 billion in 2012 to an
            estimated $25.43 billion in 2013; and
           A sharp decrease in EB payments, from $4.94 billion in 2012 to an estimated $77 million in 2013.




156       United States Department of Labor
                                                                                                      Improper Payments Reporting Details
                                                                                                                            (Unaudited)

The UI program’s estimated annual improper payments for 2013 are $6.225 billion, consisting of $5.891 billion in
net overpayments (estimated overpayments of $7.347 billion minus $1.456 in overpayment recoveries) plus $334
million in underpayments. Net overpayments (estimated overpayments minus recoveries) were $5.89 billion. The
estimates are based on the results of the Benefit Accuracy Measurement (BAM) survey, which includes payments
from the State UI, UCFE, and UCX programs, but does not include EUC and EB payments. For the purposes of
reporting UI payment accuracy data required by the IPIA, the estimated improper payment rates are assumed to
generally reflect the accuracy of benefit payments from the EUC and EB programs, although they are not directly
measured by the BAM survey. The BAM survey methodology is described in Section II – UI Statistical Sampling.
States reported total overpayment recoveries of $1.456 billion, which includes overpayments recovered from the
State UI, UCFE, UCX, EUC, and EB programs. States report recovery data on the ETA 227 Overpayment Detection
and Recovery Report. Recovery data cover the period July 2012 to June 2013, the most recent ETA 227 report data
available.

II. UI Statistical Sampling

The following sampling was performed for the UI benefit program:

Sampling Process: Improper payment rates are estimated from the BAM program. BAM includes the three largest
permanently authorized unemployment compensation (UC) programs: State UI1, UCFE, and UCX. The Department
reports an improper payment rate, which is the combined Annual Report Overpayment Rate and the
Underpayment Rate, required by the IPIA. Executive Order 13520 required “high‐priority” Federal programs to
develop supplemental measures. The Department, in consultation with OMB, developed two supplemental
measures ‐ the Operational Rate, which includes fraud and non‐fraud recoverable overpayments that state
agencies are expected to identify and establish for recovery, and the Employment Service (ES) Registration Rate,
which measures the percentage of UI claimants who were required to register with the state ES, but who were not
actively registered during the paid week selected for the BAM audit. The Department reports these two
supplemental measures quarterly for publication on the Department of the Treasury Payment Accuracy Web site
(http://www.paymentaccuracy.gov/). These supplemental measures are also reported annually as part of the IPIA
reporting requirements (see Table 4, Improper Payment Reduction Outlook).

BAM investigators in each state conduct comprehensive audits for randomly selected weekly samples of paid and
denied claims. Effective January 2008, all paid claims sampled for BAM investigation must be matched with the
National Directory of New Hires (NDNH) database to improve the ability to detect overpayments due to individuals
who claim benefits after returning to work, the largest single cause of UI overpayments. The universe (population)
includes paid and denied claims under the State UI, UCFE, and UCX programs. However, because the claims
processes and eligibility requirements are very similar for the additional benefits paid to unemployed individuals
under the EB and EUC programs, the estimated improper payment rates are assumed to generally reflect the
accuracy of these benefit payments. Overpayment and underpayment rates for FY 2013 are shown in Table 4,
Improper Payment Reduction Outlook, and are for the period July 1, 2012 to June 30, 2013. Data are reported for
this period rather than the fiscal year because a higher percentage of BAM investigations have been completed and
will, therefore, produce more accurate estimates. For the period July 1, 2012 to June 30, 2013, state agencies
completed audits for 24,181 paid claims cases, a completion rate of 99.9%. Additional information about the BAM
methodology can be found at: http://oui.doleta.gov/unemploy/bam/2011/CY_2011_BAM_Methodology.pdf.

During 2012, DOL developed a new metric to measure improper payments that takes into account the “net” effect
of UI overpayment recoveries. This measure includes the two components that have been reported annually as part
of the IPIA reporting requirements - total overpayments plus total underpayments - which continue to be estimated
from BAM, and subtracts the amount of overpayment recoveries, which are based on actual amounts reported by


1
 The 50 states, the District of Columbia, Puerto Rico, and the U.S. Virgin Islands (referred to as states/areas) administer UI programs. The U.S.
Virgin Islands does not participate in BAM.


                                                                                                     FY 2013 Agency Financial Report 157
Other Information
(Unaudited)

the state workforce agencies on the ETA 227 Overpayment Detection and Recovery Reports for State UI, UCFE, UCX,
EB, and EUC. It should be noted:

           Overpayments include fraud, non‐fraud recoverable, and non‐fraud non‐recoverable overpayments.
           Underpayments include benefits payable to the claimant and underpayments not payable due to state
            finality rules or other disqualifying issues.
           Both overpayment and underpayment rates include all causes.

On December 13, 2012, OMB informed the Department that this methodology is consistent with OMB’s IPERA
implementing guidance (OMB memorandum M-11-16) and approved its use beginning with FY 2013 reporting.

III. UI Corrective Actions

OMB has established the following categories to classify the root causes of improper payments in the UI program:

           Documentation and Administrative Errors
           Verification Errors
           Authentication and Medical Necessity Errors

These categories do not align precisely with the way the UI program classifies root causes. The BAM survey collects
data on state workforce agency actions associated with the processing of overpayments. Table 2 displays the
crosswalk between the OMB classification for Documentation and Administrative Errors and Verification Errors and
BAM data. Since UI does not provide medical benefits of any type, no UI overpayments fit the definition of the
Authentication and Medical Necessity Errors category.

Table 2: OMB‐Specified Causes of Errors and BAM Data Crosswalk

Overpayment Causes (OMB Classification)                                                  Percent of Overpayments

Documentation and Administrative Errors Total (breakdown listed below)                            11.30%

Agency Took Incorrect Action                                                                      6.24%

Procedures Not Followed by Agency                                                                 3.72%

Other Agency Errors                                                                               0.91%

Agency Provided Incorrect Information                                                             0.43%

Verification Errors Total (breakdown listed below)                                                88.70%

Issue Not Detectable by Agency Procedures                                                         76.62%

Agency Had Documentation/Did Not Resolve Properly                                                 8.77%

Agency in Process of Resolving                                                                    2.72%

New Hire Cross‐Match                                                                              0.44%

Wage Record Cross‐Match                                                                           0.15%

Authentication and Medical Necessity Errors Total                                                 0.00%




158       United States Department of Labor
                                                                                                  Improper Payments Reporting Details
                                                                                                                        (Unaudited)

Table 3 reflects the root causes of UI overpayments. The Department classifies the root causes of UI overpayments
according to the following categories:

Table 3: Root Causes of UI Overpayments
Annual Report Rate Overpayments                                                                                    Percent of
                                                                                                               Overpayments (2013
                                                                                                                    IPIA Rate)

Benefit Year Earnings                                                                                                   34.60%

Work Search                                                                                                             24.33%

Separation                                                                                                              19.48%

Base Period Wages                                                                                                       4.55%

Able and Available                                                                                                      4.22%

Employer Service Registration                                                                                           4.16%

Other Eligibility Issues1                                                                                               3.85%

All Other Issues2                                                                                                       4.81%

Total                                                                                                                   100.0%
1
  The category “Other Eligibility Issues” includes refusal of work, self‐employment, failure to report for agency review or report requested
information, citizenship status, and claiming benefits using a false identity.
2
 The category “All Other Issues” includes adjustments to dependents’ allowance, adjustments to benefits due to claimant receipt of income
from severance pay, vacation pay, Social Security, or employer pension, back pay awards, payment during a period of disqualification, or
agency redetermination of eligibility.

Reducing Improper Payments in Unemployment Insurance

In response to the level of improper payments in the UI program, ETA has developed a Strategic Plan to address
several root causes of improper payments. A high level summary of the Strategic Plan is available at
http://www.dol.gov/dol/maps/Strategies.htm.

Funds for UI are disbursed and monitored through established systems and processes. In addition, the Department
has taken and will continue to take various actions to minimize and manage risk, including the following:

        Conducting outreach to states and other eligible grant applicants to communicate policies and guidelines
         and utilizing the regional office Federal Project Officers to conduct and document quarterly desk reviews of
         financial obligations, expenditures, and program performance. Grantees identified as “high‐risk grantees”
         through these reviews are given priority attention for on‐site monitoring.
        Training grantees on Federal grant requirements, performance expectations, fiscal and program
         requirements, and allowable use of funds.
        Closely monitoring the draw‐down of UI’s funds from the specific accounts and ensuring systems are in
         place for reporting information required for monitoring and evaluating the operations of these programs.
        Conducting program reviews to ensure that the various activities are properly implemented, including the
         use of funds according to various operating instructions and guidance provided to the states.




                                                                                                 FY 2013 Agency Financial Report 159
Other Information
(Unaudited)

Goals for improving UI’s improper payment program include:

           Working with the states to develop and implement processes to identify and recapture improper payments.
           Defining audit procedures to be performed on selected items.
           Developing a framework for identifying improper payments and providing guidance to implement that
            framework.
           Establishing appropriate payment recapture targets.
           Utilizing statutory and regulatory authorities to recapture improper payments.

Several factors contribute to improper UI payments. Efforts to reduce costs of taking claims and improve customer
service prompted the states to design remote claims processing. The transition from in‐person claims to remote
claims processing (phone and internet) has depersonalized the process, making it easier for claimants to make false
statements, and has had the additional side effect of precluding valuable prevention activities (such as agency
messaging to reinforce eligibility requirements with claimants and questioning claimants with respect to their active
work search efforts and benefit year employment issues) and contributed to the rise of improper payments.

Additionally, the states are required to meet benefit payment timeliness performance standards, which may result
in some eligibility decisions that are based on incomplete or untimely information.

DOL is actively working with the states to reduce improper payments. All states have been called to action to
ensure that UI integrity is a top priority and to develop state-specific strategies to bring down the overpayment
rate. Specific attention and assistance has been given to those states with the largest impact on the improper
payment rate. This work is continuing with all the states, particularly those with high overpayment rates.

Additionally, DOL has provided states with supplemental funding to implement strategies and technology‐based
infrastructure investments that will help the states prevent, detect, and recover UI overpayments. These grants
demonstrate DOL’s commitment to the development of integrity‐related systems focused on the proper payment
of UI benefits. These systems can result in significant savings of staff costs for integrity‐related activities, increased
dollar amounts of overpayments recovered, and prevention of future overpayments.

Between FY 2005 and FY 2012, DOL provided approximately $187.1 million to states in supplemental funding for
integrity related projects. Additionally, in FY 2011 $128 million in supplemental funding was provided to three
consortia to address outdated IT system infrastructures, all of which are necessary to improve UI integrity. In FY
2012, an additional $92.8 million was awarded to these consortia.

UI Program Letter (UIPL) No. 24‐13, issued in July 2013, provided funding opportunities that encourage states to
continue efforts to aggressively target UI overpayment prevention and detection, and to develop state‐specific
strategies to reduce the UI improper payment rate. The funding opportunities are designed to build from the
supplemental funding provided in prior years to assist states in developing their own state‐specific strategies to
prevent, detect, and recover improper payments.

In September 2013 DOL ETA awarded $176.4 million in supplemental funding to 40 states for the prevention,
detection, and recovery of improper UI benefit payments; improve state performance; address outdated IT system
infrastructures necessary to improve UI program integrity; and enable states to expand or implement
Reemployment and Eligibility Assessment (REA) programs. These incentive funds will support state implementation
of high‐priority activities, including:

           Activities to address Worker Misclassification;
           Implementation of other integrity‐related projects, including technology‐based prevention, detection, and
            collection activities;
           Implementing the State Information Data Exchange System (SIDES) earnings / wage verification and
            monetary and potential employer charges data exchange;


160       United States Department of Labor
                                                                                     Improper Payments Reporting Details
                                                                                                           (Unaudited)

       Subscription fees for maintenance and operation of SIDES;
       Contract staff support for activities that do not require the use of state merit staff;
       UI IT Security and IT Contingency Planning projects; and
       Automation efforts that result in performance and system improvements.

Overpayment Prevention and Detection in Unemployment Insurance

Every state conducts post award audits for the prevention and detection of UI improper payments on benefit
payments to determine whether error or willful misrepresentation has occurred in the payment of UI benefits.
Every state audits all benefits payments by means of a cross‐match against National and State new hire directories
and state wage files. However, under certain circumstances, states may exclude payments from these matches if
the wages are being reported by the claimant, or if the payment was made to a claimant with a return‐to‐work
date.

These activities are conducted through the use of automated tools and procedures that confirm the identity and
legal status of the claimants, search for unreported earnings, and detect other forms of fraud or errors contributing
to improper payments in the UI program.

States agencies also maintain the integrity of unemployment insurance and reduce the amount of improper
payments by ensuring that employers contribute their fair share of tax and facilitate the return to work of UI
claimants.

Some of the most useful tools and practices include:

    1. BYE Issues (claimants continuing to claim UI benefits after returning to work)
           a. NDNH – This database is managed by the Department of Health and Human Services, Office of Child
                Support Enforcement. The NDNH has claims information as well as wage and new hire information
                from employers including the Federal government and military. States use this database to
                cross‐match between the wage record data to detect unreported earnings and new hire data to
                identify individuals who continue to claim benefits after returning to work.
           b. State Directory of New Hires – This tool provides information similar to the NDNH, but only
                contains data reports from employers within the state.
           c. State Quarterly Wage Cross‐Match – Paid claims are matched against the quarterly wage records
                reported by employers to state tax units. The lag in reporting requirements for UI taxes can prevent
                identification of overpayments in a timely manner.
    2. Separation Issues (claimants ineligible to receive benefits due to voluntary quit or discharge for cause)
           a. State Information Data Exchange System – This automated data exchange promotes the receipt of
                timely information from employers regarding the claimants’ separation from employment and
                verification of earnings upon returning to work. Timely and adequate information from employers
                provides the state agency with the necessary information to make a determination on the
                claimants’ eligibility and thus prevent improper payments.
    3. Verification of Claimant Identity and Other Fraud Prevention Activities
           a. State Department of Motor Vehicles – Helps verify the identity of the claimant.
           b. Social Security Administration (SSA) – Helps confirm identity and benefits from SSA.
           c. Systematic Alien Verification for Entitlement (SAVE) – Maintained by the Department of Homeland
                Security, SAVE confirms the legal status of non‐citizens. The wages used to establish a claim must
                be earned legally, and after filing a UI claim, non‐citizens must be legally authorized to seek and
                accept employment.
           d. State and Local Prison Records – Some states match claimant data against these records to prevent
                fraud in the program.



                                                                                     FY 2013 Agency Financial Report 161
Other Information
(Unaudited)

              e. Internal state databases record multiple claimants using the same contact information (phone
                  numbers, addresses, bank accounts, or IP addresses). These tools can prevent fraud schemes.
       4. Tax Fraud Detection
              a. State Unemployment Tax Act (SUTA) Dumping Detection System (SDDS) – Use of SDDS software
                  helps detect employers who manipulate their tax rates by, for example, shifting employees from
                  accounts with higher tax rates to accounts with lower tax rates.
              b. Worker Misclassification Programs – Includes audits and investigations to prevent worker
                  misclassification by employers. Worker misclassification occurs when an employee is erroneously
                  classified by an employer as a non‐employee, which reduces UI tax revenue, as well as the worker’s
                  ability to receive UI benefits, worker’s compensation, Social Security benefits, health insurance
                  coverage, retirement coverage, and protection under the Fair Labor Standards Act.
       5. Reemployment and Continuing Eligibility
              a. Worker Profiling and Reemployment Services – A system designed to identify claimants who are
                  likely to exhaust benefits and refer them to services designed to assist them in returning to work
                  quickly.
              b. Reemployment and Eligibility Assessments – In‐person claimant interviews conducted at the
                  One‐Stop Career Centers to review continuing UI eligibility and assess reemployment needs,
                  including providing labor market information, assisting with the development of a work search
                  plan, and referral to reemployment services and/or training when appropriate.
IV. UI Improper Payment Reporting
Table 4 shows the Improper Payment Reduction Outlook, for the UI program, for FY 2012 – FY 2016. FY 2012
estimated improper rates and amounts have been revised due to the recoding of BAM data reported by
Pennsylvania that reflected legislation establishing new active work search and registration requirements effective
January 1, 2012. In April 2013, Pennsylvania requested that these improper payments be reclassified due to the fact
that the rule making process had not been completed and, therefore, the new eligibility requirements could not yet
be enforced. The Department approved this request in July 2013.

Table 4: UI Improper Payment Reduction Outlook FY 2012– FY 2016 ($ in millions)
 Program           FY 2012             FY 20133            FY 20141             FY 20151                                                 FY 20161
                   Outlay      IP %     IP $   Outlay      IP %     IP $    Est.     IP %    IP $     Est.      IP %    IP $    Est.        IP %      IP $
                     s                           s                         Outlay                    Outlay                    Outlays
                                                                             s                         s

  UI Program       $90,190   10.78%   $9,719   $66,788   9.32%    $6,225   $46,340   (See    (See    $41,570   (See    (See    $42,010    (See      (See
     Total                                                                           Note)   Note)             Note)   Note)              Note)     Note)

 Annual Report               10.17%   $9,168             8.82%    $5,891
      Rate
Overpayments2
Underpayments                0.61%    $551               0.50%    $334


Operational Rate             5.99%    $5,402             6.25%    $4,174

    Employment               0.65%    $587               0.46%    $306
      Service
    Registration
1
 Integrity rate targets for FY 2014 to FY 2016 will be set pending additional guidance and consultation regarding estimation methodology with
OMB.
2
 For FY 2013 the overpayment rate reflects the Annual Report rate, which includes all overpayments, estimated form the BAM survey, minus
overpayments recovered, reported on the ETA 227 Overpayment Detection and Recovery Report. The FY 2012 overpayment rate is not
adjusted for overpayment recoveries.
3
 The Department allowed New Jersey to suspend BAM operations as a result of Super Storm Sandy. Data for the BAM sampling period
November 4, 2012, to February 2, 2013, have been estimated.

Data for the fourth quarter of calendar year 2012 have been estimated for New Mexico, due to methodological
issues related to the operation of the BAM survey.



162       United States Department of Labor
                                                                                  Improper Payments Reporting Details
                                                                                                        (Unaudited)

Actual UI outlays in FY 2013 include no benefit payments under the EB, Federal Additional Compensation (FAC) and
EUC08 programs funded by the American Recovery and Reinvestment Act of 2009. Recovery Act UI modernization
incentive and administrative cost payments to states are not included.

The rates were determined as described in Section II – UI Statistical Sampling and applied to the estimated outlays
for the fiscal year. UI rates are estimates based on the BAM statistical survey of State UI, UCFE, and UCX payments.

Because the claims processes and eligibility requirements are very similar for the EB and EUC programs, the
estimated improper payment rates are assumed to generally reflect the accuracy of these benefit payments. No
benefits were paid under the FAC program in FY 2012 or FY 2013.

An estimated 2.89% of UI benefits were overpaid due to fraud in FY 2013, compared with a 2.85% fraud rate in FY
2012. Overpayments due to fraud are included as part of both the IPIA Rate and Operational overpayment rates.

V. UI Recapture of Improper Payments Reporting

The UI program was deemed cost effective for payment recapture audits. Performing UI payment recapture
activities and providing states with tools to aid recovery are top priorities at DOL. DOL’s recapture activities have
focused on the following areas that offer the greatest opportunity for improvement:

       BYE Issues – These issues arise when a claimant continues to claim and receive UI benefits after returning
        to work.
       Separation Issues – These issues occur because the claimant files for benefits when they are ineligible to do
        so, and the state has not received documentation to that effect from the former employer before the claim
        is processed.
       Work Search Issues - These issues occur when the claimant has not met the state’s requirements to
        conduct an active search for work.
       Employment Service (ES) Registration Issues – These issues occur when the claimant has not registered in
        the state’s Employment Service system (or job bank) when required to do so, and is therefore ineligible for
        UI benefits.

The Department coordinates with states to recover UI overpayments. Each state’s Benefit Payment Control (BPC)
unit is responsible for promoting and maintaining UI program integrity through prevention, detection, investigation,
establishment, and recovery of improper payments. BPC operations identify UI overpayments for recovery through
such methods as cross‐matching claimant Social Security Numbers with State and National Directories of New Hires,
wage record files submitted each quarter by employers, matches with other databases, such as Workers
Compensation and State Corrections, and other sources such as appeals, reversals and tips and leads. States collect
overpaid claims through offsets of UI benefits, Federal income tax refunds under the Treasury Offset Program
(TOP), state income tax offsets, and direct cash reimbursement from the claimant. From FY 2004 through FY 2012,
approximately $7.43 billion was recovered for the UI program (including the State UI, UCFE, UCX, EB, and EUC
programs).

In February 2011, the Department of Treasury (Treasury) enacted a regulation to permit states to offset UI
overpayments through TOP. As of September 2013, 36 states had implemented TOP and 11 other states have
received supplemental funding, but have not yet implemented. An estimated $323.8 million in UI overpayments
were recovered through TOP in FY 2013.

The states must hold the claimants liable to repay benefits that were received improperly and take an active role to
recover improper payments (payment recapture audits). States may waive repayments for non‐fraud overpayments
when it would be against equity and good conscience pursuant to their state’s law.

Some of the recovery activities and tools used by states include:


                                                                                 FY 2013 Agency Financial Report 163
  Other Information
  (Unaudited)

              Offsets from benefits;
              Offsets from state and Federal income tax refunds;
              Offsets from lottery winnings, homestead exemptions, and other benefits, including the Alaska Mineral
              Refund;
              Interstate recovery agreements;
              Repayment plans;
              Civil Actions, including wage garnishments and property liens;
              Skip tracing, collection agencies, and credit bureaus;
              Probate and Bankruptcy;
              Referral to Office of Inspector General and other Law Enforcement Agencies;
              State and Federal Prosecution; and
              Establishment of interest and penalties on overpayments, which adds an incentive to repay quickly.

  Table 5 provides a summary of UI overpayments established and recovered as a result of the activities described
  above.

  Separate rates are shown for State UI, UCFE, UCX, and EB claims only and for State UI, UCFE, UCX, and EB plus EUC
  claims. Recovered overpayments for State UI claims are returned to the UI account from which the benefits were
  originally paid. EUC and EB overpayments that are recovered by the states are returned to the EUCA account within
  the UI Trust Fund.

  Table 5: UI Overpayments Established and Recovered By Fiscal Year (Excluding Waivers)

Fiscal        Overpayments       Overpayments      Recovered        Overpayments           Overpayments       Recovered %
Year            Established        Recovered           %             Established             Recovered
             UI/UCFE/UCX/EB     UI/UCFE/UCX/EB                    UI/UCFE/UCX/EB +       UI/UCFE/UCX/EB +
                                                                         EUC                    EUC

2004          $1,101,549,360      $528,941,410      48.02%

2005          $960,277,791        $488,807,550      50.90%

2006          $979,836,264        $511,524,977      52.21%

2007          $952,898,179        $531,724,056      55.80%

2008          $1,002,131,148      $571,160,044      56.99%         $1,010,170,720          $572,970,520          56.72%

2009          $1,456,403,205      $850,987,241      58.43%         $1,736,295,243          $914,626,113          52.68%

2010          $1,906,310,909      $966,016,812      50.67%         $2,834,448,745          $1,179,889,999        41.63%

2011          $1,887,177,040      $997,967,260      52.88%         $2,995,716,708          $1,298,988,280        43.36%

2012          $1,740,389,347     $1,015,228,074     58.33%         $3,021,708,061          $1,400,128,425        46.34%


  The states are required to report quarterly on overpayment detection and recovery activities on the ETA 227
  Report. The amounts established and recovered are based on reports submitted during the indicated fiscal year.
  However, the actual payment of benefits may have occurred in a prior fiscal year.

  The information reported on the ETA 227 Report is based on actual counts of UI overpayments identified and
  recovered by the state agencies. This is in contrast to the estimates of UI overpayment rates and amounts that are
  reported for the IPIA, which are based on the results of BAM. BAM is a statistical survey of paid and denied UI

  164        United States Department of Labor
                                                                                   Improper Payments Reporting Details
                                                                                                         (Unaudited)

claims. The results of the BAM audits are projected to the population of benefit payments for all unemployment
compensation programs: State UI, UCFE, UCX, EB, and EUC. These BAM estimates may be significantly higher than
actual overpayments identified for recovery because: 1) the BAM audits detect eligibility issues that usual BPC
detection methods will not identify, because it is very workload intensive and/or not cost effective to detect (for
example, verification of all claimant work search activity or that all claimants were able and available for work); or
2) the overpayment is not recoverable because the responsibility for the improper payment is the agency’s and/or
the employer’s, rather than the claimant’s, or due to state finality rules.

“Overpayment Establishments” have been adjusted to subtract waivers, which are overpayments that the state
agency has determined are not recoverable. The Unemployment Insurance Report Handbook (ET Handbook 401,
4th edition, Section IV, Chapter 3, p. 10) defines a waiver as:

          “A non‐fraud overpayment for which the state agency, in accordance with state law, officially relinquishes
          the obligation of the claimant to repay.”

Usually, this is authorized when the overpayment was not the fault of the claimant and requiring repayment would
be against equity and good conscience or would otherwise defeat the purpose of the UI law.

DOL believes that this definition is consistent with the criteria established by OMB for evaluating the cost
effectiveness of a payment recapture program in the revised Appendix C, Part I.B, Section 5 of Circular A-123.

Table 6 compares the overpayment establishment and recovery rates for UI/UCFE/UCX/EB claims versus EUC
claims. The lower recovery rates for EUC reduce the overall recovery rates that include all UI benefit programs.

Table 6: Comparison of UI/UCFE/UCX/EB and EUC Overpayments Established and Recovered ($ in billions)

 Fiscal         UI/UCFE/UCX/EB        Overpayments         Established As a    Overpayments         Recovered as a
 Year               Outlays             Established       Percent of Outlays    Recovered             Percent of
                                     UI/UCFE/UCX/EB                                                  Established
                                    (excluding waivers)

 2008                $38.88               $1.002                2.58%              $0.571               56.99%

 2009                $80.42               $1.456                1.68%              $0.851               58.43%

 2010                $72.36               $1.906                2.63%              $0.966               50.67%

 2011                $62.02               $1.887                3.04%              $0.998               52.88%

 2012                $50.61               $1.740                3.44%              $1.015               58.33%

 Fiscal           EUC Outlays         Overpayments         Established As a    Overpayments         Recovered as a
 Year                                  Established*       Percent of Outlays    Recovered             Percent of
                                                                                                     Established

 2008                $3.55                $0.008                0.23%              $0.002               22.54%

 2009                $32.66               $0.280                0.86%              $0.064               22.74%

 2010                $72.09               $0.928                1.29%              $0.214               23.04%

 2011                $52.66               $1.109                2.11%              $0.301               27.15%

 2012                $39.58               $1.281                3.24%              $0.385               30.04%




                                                                                  FY 2013 Agency Financial Report 165
Other Information
(Unaudited)

The recovery rate for EUC overpayments is significantly less than the recovery rate for state UI and EB
overpayments due to several factors:

           Many of these claimants have exhausted benefits, and therefore, states are unable to offset overpayments
            against their unemployment compensation payments.
           The legislation establishing the EUC program limits offsets to 50% of the amount payable to the claimant
            for the compensated week. The Middle Class Tax Relief and Job Creation Act of 2012 (Public Law 112‐96)
            removed this restriction, which contributed to the increase in recoveries of EUC overpayments in FY 2012.
           Claimants who have been unemployed for long durations have few resources available for the repayment
            of overpayments.
           The severe decline in the housing market removed the option that states have used to recover
            overpayments by attaching liens to an individual’s property and recovering the overpayments when the
            property is sold.
           Many states reassigned BPC staff to process claims when workloads increased sharply during the recession,
            thereby leaving fewer staff to identify and recover overpayments.

The ETA 227 Report captures data on the causes of overpayments, the method of detection, recovery and
reconciliation, criminal and civil actions, and the aging of benefit accounts. After eight quarters, the overpayments
are removed from the total outstanding balance on this report. This does not affect the state’s accounting
practices. When overpayments are recovered that have been removed from the reported outstanding balance, the
amount will be added back to report the recovery in the quarterly report, regardless of when the overpayment
originally occurred. States are now able to attempt recovery of these older unemployment compensation debts
through TOP by offsetting the claimant’s Federal income tax returns. When improper payments are recovered, they
are returned to the states’ UI trust fund account from which they were paid.

A cost‐benefit analysis conducted in 2012, which updated the methodology of a cost‐benefit analysis conducted in
2001, indicates that an additional $6.52 will be recovered for every $1 invested in BPC, based on the inflation
adjusted average returns on investment for the period FY 2001 to FY 2011. In addition to the methodology
replicating the FY 2001 study, regression models were constructed to identify variables with statistical associations
with UI overpayment detections and recoveries. The period of analysis was FY 2007 to FY 2011 for all states and
territories excluding the Virgin Islands. The model for UI overpayment detections indicates that estimated
overpayments (from the BAM survey) explained the largest proportion of the variance, followed by EB benefit
payments, and BPC funding. This indicates that state BPC operations can detect additional overpayments as the
pool of overpayments expands up to a point using existing resource levels. The model indicates that agencies will
identify and possibly recoup a little more than $5 in overpayments for every additional dollar in BPC funding they
receive.

With respect to overpayment recoveries, the model suggests that recoveries are largely a function of the pool of
overpayments and the amount of those overpayments that the agency establishes. The model also indicates that
recoveries are unresponsive to changes in BPC resource levels, although these resources are important to support
additional overpayment detections, which are in turn significant with respect to recoveries.




166       United States Department of Labor
                                                                                                   Improper Payments Reporting Details
                                                                                                                         (Unaudited)

Table 7 shows the payment recapture audit reporting for the UI program.

Table 7: Payment Recapture Audit Reporting ($ in millions)

 Status                                                                                                                  Benefits (UI)

 Amount Subject to Review for Current Year (CY) 2013 Reporting                                                                     $66,788

 Actual 2013 Amount Reviewed and Reported                                                                                              N/A1

 Amount Identified for Recovery in 2013                                                                                             $2,579

 Amount Recovered in 2013                                                                                                           $1,456

 % of Amount Recovered Out of Amount Identified in 2013                                                                              56.5%

 Amount Outstanding in 2013                                                                                                        $1,6852

 % of Amount Outstanding Out of Amount Identified in 2013                                                                           65.3%2

 Amount Determined Not to be Collectable in 2013                                                                                   $1,3033

 % of Amount Determined Not to be Collectable Out of Amount Identified in 2013                                                      50.6%3

 Amounts Identified for Recovery in Prior Years (PYs) 2004‐2012                                                                    $15,593

 Amounts Recovered in PYs 2004‐2012                                                                                                 $7,428

 Cumulative Amounts Identified for Recovery (CY + PYs)                                                                             $18,172

 Cumulative Amounts Recovered (CY + PYs)                                                                                            $8,884

 Cumulative Amounts Outstanding (CY + PYs)                                                                                         $4,3584

 Cumulative Amounts Determined Not to be Collectable (CY & PYs)                                                                    $6,3333

Note: Amounts include State UI, UCFE, UCX, EB, and EUC programs. Data for FY 2013 are estimated based on data submitted on the ETA 227
report for the period July 1, 2012, through June 30, 2013, the most recent period for which data are available.
1
 UI payments are reviewed by each state, not by the DOL, in accordance with the provisions of the Social Security Act of 1935 and under state
UI law. Each state follows review procedures, such as matching paid claims against the National Directory of New Hires and other databases
to detect benefits which are improperly paid and use a variety of tools to recover benefits overpaid such as leveraging the U.S. Treasury
Offset Program. Overpayments detected and recovered are reported to DOL on the quarterly Overpayment Report, ETA 227.
2
 Includes that portion of overpayments reported as outstanding on the ETA 227 and EUC 227 Reports (line 313) that were 360 days old or less
as of the report date. Overpayment aging data are not available for EUC overpayments and have been imputed from UI, UCFE, UCX, and EB
overpayment aging data.
3
 Includes overpayments written off (ETA 227 and EUC 227 Reports, line 309) and receivables removed after two years unless recovery is in
progress (ETA 227 and EUC 227 Reports, line 312).
4
 Includes total overpayments reported as outstanding on the ETA 227 and EUC 227 reports (line 313) as of the report date.




                                                                                                  FY 2013 Agency Financial Report 167
Other Information
(Unaudited)

Table 8 shows the UI program’s established annual targets which drive performance. The targets are based on the
rate of recovery.

Table 8: Payment Recapture Audit Targets ($ in millions)

 Type of          Current Year         Current Year         Current Year        2013 Recovery        2014 Recovery        2015
 Payment          2013 Amount          2013 Amount          Recovery            Rate Target          Rate Target          Recovery
                  Identified           Recovered            Rate                                                          Rate Target
                                                            (Amount
                                                            Recovered /
                                                            Amount
                                                            Identified)

 UI Benefits         $2,579 1,2            $1,456 2             56.5% 2                55%                  58%                 65%

Note: Amounts include State UI, UCFE, UCX, EB, and EUC programs.
1
 Excludes amounts waived for recovery.
2
 2013 amounts based on data for the period July 1, 2012 through June 30, 2013, the most recent period for which data are available.

Table 9 is an aging schedule of the amount of overpayments identified through the UI program’s payment
recapture audit program that are outstanding (i.e., overpayments that have been identified but not recovered).

Table 9: Aging of Outstanding Overpayments ($ in millions)

 Type of Payment                   Current Year Amount Current Year Amount Current Year Amount
                                   Outstanding (0‐6 months) Outstanding (6 months to Outstanding (over 1 year)
                                                            1 year)

 UI Benefits                                   $582.9 1                           $471.7 2                           $1,675.8 3

Note: Amounts include State UI, UCFE, UCX, and EB programs. Aging data are not available for EUC overpayments. Aging status is as of June
30, 2013.
1
 Amounts outstanding less than or equal to 180 days.
2
 Amounts outstanding more than 180 days and less than or equal to 360 days.
3
 Amounts outstanding more than 360 days.

Table 10 describes the purpose for which recaptured funds were used.

Table 10: Disposition of Recaptured Funds ($ in millions)

 Type    of Expenses to Payment                              Financial            Original            Office         of Returned        to
 Payment    Administer  Recapture                            Management           Purpose             Inspector         Treasury
 Agency     the Program Auditor Fees                         Improvement                              General
                                                             Activities

 UI Benefits                                                                          $1,456



No UI benefit overpayments were recovered outside of payment recapture audits.




168    United States Department of Labor
                                                                                  Improper Payments Reporting Details
                                                                                                        (Unaudited)

VI. UI Accountability

The ETA is responsible for Federal oversight of state unemployment insurance (UI) programs, including oversight of
state activities to reduce and recover improper UI benefit payments. ETA has taken/continues to take the following
steps to hold Federal managers accountable for reduction and recovery of improper UI payments by states. State
workforce agencies administer the UI program and set operational priorities within the resources available. The
Department has limited authority to link the performance of state workforce agency staff to improper payment
reduction goals and targets. However, ETA has established a robust set of performance measures used to evaluate
the states’ overall operational performance. States not meeting the criteria set for these measures are expected to
submit corrective action plans as part of their annual State Quality Service Plan submission. The UI Performs
measures are summarized at http://workforcesecurity.doleta.gov/unemploy/pdf/Core_Measures.pdf.

In response to the level of improper payments in the UI program, ETA developed a Strategic Plan to address the
several root causes of improper payments which were described in detail earlier in this document at Section III – UI
Corrective Actions. In FY 2013, ETA continued to focus on the following integrity related activities and ensure the
annual performance standards for managers include the completion of significant milestones for the projects listed
below.

       As part of their State Quality Service Plan (SQSP), states are required to prepare an Integrity Action Plan.
        The plan must identify the state officer(s) accountable for reducing improper payments, summarize the
        state’s assessment of whether it has the internal controls, human capital, and information systems and
        other infrastructure needed to reduce improper payments to minimal cost‐effective levels, and identify any
        statutory or regulatory barriers which may limit the agency’s corrective actions in reducing improper
        payments. Additionally, the plan must discuss the root causes of improper payments and present the
        state’s strategies to address these causes.
       ETA requires states to operate the BAM survey to measure and report the percent, dollar amount, and
        reasons for improper payments. Data are derived from investigations of a statistically valid sample of
        payments using federally prescribed procedures. ETA reviews this data for validity, analyzes the data for
        each state, and makes the data available publicly on ETA’s Office of Unemployment Insurance (OUI) Web
        site http://oui.doleta.gov/unemploy/bam/2011/bam-cy2011.pdf. Data review, analysis and publication are
        included in the performance plan of the Administrator of ETA’s OUI and in the elements and standards of
        numerous staff in that office.
       ETA has implemented a core performance measure for detection of overpayments by state UI programs.
        State performance data is available at http://oui.doleta.gov/unemploy/3yr_ranking.asp. States that fail to
        meet the performance criterion submit corrective action plans. Analysis of state performance and
        monitoring of states’ corrective actions continue to be evaluation factors in OUI managers’ performance
        plans.
       ETA has developed additional performance measures that require states to:
             oReduce by 30% after the first year of implementation and by 50% after the second year of
                 implementation those overpayments attributable to individuals who continue to claim UI benefits
                 after they return to work;
             oMeet the less than 10% improper payment rate criterion included in IPERA; and
             oMeet a minimum UI overpayment recovery rate target.
       ETA has promoted and continues to promote cost effective methods for states to prevent, detect, and
        recover improper UI benefit payments. Development, delivery, and/or successful implementation of these
        initiatives by states have been and continue to be factors on which the OUI administrator and managers are
        evaluated. These initiatives were described in detail earlier in this document at Section III – UI Corrective
        Actions.
       National Integrity Conference: In order to provide a forum for disseminating successful practices for
        preventing, detecting, and recovering UI overpayments, ETA, working with the National Association of State
        Workforce Agencies (NASWA) sponsors a biennial National Unemployment Insurance Integrity Professional


                                                                                 FY 2013 Agency Financial Report 169
Other Information
(Unaudited)

        Development Conference. The 2012 UI Integrity Summit was held in Arlington, Virginia, March 12‐14, 2012.
        The next conference is scheduled for spring 2014.

As part of its monitoring and oversight responsibilities of the State's UI operations, the Department takes an active
role in facilitating and promoting strategies to reduce improper payments and meet the payment accuracy and
recovery targets required by IPERA. However, it should be noted that these strategies require the cooperation and
implementation by individual states, including in some cases changes to state laws and regulations. The
Department has no explicit authority over how states establish priorities in administering their UI programs and,
therefore, can only make recommendations and provide technical assistance in the use of these strategies.

VII. UI Agency Information Systems and Other Infrastructure

States have internal controls, processes, programs, and staff in place throughout all operations of the UI program
dedicated to protection from internal threats and vulnerabilities. These threats and vulnerabilities include physical
damage and harm to staff and property, misuse of administrative funds and assets by agency staff, and misuse of UI
funds by agency staff. It is incumbent upon the state agencies to have a series of protections in place addressing
controls such as the granting of systems access, developing and upholding security policies and procedures, the
proper configuration of hardware and software, basic physical safeguards, backup tests and disaster recovery
provisions, regular audits, ongoing employee training, etc.

While state Internal Security (IS) programs are intended to identify and eliminate system vulnerabilities, the risk
remains of losses from the issuance of improper UI benefit payments and misuse of administrative funds due to
fraud, waste, and abuse. States are expected to review these controls and update them regularly to eliminate new
threats and vulnerabilities as technology and business practices in the administration of the UI program evolve.

Although integrity is the responsibility of all agency staff, the states have dedicated staff conducting BPC activities
to prevent, detect, and recover improper payments. These staffs work closely with agency management to assure
that sufficient controls are in place to prevent improper payments, conduct complex fraud investigations, and
operate the activities required to recover improper payments if they have been made.

ETA is also engaged with the states to monitor activity and provide technical assistance to ensure that states are
able to utilize the integrity tools that are available. For example, as a result of ETA monitoring, states modified
computer matching procedures to improve the productivity of NDNH as a resource to detect improper payments.

ETA is also working closely with the state agencies to develop the information systems and infrastructure to
support SIDES and to access TOP for UI overpayment recovery.

State UI benefit and tax systems vary in terms of their performance capacities, capabilities, and their adaptability to
new UI programs and integrity strategies. In response, between FY 2005 and FY 2012 the Department provided
approximately $187.1 million to states in supplemental funding for integrity‐related projects and awarded an
additional $128.0 million in September 2011 and $92.8 million in September 2012 to three state consortia. (A
description of these consortia is provided earlier in this document at Section III – UI Corrective Actions.) These
resources will fund activities to support the prevention, detection, and recovery of improper UI benefit payments,
improve performance, and address outdated IT system infrastructures, all of which are necessary to improve UI
integrity.

UIPL No. 24‐13, issued in July 2013 and available at http://wdr.doleta.gov/directives/corr_doc.cfm?DOCN=6992,
solicited state Supplemental Budget Request grant proposals. (UI integrity activities eligible for Supplemental
Budget Request grants are discussed earlier in this document at Section III – UI Correction Actions.) Based on
positive outcomes from previous investments in integrity efforts, UIPL No. 24-13 also invited states that commit to
implementation of all core activities, or have already implemented the core activities, to submit Supplemental
Budget Request grant proposals for consortium projects.


170   United States Department of Labor
                                                                                                      Improper Payments Reporting Details
                                                                                                                            (Unaudited)

In September 2013, ETA awarded $176.4 million in supplemental funding to 40 states for the prevention, detection,
and recovery of improper UI benefit payments; improve state performance; address outdated IT system
infrastructures necessary to improve UI program integrity; and enable states to expand or implement REA
programs. Included in these awards are three consortia grants totaling $98.8 million for projects designed to
improve overall program quality, performance, and integrity.

VIII. UI Barriers

The UI program has several statutory barriers to reducing improper payments. States administer the UI program
and set operational priorities. The Department has limited authority to ensure they pursue improper payment
reduction activities. The most significant recent legislation affecting the UI program was The Middle Class Tax Relief
and Job Creation Act of 2012 (Public Law 112‐96), February 22, 2012. A detailed description of the Act’s provisions,
DOL guidance, and other reference documents can be found on the OUI Web page:
https://www.oui.doleta.gov/unemploy/jobcreact.asp.

Other Barriers and Department Response

The Department of Treasury requires states to use merit‐based state government staff to access TOP data.
However, several states use contract staff to perform program activities that require accessing TOP data. Some
states have reported difficulties in implementing the TOP program due to Treasury’s mandate to use merit staff.

Treasury is working with the Department to provide customized technical assistance to resolve this issue.

ETA has developed Integrity legislation to mandate state implementation of TOP and SIDES, mandate state
requirements related to NDNH, require states to implement specific corrective actions and use specified amounts
of their grants to improve performance, and mandate that UI Penalty and Interest is UI Program Income. The
package has been approved by the Department and ETA is drafting legislative specifications and language for
clearance by OMB. Legislative language is expected to be transmitted to Congress, pending OMB approval.

                                              Workforce Investment Act Grant Programs

Programs funded through the Workforce Investment Act of 1998 (WIA) form a comprehensive workforce
investment grant strategy overseen by ETA for delivering employment and training services. WIA programs
primarily provide grant funds to states, which in turn award the majority of the funds to local Workforce
Investment Boards, which award sub-grants and/or contracts to One-Stop service centers/sub-grantees. WIA
programs also provide grant funds to non-state grantees on a discretionary basis. The financial records and other
documentation supporting WIA outlays at the state level, and lower tiers are located at the grantee and sub-
grantee locations rather than at the DOL National Office.

I. WIA Risk Assessment

The group of programs funded through Workforce Investment Act of 19981 grants was classified as “at-risk” in
OMB’s Circular A-11, Section 57, in 2001. The Department’s risk assessments over the past several years, however,
do not support a high-risk designation, but the Office of the Chief Financial Officer (OCFO) and ETA continue to
perform improper payments analysis each year.

While WIA is often referred to as one program, in actuality, WIA grants fund nearly a dozen different programs.
Certain programs are considered a “cluster,” defined as a grouping of closely-related programs with similar
compliance requirements. Clusters are treated as a single program for the purpose of meeting the audit
requirements of OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations, which
provides the implementing guidance for the Single Audit Act of 1984, as amended in 1996 (SAA). The SAA

1
    Public Law No. 105-220, 112 Stat. 936-1059; 29 U.S.C. 2811 et seq. Regulations are at 20 C.F.R. parts 660-671.


                                                                                                     FY 2013 Agency Financial Report 171
Other Information
(Unaudited)

establishes uniform audit requirements for States, local governments, Indian Tribes and non-profit organizations
(non-Federal entities) receiving Federal awards. One of the main purposes of the SAA is to promote sound financial
management, including effective internal control, with respect to Federal awards. For purposes of improper
payments analysis, OCFO and ETA focus on programs included in the A-133 “WIA Cluster,” which consists of the
WIA Adult Program (Catalog of Federal Domestic Assistance (CFDA) No. 17.258), WIA Youth Activities (CFDA No.
17.259) and WIA Dislocated Worker Formula Grants.1 These programs are authorized by Title I of WIA.

DOL computed the estimated error rate for FY2013 based on an extensive analysis of all available sources of
improper payment information, including questioned costs identified in OMB Circular A-133 Single Audit Act
reports (SAA reports) for 2011 (the most recent year with complete information), recent Employment and Training
Administration (ETA) regional monitoring reports, and DOL’s Office of the Inspector General (OIG) audit reports
issued for the three most recent years ending March 31, 2013.

Based on results of all analyses and assessments, the estimated rate of improper payments for WIA programs is
about 0.194 percent—well under the established threshold of a risk-susceptible program. Applied to FY2013
outlays of $2.995 billion, the estimated dollar amount is approximately $5.8 million.

DOL remains consistent with how WIA funds are disbursed and monitored through established systems and
processes. The Department continues to ensure that all grantees deliver agreed upon products and services,
achieve negotiated performance outcomes, and operate in accordance with programmatic, administrative, and
budgetary requirements, which minimizes and manages risk.

Specific objectives over grant performance include the following:

           Oversee grant compliance, progress, and achievement through the use of a variety of oversight tools.
           Identify grantees’ individual and collective training and technical assistance needs and arrange for such
            training and technical assistance within the parameters of available resources.
           Develop and update monitoring plans to target at‐risk grantees.

For FY 2013, the Department used the same methodology to estimate the improper payment rate for the WIA grant
program as was used in FY 2012. This methodology is similar to previous measurements.

II. WIA Statistical Sampling

The following sampling was performed for the WIA grant program:

Sampling Process: Unlike DOL’s benefit programs, data is not readily available to allow the Department to directly
sample grant payments and develop a statistically valid estimate of improper payments. The grant programs’
funding stream makes it very difficult to assess the improper payment rate on payments to final recipients. The
Department provides grants to states, cities, counties, private non‐profits, and other organizations to operate
programs, and relies significantly on Single Audit Act reports (which are required by the Single Audit Act of 19962) to
monitor funding to all grant recipients. Based on a review of the definition of questioned costs in OMB Circular
A‐133 and OMB's IPIA implementation guidance, the Department determined that questioned costs can be used as


1
  Program clusters are found in the OMB Circular No. A-133 Compliance Supplement, which is updated regularly. Over the years, other CFDA
numbers have been included in the WIA Cluster: CFDA No. 17.260 Dislocated Workers, National Emergency Grants and CFDA No. 17.255
Workforce Investment Act. To gather the most information possible, OCFO collected information on these additional programs.
2
  The Single Audit Act of 1996 provides for consolidated financial and single audits of state, local, non‐profit entities, and Indian tribes
administering programs with Federal funds. Non‐Federal entities that expend $500,000 or more of Federal awards in a year are subject to a
consolidated financial single audit; any non‐Federal entities that do not meet this threshold are not required to have a single audit. All
non‐Federal entities are required to submit all single audit reports to a Federal Audit Clearinghouse (Clearinghouse) that is administered by
the Census Bureau.


172       United States Department of Labor
                                                                                     Improper Payments Reporting Details
                                                                                                           (Unaudited)

a proxy for improper payments. Therefore, in FY 2013 results of Single Audit Act (SAA) reports, along with other
data, were utilized to determine the improper payment rate for the WIA grant program.

The Department reviewed FY 2011 (most recent available) Single Audit Act reports with DOL‐related findings from
the Federal Audit Clearinghouse (which is the national repository of Single Audit Act reports) and identified all WIA
program questioned costs included in such reports. As additional evidence that no other audit reports included
questioned costs for the DOL grant programs, the Department selected and reviewed random samples of audit
reports classified in the Clearinghouse database as not having any questioned costs.

In addition to using the Single Audit Act reports, the Department performed additional analyses to assess the level
of improper payments, including a review of the results of monitoring work performed by ETA regional staff
responsible for managing the WIA program and DOL OIG audit reports issued for the WIA program. To determine
an approximate rate of improper payments for the grant programs, the Department divided the average annual
amount of questioned costs from these sources by the three‐year average of direct program outlays leading up to
that year. The resulting improper payment rate (assumed to be representative of the FY 2013 rate) was applied to
the WIA program outlays for FY 2013 to determine the estimated improper payment amount for FY 2013.

The Department determined that it would not be cost effective to evaluate a statistically valid nationwide sample of
WIA grantees and sub‐grantees each year and perform detailed reviews focused on measuring the nationwide WIA
improper payment rate. However, the Department continues to consider methods for improving its methodology
for estimating the rate.

III. WIA Corrective Actions

The WIA estimated improper payment rate for FY 2013 of 0.19% applies to two of OMB’s three categories of error,
“Documentation and Administration Errors” at 0.17% and “Verification Errors” at 0.02%. No errors in the WIA
program fit the definition of “Authentication and Medical Necessity Errors”.

The improper payment rate estimate work indicated that the major types of errors found in the WIA program are
primarily administrative in nature, including allowable costs/cost principles, participant eligibility, and sub‐recipient
monitoring.

Grant operations are monitored on a continuing basis to ensure that grant activities conform to requirements.
Monitoring activities are carried out primarily at the regional level by Federal Project Officers (FPOs), and include
annual risk assessments, on‐site monitoring visits, as well as annual and quarterly desk reviews, all tracked
electronically in the Grants Electronic Management System (GEMS). Once each year for formula funded grants, and
upon award for discretionary grants, FPOs assess the risk of each grant assigned using reported information and
knowledge of the grantees and the grant activities. This assessment is also used to determine the level of
monitoring to be used in the future (i.e., site visits or technical assistance). For all grants that are considered high
risk according to the annual risk assessments, on‐site visits are conducted to give the FPO an idea of what activities
are being carried out by the grantee, and whether or not the grantee is working within the legal limits of the grant.
Quarterly reviews of financial and performance reports submitted by grantees are performed to ensure timeliness,
accuracy, and satisfactory progress of completion toward program outcomes. At the end of each quarter, each
grantee is required to submit a performance based progress report to the regional FPOs. Performance progress
reports indicate participant service activity and accomplishments against project goals. The grant agreement
outlines when the progress report is due (i.e., within 15 or 45 days), depending on the fund source. The FPO
reviews this report to determine if the grantee is meeting projected goals and operating within the terms of the
grant agreement. The review consists of the FPO comparing the report to the grant agreement to determine if the
grantee has been performing according to its plan and will meet all goals for the grant as documented in the work
plan. If there is a deviation, the ETA will work with the grantee to offer technical assistance and assist in getting the
grant back on track.



                                                                                    FY 2013 Agency Financial Report 173
Other Information
(Unaudited)

All reviews are documented, and deficiencies may result in formal corrective active plans. The FPOs provide both
written and verbal results of reviews to regional management staff and grantees. A record of all of the above
reviews (e.g., risk assessments, on‐site reviews, annual desk reviews, and quarterly reviews) is maintained in GEMS,
which allows the FPOs to create an electronic working file of their grant management and oversight activity and
also provides supervisors and program managers with key grants management information. Regional
Administrators and their management team within the regional offices are responsible for ensuring that all
required monitoring is conducted by FPOs.

The ETA Division of Policy Review and Resolution processes each grant at closeout, reviewing final grantee reports,
the grant closeout package, FPO recommendations, and other documents available to them to determine whether
the objectives of the grant were accomplished and that all funds were expended as authorized. Expenditures which
are questioned are resolved through the normal determination process and disallowed costs are forwarded for
collection.

The Audit Resolution staff receives grantee Single Audit Act reports, which identify questioned costs and/or
administrative weaknesses in need of correction. These items evaluated using the same determination process
noted above; disallowed costs are forwarded for collection, and resolutions reported back to the OIG. In addition,
these units participate in special grantee reviews and provide fiscal policy training for grantee and Federal staff.

Overpayment Prevention and Detection

DOL has established processes that help to prevent, detect and/or recapture overpayments for the WIA program.
DOL’s Employment and Training Administration (ETA) performs grant monitoring activities on direct grants on a
periodic basis1. Similarly, for formula grants, the States monitor their sub‐recipients (pass‐through grantees), which
in turn monitor their sub‐recipient grantees. DOL regional monitoring teams also make on‐site visits to select direct
grantees and sub‐recipients each year. This cascading monitoring structure results in all grantees and sub‐grantees
being monitored on a regular basis.

ETA also manages grant closeouts, reviewing final grantee reports, the grant closeout package, related
recommendations, and other documents, to determine whether the objectives of the grants were accomplished
and that all funds were expended as authorized. Questioned costs are resolved through the normal determination
process.

In addition to these monitoring activities, DOL grant programs and their grantees and sub‐grantees are subjected to
numerous GAO audits, DOL OIG audits, and annual audits by CPA firms who perform Single Audit Act audits of
Federal grantees. These audits address a wide range of issues, including program effectiveness, management and
operational issues, financial statements, internal controls, and identification of unallowable costs (questioned
costs/improper payments). Grants are also covered in the annual DOL internal control assessment, per OMB
Circular A‐123, Appendix A, which evaluates controls that could impact improper payments. All these monitoring
activities and related audits and assessments serve as a basis for identifying and correcting issues that could
potentially lead to improper payments. For FY 2013, DOL developed the Grants and Cooperative Agreements
Closeout Handbook and tracked compliance through quarterly certifications to OCFO by ETA management.

Use of Single Audit Act Reports to Prevent, Reduce, and Recapture Improper Payments

All non‐Federal entities that are subject to a Single Audit Act audit are required to submit summary level results
from their audits and a copy of the audit report to the Federal Audit Clearinghouse (Clearinghouse), which is
administered by the Census Bureau and operates on behalf of OMB. The Clearinghouse is a central repository of
information on all Single Audits conducted each fiscal year. For findings noted in Single Audit Act reports, OMB


1
 Depending on the grant agreement, grant expenditures may be monitored either on a monthly or quarterly basis, in addition to annual
reviews.


174    United States Department of Labor
                                                                                    Improper Payments Reporting Details
                                                                                                          (Unaudited)

guidelines require a corrective action plan to be included in the report, and, in subsequent reports, the status of
prior year findings is to be reported.

DOL leverages Single Audit Act audits to review and address issues reported relative to DOL grant funds using an
established periodic review cycle. Additionally, in the summer of each year, ETA verifies that a random sample of
grantees has conducted and obtained Single Audit Act audits. ETA personnel select the random sample using IDEA
software. They then access the Clearinghouse and verify that the selected grantees have had Single Audit packages
filed within the prior two years. If any control deficiencies were noted in the audit package and audit report, ETA
personnel will contact the DOL OIG to verify that the OIG has the report in its tracking system and is following up
for resolution. If no report is in the Clearinghouse, ETA personnel will follow up with the grantee to determine if a
Single Audit was conducted. If a Single Audit Act audits was conducted, then ETA personnel request the grantee to
submit the report to the Clearinghouse. If not, the grantee is referred to the Office of Grants and Contracts
Management for follow‐up.

For grantees with Single Audit Act reports identifying funding received directly from DOL and that also identify
materials weaknesses or significant deficiencies, DOL OIG forwards the reports and finding details to the
appropriate DOL agency for issue resolution. The responsible agency(s) then determines how to most appropriately
resolve the questioned costs noted in the report. All findings for direct grantees are considered important to
resolve, especially those deficiencies that are related to sub‐recipient monitoring, and all findings are tracked
through to resolution.

The report itself may describe corrective actions that have already been taken, and the A‐133 auditor has accepted
the actions taken as appropriate to resolve the finding. In this case, the agency simply verifies that the actions
described in the report were taken.

With some questioned costs, a review must be conducted to determine the exact amount of questioned costs that
are actually improper overpayments and therefore subject to recapture. These reviews may involve on‐site visits to,
or email exchanges and discussions with, the grantee to establish the facts related to the questioned costs. At the
conclusion of this review, the grantee will be informed of the agency’s final determination decision, and be required
to take whatever corrective actions that may be required to resolve the questioned costs. The agency then verifies
that the required actions were performed.

With most questioned costs, the amount of improper overpayments is clearly identified in the report, and the
grantee is already engaged in the process of either reimbursing DOL for the overpayment or adjusting their
drawdown for a subsequent period to reflect the fact that they have already received the funds to reimburse their
subsequent grant expenditures. When refunds are collected, they are returned to the original year and
appropriation from which the obligation was established. For cancelled appropriations, the refunds are returned to
the U.S. Treasury.

For sub‐grantees with A‐133 Reports identifying funding received from direct grantees (e.g., states), monitoring of
issue resolutions is the responsibility of the direct grantees that passed the funds through, although the appropriate
DOL agency may also track resolution through their own grant monitoring and close‐out processes.

For example, within ETA, once determinations are final, they are referred to ETA’s accounting office to establish the
debt. The ETA accounting office will perform standard collection activities to collect the debt, and if unable to do so,
will refer the debt to Treasury for further collection efforts.

IV. WIA Accomplishments in the Area of Funds Stewardship Beyond the Primary Recipient

WIA grants support employment and training services by states and local entities and represent a major investment
by the Federal Government for the benefit of the public. DOL oversees grantee and sub‐grantee operations through
regular monitoring reviews by its regional office staff, using established systems and processes. The reviews target



                                                                                   FY 2013 Agency Financial Report 175
Other Information
(Unaudited)

at‐risk grantees and focus on high‐risk areas. The reviews assess performance and track data on quarterly financial
reports back to the grantee’s source records and systems to identify and report problem areas.

V. WIA Improper Payment Reduction Outlook

Table 11 shows the Improper Payment Reduction outlook, for the WIA program, for FY 2012 – FY 2016.

Table 11: Improper Payment Reduction Outlook FY 2012– FY 2016 ($ in millions)

Prog.     FY 2012                 FY 20131               FY 2014                   FY 2015            FY 2016
          Outlays    IP %   IP $ Outlays     IP%   IP$
                                                     Est.    IP % Est. IP Outlays  IP % Est. IP Outlays Est. IP Est. IP $
                                                    Outlays target    $           target    $             %      target
                                                                   target                target         target
    WIA      $3,406 0.22% $7.5 $2,995 Target Target $3,550 0.44% $15.6 Projected 0.44% $14.9 Projecte 0.44 $14.9
                                       0.44% $13.2                        $3,384                  d       %
                                      Actual Actual                                             $3,365
                                      0.194% $5.81
1
The 2013 WIA IP rate is comprised of 0.17% overpayments and 0.02% underpayments.

VI. WIA Recapture of Improper Payments Reporting

During FY 2012, a pilot feasibility study was conducted to establish the feasibility and cost‐effectiveness of payment
recapture audits at the grantee level for the WIA program. It was determined that payment recapture audits at the
grantee level, while feasible for various types of outlays, would not be cost-effective; therefore, tables have not
been provided. For WIA programs, identification of overpayments for recovery is primarily done through ETA’s
onsite monitoring activities, Single Audit Act reports, and OIG program audits. From FY 2009 through FY 2013,
approximately $1.5 million has been recovered. Table 12 displays overpayments recaptured outside of recapture
audits.

Table 12: Overpayments Recaptured Outside of Payment Recapture Audits

    Agency           Amount           Amount             Amount             Amount           Cumulative    Cumulative
    Source           Identified       Recovered          Identified         Recovered        Amount        Amount
                     (2013)           (2013)             (2009‐2012)        (2009‐2012)      Identified    Recovered
                                                                                             (2009‐2013)   (2009‐2013)

    WIA          $244,644             $31,022            $24,651,194        $1,436,586       $24,895,838   $1,467,608
    Post‐Payment
    Reviews


For sub‐grantees with Single Audit Act reports identifying funding received from direct grantees (e.g., states),
monitoring of issue resolutions is the responsibility of the direct grantees that passed the funds through, although
the appropriate DOL agency may also track resolution through its own grant monitoring and closeout processes. For
example, within ETA, once determinations are final, they are referred to ETA’s accounting office to establish the
debt. The ETA accounting office performs standard collection activities to collect the debt, and, if unable to collect,
refers the debt to Treasury for further collection efforts.

VII. WIA Accountability

ETA revised and expanded training for all grant managers in FY2012. GEMS tracks the grant managers’ grant review
actions and provides the grant managers with financial and other information useful in managing the grants. The
ETA Division of Policy Review and Resolution (DPRR) has requirements in its closeout grant officer performance


176     United States Department of Labor
                                                                                  Improper Payments Reporting Details
                                                                                                        (Unaudited)

standards relating to the requirement to follow up on Single Audit Act, OIG, or GAO audit findings and questioned
costs relating to WIA grants, and the Director of the Office of Grant and Contract Management has overall
responsibility for ensuring that these procedures are followed. As noted above, DOL also created the Grants and
Cooperative Agreements Closeout Handbook, and tracks compliance through Quarterly Certifications provided to
the OCFO by ETA management.

VIII. WIA Agency Information Systems and Other Infrastructure

WIA programs utilize various tools to execute the risk management process to assess and monitor grantees.

These tools include the Enterprise Business Support System (EBSS), in concert with GEMS. EBSS is a web-based
solution used to track and manage grants. A component of the EBSS is the automated grant cost reporting system
that captures grant costs and obligations, which improves fiscal integrity. The combination of the two is part of the
cradle‐to‐grave electronic grants solution for the entire Department. The GEMS system, mentioned also in Section
III of this document, is an online grants management tool meant to provide web accessible, role‐based context
access to grant‐related information from multiple sources. The utilization of the GEMS system by the Federal
Project Officers (FPO) and program management and financial staff allows ETA a coordinated and comprehensive
repository of grant‐specific information. ETA published a data validation supplement to the Core Monitoring Guide
used by its FPOs. The supplement includes a “Resource and Tool Guide,” which provides step‐by‐step instructions
and basic training on data validation for FPOs.

IX. WIA Barriers

No statutory or regulatory barriers exist that limit WIA's ability to address and reduce improper payments. WIA
programs have the legal authority to establish receivables and implement actions to collect those receivables.

X. Other

                                  Federal Employees’ Compensation Act Program

The Federal Employees’ Compensation Act (FECA) program is a workers’ compensation program covering more
than three million federal and postal employees. The program provides medical benefits, income replacement, and
support services to employees with work‐related injuries or, in the case of death, survivor benefits to family
members.

In FY 2011 and 2012, the Department conducted risk assessments of the FECA program to estimate the risk of
improper payments. Based on these analyses, the FECA program was determined not to be susceptible to
significant improper payments. The process involved the following:

       FECA managers quantitatively assessed the risk of improper payments based on outlays,as well as
        qualitatively assessing the risk of improper payments associated with

            o   Payment processing controls;

            o   Internal monitoring controls;

            o   Human capital;

            o   Program complexity; and

            o   Nature of payments.

The results of these analyses are as follows:

       FECA managers rated the program as low risk for improper payments.

                                                                                 FY 2013 Agency Financial Report 177
Other Information
(Unaudited)

           The improper payment amount projected through analysis of a random sample of payments plus the
            estimated annual amount of improper payments due to fraud indicated that the improper payment rate
            was well under 2.5 percent of outlays and $100 million.

           To validate the results of the risk assessment, a limited scope pilot payment recapture audit of the FECA
            medical program in FY12 indicated that FECA medical payments appears low-risk for improper payments.

           In FY13, internal control testing included attributes to determine whether payments were proper. Results
            indicate that, while there is some room for improvement in processes, the vast majority of payments are
            proper. A revised Improper Payment Methodology will be implemented in 2014 to validate the results.

                                              Contracts/Procurement Payments

Payment Recapture Audits

To implement the requirement for recapture audits for certain programs under IPERA, the services of a contingency
contractor were secured during FY 2012 to perform payment recapture audits for:

           Payments for procurement contracts, services, operations and maintenance, equipment, land or structures;
           Payments for rent, communications and utilities;
           Payments for printing and reproduction services; and
           Payments for supplies and materials

The contractor’s fees were based on overpayments identified and recaptured. The audit covered contract
disbursements from October 1, 2007, through July 31, 2012, consisting of approximately 200,000 invoices totaling
nearly $9 billion. The auditor analyzed disbursement data, vendor master data, and detailed purchase card data.
The audit firm assisted in the recapture of overpayments and provided a report, summarized below, listing areas for
improvement in internal controls and identifying root causes of errors as well as best practice recommendations for
preventing future disbursement errors.

Highlights of Recapture Audit Activities

A full review of DOL’s contract payments from October 1, 2007, through July 31, 2012, identified $2.9 million in
confirmed duplicate payments out of $8.96 billion in contract transactions – a rate of only 0.0325%. Of the $2.9
million, $2.77 million had already been recovered through normal business processes prior to the recapture audit.
The audit recovered $82,894 of confirmed duplicate payments. (Payments totaling $989,752 are still under review
as potential duplicates. If all are confirmed as duplicate payments, the rate would rise to 0.044%.) In addition to the
work to identify duplicate payments, vendor statement audits of 789 DOL vendors were also performed. This
additional step identified $65,658 in overpayments, which were recovered. As of November 1, 2013, the overall
departmental confirmed overpayment rate of contract payments is 0.0325%. (See table below.)
                                        Contracts/Accounts Payable Recapture Audit
  Contract                Retrieved        Retrieved
                                                                                                  Total Potential
   Dollars             Overpayments      Overpayments Total Confirmed Overpayment
                                                                                              Overpayments in Process
  Reviewed               (Pre-Audit)      (Post-Audit)                Rate
                         $2,768,470         $148,552
$8,964,459,789          Total Confirmed Overpayments                                                   $989,752
                                                                    0.0325%
                                  $2,917,022

Even with the extremely low rate, the recovery audit contractor identified recommendations and best practices to
assist DOL in its program integrity efforts. The following is a list of the most prevalent types of duplicate payments:



178       United States Department of Labor
                                                                                Improper Payments Reporting Details
                                                                                                      (Unaudited)

      Keying errors: Invoices keyed with slight variations or inconsistencies in vendor number, invoice number,
       invoice date, or invoice amount are the greatest causes of duplicate payments.

      Multiple related vendors: When the same vendor is set up with multiple vendor numbers on the vendor
       master file, a processor can easily select the wrong vendor number allowing for duplicate payments to be
       processed.

      Multiple Accounts Payable systems: The existence of multiple Accounts Payable systems or multiple
       instances of the same Accounts Payable system facilitates the creation of duplicate payments. DOL was
       subject to this risk during the crossover from its legacy financial management system, DOLAR$, to the New
       Core Financial Management System (NCFMS) on January 14, 2010.

In addition to the duplicate payment audit, the audit firm conducted a thorough vendor statement audit for high-
dollar contracts. Through a vendor statement audit, DOL can determine delays in processing flows and identify
outstanding credits owed. Although many of the factors that cause statement claims occur outside the direct
responsibility of the Accounts Payable business process, this area does have the ability to ensure these types of
items are realized by DOL prior to being written off by the respective vendors.
To conduct the vendor statement audit, the audit firm requested statements from 789 of DOL’s vendors with an
annual spend of more than $100,000. The audit firm sent three request letters to each vendor. The overall response
rate accounts for 77% of the aggregate spend of the suppliers targeted. This audit procedure recovered $65,657.97
in overpayments.
                    Payment Recapture Audit Reporting
Program or Activity                                                                 Accounts Payable
Type of Payment (Contract, Grant, Benefit, Loan, or Other)                                  Contract
Amount Subject to Review for 2013 Reporting                                           $8,964,459,789
Actual Amount Reviewed and Reported (2013)                                            $8,964,459,789
Actual Amount Reviewed and Reported (2013)                                               $149,448.40
Amount Recovered (2013)                                                                  $148,551.92
% of Amount Recovered out of Amount Identified (2013)                                           99%
Amount Outstanding (2013)                                                                    $896.48
% of Amount Outstanding out of Amount Identified (2013)                                     0.5999%
Amount Determined Not to be Collectable (2013)                                                 $0.00
% of Amount Determined Not to be Collectable (2013)                                         0.0000%
Amounts Identified for Recovery (2010)                                                    $5,900,000
Amounts Recovered (2010)                                                                  $5,600,000
Cumulative Amounts Identified for Recovery (2010+2013)                                    $6,049,448
Cumulative Amounts Recovered (2010+2013)                                                  $5,748,552
Cumulative Amounts Outstanding (2010+2013)                                                 $300,896
Cumulative Amounts Determined Not to be Collectable (2010+2013)                            $300,000

Do Not Pay Plan

This section describes an important part of DOL’s program integrity efforts designed to prevent, identify, and
recapture improper payments. Specifically, the Do Not Pay (DNP) solution is a government-wide initiative mandated
by the Improper Payments Elimination and Recovery Improvement Act (IPERIA) of 2012 (Pub. L. 112-248) to screen
payment recipients before a grant, contract award or payment is made. Participation in the initiative is required
under IPERIA and OMB guidance; the initiative is being managed by Treasury.


                                                                               FY 2013 Agency Financial Report 179
Other Information
(Unaudited)

Overview of DNP
IPERIA and OMB directives require agencies to integrate the use of existing Federal databases (collectively known
as the “Do Not Pay List”) to verify eligibility for Federal payments in order to reduce and eliminate payment errors
before they occur. DNP provides Federal agencies with a web-based single-entry access portal (Portal) to these
existing databases and additional data analytics.

At DOL, the DNP Solution is being implemented in three phases over a three-year period and will be designed to
address the Department’s three major business areas affected: Benefit Programs, Grant Programs, and Contracts.
In addition, DOL has participated in post-payment reviews for all contract and benefit payments since May 2013.

Approach for Implementing DNP

Incorporating the DNP Solution fully into DOL’s business processes is a major undertaking involving the active
cooperation of not only OMB, Treasury, and DOL component agencies, but also the states. The OCFO facilitated
development of a Plan for enrollment and implementation with affected component agencies. DOL’s Accountable
Officer for Improper Payments, the CFO, is responsible for monitoring and concurring with any changes to the
Department’s DNP Plan. Component agencies work with OCFO to implement the DNP Solution in their business
processes, provide status reports when requested, and clear any variations from the DNP Solution Plan with OCFO.
Component agencies are responsible for implementation of DNP within their business processes and interfacing
with state stakeholders where appropriate.

Phase 1 involved choosing the following pilot programs from each of three major business areas:

           Benefits Programs – UI and Office of Workers’ Compensation Programs (OWCP) benefit programs
           Grant Programs – ETA grant programs
           Contracts – Department-wide procurement and contract payment activities

Lessons learned from Phase 1 and best practices gained from the experience of other Agencies have been
incorporated into DOL planning for Phases 2 and 3. Phase 1 is expected to be completed by September 2013.
Phase 2 will include expanded rollout of the DNP Solution to more states in the UI and Grants Programs, and will
emphasize the continued improvement of previously incorporated programs. During Phase 2, DOL will also evaluate
DNP Solution applicability to additional aspects of Contracts pre-payment and pre-award processes. Phase 2 is
expected to be completed in September 2014.

During Phase 3, DOL plans to implement DNP across all program areas that can gain value from its use, including
expanding implementation to all remaining interested states and DOL Benefit and Grant Programs. DOL currently
plans to complete the majority of this phase by September 2015.

DNP for UI
DOL is coordinating with OMB and Treasury to provide access to the DNP Solution to state agencies for identifying
potential UI improper payments and/or fraud. Supporting implementation of the DNP Solution is being
accomplished through two projects: “The Work Number” and the UI Integrity Center of Excellence.

DNP Pilot of “The Work Number”

DOL is testing the effectiveness of cross-matching UI claim records against selected data sources through DNP,
specifically using “The Work Number” a real-time database compiled by Equifax, directly from payroll feeds of
employers across the country. It includes current employment and income data on about one third of the U.S.
workforce and is the largest database of its kind. It is currently used by some government agencies for employment
and earnings verification. DOL recruited Arizona and Colorado to participate in this pilot. The pilot states will
conduct a value test for the use of DNP to support existing processes to verify the eligibility of beneficiaries for


180       United States Department of Labor
                                                                                   Improper Payments Reporting Details
                                                                                                         (Unaudited)

continuing payments, and to study the feasibility of using the DNP Solution for pre-award activities. Arizona
finalized an agreement with DNP and Equifax to access “The Work Number” for this pilot in February 2013, and an
agreement for Colorado remains in development as of September 2013. In the meantime, DOL is moving forward
with DNP, Equifax, and Arizona to commence the pilot with “The Work Number” during the first quarter of FY 2014
while Colorado finalizes its agreement. Once the full pilot is completed the results and feedback from state partners
will be shared with the UI system to promote DNP adoption.

UI Integrity Center of Excellence

DOL selected the New York State Department of Labor to establish a UI Integrity Center of Excellence (Center) to
support the development, implementation, and promotion of innovative program integrity strategies to reduce
improper payments, including the prevention and detection of fraud, in the UI program. The Center will:

       Collaborate with Treasury’s DNP unit to develop data analytics and predictive modeling methodologies and
        tools to improve UI fraud prevention and detection.

       Develop a secure portal to routinely communicate fraud schemes among states.

       Identify and pilot new strategies to combat improper payments and fraud, building on the work of states,
        other Federal and state government agencies, and the private sector.

       Identify and disseminate promising practices for state fraud prevention across the UI program.

       Identify state training needs on fraud solutions and integrity strategies, develop a comprehensive training
        plan, and provide training.

As part of its work, the Center is working with the DNP Solution’s Data Analytics Services as both work to develop
data analytics and predictive modeling methodologies and tools. The Center will be sharing these tools with all
states across the UI system.

DNP for Benefit Programs
DOL performs weekly pre-award and pre-payment checks against the full version of the List of Excluded Individuals
and Entities (LEIE), a database designed specifically for Federal health programs. While the public version of LEIE is
included as part of the DNP database, the full version contains more detailed information, including Tax
Identification Numbers and Provider Numbers that are not in the public version. Based on post-payment validations
with DNP showing no instances of improper payments, DOL has found this pre-award and pre-payment review to
be highly effective.

DNP for the Black Lung Program
The Black Lung Program is currently using the DNP Portal to perform single online searches of the Social Security
Administration’s (SSA) Death Master File to identify potential improper payments. Since August 16, 2013, the Black
Lung Program has been successfully submitting current payment files to the Portal. The Black Lung Program will be
utilizing the Portal for continuous monitoring of payments against the Death Master File upon completion of
remaining technical issues.

DNP for ETA Grants Programs
ETA was selected as the pilot grantor agency to implement the Do Not Pay initiative for DOL, as its grant programs
are representative of the various other DOL grants. Furthermore, ETA awards more grant dollars and has more
active grant programs than all other DOL grantor agencies combined.


                                                                                  FY 2013 Agency Financial Report 181
Other Information
(Unaudited)

Grants awarded by ETA come in two forms, non-competitive and competitive. Generally, most non-competitive
grants are directed by law and regulation in the form of formula funding. Competitive grants are awarded by ETA
according to criteria established by law and regulation. In 2013, the pre-award vetting process was updated for
both types of grant awards (competitive and formula). This process includes using the public version of GSA’s
System for Award Management (SAM) which is accessible via the Portal along with other internal vetting
procedures.

Once grants (both competitive and non-competitive) are awarded, the recipients are accountable for monitoring
the use of grant funds. The recipients are responsible for: pre-award reviews of awards to contractors and sub-
recipients; pre-payment reviews of payments to recipient employees, program participants, sub-recipients and
contractors; and post-payment reviews of all payees.

DNP for Contracts

DOL contract officers check 100% of contracts against the General Services Administration (GSA)’s System for
Award Management (SAM) prior to award. The SAM public list is the primary component of DNP and includes all
data sources with the exception of the Death Master File.


DNP Post Payment Reviews
Since May 2013, as part of Treasury’s post payment review process known as the “DNP Solution”, the Department
participates in monthly post-payment reviews for all contract and benefit payments. These payments are matched
against DNP databases and results are adjudicated by the Department.




182   United States Department of Labor
                                                                                                     SCHEDULE OF SPENDING
                                                                             For the Years Ended September 30, 2013 and 2012
                                                                                                                 (Unaudited)

The Schedule of Spending presents an overview of how and where the Department is spending its money. It is
presented on a budgetary basis, the same as the Combined Statement of Budgetary Resources (SBR). Amounts
shown below as “Total amounts agreed to be spent” equal amounts shown as “Obligations incurred” on the SBR.
FY 2012 amounts were changed to conform with revised OMB Circular No. A-136 presentation requirements.

To improve public transparency and the quality of data reported on USASpending.gov, DOL has begun reconciliation
efforts between obligations reported on the financial statements and spending reported on USASpending.gov.
Obligations included on the financial statements that are not included on USASpending.gov generally include:
financial assistance direct payments, personnel compensation and benefits, leases, interagency agreements, travel,
and training. Differences may also exist due to timing differences between obligations reported in DOL's financial
reporting system and data transmitted to USASpending.gov through the Federal Procurement Data System.
                                              Schedule of Spending
(Dollars in millions)                                                                        2013             2012
Section I - What money is available to spend?
This section presents resources that were available to spend by the Department.
Total resources                                                                          $    122,766     $   160,676
Less amount available but not agreed to be spent                                                (3,125)         (1,821)
Less amount not available to be spent                                                           (1,530)         (2,571)
Total amounts agreed to be spent                                                         $    118,111     $   156,284

Section II - How was the money spent/issued?
This section presents services or items purchased and grouped for the Department’s
   major programs based on obligations incurred.
Income maintenance
   Financial assistance direct payments                                                  $     71,168     $    91,161
   Net internal transfers between DOL funds                                                    31,186          45,187
   Personnel compensation and benefits                                                            292             301
   Contractual services and supplies                                                              335             790
   Grants, subsidies, and contributions                                                         4,298           4,747
   Interest                                                                                       920             926
   Other                                                                                          448           2,899
Employment and training
   Personnel compensation and benefits                                                            151             148
   Contractual services and supplies                                                            1,577           1,618
   Grants, subsidies, and contributions                                                         4,665           5,350
   Other                                                                                          273             299
Labor, employment and pension standards; worker safety and health;
  statistics; other
   Personnel compensation and benefits                                                          1,473           1,462
   Contractual services and supplies                                                              989           1,053
   Grants, subsidies, and contributions                                                           303             298
   Other                                                                                           33              45
Total amounts agreed to be spent                                                         $    118,111     $   156,284

Section III - Who did the money go to?
This section identifies with whom the Department is spending money based on obligations incurred.
Individuals                                                                              $     71,222     $    93,358
Net internal transfers between DOL funds                                                       31,186          45,187
State and local governments                                                                     7,270           7,926
Other federal agencies                                                                          1,744           2,763
Vendors and other                                                                               2,877           2,796
Employees                                                                                       1,771           1,874
Higher education                                                                                1,270           1,388
Not-for-profit organizations                                                                      771             992
Total amounts agreed to be spent                                                         $    118,111     $   156,284




                                                                                         FY 2013 Agency Financial Report 183
                                          Open Government Links
Department of Labor
  RSS Feeds http://www.dol.gov/rss/
  DOL Blog http://social.dol.gov/blog/
  Follow on Twitter http://twitter.com/#!/usdol
  Follow on Facebook http://www.facebook.com/departmentoflabor
  YouTube http://www.youtube.com/usdepartmentoflabor
  Flickr http://www.flickr.com/photos/usdol
Newsroom http://www.dol.gov/dol/media/

Thomas E. Perez - Secretary of Labor
The Secretary's Page http://www.dol.gov/_sec/welcome.htm
Speeches, Testimony, and More - http://www.dol.gov/_sec/media/
Photos http://www.dol.gov/dol/media/photos/
Videos http://www.dol.gov/dol/media/webcast/
Read the DOL Newsletter http://www.dol.gov/_sec/newsletter/
Follow the Secretary on Twitter https://twitter.com/LaborSec

Subscribe to E-mail Updates - https://service.govdelivery.com/service/multi_subscribe.html?code=USDOL

Featured Initiatives



Green Jobs http://www.dol.gov/dol/green/
Open Gov http://www.dol.gov/open/
Career One Stop http://careeronestop.org/

Department of Labor Agency Pages
Bureau of International Labor Affairs http://www.dol.gov/ILAB/
Bureau of Labor Statistics http://www.bls.gov/
Employee Benefits Security Administration http://www.dol.gov/ebsa/
Employment and Training Administration http://www.doleta.gov
Mine Safety and Health Administration http://www.msha.gov
Occupational Safety and Health Administration http://www.osha.gov/index.html
Office of Disability Employment Policy http://www.dol.gov/odep/
Office of Federal Contract Compliance Programs http://www.dol.gov/ofccp/
Office of Labor-Management Standards http://www.dol.gov/olms/
Office of Workers' Compensation Programs http://www.dol.gov/owcp/
Veterans' Employment and Training Service http://www.dol.gov/vets/
Wage and Hour Division http://www.dol.gov/whd/
Women's Bureau http://www.dol.gov/wb/

DOL Regulations and Enforcement
DOL Regulations Search
http://www.regulations.gov/#!searchResults;rpp=25;po=0;s=Department%252Bof%252BLabor
DOL Enforcement Data
http://ogesdw.dol.gov/


184   United States Department of Labor
                                                                Acronyms
ACSI      American Customer Satisfaction Index        FUA      Federal Unemployment Account                    REA       Re-employment and Eligibility Assessment
AFR       Agency Financial Report                     FUTA     Federal Unemployment Tax Act                    RECA      Radiation Exposure Compensation Act
AMS       Acquisition Management System               FY       Fiscal Year                                     RSI       Required Supplementary Information
ARRA      American Reinvestment and Recovery Act      GAAP     Generally Accepted Accounting Principles        RSSI      Required Supplementary Stewardship
                                                                                                                         Information
BAM       Benefit Accuracy Measurement                GAO      U.S. Government Accountability Office
                                                                                                               RTW       Return To Work
BLDTF     Black Lung Disability Trust Fund            GEMS     Grants e‐Management System
                                                                                                               SAA       Single Audit Act
BLS       Bureau of Labor Statistics                  GSA      General Services Administration
                                                                                                               SAM       System for Award Management
BPC       Benefit Payment Control                     HVRP     Homeless Veterans’ Reintegration Program
                                                                                                               SAVE      Systematic Alien Verification for
BYE       Benefit Year Earnings                       ILAB     Bureau of International Labor Affairs                     Entitlement
CAO       Chief Acquisition Officer                   IPERA    Improper Payments Elimination and               SBR       Statement of Budgetary Resources
                                                               Recovery Act                                    SCSEP     Senior Community Service Employment
CFDA      Catalog of Federal Domestic Assistance
                                                      IPERIA   Improper Payments Elimination and                         Program
CFO       Chief Financial Officer                              Recovery Improvement Act                        SCSIA     Statement of Changes in Social Insurance
COLA      Cost of Living Allowance/Adjustment         IPIA     Improper Payments Information Act                         Amounts
                                                      IS       Internal Security                               SDDS      State Dumping Detection System
CPIM      Consumer Price Index‐Medical
                                                      IT       Information Technology                          SFFAS     Statement of Federal Financial Accounting
CPI-U     Consumer Price Index-Urban
                                                                                                                         Standards
CSEOA     Community Service Employment for Older      JVA      Jobs for Veterans Act                           SIDES     State Information Data Exchange System
          Americans                                   JVSG     Jobs for Veterans State Grants                  SIP       Sample Investigation Program
CSRS      Civil Service Retirement System
                                                      LEIE     List of Excluded Individuals and Entities       SOSI      Statement of Social Insurance
CY        Current Year
                                                      LMRDA    Labor-Management Reporting and                  SQSP      State Quality Service Plan
DNP       Do Not Pay                                           Disclosure Act
                                                      LPD      Lost Production Day                             SSA       Social Security Administration
DOE       Department of Energy
                                                      LVER     Local Veterans’ Employment                      SST       Site Specific Targeting
DOL       U.S. Department of Labor
                                                               Representative                                  SUIESO    State Unemployment Insurance and
DPRR      Division of Policy Review and Resolution    MEWA     Multiple Employer Welfare Arrangements                    Employment Service Operations
DVOP      Disabled Veterans’ Outreach Program         MSHA     Mine Safety and Health Administration           SUTA      State Unemployment Tax Act
EB        Extended Benefits                           NASWA    National Association of State Workforce         SWA       State Workforce Agencies
EBSA      Employee Benefits Security Administration            Agencies                                        TAA       Trade Adjustment Assistance
                                                      NCFMS    New Core Financial Management System
EBSS      Enterprise Business Support System                                                                   TAACCCT   Trade Adjustment Assistance Community
                                                      NDNH     National Directory of New Hires                           College and Career Training
EEOICPA   Energy Employees Occupational Illness
          Compensation Program Act                    NIOSH    National Institute for Occupational Safety      TAP       Transition Assistance Program
ERISA     Employee Retirement Income Security Act              and Health                                      TOP       Treasury Offset Program
                                                      OASP     Office of the Assistant Secretary for Policy
ES        Employment Service                                                                                   TSP       Thrift Savings Plan
                                                      OCFO     Office of the Chief Financial Officer
ESAA      Employment Security Administration                                                                   UC        Unemployment Compensation
          Account                                     OCIO     Office of the Chief Information Officer
                                                                                                               UCFE      Unemployment Compensation for Federal
ETA       Employment and Training Administration      ODEP     Office of Disability Employment Policy                    Employees
EUC       Emergency Unemployment Compensation         OFCCP    Office of Federal Contract Compliance           UCX       Unemployment Compensation for
EUCA      Extended Unemployment Compensation                   Programs                                                  Ex‐Service Members
          Account                                     OIG      Office of Inspector General                     UI        Unemployment Insurance
FAC       Federal Additional Compensation             OJC      Office of Job Corps                             UIPL      UI Program Letter
FAUC      Federal Additional Unemployment             OLMS     Office of Labor-Management Standards            USC       United States Code
          Compensation
                                                      OMB      Office of Management and Budget                 USERRA    Uniformed Services Employment and
FASAB     Federal Accounting Standards Advisory
                                                                                                                         Reemployment Rights Act
          Board                                       OPM      Office of Personnel Management                  USPS      United States Postal Service
FCI       Facilities Condition Index
                                                      ORB      Other Retirement Benefits                       UTF       Unemployment Trust Fund
FEC       Federal Employees Compensation
                                                      OSHA     Occupational Safety and Health                  VETS      Veterans’ Employment and Training
FECA      Federal Employees’ Compensation Act                  Administration                                            Service
FEHBP     Federal Employees Health Benefit Program    OUI      Office of Unemployment Insurance                VWIP      Veterans’ Workforce Investment Program
FEGLIP    Federal Employee Group Life Insurance       OWCP     Office of Workers’ Compensation Programs        WB        Women’s Bureau
          Program                                     PBGC     Pension Benefit Guaranty Corporation            WCF       Working Capital Fund
FERS      Federal Employee Retirement System
                                                      PDO      Proposed Decision and Order                     WHD       Wage and Hour Division
FFMIA     Federal Financial Management
                                                      PFEI     Principal Federal Economic Indicator            WIA       Workforce Investment Act
          Improvement Act
FICA      Federal Insurance Contribution Act          PIV      Personal Identification Verification
FLC       Foreign Labor Certification                 PPACA    Patient Protection and Affordable Care Act
FLSA      Fair Labor Standards Act                    PP&E     Property Plant & Equipment
FMFIA     Federal Managers’ Financial Integrity Act   PY       Prior Year
FPO       Federal Project Officer                     RAE      Revised Annuity Employee




                                                                                                              FY 2013 Agency Financial Report 185
AGENCY FINANCIAL REPORT
U.S. DEPARTMENT OF LABOR
Fiscal Year 2013




                           www.dol.gov
